<html>
<title> - FINANCIAL AND ECONOMIC CHALLENGES IN PUERTO RICO</title>
<body><pre>[Senate Hearing 114-307]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-307

                   FINANCIAL AND ECONOMIC CHALLENGES 
                             IN PUERTO RICO

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2015

                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     
                                     

            Printed for the use of the Committee on Finance
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-867-PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    CHARLES E. SCHUMER, New York
PAT ROBERTS, Kansas                  DEBBIE STABENOW, Michigan
MICHAEL B. ENZI, Wyoming             MARIA CANTWELL, Washington
JOHN CORNYN, Texas                   BILL NELSON, Florida
JOHN THUNE, South Dakota             ROBERT MENENDEZ, New Jersey
RICHARD BURR, North Carolina         THOMAS R. CARPER, Delaware
JOHNNY ISAKSON, Georgia              BENJAMIN L. CARDIN, Maryland
ROB PORTMAN, Ohio                    SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      MICHAEL F. BENNET, Colorado
DANIEL COATS, Indiana                ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina

                     Chris Campbell, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)






















                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     4
Grassley, Hon. Chuck, a U.S. Senator from Iowa...................    17

                               WITNESSES

Pierluisi, Hon. Pedro R., Resident Commissioner of Puerto Rico, 
  U.S. House of Representatives, Washington, DC..................     7
Acosta, Melba, president, Government Development Bank for Puerto 
  Rico, San Juan, PR.............................................     8
Holtz-Eakin, Douglas, Ph.D., president, American Action Forum, 
  Washington, DC.................................................    10
Marxuach, Sergio M., policy director, Center for a New Economy, 
  Old San Juan, PR...............................................    11

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Acosta, Melba:
    Testimony....................................................     8
    Prepared statement...........................................    37
Grassley, Hon. Chuck:
    Opening statement............................................    17
Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    43
Holtz-Eakin, Douglas, Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    45
    Responses to questions from committee members................    54
Marxuach, Sergio M.:
    Testimony....................................................    11
    Prepared statement...........................................    54
    Responses to questions from committee members................    58
Pierluisi, Hon. Pedro R.:
    Testimony....................................................     7
    Prepared statement...........................................    62
    Responses to questions from committee members................    70
Warner, Hon. Mark R.:
    Prepared statement...........................................    82
Wyden, Hon. Ron:
    Opening statement............................................     4
    Prepared statement...........................................    82

                             Communications

Alomar, Rafael Cox...............................................    85
Freytes, Dennis O................................................    90
Fundacion Francisco Carvajal.....................................    98
Hispanic Federation..............................................    99
Ortiz-Daliot, Jose A.............................................   103
Puerto Rico College of Physicians and Surgeons...................   104
Puerto Rico Healthcare Community Leaders.........................   123
Puerto Rico Hospital Association.................................   133
Puerto Rico Manufacturers Association............................   136
Ramirez, Miriam J., M.D..........................................   138
Rivera, Jorge A..................................................   139
 
                   FINANCIAL AND ECONOMIC CHALLENGES 
                             IN PUERTO RICO

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 2015

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:11 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Grassley, Crapo, Thune, Toomey, Wyden, 
Schumer, Stabenow, Nelson, Menendez, Bennet, Casey, and Warner.
    Also present: Republican Staff: Chris Campbell, Staff 
Director; Tony Coughlan, Tax Counsel; Preston Rutledge, Tax 
Counsel; and Jeff Wrase, Chief Economist. Democratic Staff: 
Michael Evans, General Counsel; Elizabeth Jurinka, Chief Health 
Policy Advisor; Todd Metcalf, Chief Tax Counsel; Joshua 
Sheinkman, Staff Director; and Tiffany Smith, Senior Tax 
Counsel.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order.
    Good morning, and welcome to today's hearing to consider 
the various financial and economic challenges in Puerto Rico. 
We have all watched with great interest as the debt situation 
in Puerto Rico has unfolded.
    Whenever we talk about this issue, there are a number of 
interested parties, including policymakers here in Washington, 
bondholders, and of course the people of Puerto Rico.
    According to the statements from the Puerto Rican 
government, the territory's debt of more than $72 billion is, 
quote, ``not payable.'' Some of that debt includes General 
Obligation bonds which have a constitutional first priority, 
and some includes debt of public corporations. In all, we are 
talking about roughly 17 different debt-issuing entities in 
Puerto Rico.
    Puerto Rico's debt has more than doubled since 2000, 
despite the billions of dollars infused into its coffers from 
the Federal stimulus enacted in 2009 and from health care 
funding increases included in the Affordable Care Act. Even 
with those boosts in Federal funding and the related increases 
in Commonwealth spending, all we see is added Commonwealth 
debt. Moreover, there is a lack of reliable data indicating 
what Puerto Rico has to show in return in terms of 
infrastructure, efficiencies, and improved economic 
performance.
    One reason we are having this hearing today is to give us a 
chance to gather additional information. As Senator Grassley, a 
former chairman of the Finance Committee, can attest, this 
panel has done a great deal over the years to clarify the 
interplay between issues like Federal tax and health care 
policy and the impact they have on Puerto Rico and other 
territories.
    I know that Ranking Member Wyden is committed to working 
with me to update and improve our understanding of this 
situation so that Congress can make decisions using the best 
available information. I think it would be extremely difficult 
to ask Congress to make important decisions and appropriately 
allocate resources without first understanding what the facts 
are and what problems need to be fixed.
    Accompanying today's hearing, we have made available an 
updated overview of Federal tax policy and its interplay with 
Puerto Rico. This document was produced by our friends at the 
Joint Committee on Taxation.*
---------------------------------------------------------------------------
    * For more information, see also, ``Federal Tax Law and Issues 
Related to the Commonwealth of Puerto Rico,'' Joint Committee on 
Taxation staff report, September 28, 2015 (JCX-132-15), https://
www.jct.gov/publications.html?func=startdown&id=4840.
---------------------------------------------------------------------------
    We also have several other reports addressing Federal 
health care policies in Puerto Rico, provided by the 
Congressional Research Service. And I have made public the 
responses that I received from inquiries I made to the 
Department of Health and Human Services on this issue.
    In the days leading up to this hearing, I have heard from 
many interested parties, virtually all of whom have their own 
ideas about what needs to be done here. Some of these proposals 
have been helpful, others not so much.
    For example, I have heard that we can expect to see 
increased strains on Puerto Rico's health care system, 
especially given the demographic and economic realities on the 
island. One source of this stress seems to stem from the 
Affordable Care Act, which contains future cliffs where funding 
will be pared down and, according to some, the cliffs will hit 
Puerto Rico particularly hard. Of course, for me it is not 
surprising to learn that there are inequities and financial 
harms resulting from the health care law.
    Even so, these problems and any proposed solutions are 
multidimensional and extremely complicated. Questions of 
funding and resource allocation are always difficult, and they 
implicate a number of issues.
    It is not as simple as just deciding to give more health 
funds to Puerto Rico, because doing so would necessarily mean 
reduced funding for other priorities, increased taxes, or even 
more Federal debt. That is the unpleasant budget arithmetic 
that we face. There are no easy answers.
    For a long time, the people of Puerto Rico have suffered 
under a weak economy, including double-digit unemployment 
rates, very low labor force participation rates, and a bloated 
public sector. With many residents of the island facing a lack 
of opportunity or any expectations of a brighter future, Puerto 
Rico has increasingly seen out-migration. All of this 
contributes to the fiscal challenges the territory now faces.
    According to independent analysts, there are significant 
barriers to job creation and labor force participation in 
Puerto Rico. Some of these barriers stem from Federal 
entitlement programs. Others can be attributed to the 
application of other Federal laws and regulations. In other 
words, I do not think we can just lay all the blame on Puerto 
Rico.
    For example, analysts across the political spectrum agree 
that Federal laws have increased the cost of energy in Puerto 
Rico and that the island's regulatory processes and 
bureaucratic red tape stifle business activity. And sadly, for 
the children in Puerto Rico, its education system, to quote 
Secretary of Education Duncan, ``has been plagued by a 
revolving door of leaders and political patronage.''
    In short, and to put it mildly, Puerto Rico faces enormous 
fiscal and economic challenges. While the government of Puerto 
Rico has taken some steps in recent years to address these 
matters, many more changes, significant and fundamental 
changes, need to be made.
    Fortunately, Puerto Rico has a number of advantages to its 
credit, and we have seen successful turnarounds from over-
indebtedness elsewhere, such as here in the District of 
Columbia and in New York City. I hope to see Puerto Rico join 
the list of successful turnaround experiences, and I know that 
everyone here wants the people of Puerto Rico to experience a 
future with increased economic opportunity and growth.
    Before I conclude, I just want to make sure that we 
acknowledge the negative long-term impact Puerto Rico's 
unsustainable debt has had, and will continue to have, on the 
island's residents and what lessons we should take from their 
experience. As the Congressional Budget Office has repeatedly 
warned over the past several years, despite some recent 
declines, our Federal deficits under current law will soon rise 
again, and Federal debt will grow, as it has in Puerto Rico, to 
beyond 100 percent of the size of our economy.
    According to CBO, if we do not change course, we will 
increasingly have less fiscal flexibility, and we will run the 
risk of a fiscal crisis at the Federal level. Absent some kind 
of fundamental correction, it is not hard to imagine the 
devastating effects from unsustainable debt that are now being 
felt by Americans living and trying to work in Puerto Rico also 
being felt throughout the entire country.
    Now I will close by noting that this is the Finance 
Committee, with broad areas of jurisdiction, including Federal 
tax policy and health care policy. There are, of course, many 
other aspects of Federal policy that are also relevant to 
Puerto Rico's situation but fall into other committees' areas 
of jurisdiction, including Federal labor policies, Federal laws 
governing shipping vessels, bankruptcy law, and others. 
However, I ask that our witnesses keep their focus on areas of 
the Finance Committee jurisdiction. This is not, for example, a 
hearing on chapter 9 of the Bankruptcy Code, or a hearing on 
Puerto Rico's status as a territory.
    And let me just say that I am concerned about Puerto Rico 
very much. I do not think this country has done its job either 
in helping Puerto Rico in doing some of the things that should 
be done. Then again, Puerto Rico has brought a lot of these 
calamities on itself. But I think there is blame enough to push 
around on a lot of people.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]
    The Chairman. And with that, I wish to welcome all of our 
witnesses, and I will now recognize our ranking member, Senator 
Wyden, for his opening statement.

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing.
    There are more than 3 million United States citizens living 
in the Commonwealth of Puerto Rico, where long-standing 
economic challenges have developed into a real and very 
immediate crisis. No single policy or harsh austerity platform 
is going to save the day. The solutions in Puerto Rico must be 
focused first and foremost on helping its millions of American 
citizens get ahead in the private economy and putting that 
system on solid ground.
    In order to accomplish that task, policymakers in 
Washington and San Juan need to take a hard look at the origins 
of the crisis. To move forward, you need an understanding of 
what is holding you back.
    The core of Puerto Rico's challenge is simply that the 
Commonwealth, its public corporations, and other entities 
issued more debt than they are now able to pay back. Without a 
process for restructuring that debt, the problem does not go 
away on its own. But just solving the immediate crisis is not a 
long-term solution. You have to find ways to modernize and grow 
the economy, or you find yourself right back here again.
    For example, the Commonwealth's electric utility, which is 
responsible for the largest share of Puerto Rico's debt, still 
burns diesel fuel to generate power. By converting archaic 
generators to use lower-cost, cleaner-burning natural gas, the 
utility could make more money on the power itself. But that 
type of conversion requires up-front investment, and Puerto 
Rico cannot attract that investment without addressing the 
immediate financial crisis.
    Many engaged in this debate blame Puerto Rico's economic 
struggles on the ending of an old tax policy that gave 
corporations tax-free income in the Commonwealth. But in my 
view, the history is a lot more complicated than that, 
especially when it comes to taxes.
    Companies based in Puerto Rico are foreign in the eyes of 
the IRS, the same as if their headquarters were in Mexico, 
China, or the U.K. But there is a major benefit that no other 
foreign companies get, which is access to American incentives 
for investments in research and development and manufacturing. 
There are a lot of people who view Puerto Rico as a tax haven 
tucked within the United States, and that is one reason why.
    There are also other special breaks that are unavailable in 
the mainland. For example, there is a longstanding policy known 
in the tax world as the rum cover-over, which for decades 
provided a big economic boost to Puerto Rico. But in recent 
years, instead of being invested in roads or schools or health 
care, the proceeds from the rum cover-over have mostly gone 
straight to the large distillers.
    And the Commonwealth's own tax policy has been less than 
helpful as well. By some estimates, Puerto Rico collects less 
than half of its sales tax. It recently put in place a program 
to attract certain Americans and their firms by zeroing out 
local taxes on capital gains, with no requirement that there be 
a contribution to the economy. Under a local tax break known as 
Act 20, service providers who move to the Commonwealth have 
their corporate tax rate drop from 30 percent to 4 percent.
    These strategies may appeal to some companies and attract 
some wealth, but there is not a lot of evidence to suggest that 
they are steering Puerto Rico's economy towards sustainable 
prosperity. Scaling back or eliminating overly generous or 
ineffective tax breaks ought to be on the table as part of any 
long-term financial recovery plan.
    Now in this debate, some have argued that Puerto Rico's 
safety net programs are too generous and need to be rolled 
back. For example, there is a belief among some that Puerto 
Rico needs a lower minimum wage. But changing the law to cut 
people's pay makes hardly any sense when American citizens in 
Puerto Rico already make less than half as much, on average, as 
those in the mainland United States. In addition, lowered wages 
and putting new tatters in the safety net are going to drive 
more young workers to the mainland, and you want those young 
workers as an important and vital engine of future economic 
growth.
    The Medicaid program in Puerto Rico is less generous than 
in the mainland U.S., and its capped funding system means that 
it continues to face harsh spending limits that undermine the 
ability to meet the health care needs of the lowest-income 
American citizens. In addition, Puerto Rico is locked out of 
one of the most successful pieces of the Medicare Prescription 
Drug Program, which is the Part D low-income subsidy. The 
people this hurts are already dealing with very limited means 
on a daily basis.
    A better funding system for Medicaid and improvements to 
Medicare also ought to be on the table. Puerto Rico could adopt 
an Earned Income Tax Credit to help raise incomes and encourage 
employment. The Child Tax Credit could be a bigger help to more 
families, and the Commonwealth could change its own tax 
policies to make sure it is able to invest in education and 
infrastructure in the years ahead.
    It is important to move ahead with policies that amount to 
more than what might be the policy equivalent of a momentary 
sugar high. The bottom line is that the solutions have to help 
Puerto Rico and its millions of American citizens build a 
stronger economic future, or else this debt cycle will continue 
and continue and continue.
    Mr. Chairman, I want to also thank our witnesses. I am 
going to have to be a little bit in and out this morning. I 
hope to be able to hear our witnesses.
    But I thank you, and my hope is that, here on the Finance 
Committee, we can come up with a practical, bipartisan set of 
policies to address these issues.
    Thank you.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. Well, we are going to count on your help, 
Senator, and help from both sides to try to resolve this 
problem. It is in the best interests of Puerto Rico and our 
country.
    I would like to take a few minutes to introduce our 
distinguished panel of witnesses. Our first witness is 
Congressman Pedro Pierluisi. The Resident Commissioner of 
Puerto Rico since January 2009, Congressman Pierluisi has 
served as Puerto Rico's sole member of Congress. He currently 
sits on the House Judiciary and Natural Resources Committees 
and, in the past, served on both the House Ethics and Education 
and the Workforce Committees.
    Congressman Pierluisi was born in San Juan and has 24 years 
of legal experience in the private and public sectors, 
including 4 years as the Attorney General of Puerto Rico. He is 
a graduate of both Tulane University and George Washington 
University Law School.
    Our second witness is Ms. Melba Acosta, President of the 
Government Development Bank for Puerto Rico. Ms. Acosta has 
previously served as the Secretary of the Treasury Department, 
Chief Public Financial Officer, Director of the OMB, and Chief 
Information Officer of Puerto Rico, as well as the Chief of 
Staff of the Municipality of San Juan.
    She is a certified public accountant as well as an 
attorney. Ms. Acosta earned a bachelor's degree in accounting 
from the University of Puerto Rico, an MBA from the Harvard 
Business School, and a J.D. from the University of Puerto Rico 
School of Law.
    Our third witness is Dr. Douglas Holtz-Eakin. We are always 
happy to welcome him back to the committee. He is president of 
the American Action Forum. Dr. Holtz-Eakin's long resume 
includes his recent service as Commissioner of the 
congressionally chartered Financial Inquiry Commission, 
Director of the nonpartisan Congressional Budget Office, and 
Chief Economist of the President's Council of Economic 
Advisers.
    He first began his career at Columbia University and later 
worked at Syracuse University, where he became the trustee 
professor of economics at the Maxwell School, chairman of the 
Department of Economics, and associate director of the Center 
for Policy Research. Dr. Holtz-Eakin currently serves on the 
boards of the Tax Foundation, National Economists Club, and the 
Research Advisory Board for the Center for Economic 
Development.
    Last but certainly not least, we will hear from Mr. Sergio 
M. Marxuach. He is public policy director at the Center for a 
New Economy. Prior to his current post, Mr. Marxuach served as 
Deputy Secretary of Commerce and Economic Development for 
Puerto Rico. Before that, he was an associate at the New York 
law firm of Curtis, Mallet-Prevost, Colt, and Mosle, where he 
worked in Latin American and international corporate 
transactions.
    Mr. Marxuach has a bachelor's degree in economics and 
political science from Yale University, as well as a J.D. and 
master's degree in foreign service from Georgetown University.
    I really want to thank each of you for your participation 
and your diligent work and service, as well as your comments 
here today. I ask that each of you keep your initial remarks to 
5 minutes. And we will start with you, Congressman Pierluisi, 
and go from there. Is that all right?
    Mr. Pierluisi. Yes, thank you.

STATEMENT OF HON. PEDRO R. PIERLUISI, RESIDENT COMMISSIONER OF 
   PUERTO RICO, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC

    Mr. Pierluisi. Chairman Hatch, Ranking Member Wyden, and 
members of the committee, the crisis in Puerto Rico is not new. 
The 3.5 million U.S. citizens I represent have endured it for 
many years. Based on any metric, Puerto Rico's economy has 
lagged behind the States' for decades. The Puerto Rico 
government spends more than it receives, leading to deficits 
and debt.
    My constituents are becoming your constituents in 
unprecedented numbers. Between 2004 and 2014, Puerto Rico's 
population declined by over 7 percent. The exodus is changing 
the character of Puerto Rico and the composition of the 
American electorate. To tackle the crisis, we must act with 
boldness and vision. If we are faint-hearted, we will fail.
    The core economic problem is lack of growth. So Puerto Rico 
must implement a strategy to increase capital investment. 
Government reform is essential. Puerto Rico has an inefficient 
central government whose competence and credibility are 
questioned by prospective investors. The government has 
stifled, rather than unleashed, the private sector's potential.
    Fiscal reform is also required. The Puerto Rico government 
must live within its means and cut spending. It must modernize 
its tax system, which requires some companies to pay 39 percent 
and others to pay under 5 percent. Recently the government 
increased taxes to support its excess spending. These taxes 
must be repealed or refashioned.
    Once Puerto Rico has an equitable tax policy, the 
government must collect what it imposes, something it now does 
poorly. Furthermore, the Puerto Rico government must ensure 
access to affordable electricity, a modern transportation 
system, and other basic infrastructure. Many of these services 
are provided by public corporations that are in financial 
distress, carry significant debt, and require reform.
    The Governor of Puerto Rico has asserted that if Puerto 
Rico continues on its present course, its $71 billion debt is 
unpayable. But this course can and must change. With sound 
economic and fiscal policies, the debt will become easier to 
manage. Puerto Rico's Constitution provides that debt service 
on bonds issued or guaranteed by the central government take 
priority over other expenditures. These bonds must be paid, 
period.
    There are 18 government entities in Puerto Rico that issue 
bonds. Each is in a different financial condition and has 
different legal terms governing its bonds. Contrary to the 
Governor's strategy, each should be considered on a case-by-
case basis.
    Finally, the Governor has portrayed the debate about 
whether Puerto Rico will meet its obligations to creditors as 
``us versus them.'' The countless men and women from Puerto 
Rico who own our bonds know better.
    Like the people of Puerto Rico, Congress is right to expect 
more from the government of Puerto Rico, but it would be the 
height of hypocrisy for this committee to criticize Puerto Rico 
without acknowledging the Federal Government's shared 
responsibility for this crisis. The crisis is rooted in Puerto 
Rico's undemocratic and undignified territory status.
    Congress treats Puerto Rico in discriminatory fashion, 
under numerous programs within this committee's jurisdiction. 
My Senate allies and I have filed bills to address these 
disparities, and the committee should act on them. Otherwise, 
spare us the lectures about Puerto Rico's own failings.
    This is not just a Puerto Rico problem; it is an American 
problem requiring an American solution. If you treat us like 
second-class citizens, do not expect us to have a first-class 
economy. If you treat us in appalling fashion under Medicaid 
and Medicare, do not claim surprise that our health care system 
is in dire condition. If you exclude us from tax credits that 
encourage individuals to work, do not add insult to injury by 
attributing our low labor participation rate to generous 
welfare benefits or urging our exemption from the minimum wage. 
If you do not extend the SSI program to Puerto Rico and you 
treat us unequally under TANF, do not express disbelief that 
one in four Puerto Rico residents lives in extreme poverty.
    I look forward to the day when my constituents have the 
exact same rights and responsibilities as your constituents. 
For Puerto Rico to prosper, it must be treated equally, and to 
be treated equally, it must become a State. Until then, there 
is much this committee can do to empower Puerto Rico. I urge 
you to act.
    Thank you.
    The Chairman. Thank you so much.
    [The prepared statement of Mr. Pierluisi appears in the 
appendix.]
    The Chairman. Ms. Acosta, thank you.

 STATEMENT OF MELBA ACOSTA, PRESIDENT, GOVERNMENT DEVELOPMENT 
               BANK FOR PUERTO RICO, SAN JUAN, PR

    Ms. Acosta. Thank you, Mr. Chairman, Ranking Member Wyden, 
and members of the committee.
    The fiscal, economic, and liquidity crisis in Puerto Rico 
has passed the tipping point. The legislature has declared an 
emergency. Puerto Rico has no access to the capital markets on 
sustainable terms, and it endures a crisis beyond what any 
jurisdiction in the United States has faced in generations.
    The crisis threatens the health, safety, and welfare of the 
3.5 million American citizens in Puerto Rico. It did not 
develop overnight, but is the culmination of decades of ill-
advised policies both in San Juan and Washington, coupled with 
a stagnating economy, seemingly unlimited access to easy 
credit, and a market willing to lend.
    Puerto Rico's economy was disproportionately impacted by 
the financial crisis, and growth continues to pose a 
significant challenge. In fact, unemployment remained above 15 
percent for many years following the financial crisis, and is 
currently at 11 percent. With today's labor participation rate 
at only 40 percent, Puerto Rico's unprecedented economic 
difficulties have contributed to rising budget deficits and 
deficit financing.
    Today, Puerto Rico has amassed $73 billion in debt and over 
$45 billion in unfunded pension liabilities. Governor Garcia-
Padilla took office in 2013 and has been honest and forthcoming 
about this crisis. He has forcefully responded to these 
unprecedented challenges.
    Since taking office, he has reduced the budget deficit by 
raising revenues and cutting expenses; reduced general fund 
expenses by almost 20 percent; imposed labor reforms across the 
entire government, including freezing wages and salaries and 
reducing payroll; imposed unprecedented cost-control measures 
at the central government and public corporations; implemented 
comprehensive pension reform to address Puerto Rico's unfunded 
pension liabilities; pursued public-private partnerships to 
promote investment on the island; and approved and overseen 
ongoing debt restructuring negotiations at the Puerto Rico 
Electric Power Authority, just to name a few.
    Notwithstanding these difficult efforts, Puerto Rico faces 
an immediate liquidity crisis. Earlier this year, it became 
apparent that additional measures were needed, and Puerto Rico 
commissioned a team of economists led by Dr. Anne Krueger, 
former deputy managing director of the IMF, to undertake a 
comprehensive analysis of Puerto Rico's challenges. Dr. Krueger 
and her team identified a number of economic shocks that have 
contributed to economic stagnation, recommended measures to 
reverse negative economic trends, and highlighted the need for 
debt relief.
    In light of the report's findings, our Governor ordered the 
creation of a working group to develop a Plan for Economic 
Development and Fiscal Institutional Reform. The plan calls for 
significant and challenging reforms across nearly all aspects 
of the economy and government, including comprehensive private-
sector labor reform and dramatic cuts to expenditures and 
operating subsidies.
    It proposes legislation to create an independent control 
board appointed by the Governor, with jurisdiction over 
government entities in Puerto Rico to ensure compliance with 
the plan. In addition, it also calls on the Federal Government 
to act. This includes treating Puerto Rico equally in terms of 
Medicare and Medicaid funding and providing Puerto Rico with 
tax treatment that encourages investment and growth. And 
finally, the plan recognizes that widespread debt relief across 
the island is required, and proposes a voluntary exchange offer 
to give Puerto Rico much-needed debt relief.
    Achieving economic growth and avoiding a more chaotic 
situation in Puerto Rico will likely depend on obtaining access 
to a legal framework to address our liabilities in an orderly 
manner.
    In conclusion, I would like to reiterate that Puerto Rico 
has passed the tipping point and faces an immediate liquidity 
crisis. We have taken the important step of developing a clear 
roadmap to address these challenges.
    Reasonable minds may differ as to specific measures that 
must be taken. However, the fact remains that Puerto Rico faces 
immediate challenges that require Federal action. Most 
importantly, Puerto Rico needs equal Medicare and Medicaid 
funding and a legal framework through which it can adjust its 
debts and address its financial difficulties.
    I thank the committee for recognizing the urgency of the 
situation and for giving Puerto Rico the opportunity to 
participate in today's hearing.
    The Chairman. Well, thank you very much.
    [The prepared statement of Ms. Acosta appears in the 
appendix.]
    The Chairman. Dr. Holtz-Eakin?

 STATEMENT OF DOUGLAS HOLTZ-EAKIN, Ph.D., PRESIDENT, AMERICAN 
                  ACTION FORUM, WASHINGTON, DC

    Dr. Holtz-Eakin. Chairman Hatch, Ranking Member Wyden, 
members of the committee, thank you for the privilege of 
appearing today. You have my written statement; let me make a 
few brief main points.
    The first, as has been pointed out, is that Puerto Rico has 
a serious growth problem. Its GDP is expected to decline over 
the next 10 years. Its unemployment rate is expected to remain 
elevated in most forecasts. The population will continue to 
decline, and those population losses are concentrated in the 
skilled and prime-age working population. Their work 
participation is low, and overall employment is expected to be 
flat at best. And fundamentally, Puerto Rico is still operating 
on a 1960s-style, government-led economic strategy, and that 
needs to change.
    Coupled with this, Puerto Rico has a deep fiscal problem. 
It has run chronic deficits and is expected to continue to do 
so in the future. Its borrowing costs, as a fraction of 
revenue, have risen sharply and are now nearly double the 10 
percent that most people consider a point of alarm.
    It has a high level of debt relative to GDP, especially 
when one compares it to other States. But its debt-to-GDP ratio 
does not look high when compared to other sovereign debt crises 
in the countries that got into them. And that, I think, is 
instructive, because what it says is, we can look to the 
experience of the IMF and other international bodies in working 
out sovereign debt crises, and the experience particularly of 
Latin America and South America, for guidelines on how to be 
successful in Puerto Rico. And we know that the rough playbook 
for success in situations of poor economic growth and very high 
debt has some key components.
    Component number one is to keep taxes as low as possible 
and avoid sharp tax increases, which are detrimental to long-
term growth, and reform them, as the Congressman pointed out, 
where appropriate, to be more pro-growth. That is part of the 
playbook. And address the chronic deficits, largely on the 
spending side, if at all possible.
    But not all spending is created equal. You have to preserve 
core functions of government, the investments and the education 
that are central to long-term economic growth, and instead 
focus on transfer programs as the mechanism for reining in 
excess spending.
    It is also important to liberalize labor and product 
markets and to remove onerous regulations. I think there is a 
good case to be made for that in Puerto Rico. And while I am 
sympathetic to Ranking Member Wyden's concerns over the social 
safety net, the minimum wage does stand out as an economic 
impediment in Puerto Rico.
    The ratio of the minimum wage to the median wage--so, sort 
of how the minimum wage is relative to wages in the States and 
territories--Puerto Rico is at about 77 percent. In all the 
other States and territories, the next highest is 59 percent. 
That is South Dakota and Guam, tied.
    If you wanted to just get down to that 59 percent, you 
would have to have the minimum wage go from $7.25 to about 
$5.50. If you wanted to get Puerto Rico into the middle of the 
pack of all States and territories, the minimum wage would have 
to be $4.50. And so, as a matter of labor-market policy, I 
think it has to be something that people think about.
    And then lastly, you need to privatize where necessary. And 
the key from the perspective of the near-term outlook is, if 
one puts in place this kind of a credible program, access to 
capital markets can be restored, bridge financing can 
materialize, and you can pursue the rest of the reforms as you 
go.
    So those reforms--economic reforms, budgetary reforms--I 
think, should be the centerpiece of discussions, and they 
dominate any legal or process reforms that others might want to 
pursue. You have to change the fundamentals on the economy and 
on the budget.
    And I thank you for the chance to be here today, and I look 
forward to your questions.
    [The prepared statement of Dr. Holtz-Eakin appears in the 
appendix.]
    The Chairman. Mr. Marxuach?

STATEMENT OF SERGIO M. MARXUACH, POLICY DIRECTOR, CENTER FOR A 
                 NEW ECONOMY, OLD SAN JUAN, PR

    Mr. Marxuach. Good morning, Chairman Hatch, Ranking Member 
Wyden, and members of the United States Senate Committee on 
Finance.
    For the record, my name is Sergio Marxuach. I am the policy 
director at the Center for a New Economy, Puerto Rico's only 
not-for-profit, independent, and nonpartisan think tank. I 
thank you for the opportunity to appear today before this 
committee to discuss Puerto Rico's financial and economic 
challenges.
    Puerto Rico, usually invisible to the U.S. media, has been 
in the news recently, especially since the Governor announced 
that the island's public debt of around $72 billion, equivalent 
to 103 percent of its GNP, was ``unpayable'' and needs to be 
restructured.
    The island, a U.S. territory since 1898, has experienced 
severe economic problems for several years now. Its economy has 
been contracting, or stagnant, at least since 2006, and 
unemployment, poverty, and inequality levels are extremely 
high, especially in comparison with the 50 States in the 
mainland.
    Furthermore, decades of fiscal and economic mismanagement 
have engendered an economy characterized by chronic primary 
deficits, high debt-to-GNP ratios, low employment levels in the 
formal economy, an enlarging formal economy encompassing both 
legal and illegal activities, significant government corruption 
and predatory rent-seeking behavior in both the public and 
private sectors, substantial tax evasion, a hollow productive 
base, and high levels of private consumption and indebtedness 
enabled by having access to a stronger currency than its 
economic fundamentals would warrant.
    In our opinion, the parallels with Greece are quite evident 
for all to see and none to misunderstand. Notwithstanding this 
dismal economic situation, the island managed to triple its 
public debt from $24 billion in 2000 to $72 billion in 2015. 
Indeed, during this period, Puerto Rico's public indebtedness 
grew at a compounded annual growth rate of 7.6 percent, while 
its income, measured by GNP, grew at a nominal rate of only 3.6 
percent.
    Given that Puerto Rico's indebtedness grew at an average 
annual rate two times faster than the growth rate of its income 
during the past 15 years, it should not be surprising that 
Puerto Rico's public debt currently exceeds its GNP. To be fair 
however, for decades the borrowed money was put to good use, to 
finance the construction of public schools, hospitals, 
highways, and other essential infrastructure. The problem is 
that, during the last 20 years or so, a large portion of the 
money borrowed by issuing long-term debt was issued to finance 
budget deficits, operating expenses, and classic borrowed 
spending.
    We at CNE had warned for years--since 2006, actually--that 
Puerto Rico's levels and rates of indebtedness were not 
sustainable. In February 2014, the three principal rating 
agencies ratified our analysis by downgrading the 
Commonwealth's debt as well as the debt issued by several of 
its agencies and instrumentalities to a speculative or non-
investment grade.
    The rating downgrades had a material adverse effect on the 
Commonwealth's finances, because they essentially shut down its 
access to capital markets, at least capital at reasonable 
rates. This at a time when the central government is still 
running a sizable budget deficit, several of the Commonwealth 
agencies and instrumentalities face significant maturities in 
the near term, the economy is contracting at an estimated 
annual rate of 1.2 percent, liquidity is running extremely 
tight, and net out-migration has increased to levels not seen 
since the 1960s.
    Given the magnitude and multiplicity of challenges faced by 
Puerto Rico, it should be obvious that there are no quick fixes 
to solve the island's fiscal and economic problems. In our 
opinion, what is needed in the short term is a two-pronged 
action program, both at the Federal level and in Puerto Rico.
    In Washington, Congress needs to implement a comprehensive 
program, remove some of the disadvantages imposed on Puerto 
Rico under the current political arrangement, and eliminate 
some longstanding discriminatory policies. The current 
situation simply does not allow for piecemeal action by 
Washington. A wide-ranging plan is needed. Specifically, this 
committee could introduce legislation on two issues that could 
have a positive and significant short-term impact on both the 
fiscal and economic growth parts of the problem.
    On the fiscal side, the cost of the government health plan 
is one of the principal drivers of Puerto Rico's budget 
deficit. Providing Puerto Rico equal treatment under Federal 
health programs such as Medicare, Medicaid, and the Affordable 
Care Act would provide the Commonwealth with some much-needed 
fiscal space to address a long-standing injustice inflicted on 
Puerto Ricans. For the truth of the matter is that Puerto Rican 
workers and employers pay the same payroll taxes as workers and 
employers in the United States, yet benefits to Puerto Rico are 
unfairly rationed by Federal legislation.
    On the economic growth side of the equation, we recommend 
extending the Federal Earned Income Tax Credit program to 
Puerto Rico. The Federal EITC is the most effective anti-
poverty program in the United States. Recent research also 
shows that it encourages work, promotes savings, helps poor 
families smooth out the effect of unexpected financial shocks, 
and builds a strong sense of future orientation among 
recipients. Extending this program to Puerto Rico, which would 
provide a significant wage supplement to Puerto Rican working 
families, could be expected to stimulate aggregate demand in 
the short term.
    Outside the scope of this committee's jurisdiction, a 
Federal comprehensive package could include approving 
legislation to authorize the Puerto Rican government to allow 
distressed agencies and municipalities to file for bankruptcy 
under chapter 9, exempting Puerto Rico from coast-wide shipping 
laws which require the use of relatively expensive U.S. vessels 
for trade within Puerto Rico and the U.S. mainland, and 
approving legislation to relax the overly binding income and 
asset limits that apply to recipients of certain social 
assistance programs in Puerto Rico.
    This Federal assistance would be conditioned on Puerto Rico 
in turn agreeing to increase tax revenues by improving 
enforcement efforts, closing down ineffective tax loopholes and 
modernizing its property tax system, cracking down on 
government corruption, significantly improving its Byzantine 
and unduly opaque financial reporting, reforming an 
unnecessarily complicated permitting and licensing system that 
stifles innovations, undertaking affirmative actions to 
materially lower energy and other costs of doing business in 
the island, and finally, substantially improving educational 
standards.
    In addition to all of the above, Puerto Rico unfortunately 
also needs to obtain some debt relief. After years of relying 
on accounting gimmicks, forward refundings, back-loaded ``scoop 
and toss'' refinancings, capitalized interest payments, and 
other short-term expensive liquidity fixes, the Commonwealth 
has finally admitted that its debt is unsustainable.
    While it is true--and I agree with Dr. Holtz-Eakin on 
this--that Puerto Rico's capacity to repay its debt ultimately 
depends on restoring economic growth in the island, there can 
be no economic recovery without debt sustainability. And that 
in turn is not possible without significantly restructuring at 
least some of its debt.
    In my written testimony, I mention some recent findings 
about why that is necessary, but I am running--actually, I am 
over time. I am going to skip that one.
    Basically, a recent study by Carmen Reinhart finds that 
softer forms of crisis resolution such as debt rescheduling, 
temporary payment standstills, and bridge lending operations 
were generally not followed by higher growth and better 
ratings. And these crisis resolution tools were in general 
ineffective in solving a debt crisis that has been dragging on 
for years. Therefore, obtaining significant debt relief for 
Puerto Rico appears to be a necessary condition to restore 
economic growth on the island.
    On the other hand, it should be obvious that obtaining debt 
relief is not sufficient in and of itself to jump-start 
economic growth. The important point in the case of Puerto Rico 
is that any savings derived from a reduction in debt service be 
used exclusively to advance and implement a renewed industrial 
policy, broadly defined, based on horizontal policies such as 
the ones described above; discovering new sectorial 
opportunities through a process of dialogue and consultation 
with key stakeholders in the island, both in the private and 
civic spheres; and identifying spillovers, externalities, and 
other areas where society could learn more.
    This new learning, in turn, will lead to new investment in 
research and development, increased productivity, identifying 
new areas of comparative advantage for Puerto Rican firms, 
higher economic growth, and the creation of high-quality jobs 
which, at the end of the day, is what will categorically end 
Puerto Rico's economic stagnation. We at the Center for a New 
Economy are currently working with experts from Columbia, 
Brown, MIT, and Brookings, among other institutions, to develop 
this medium- and long-term industrial policy for Puerto Rico.
    Finally, I would be negligent if I did not raise the 
question of whether Puerto Rico has reached the limits of what 
it can do to improve the quality of life of its people within 
the constraints imposed by its subordinate political status. 
Neither a sovereign country nor a State of the Union, Puerto 
Rico has no authority to negotiate international treaties, no 
access to emergency financing from multilateral institutions, 
no monetary policy instruments, limited fiscal policy tools, 
nominal representation in Congress, and the U.S. Supreme Court 
has determined that it is constitutionally permissible for 
Congress to discriminate against Puerto Rico in the application 
of Federal programs as long as there exists a rational basis 
for doing so.
    Thus, Puerto Rico lives in a state of permanent limbo, a 
status that is both humiliating to Puerto Ricans and unworthy 
of the United States. Simply stating that it is up to Puerto 
Ricans to decide their political status, while true, is 
insufficient, because the U.S. Congress has longstanding legal 
and moral obligations with respect to Puerto Rico that it has 
failed to honor.
    Congressional failure to act not only highlights a shameful 
lack of political will, it also weakens the United States' 
moral standing and jeopardizes its ability to effectively 
utilize its soft power in the international arena when it 
argues, for example, for better treatment for Hong Kong by 
China, for the Palestinians by Israel, or for Greece by members 
of the Eurozone. In this context, I would like to quote from 
the remarks made just a few days ago by an extraordinary man 
who came to this magnificent building to address a rare joint 
session of Congress.
    Drawing from a deep well of wisdom that has accumulated for 
over 20 centuries, he stated, and I quote, ``Your own 
responsibility as members of Congress is to enable this 
country, by your legislative activity, to grow as a Nation. You 
are the face of its people, their representatives. You are 
called to defend and preserve the dignity of your fellow 
citizens in the tireless and demanding pursuit of the common 
good. For this is the chief aim of politics. A political 
society endures when it seeks as a vocation to satisfy common 
needs by stimulating the growth of all its members, especially 
those in situations of greater vulnerability or risk. 
Legislative activity is always based on care for the people. To 
this, you have been invited, called, and convened by those who 
elected you.''
    In conclusion, Mr. Chairman, I thank you and the committee 
once again for the opportunity to participate in this important 
public policy debate, and I look forward to answering any 
questions that you or committee members may deem appropriate to 
ask.
    Thank you.
    [The prepared statement of Mr. Marxuach appears in the 
appendix.]
    The Chairman. Well, thank you, sir. The ranking member 
needs to leave, so I am going to turn to him for his questions 
first, then I will turn to Senator Grassley.
    Senator Wyden. Mr. Chairman, thank you for the courtesy.
    And let me ask the witnesses a question this way. It is not 
exactly an atomic secret that it is a big challenge around here 
to get bipartisan solutions to major issues.
    Now, you all heard me say in my opening statement that I do 
not believe that cutting large new holes in Puerto Rico's 
safety net is part of a strategy for a long-term plan for 
prosperity. I outlined that in my statement.
    So I think I would like to go down the row and ask each of 
you four distinguished witnesses to give an example in your 
view of what Puerto Rico could work on with this committee, on 
a bipartisan basis, to help move ahead. And let us just go 
right down the row.
    Congressman, I am very glad to have you here. I watched 
your very fine work in the House, and we have talked. But you 
understand the challenge. The challenge is to see if we can 
find a way to move forward in a bipartisan fashion, the 
government of Puerto Rico and colleagues on this committee, 
where there are obviously different views. Let us start with 
the Congressman.
    Mr. Pierluisi. As you all know, I fight for equal rights 
for the American citizens of Puerto Rico, equal political 
rights and equal treatment in Federal programs. But I will be 
very specific, to answer your question.
    Something concrete you could do is to improve the treatment 
of Puerto Rico under both the Medicaid and the Medicare 
programs. And let me explain the impact that it would have. 
Just changing the Medicaid program as it applies to Puerto Rico 
so that it would cover our constituents up to 100 percent of 
Federal poverty level, would give Puerto Rico, the government 
of Puerto Rico, at least $1.5 billion more to deal with the 
health needs of our population.
    That would help Puerto Rico in terms of its liquidity 
issues. It would help Puerto Rico in terms of balancing its 
budgets. Because you have to understand, when you are talking 
about Puerto Rico, you are not talking about Costa Rica or the 
Dominican Republic. You are talking about American citizens who 
can hop on a plane from one day to the next and move to the 
States, if you are not treating them adequately, if they do not 
have a decent quality of life. So that is being concrete.
    The other program that you can deal with is Medicare. It is 
atrocious that we have the same payroll taxes in Puerto Rico, 
and there are disparities in the way the Medicare program 
applies. Hospitals do not get paid the same. Medical providers 
do not get paid the same, and Advantage Plans in Puerto Rico do 
not get paid the same.
    That money, hundreds of millions of dollars--more than 
that--would be flowing through our economy, and it should. And 
it would help the economy to grow, particularly the health 
sector.
    Senator Wyden. And as the Congressman and all of you heard, 
I did talk specifically in my opening statement about Medicaid 
and Medicare reforms. For purposes of this question, put 
yourself in the position of trying to find support on that side 
of aisle and this side of the aisle for the kind of reform that 
will move us forward.
    Ms. Acosta?
    Ms. Acosta. Thank you. I think, in many important matters, 
we--even with our political differences--can agree. And I 
really would like to think that that is true. I totally agree 
with the statement just made by Congressman Pierluisi.
    The health matters in Puerto Rico, and not only the fiscal 
matters, certainly, as he mentioned, would have a direct impact 
on the finances of the government. But it is also a 
humanitarian matter.
    Right now there are physicians in Puerto Rico leaving the 
island, there are elderly people not having the services. And 
because of certain reductions, certain costs are going to 
happen in January, more people are going to enter into the 
government-sponsored program. That means we are going to have 
an even larger deficit of $200 to $300 million.
    In addition to that, when the ACA funds expire, that means 
to Puerto Rico an additional $1 billion deficit of funds that 
Puerto Rico is going to have, and we have to find them. So 
certainly I totally agree with the Congressman's statements.
    And I have to say, the problem in Puerto Rico is not 
necessarily that we have too much debt, it is that we have too 
much debt and we do not have growth. We need growth. We need to 
create the growth, to increase the economy. We need to create 
the jobs so people stop going out of Puerto Rico and actually 
stay in Puerto Rico.
    So certainly when we have talked about having a structure, 
a regime, that could help us restructure our debt, what I mean 
is that the debt is literally suffocating Puerto Rico. I mean, 
people say that we have more expenses now. No, we are paying 
more debt now than before.
    Right now, our debt consumes our $1.5 billion in payments. 
Years and years before, it was less than $600 million. So we 
need a regime that could help us move forward, and that is why 
we have been asking for chapter 9. And we agree, again, with 
H.R. 870, which was another way in which we can agree, with 
differences.
    Senator Wyden. I am already over my time. Still, take the 
lodestar as something that can be bipartisan with my 
colleagues.
    Dr. Holtz-Eakin. I can count on you to ask hard questions, 
Senator, thanks. [Laughter.]
    I think the number-one thing in solving a problem is to 
actually be able to identify it, measure it, and track it. And 
I think one of the very troubling aspects of this situation is 
that there are not good, high-quality budgetary documents 
prepared according to some sort of international standard that 
provide a transparent way to see the financing problem. And 
there has never been, to my knowledge, out of the various 
reforms that have been proposed, a genuine debt-sustainability 
analysis.
    Those are things that this committee and Puerto Rico both 
need, and I do not think those should be partisan issues. Let 
us get better information, and let us guide the reform process 
using standard tools of debt sustainability, not snapshots on 
deficits and things like that, because that is the fundamental 
problem.
    And if a program is put in place that provides sustainable 
debt, as I mentioned, the record is that that instills a lot of 
confidence in investors. It opens capital markets. It will 
bring in fixed investment into Puerto Rico. That is the growth 
issue. Without that, there is no success.
    So I know it is a process answer, but I think it is a 
really important one.
    And on the substance, just avoid the errors of the past, 
right? Section 936, targeted tax breaks, triple tax 
exemptions--those are not broad-based economic policies that 
generate growth.
    Senator Wyden. All right. One last witness.
    Mr. Marxuach. Thank you. I think there is one Federal 
program that has broad bipartisan support outside of defense 
and security appropriations. It is the Earned Income Tax 
Credit. I cannot think of any other Federal legislation since 
the mid-1970s that has been both adopted and improved by both 
Republican and Democratic Presidents and Congresses.
    In terms of the impact it would have in Puerto Rico, it 
would provide a significant wage supplement to Puerto Rican 
workers, to the hardest-hit poor families in Puerto Rico, and 
that would have a short-term stimulus on aggregate demand.
    It is not a fix-all-be-all, but in the short term, it is 
one of the few things that I think would both obtain support 
from both sides of the aisle and help the Puerto Rican economy 
in the short term.
    Senator Wyden. One of the reasons I mentioned it in my 
opening statement--and I thank Chairman Hatch for his 
courtesy--is because that program, of course, had Republican 
roots. That is something that clearly does fit this kind of 
litmus test.
    Mr. Chairman, again, thank you for your courtesy, and I 
look forward to working with all our colleagues to try, as my 
question suggests, to work on a bipartisan basis to actually 
get something done.
    Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator.
    Next, Senator Grassley, and then I will ask my questions.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY, 
                    A U.S. SENATOR FROM IOWA

    Senator Grassley. Thank you for your courtesy, and thank 
you for holding a very important hearing, Mr. Chairman.
    During the summer, I have had several meetings with people 
with different points of view on Puerto Rico, including the 
political leadership of the community. And I would prefer to 
just make a statement now so you know kind of where, as 
chairman of the Judiciary Committee, I am coming from. I will 
continue to be open to discussions in the future as well. So I 
will take a few moments to make these points.
    Puerto Rico's debt crisis did not happen overnight. It has 
been years in the making. Puerto Rico now has one of the 
largest deficits of all municipal governments in the United 
States.
    The Krueger report explains that the root cause of this 
problem is decades of stimulus spending and economic 
stagnation. Instead of making difficult decisions to cut 
spending and balance its budget, the government kept borrowing 
to finance its operations using tax-exempt bonds to roll over 
debt coming due.
    Finally, as we know and we have been discussing here, the 
game is up. As the Governor has said, debt is not payable and 
must be restructured. Now Congress is asked to step in and 
address Puerto Rico's debt situation.
    No doubt a comprehensive approach is needed to restore 
fiscal balance and economic growth. Puerto Rico's debt is not 
sustainable without growth, and growth is not possible without 
local and Federal structural reforms. The government's fiscal 
and economic growth plan aims to provide a roadmap that 
achieves these goals. The plan asks Congress for meaningful 
help to restore economic development.
    One proposal is to extend chapter 9 bankruptcy to Puerto 
Rico so that its municipalities can restructure their debt. 
Chapter 9, though, would only affect certain debt, as it is not 
applicable to the sovereign constitutional debt, 
constitutionally protected General Obligation bonds.
    As with any single proposal, chapter 9 alone will not solve 
Puerto Rico's financial problems. Therefore, if we agree with 
the experts that structural reforms are critical to growth, 
then Congress should work to help Puerto Rico help itself.
    We should consider exempting Puerto Rico from the Jones 
Act, which limits competition and raises the cost of living for 
island residents. Congress could also exempt Puerto Rico from 
the Federal minimum wage, which New York Times columnist Paul 
Krugman has stated is too high for Puerto Rico. Full-time 
employment at the minimum wage is equivalent to 77 percent of 
per capita income versus 28 percent here on the continent. 
Thus, eliminating the Federal minimum wage mandate would help 
grow Puerto Rico's economy.
    However, congressional help without meaningful reform by 
the Puerto Rican government will not work. Puerto Rico needs to 
tackle difficult problems as part of any serious growth policy 
reform. Critics, however, of the government's plan argue that 
proposals do not go far enough. There is no mechanism to ensure 
that the proposals are ever implemented, and a local control 
board, if one is ever created, will be ineffective due to local 
politics and pressure.
    Perhaps then a Federal financial control board should be 
part of a comprehensive approach to remove obstacles to certain 
fiscal reform, like the fact that the government employs almost 
25 percent of Puerto Rico's workers.
    Historically, these oversight and control boards--which 
Congress created, for instance, in New York City probably 35 
years ago, the District of Columbia more recently--have shown 
success.
    At the end of the day, it is likely that neither Congress 
nor Puerto Rico alone can solve this crisis, but now is the 
time for Puerto Rico to have the will and the courage needed to 
make difficult decisions so that this debt cycle is never again 
repeated, or otherwise anything that Congress might do would be 
of little avail if things do not change where the problem was 
created.
    I yield the floor.
    The Chairman. Thank you, Senator.
    I think I will claim my time now, at this point.
    Dr. Holtz-Eakin, this question is for you. I have heard 
frequently from a number of people that employers and workers 
in Puerto Rico pay the same Federal payroll taxes that are paid 
in the States, and that Puerto Rico's Medicare beneficiaries 
pay the same premiums, yet at the same time, the Medicare 
program treats hospitals, insurance providers, doctors, and 
patients in Puerto Rico differently than they are treated in 
the States.
    Now many, including a number of Senators, have claimed that 
this is unfair and should be rectified. Given your knowledge of 
our health care laws and rules and the various Federal health 
programs, do you agree with the claim that people in Puerto 
Rico pay the same taxes as in the States with respect to 
Medicare, but are treated in an unequal fashion?
    Dr. Holtz-Eakin. Well fairness, obviously, is in the eye of 
the beholder, but I will just point out that Medicare Part B, 
Part C, and Part D are 75-percent financed out of general 
revenue and not out of payroll taxes or premiums. And that 
means that they are financed by income taxes. So Puerto Ricans 
do not pay income taxes, and so they do not contribute fully to 
the financing of the Medicare program.
    There is no dedicated payroll tax for Medicaid, and so it 
is all out of general revenue at the Federal level. The same 
situation arises there, so there are not equal contributions 
in, and then it is up to the Congress to set the rules for what 
the support levels will be going out.
    The Chairman. Well, let me ask you--maybe you and Mr. 
Marxuach--another question.
    Looking at Puerto Rico's economy, analysts at the Federal 
Reserve Bank of New York have identified a number of challenges 
and recommended that Puerto Rico take a number of steps to 
promote growth and improve the overall health of the island's 
economy. These steps include reducing barriers to job creation 
and labor force participation, reforming the island's energy 
industry, lowering the cost of doing business, and partnering 
with industry in promoting independent policy evaluation by 
producing better data.
    And like most reasonable people, I believe that Puerto Rico 
faces a number of specific economic challenges, and that these 
challenges will not go away if the strategy is simply to shave 
obligations to debtors and obtain more Federal tax incentives 
or funds for various benefit programs.
    So, in looking for pro-growth policies that can promote 
economic activity in Puerto Rico, I wonder if you could tell 
me, both you and Mr. Marxuach, what you believe are the 
comparative advantages in Puerto Rico that should be built upon 
to stimulate growth, and what ideas you might have to 
accomplish this goal.
    Dr. Holtz-Eakin. Go ahead.
    Mr. Marxuach. Well, we are actually working on that right 
now, Senator, as I mentioned in my testimony, with a group of 
experts at Columbia University and Brown and other places.
    Puerto Rico does have some advantages in having a fairly 
highly educated workforce, a bilingual workforce. Our 
geographic position traditionally has been an asset that I 
think has been under-utilized by Puerto Rico.
    There are opportunities in areas like research and 
development of new medicines that we are undertaking right now. 
We need to do a lot more there, especially drugs that affect 
certain population groups, especially Hispanics and Latinos, in 
our case.
    Also, there is a lot more that can be done in terms of 
research and development of green energy initiatives. Puerto 
Rico has a great engineering school. Again, that has been 
greatly under-
utilized. We lose a lot of graduates from those schools to, 
basically, Fortune 500 companies.
    There is a lot more we could be doing in tourism, believe 
it or not. Tourism as a share of the economy is still a 
relatively low part of our GNP. The problem there is that we 
cannot compete on a cost basis. Of all the low-income Caribbean 
islands, we have to target--and to be fair, some efforts have 
been done in this area--more high-end kind of tourists who are 
looking for a different experience.
    So we do have some advantages. What we are lacking is a 
comprehensive strategy to implement it over the medium to long 
term, with specific milestones and objectives that we can 
measure along the way. And also, to be fair, we in Puerto Rico 
have in some sense created this problem by not following up or 
following through on what past administrations have done.
    We do suffer from what--it is in the literature--I will 
call a refounding syndrome. Every party, or every new Governor 
who comes in, seems to believe that whatever was done by the 
previous administration is illegitimate or in some way invalid. 
So they take it upon themselves basically to destroy whatever 
was contracted by the previous administration. And obviously 
this has hurt our ability to grow.
    But yes, there are areas we can exploit and----
    The Chairman. My time is up, but let me have Dr. Holtz-
Eakin's answer.
    Dr. Holtz-Eakin. I would be happy to get back to you with a 
longer answer, but just to pick up on some of the key items, 
first of all, the New York Fed has it exactly right on the need 
for reforms.
    And I think an emphasis on tourism is entirely appropriate, 
given the location and other advantages. The complaint will be 
that those are not high-wage jobs, but you cannot support high-
wage jobs, given what is going on in Puerto Rico right now.
    The areas that have the opportunity to grow those are in 
medical science and health, where there are already existing 
footprints; in aerospace, which has a footprint. And in 
general, Puerto Rico needs to build on all of those and have a 
diversified strategy and not one that is pinned on a single 
policy or industry.
    The Chairman. Senator Schumer, you are next.
    Senator Schumer. Yes, thank you, Mr. Chairman. I want to 
thank you and Ranking Member Wyden for holding this hearing to 
discuss the dire economic and financial situation in Puerto 
Rico.
    There are 3.5 million Puerto Ricans living on the island 
today, another 5.2 million in the United States, including over 
1 million in my home State of New York. Sadly, as the economic 
situation in Puerto Rico has deteriorated, residents have felt 
the need to flee their homeland.
    This population shift from the island to the mainland will 
continue as long as their economic situation worsens, until the 
only ones left are those who do not have the resources or 
ability to move. And at that point, we will have a humanitarian 
crisis on our hands as well, if not before.
    We have a basic American responsibility to aid all American 
citizens in times of crisis, regardless of where they live. And 
beyond that basic imperative, if we fail to offer Puerto Rico 
assistance now, this problem will not be contained to the 
island.
    We need to be concerned with these issues not only because 
Puerto Ricans are part of the American family and deserve the 
quality of life that we all expect, but because a failure now 
would ultimately result in a Puerto Rican financial crisis that 
could become a drag to our entire economy.
    So I have introduced legislation to address several of the 
most pressing issues facing the people of Puerto Rico, 
including the legislation to allow Puerto Rico to access 
chapter 9 bankruptcy protections. I did it along with my 
colleague, another chief sponsor, Senator Blumenthal of 
Connecticut.
    Because there are many factors that have and continue to 
contribute to the economic situation, I have some questions for 
our panelists.
    First, I want to ask----
    Senator Nelson. Would the Senator yield for 10 seconds?
    Senator Schumer. Sure.
    Senator Nelson. The statement that the Senator from New 
York has made applies to the State of Florida as well. A 
million Puerto Ricans, if we do not solve this problem, will 
move to New York and Florida. So I thank the Senator for 
raising this issue.
    Senator Schumer. Thank you. Frankly, I have been 
disappointed by the lack of urgency of many of my colleagues in 
taking up and supporting this important piece of legislation.
    I have heard a lot of excuses and justifications for this 
inaction. I have heard others say the legislation will not 
solve a fiscal crisis in Puerto Rico and we must come up with 
other solutions. Well, I agree. It is not the only solution.
    I have never said that this one piece of legislation is the 
salve that cures all of Puerto Rico's wounds, and I believe we 
must continue to work towards finding the policy solutions that 
will help Puerto Rico address economic issues in the long term, 
and I have introduced other bills to do that. But providing 
Puerto Rico with access to chapter 9 bankruptcy protections is 
not only the equitable thing to do, it is an incredibly 
important resource that can help Puerto Rico address its 
current fiscal crisis in the near term. It is not a silver 
bullet, but it helps and is needed dramatically. This is not an 
esoteric debate. The Puerto Rican people cannot wait any 
longer.
    So today I am sending a letter with colleagues to Chairman 
Grassley of the Judiciary Committee urging Mr. Grassley at the 
very least to hold hearings on the upcoming piece of 
legislation. We have to move the process forward and hold a 
hearing and, hopefully, a markup shortly thereafter.
    And one other issue before I ask my questions: health care 
is another great issue affecting us.
    As was mentioned, Puerto Rico is treated differently in 
several key health care programs: Medicare, Medicaid, and under 
the ACA. Some examples are, Part B: beneficiaries in Puerto 
Rico are not automatically enrolled in Part B; they have to opt 
in. Part D: low-
income beneficiaries in Puerto Rico cannot afford to pay for 
their medicines, and they do not get assistance through the 
low-income subsidy program. Physician payments under Medicare: 
Puerto Rico has the lowest payments of all the States, even 
though they do not have the lowest cost of living. Medicaid: 
Federal funding for Medicaid in Puerto Rico is capped. And so 
I, along with Representative Pierluisi, have introduced a bill 
that would address all these inequities.
    The bill is called Improving the Treatment of U.S. 
Territories Under the Federal Health Care Programs, and it has 
four co-
sponsors whom I am proud to have on the bill: Senators Menendez 
and Nelson, who are here today, and Senators Blumenthal and 
Gillibrand.
    So these are my two questions to, particularly, our two 
representatives of Puerto Rico who are here today, and we 
welcome them. Can you explain how access to chapter 9 would be 
a particularly useful tool to deal with some of the issues 
facing Puerto Rico in the near term? And just talk a little bit 
about how the people of Puerto Rico feel about the unfair and 
inequitable medical treatment under Medicare and Medicaid and 
our other programs--to both Representative Pierluisi and Ms. 
Acosta.
    And I am finished.
    Mr. Pierluisi. Senator Schumer, thank you; thank you so 
much for introducing both pieces of legislation. I have 
counterpart legislation in the House, as you know.
    I previously addressed the Medicaid and Medicare issue, so 
I will now address, for the sake of time constraints, the 
chapter 9 issue.
    It is not a panacea. I have never proposed it that way. In 
fact, I do not like talking about bankruptcy insofar as Puerto 
Rico is concerned. I do believe that our debt is payable. You 
might need to restructure, of course, where we have to, in 
particular cases.
    One example is the Puerto Rico Electric Power Authority, 
the public utility. It has been under an indulgence agreement 
with its creditors for now a bit more than a year. So clearly 
it has not been able to pay its debts as they become due. Now, 
negotiations are ongoing, but there is no chapter 9 available.
    Perhaps you do not need to use chapter 9, but you should 
have it available. There is no principled basis for not giving 
access to Puerto Rico to chapter 9 of the Bankruptcy Code. We 
had it for 45 years, and then for no reasons explained in the 
Congressional Record, we were left out. The life of a 
territory----
    And since then, now that we could be using it, now that our 
Legislative Assembly could be saying the Power Authority should 
be eligible to go to Bankruptcy Court and seek to reorganize 
itself, we are helpless. It would assist even in the process of 
negotiations, because it would foster fair negotiations to have 
chapter 9 as a backup.
    So it is a very practical thing to propose. Not that I am 
proposing bankruptcy, simply that we should have the same 
treatment as the States do in the mainland.
    Senator Schumer. Ms. Acosta?
    Ms. Acosta. Yes. Certainly having a mechanism to deal with 
our debt--it is an extremely urgent matter. And you mentioned 
that it is an urgent matter.
    I mean, Puerto Rico is having a liquidity crisis. We have 
been able to run the government by taking one-time measures 
that cannot be repeated. So we are in the process right now, as 
you know, of asking our creditors to sit down at the table and 
do a consensual agreement with us, because we do not have 
chapter 9.
    The example of the restructuring of the electric company is 
just the best one. We have reached an agreement with almost 
half of the creditors, but there is another half that has not 
come to the table.
    The problem here is timing. We need to have a solution 
soon, because we are running out of money. As the Governor 
mentioned, we are starting this process, and the idea is to 
respect the differences between the General Obligation bonds 
and COFINA.* So that process is going to take some time. But if 
we had chapter 9, it could be a faster process.
---------------------------------------------------------------------------
    * Corporacion del Fondo de Interes Apremiante, also known as the 
Puerto Rico Sales Tax Financing Corpration.
---------------------------------------------------------------------------
    And I agree, maybe we do not have to use chapter 9, but 
just having the tool is going to really, really help us. As I 
was saying before, Puerto Rico has a large amount of debt, but 
Puerto Rico has no growth. So every year a larger amount of our 
budget is going to pay debt. We pay more money to pay debt, we 
put in more money to the pension plans, more money to the 
health care, and then the operations of the government are 
actually being reduced.
    There is a point at which we have to decide whether to 
provide basic services to our citizens--security, health, 
education--or to pay our debt. And what we are saying is, come 
to the table, bondholders, sit with us and try. It is best for 
everybody, even for them, for Puerto Rico to move forward and 
have growth.
    So certainly, having a regime, a chapter 9 regime, is going 
to really help us. And as I said, I want to mention that we 
have a liquidity crisis. We are keeping the government open, 
but it certainly is taking some time.
    In regard to the health matter that you mentioned, I 
totally agree. In both cases, in chapter 9, on the Medicare and 
Medicaid issue, it is a matter of fairness. It is a matter of 
saying, why do all the States have access to chapter 9 and 
Puerto Rico does not? Why do the American citizens living in 
the States not have caps on Medicare and Medicaid, and Puerto 
Rico has those caps on?
    It is not only a fiscal matter. It is also, as I mentioned 
before, a humanitarian matter. So thank you.
    Senator Schumer. Thank you.
    The Chairman. We will turn to Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman, and I 
appreciate you holding this hearing on a critical issue--as we 
just heard, a crisis--that affects 3.5 million American 
citizens.
    And I like to keep reminding everyone that Puerto Rico is 
not a foreign country. Because I was shocked, when I was in the 
House of Representatives, that I would have members of the 
House of Representatives come and ask me whether they needed a 
passport to visit Puerto Rico. That is true. That is true.
    And that mentality is appalling, considering the fact that 
Puerto Ricans have fought and shed blood for American ideals 
and values in every war since World War I. Among the most 
decorated in the military history of the United States was an 
all-Puerto Rican division during the Korean War, the 65th 
Infantry Division.
    So it is amazing to me that we have this attitude as if 
Puerto Rico is some foreign country and this is about foreign 
assistance. This is about--if the 3.5 million citizens of the 
United States who happen to call Puerto Rico home came to the 
United States, they would be able to vote. They would have all 
of the obligations, but also all of the benefits, of American 
citizenship, certainly in their health care, among other 
things.
    And unfortunately, we are seeing a significant number of 
them. I see them in my home State of New Jersey. We have a long 
history of a sizable Puerto Rican population in our State, but 
they are coming in significant numbers because there is not, in 
many of their minds, a light at the end of the tunnel.
    So they are citizens of this great country, just as much as 
you and I, Mr. Chairman, and therefore that means we have a 
responsibility of not turning it from a crisis into a full-
blown tsunami.
    Now certainly, identifying the causes of the problem are 
important. There is no question in my mind that local fiscal 
decisions over many administrations have created a part of the 
challenge. They played a significant role, and I recognize 
that.
    I also recognize this crisis did not happen overnight. I 
believe the current administration inherited many of these 
problems and has taken a number of significant steps to improve 
the situation. And I believe--as I have worked with Congressman 
Pierluisi, who has done such an outstanding job in this 
regard--that the inequities at the Federal level have 
significantly contributed to the problem we face today, as he 
eloquently spoke of.
    So we have not only a role but a responsibility to help 
meet this challenge.
    Now, I think there is no good reason why Puerto Rico should 
not have equal access to chapter 9. I do not believe it is a 
panacea, but to the extent that you can get people to come 
negotiate with you in good faith, if they know chapter 9 is 
available, then all of a sudden we have a process to negotiate 
which would enable them to restructure a portion of their debt 
in an orderly, legal, and efficient manner.
    Puerto Rico is included in nearly every other aspect of the 
Bankruptcy Code, and only lost access to chapter 9 after an 
obscure and non-debated provision was slipped into a larger 
bill in 1984. Now, I do not have the time here to get into why 
that happened, but there were reasons.
    Now, I am a sponsor of the legislation that Senator Schumer 
talked about to correct this inequity. And I understand that is 
outside of the committee's jurisdiction, but so many of the 
things that we are talking about here, without the ability to 
orderly reorganize, are going to be virtually impossible, at 
the end of the day. So I think that is incredibly important.
    I think there are enormous inequities in health care, and I 
have been dealing with that on this committee for some time. I 
have offered several efforts here. We skipped over the Puerto 
Rican hospitals in terms of health care technology, and 
everybody admits it was a mistake. But we have not helped them 
correct the mistake, despite our efforts to do so.
    You know there are several bills that I have introduced to 
address these health care inequities, most recently with the 
Improving the Treatment of U.S. Territories Under Federal 
Health Programs Act of 2015, which is S. 1961. This is a 
comprehensive bill that includes provisions ranging from 
ensuring the island has equitable and sustainable Medicaid 
funding to changes to Medicare to ensure equity to hospitals, 
physicians, and seniors on this island.
    I think, Dr. Holtz-Eakin, when asked a question about how 
do we get growth, one of the things you said was, having a more 
significant, sustainable health industry in the island. Well, 
it is going to be difficult to achieve that if you cannot be 
reimbursed in an equitable way.
    And several of the bill's provisions do not even require a 
legislative fix, which is what is really alarming here. If we 
wanted to help Puerto Rico, CMS is capable of finding an 
alternative way to calculate Medicare Disproportionate Share 
Hospital payments to account for the fact that Puerto Ricans do 
not have access to SSI, and to adjust payments in Medicare 
Advantage rules to more accurately reflect the situation facing 
plans on the island. That could be done by CMS. Those policy 
changes do not require any new legislation and would have a 
substantial impact on the health care system in Puerto Rico.
    Another area where U.S. citizens living in Puerto Rico are 
treated unfairly is in the refundable tax credits. As the 
Resident Commissioner noted in his testimony, Puerto Rico is 
partially excluded from the Child Tax Credit and completely 
prohibited from receiving the Earned Income Tax Credit. With a 
labor participation rate that is significantly below the 
mainland's, we should be doing everything we can to incentivize 
work, which is exactly what the EITC does.
    And it makes no sense that an American citizen living in 
Puerto Rico is ineligible for the EITC, yet if the same citizen 
moved to the mainland, they would be able to benefit, even 
though they would have an identical Federal tax liability.
    And taken together, I think these common-sense steps would 
help pull Puerto Rico back from the brink of collapse. They 
would create an opportunity to set the stage for economic 
growth and give the government a fighting chance to dig out of 
this hole.
    Now, finally, Mr. Chairman, I have heard some other 
suggestions, such as driving down the wages for Puerto Rican 
workers. I believe these suggestions are shortsighted and 
counterproductive. They will only exacerbate the problem.
    The poverty rate in Puerto Rico is approximately 45 
percent--45 percent--and the per capita income is one-third of 
the mainland average, with 37 percent of the population relying 
on nutritional assistance just to eat. Just to eat. It seems to 
me that the last thing Puerto Rican workers need right now is a 
pay cut.
    I know that people look at section 936 and say that that 
was a mistake. Well, we have Enterprise Zones; we have 
Empowerment Zones. States all across the country are offering 
tax breaks in order to create investment and growth.
    So we have to look at all of this in the totality for the 
3.5 million citizens who have served this country, who still 
serve this country. If you go with me, Mr. Chairman, to visit 
the Vietnam Memorial, you will see a disproportionate number of 
Latino names and a disproportionate number of Puerto Rican 
names on that wall.
    So this is about doing the right and moral thing by 3.5 
million American citizens, and I will look forward, beyond this 
hearing, to some action, both by this committee and, hopefully, 
the Judiciary Committee, as we work together to ensure a 
greater future for the people of Puerto Rico.
    And my questions were answered by members of the panel. I 
appreciate their testimony.
    The Chairman. Thank you, Senator.
    Senator Nelson?
    Senator Nelson. If you boil this down, it is a matter of 
right and wrong. It is a matter of fairness.
    All along the last decade or so, Puerto Rico has suffered 
economically as a result of policies of the United States 
Government: the loss of the major military installations and 
the financial boost that they gave to the island, the loss of 
some of the pharmaceutical companies because of that position 
expiring, and now a change in the law that has been on the 
books since 1984 with regard to the crisis that we are facing. 
And it is simply not fair.
    I think Senator Menendez and Senator Schumer, who have 
preceded me in their comments, have spoken of things that I 
would associate myself with. And of course, my State of Florida 
has a huge population, estimated at a million, of 
puertorriquenos all over Florida, but a lot who are 
concentrated in the Orlando area.
    Now I wonder, if we do not solve this problem, whether it 
is the health care problem--Medicaid, Medicare Advantage--if we 
do not solve the bankruptcy problem and things just rock along 
like they are, how many more American citizens residing in 
Puerto Rico are going to move to the mainland?
    And you know what that means. They are coming to places 
like New York and Florida, and, of course, we are glad to have 
them. But what degree of expertise and educational population 
is going to move from the island to the mainland? That is not 
good for Puerto Rico.
    Congressman, do you want to comment on that?
    Mr. Pierluisi. Very much so. See, there is consensus here, 
Mr. Chairman, that the worst problem Puerto Rico is facing is 
lack of economic growth. And a related aspect of that is the 
loss of population.
    It is very hard, if not impossible, to grow if you are 
losing population, and we are losing population to the tune of 
about 1.5 percent net per year now, for more than 10 years. 
They are leaving, yes, to places like Florida. And why? That is 
the question. They leave because of lack of good quality of 
life. They are leaving because of lack of jobs. They are 
leaving because of lack of good-
paying jobs.
    And for some to suggest that we should have a lower minimum 
wage does not make sense to me. If you lower the minimum wage 
in Puerto Rico, you will be giving the people of Puerto Rico an 
additional incentive to leave. The cost of living in Puerto 
Rico is comparable to the one in Florida. If you lower the 
minimum wage in Puerto Rico, you are basically giving people an 
incentive to simply rely on welfare benefits. It makes no 
sense.
    We should stop treating Puerto Rico differently. We should 
treat Puerto Rico equally. That is a long-term plan that would 
make sense.
    And I have to react to Dr. Holtz-Eakin's comment about 
Puerto Ricans paying payroll taxes but the Medicare program 
being 75 percent funded by general revenues. Well, let me 
remind the members of this committee as well as Dr. Holtz-Eakin 
that close to one-half of U.S. households in the mainland do 
not owe Federal income taxes, and nobody is suggesting removing 
them from programs like Medicare, Medicaid, and so on.
    It is a policy reason why we are not paying Federal income 
taxes, but at the same time there is a policy reason for 
excluding us from a lot of Federal programs.
    So we have to be smart about this. We have to make sure 
that in Puerto Rico we have a decent quality of life, and that 
involves health programs. That involves having, for example, 
participation in the Earned Income Tax Credit and Child Tax 
Credit programs, like Mr. Marxuach was suggesting.
    Because when you look at them all, what you are doing is 
improving the quality of life in Puerto Rico. They are fellow 
American citizens. You should not be looking the other way. You 
should not be ignoring us. If you do so, you do it at your own 
peril.
    The Chairman. Well, thank you. Thank you, Senator Nelson.
    Dr. Holtz-Eakin, you have heard these comments from a 
variety of people here. Do you have any comments you would care 
to make to help us to understand this better and what we should 
be doing about the inequities that appear to exist that have 
been made in formal complaints?
    Dr. Holtz-Eakin. So on health spending, it has many 
dimensions, and it is important to think clearly about what 
additional spending would do. Additional health spending by the 
Federal Government into Puerto Rico is not a pro-growth 
strategy. You do not generate long-term economic growth by 
having health spending. It is a desire to consume something, 
not to generate saving investment.
    The Chairman. It may be good, but it does not necessarily 
create jobs.
    Dr. Holtz-Eakin. It is not going to do that. It might 
relieve some budgetary pressure, but so would Federal checks of 
any type. So the real question is, as a matter of health 
policy--objectives in population health, objectives in 
reimbursement rates for providers and others, on hospitals--do 
you want to modify these programs? That is the issue.
    But do not confuse it as sort of solving the budgetary and 
growth problems, which are the core problems in Puerto Rico. So 
that is, I think, something just to be very clear about when 
you analyze the problem and the solutions you come up with.
    The Chairman. All right. Ms. Acosta, let me ask you--I have 
a couple of questions. They are asked for good purposes, but I 
would like to have your response.
    I understand that there are roughly 17 or 18 different 
debt-issuing entities involved in Puerto Rico's indebtedness, 
and some have put the amount of indebtedness at around $73 
billion. It has also been reported that the debt has roughly 
doubled over the last 15 years or so. In fact, you have kind of 
indicated that, some of you here today.
    And we have been told that some of Puerto Rico's debt could 
be restructured, and that some of it involves General 
Obligation bonds with certain protections under Puerto Rico's 
constitution, as well as some debts of municipalities.
    Now, I have several questions about the scale and scope of 
this debt. I will read through them all first and then give you 
a chance to respond.
    First, what is the best and most accurate source we can go 
to in order to find a clear and perhaps audited picture of 
Puerto Rico's government or government-backed indebtedness: who 
the debtors are, how much debt each of them has issued? I would 
like to know that. Maybe I should ask these separately. What 
about that? Where do we go to get the clear and perhaps audited 
picture, preferably an audited picture, of Puerto Rican debt?
    Ms. Acosta. Yes, the Government Development Bank, which is 
the entity that I preside over, is the fiscal agent for the 
government. And we issue actually a quarterly document that we 
file with our legislature which contains all the debt that 
Puerto Rico has.
    As you very well mentioned, we have, just to give an 
example, GOs, the General Obligation debts. We have guaranteed 
debts; they are not GOs, but they are guaranteed, which is 
similar to GOs. We have the debt from all the public 
corporations, the ones that we know and even others that I, no 
doubt, would know. We have COFINA pay for sales tax, 
municipalities' debt, GDB's own debt. So actually we issue a 
report quarterly with all the different issuers, all the debt.
    The Chairman. I would like you to help the committee and 
send us material, if you can, on the debt so that we at least 
understand that.
    Ms. Acosta. Sure. Sure.
    The Chairman. This has to be done right away, because you 
have been indicating that you are going insolvent in November, 
I guess.
    Ms. Acosta. We are. We are. Definitely, I will be more than 
happy to send you the information.
    The Chairman. Thank you.
    Ms. Acosta. Yes, certainly.
    The Chairman. Number two, what is there to show for the 
resources that were borrowed, coupled with nearly $3 billion 
Puerto Rico received from the Federal stimulus and more than $6 
billion of Medicaid relief funding provided in the Affordable 
Care Act?
    Ms. Acosta. Yes, the monies provided by the Affordable Care 
Act actually reduced the amount that the Puerto Rican 
government was basically putting in the budget from our own 
monies. The amount coming from the general fund, which is our 
own funds, was reduced when we received the ACA, and certainly 
ACA has been a huge relief for Puerto Rico. That is why the 
cliff that is coming in 2018 is going to create a large budget 
problem.
    In regards to the American Recovery and Reinvestment Act 
funds, ARRA funds were----
    The Chairman. Let me get that right. You merged those funds 
with your general funds?
    Ms. Acosta. No, no, no. We do not merge.
    The Chairman. I did not think that----
    Ms. Acosta. We have the health plan that is provided by the 
government to the citizens of Puerto Rico.
    The Chairman. So that is where you put the monies?
    Ms. Acosta. It helped to pay the health plan, exactly. It 
helped to pay the health plan that we provide to the citizens, 
along with general funds, monies from the Governor of Puerto 
Rico.
    The Chairman. All right. The third question I have is, do 
you and others associated with the government in Puerto Rico 
intend to improve the transparency and availability of 
financial and economic data related to Puerto Rico's government 
finances and the health of its economy? If we do not get really 
well-audited figures, it is going to be pretty hard to help 
here. I want to help you; I do not think Puerto Rico is treated 
fairly, for the most part.
    So my goal is to help you, but we are going to have to have 
real figures. We are going to have to have really good 
information from you in order to help you.
    Ms. Acosta. Yes. We totally agree with you that our 
information is not the best information it can be, and 
certainly that is why the fiscal plan that we put together 
actually is investing money in changing our system.
    Part of the plan is that--the systems that we have are very 
old, and the Treasury Department, which is the entity in charge 
of all the expenses and revenues, actually right now is 
acquiring a totaly new system.
    We are putting in new data and different data. For example, 
when we show the fiscal adjustment plan, we also issue a new 
report that has never been issued, so a report prepared by 
Conway MacKenzie, and it has to do with the cash flow of the 
whole government, not only the central government, but all the 
other agencies.
    The Chairman. But you are going to have to provide that to 
us.
    Ms. Acosta. I am more than happy to.
    The Chairman. We will need that as soon as we can get it, 
now.
    Ms. Acosta. Certainly. Certainly. I will send that.
    The Chairman. Let me ask you some questions about Puerto 
Rican pension liabilities, because this is something that is 
bothering a lot of members of Congress. And this is, again, a 
question for you, Ms. Acosta.
    You mention in your written testimony that Puerto Rico's 
public pension plans represent $45 billion in liabilities. That 
is in addition to the $73 billion that has been discussed.
    Ms. Acosta. That is right.
    The Chairman. So you are talking about a lot of money here. 
From what I understand, approximately $18 billion of the 
roughly $73 billion of the Puerto Rican debt that we hear a lot 
about is General Obligation debt backed by the full faith and 
credit of the Commonwealth.
    Now, I wonder if you can tell me whether the pension 
liabilities are also backed by the full faith and credit of the 
Commonwealth and how Puerto Rico plans to deal with its public 
pension debt. Because I understand that is a very, very big 
problem right now.
    Ms. Acosta. No, the pension obligation bonds are not backed 
by the full faith. There is around $3 billion of debt, and 
certainly it is a big problem. You mentioned it is a big 
problem. Both of the largest systems, the teachers and the 
general employees, are running huge deficits. Most of the $45 
billion is coming from those two.
    And the problem is that those systems are running out of 
assets. For both, actually, the assets are depleted by 2018, so 
that means that there are no assets to pay the pension, and 
that means that the money to pay the pensions of Puerto Ricans 
who have retired is going to come from the general fund.
    So we have to find almost another $900 million to put into 
the pension plan so we can keep paying the pensions.
    This is one of the reasons, Congressman, that we are saying 
that we need to restructure debt and we need some time. We need 
some time to adjust our finances. And that time, if our 
creditors actually give us what we probably will be requesting, 
which is some time with no payment of principal and probably no 
interest payment, the idea is to just borrow the money to 
actually put it into the pension plans, because they badly need 
that.
    The Chairman. All right. We have Dr. Holtz-Eakin here, who 
ran our Congressional Budget Office in this country, and who of 
course is a person we rely on rather heavily. And both sides 
do. He is totally honest.
    You have listened to these answers; what are your 
suggestions?
    Dr. Holtz-Eakin. Well, I would echo the importance of 
having a set of transparent, audited financials that are 
comprehensible.
    The Chairman. I think we have those now.
    Dr. Holtz-Eakin. But I think the nature of the analysis is 
also very important. As I mentioned earlier, I have never seen 
a debt sustainability analysis. As you know, the Congressional 
Budget Office puts out a long-term budget outlook on a regular 
basis that contains a debt sustainability analysis. The U.S. 
Federal Government flunks that analysis.
    And we have not seen anything like that for the current 
policy in Puerto Rico, nor have we seen it for the proposed 
reforms, such as the Governor's Work Group, for example.
    Those proposed reforms and anything this committee does 
should contain a real sustainability analysis to find out 
whether the measures are sufficient to solve the problem that 
Puerto Rico faces.
    The Chairman. So you would recommend that we have to get 
this type of material before we really can solve the problem.
    Ms. Acosta. The Anne Krueger report is a debt 
sustainability analysis, and we can happily provide that to you 
too.
    Mr. Pierluisi. Mr. Chairman, if you allow me, I would like 
to comment on a couple of these issues you have raised.
    The Chairman. All right.
    Mr. Pierluisi. I will be brief.
    The Chairman. Well, let me just preface this. One thing 
that bothers me is that I know the government has swelled there 
tremendously, and I presume the pension plans have swelled as 
well.
    And sooner or later, somebody is going to have to get these 
things under control before the American people as a whole, 
including Puerto Ricans, really want to do something about 
this.
    But go ahead. I just want to hear some----
    Mr. Pierluisi. I will be brief. In terms of ARRA funding, 
stimulus funding, it was spent in Puerto Rico in accordance 
with the legislation approved by Congress. I, for one, wanted 
to see more infrastructure project funding, but that was not 
the will of Congress.
    The Chairman. Well, I think you should keep fighting for 
that.
    Mr. Pierluisi. Yes. In terms of Medicaid, the program, I 
remind you that in Puerto Rico the FMAP we have, it is 55/45. 
So we are assuming 45 percent of the expense, whereas if we 
were treated as a State, we would be assuming less than 20 
percent of the expense. And we are not covering anything close 
to 100 percent of Federal poverty level.
    The Chairman. Part of the reason is, you do not pay taxes. 
How do you answer that?
    Mr. Pierluisi. I already discussed, as a matter of policy, 
that that really should not be an issue, because you do help 
people, regardless of their ability to pay Federal taxes. You 
do it nationwide now.
    In terms of financial information, to me there is no excuse 
for the government of Puerto Rico to have failed to publish 
audited financial statements for the last 2 fiscal years. And 
you are definitely entitled to get that information.
    With respect to the budget----
    The Chairman. Let me interrupt. On that point, unless you 
get those to us, I do not see how we can solve any problems 
here. So that has to be the first thing we get, and they have 
to be accurate financials. Let's face it, we have two houses of 
Congress and 535-plus people who are going to have to vote on 
this, and we had better have the right tools and we had better 
have the right information and we had better have the best 
possible economic information, or nothing is going to be done.
    Ms. Acosta. Yes. We now have many financial reports that 
have never, ever been prepared by the government, like the 
quarterly report.
    The Chairman. Well, I am counting on you.
    Ms. Acosta. I will be sending those to you.
    The Chairman. All right.
    Keep going.
    Mr. Pierluisi. In terms of our budgeting system, definitely 
we have to revise the way we budget. We should adopt a zero-
based budgeting system, because we have no margin for error. We 
do not have----
    The Chairman. Well, I understand that you are government-
heavy down there.
    Mr. Pierluisi. Exactly. And I have been criticizing the 
level of spending from day one. The first thing the current 
administration did was to increase spending by about 9 percent, 
by $850 million the first year in office. And I said, ``Do not 
do that.'' They ended up adopting a slew of new taxes that 
affected our ability to grow, affected the private sector.
    But I am not going to belabor that point. We do have to 
change the budgeting system, because we need to justify every 
penny we are spending. In addition, we need to make sure that 
it is not a fictitious budget, that we include in the central 
government budget everything that we are spending on, including 
subsidies to government-owned entities.
    And finally, on your pension liabilities concern, which I 
share, let me just tell you that back in the year 2000, there 
was massive reform of the pension system in Puerto Rico. We 
changed it from an earned pension system to a contribution 
system, back in the year 2000.
    In year 2013, there was another round of reform. And in 
terms of the legal liability here in question, there is Supreme 
Court case law in Puerto Rico recognizing the property and 
contractual rights of pension holders in Puerto Rico, to the 
extent that they are vested, to the extent that they are 
already getting a pension. And there is, I believe, also 
Federal case law along those lines.
    So that is why I share your concern. To the extent those 
liabilities will affect the general revenues of the central 
government of Puerto Rico, it will be hard to deal with, but we 
will be legally obligated to do so.
    Ms. Acosta. Can I just comment quickly on something that 
the Congressman mentioned?
    The Chairman. Sure.
    Ms. Acosta. I think it is important, Congressman, that we 
understand our budget and the changes that have happened from, 
let us say, 2011, 2012, to today.
    The current budget that has been approved for both 2015 and 
2016 contains the total amount of debt that has to be paid. The 
debt service is included.
    The Chairman. We are pretty sure about the debt.
    Ms. Acosta. I know, but in comparison--the Congressman 
keeps saying that we are increasing our budget. The budget has 
increased only in the amount of debt service and the amount 
that we are allocating to the pension because of the program 
that you just mentioned.
    Just to give you an example, in 2012 the budget was $9.2 
billion. But you know what? There was $870 million of debt 
payment, GO and PBA,* government guaranteed debt, that was not 
paid. It was refinanced. And year after year, as Mr. Marxuach 
mentioned, that was commonly known as the ``scoop and toss.'' 
They would scoop the debt and throw it to the future.
---------------------------------------------------------------------------
    * The Puerto Rico Public Buildings Authority.
---------------------------------------------------------------------------
    So that budget of 2012 of $9.2 billion, if you add the $800 
million that was not being paid, it would take you up to over 
$10 billion.
    The current budget is lower. When you look at the 
operational expenses, it is lower. But there is a big chunk of 
debt that we are putting in that was not being paid in the 
past, debt and retirement.
    So no, that is not correct that we have been increasing our 
expenses. We are paying the debt that did not used to be paid, 
and we are taking all the measures. If you look at everything--
services, contracts, professional services--everything is going 
down. The only amounts that are going up are debt and the 
amount that is put in the retirement system.
    It is easy to play with the numbers, but when you look at 
the detail, you can actually understand that we have been 
decreasing the expenses.
    The Chairman. All right.
    Mr. Marxuach. Mr. Chairman, can I add one more thing, since 
you are asking for information?
    The Chairman. Yes.
    Mr. Marxuach. I submitted for the record an analysis of 
Puerto Rico's fiscal balance. I actually did look at the 
audited financials we had available from 1998 to 2013. And I 
provided the committee for the record a summary of both the 
revenue and expenditures sides, including interest pending, so 
the committee could have an idea from that summary that I 
prepared, at least for those 15 years, how spending has 
developed.
    We do not have audited financials for 2014, so that is why 
I had to end my analysis in 2013.
    The Chairman. All right, I will accept that.
    Now, let us finish with Dr. Holtz-Eakin. I am sorry to make 
you the skunk at the picnic, but----
    Dr. Holtz-Eakin. It has happened before, Senator. 
[Laughter.]
    The Chairman. It sure has up here.
    But I would like you to summarize what we ought to do here, 
or at least give us what your recommendations are and bring 
some realism into this so that my fellow members of Congress 
can say, ``All right, we have the facts. Let us see what we can 
do.''
    Dr. Holtz-Eakin. As I emphasized----
    The Chairman. It is a big job I am giving you.
    Dr. Holtz-Eakin. Yes. As I emphasized, the primary focus 
should be on policies that restore economic growth.
    The Chairman. Right.
    Dr. Holtz-Eakin. So, for example, the Governor's Work Group 
put out a proposal. If you look at it, whatever you might think 
of the policy merits on the tax and the spending side, and I 
have some reservations, it does not change the growth 
trajectory. So it does not work.
    So you have to have a fundamental focus on better long-term 
economic growth. Without that, nothing gets solved.
    The Chairman. Well, let me interrupt you for a second. Do 
you think chapter 9 would be a useful tool?
    Dr. Holtz-Eakin. So, there may be a place somewhere down 
the road for chapter 9, but I have deep reservations about the 
inordinate focus on it in dealing with the current crisis. As a 
lesson of life, changing the rules in midstream generates 
unintended consequences, and that is something to worry very 
much about.
    I am not a legal scholar, but I think you should consult 
legal scholars about the applicability of chapter 9 to all the 
institutions that are in Puerto Rico. My understanding is, that 
is an issue.
    It is also important to do the analysis and find out where 
those bonds are. I think roughly 30 percent of the bonds are 
held by Puerto Ricans. And a one-sided haircut, which is what 
chapter 9 provides--it is not a creditor/debtor negotiation; 
this is one-sided by the debtor--that haircut imposed on Puerto 
Ricans is not going to help them.
    So I have been confused by the focus on chapter 9. I do not 
think it is a place that the Judiciary committee should go and 
then just stop. There are much bigger problems that have to be 
dealt with.
    The Chairman. There is a reason why chapter 9 has not been 
supposed to apply. I should say reasons. But I share some of 
your skepticism there.
    Keep going.
    Dr. Holtz-Eakin. I think you have the growth imperative. It 
has to be a growth that builds off the island's inherent 
capabilities. It cannot be something that is a sugar high, 
force-fed by Federal policies.
    I have spent a long time in my tax policy career looking at 
section 936, and it did not serve the island well in the long 
run. And this is an underperforming economy, not for the past 5 
years, the past 10 years, the past 20 years. It has been 
underperforming for a long, long time. It does not match growth 
rates of its Caribbean neighbors. It does not match growth 
rates of the U.S. States.
    So there really has to be a rethinking of it. It is too 
government-centric; there is not enough room for the private 
sector to grow. Puerto Rico has to do its part on some of those 
things.
    But the Congress has to take care of issues like the Jones 
Act, and there really are things that can be helpful to the 
island.
    I am not a big fan of the health spending as growth policy 
or a fix for the budget, but there is a place to make sure, for 
example, that an 11-percent cut in Medicare Advantage in Puerto 
Rico, which is how the vast majority of Medicare recipients are 
served, does not endanger the sustainability of Medicare 
Advantage. Medicare Advantage is one of our better health 
programs, and that is an 11-percent cut when most MA plans are 
getting something that looks like a 2-percent, maybe a 3-
percent increase. I would worry about that.
    So you need to avoid going in the wrong direction on some 
of the social safety net programs while you are building the 
economic growth aspects.
    And there is going to be, I think, no substitute for 
dealing with the budgetary problems within the context of 
Puerto Rico's legislative process and political process. I am, 
again, somewhat skeptical of the applicability of control 
boards, which are meant to circumvent the legislature and 
politics as the solution to this problem. A successful control 
board has to be independent enough and have authority enough to 
impose the desired budgetary remedies. A control board 
independent enough would have to be basically imposed on Puerto 
Rico and infringe on its sovereignty. And I think that is a 
problematic thing for the Federal Government to do.
    A control board that is not of that nature is probably not 
going to be independent enough to be effective.
    So I think a focus on core budgetary solutions through the 
regular order is the way to go, and I do not think Puerto Rico 
is analogous to DC or New York, for that reason. I think it is 
a different animal.
    The Chairman. Well, thank you. This has been a helpful 
hearing to me, and all I can say is, get us the facts and 
figures and let me see what our colleagues on both sides of the 
aisle want to do.
    I am not for doing things that are just going to continue 
the problems--just extend them out. And then we have to find 
some way of having this operate on a fair basis, and we have to 
have a way of showing that as citizens of the United States of 
America, you are going to be treated fairly.
    I would like to see that happen. The question is how, and I 
am not sure we have enough information to really make these 
earthshaking decisions up here. And besides, it is more than 
one committee too. So we will see what we can do.
    I would love to resolve this problem, because I care a 
great deal for the Commonwealth and want you to succeed in 
every way. But I know one thing: it is very government-centric 
and very government-heavy. And that occurred too easily, 
probably.
    All I can say is, help us to know what we can do. This 
hearing is helpful. I am still not sure what to do. If there is 
a board, it probably would have to be independent. If we modify 
title XI to put you in there, there are other factors there 
that militate against that.
    So we could use whatever professional advice you can give 
us up here as to how best to do this and still have Puerto Rico 
rebound upwards, rather than downwards, just keeping programs 
going that literally are not justified.
    So I am open, and I think others on this committee are 
open. I do not think anybody wants to see you suffer or be 
mistreated or not treated fairly, so help us to know what to 
do. And I do think that Dr. Holtz-Eakin is right on a number of 
items here that you should take to heart and see what you can 
do to resolve them.
    Well, with that, I will recess until further notice, and we 
thank all of you for appearing here today. It means a lot to me 
personally. And we will recess until further notice.
    Ms. Acosta. Thank you very much.
    [Whereupon, at 12:05 p.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


    Prepared Statement of Melba Acosta-Febo, President, Government 
             Development Bank for Puerto Rico, San Juan, PR
    Chairman Hatch, Ranking Member Wyden, and members of the Committee:

    My name is Melba Acosta-Febo, and I am the President of the 
Government Development Bank for Puerto Rico (the ``GDB''). Before 
assuming this position in October 2014, I was the Secretary of Treasury 
of the Commonwealth of Puerto Rico.

    I want to thank the Committee for giving the Commonwealth of Puerto 
Rico (``Puerto Rico'') and the GDB the opportunity to participate in 
this hearing. The GDB is charged with safeguarding the long-term fiscal 
stability of Puerto Rico and promoting its economic competitiveness. 
The GDB is also charged with serving as the fiscal agent and financial 
advisor for Puerto Rico and all of its instrumentalities. The GDB has a 
significant interest in and knowledge of the subject matter of this 
hearing.
                       the crisis in puerto rico

    The fiscal, economic, and liquidity crisis in Puerto Rico has 
passed the tipping point. The Legislative Assembly has declared a state 
of emergency, Puerto Rico has lost access to the capital markets on 
sustainable terms, and Puerto Rico faces an economic and liquidity 
crisis beyond what any jurisdiction in the United States has faced in 
generations. This crisis threatens the health, safety and welfare of 
the 3.5 million Americans living in Puerto Rico, many of whom are 
moving to the mainland--notably to Florida--at a rate of almost 100,000 
per year. As I describe below, this crisis did not develop overnight, 
and it is not the result of any one factor, political decision or 
political party. Rather, this crisis is the culmination of decades of 
ill-advised public policy--both in San Juan and in Washington--coupled 
with a persistent stagnating economy, seemingly unlimited access to 
easy credit, and a market willing to lend.

    While the United States economy as a whole has recovered from the 
recent financial crisis, Puerto Rico's economy never came out the other 
side of that crisis, having contracted more than 20 percent in real 
terms over the last 8 years, which few countries in the world have 
experienced. Federal policy towards Puerto Rico has, if anything, 
exacerbated the situation. For example, the repeal and phase-out by 
Congress of Section 936 of the U.S. Internal Revenue Code, which 
provided tax benefits for certain businesses (including large 
pharmaceutical companies) operating in Puerto Rico, has led to a 
significant contraction in employment in Puerto Rico's manufacturing 
sector. By some estimates, between 1996-2014 the phase-out of Section 
936 itself caused the loss of 270,000 jobs when its total effect is 
calculated. Chairman Hatch, to his credit, worked with Puerto Rico and 
introduced a replacement to Section 936 in 2001. Had that legislation 
been enacted, the crisis we find ourselves facing today may well have 
been avoided.

    Puerto Rico's fragile fiscal state and the breakdown of its 
healthcare system have also been adversely affected by chronic 
underfunding of Medicare and Medicaid. Under Medicaid, for example, 
Congress both caps the amount of Medicaid funding that the Federal 
Government provides annually to Puerto Rico ($329 million in 2015) and 
limits the share of Federal matching funds (known as Federal Medical 
Assistance Percentage (FMAP) at a fixed percentage (55 percent)). The 
Patient Protection and Affordable Care Act (ACA) provided some relief 
from these formulaic limitations but those funds are scheduled to be 
depleted in fiscal year 2017. Several members of this Committee 
introduced S. 1961, which would address many of the inequities in how 
Federal healthcare programs are applied to Puerto Rico.

    The contraction of Puerto Rico's economy has resulted in rising 
budget deficits at all levels of government, including at Puerto Rico's 
municipal or ``public'' corporations. Historically, to close 
unanticipated operating deficits, Puerto Rico and its public 
corporations relied on debt financing, and the credit markets had been 
willing to supply the funds. So while the economy has contracted by 
more than 20 percent over the past 8 years, outstanding public debt has 
increased by more than 60 percent. Today, Puerto Rico and its public 
agencies, divisions, instrumentalities and public corporations 
collectively have amassed approximately $73 billion in public debt. In 
addition, Puerto Rico's public pension funds, although subject to a 
major overhaul in 2013 that reduced future accruals, still face 
significant unfunded actuarial accrued liabilities--approximately $45 
billion by some estimates--and will run out of funds altogether to pay 
benefits to their 166,000 beneficiaries by 2018 without substantial 
additional governmental contributions, contributions that will put 
further strain on Puerto Rico's budget.

    Beyond these economic and fiscal constraints, Puerto Rico's labor 
and demographic characteristics are bleak. Unemployment has remained at 
elevated levels since the financial crisis: Puerto Rico's unemployment 
rate as of June 2012 was 14.6 percent but has since dropped to 11.6 
percent as of June 2015 while unemployment in the rest of the United 
States has dropped to 5.1 percent. While the labor participation rate 
in the United States was 62.6 percent as of July 2015, the labor 
participation rate in Puerto Rico was 39.5 percent as of July 2015, 
which is a symptom of deeper structural problems and a combination of 
local and Federal policies that often incentivize individuals not to 
work. In 2014 there were 660,500 non-farm jobs in Puerto Rico, which is 
approximately 100,000 fewer jobs than in 2005 or a 13 percent decline 
over the period; an economy with a total labor force of about 1.2 
million persons lost more than 100,000 jobs in less than a decade. By 
contrast, the number of non-farm jobs in the mainland increased by 4 
percent over the same period. Poverty levels are also extremely high. 
Indeed, the median annual household income is $19,000, which is only 
36.7 percent of the median income in the United States. Moreover, due 
to outmigration to the mainland, Puerto Rico's population has declined 
every year since 2006; the same year of the phase-out of Section 936.

    Puerto Rico's demographic trends are also deeply troubling. The 
remaining population is becoming increasingly elderly and outside the 
labor force. Persons 60 years and older represent more than 20 percent 
of the population (the highest in the United States) and children aged 
5 years or less have decreased from approximately 295,406 in 2000 to 
approximately 187,371 in 2014, a reduction of 37 percent. This means 
Puerto Rico will have fewer people participating in the economy going 
forward, shrinking the tax base and making it more challenging to 
service its outstanding debt and finance necessary public services.
           actions taken by puerto rico to address the crisis
    Puerto Rico's Governor, the Hon. Alejandro Garcia-Padilla, took 
office in 2013. Governor Garcia-Padilla has been honest and forthcoming 
about the crisis that Puerto Rico faces and has forcefully responded to 
these unprecedented challenges in an effort to achieve fiscal 
sustainability and to place Puerto Rico on a path for long-term 
success. Since taking office, the Governor and the Legislature have 
materially reduced budget deficits by raising revenues and cutting 
expenses; imposed unprecedented cost-control measures at the central 
government and public corporations (including suspension of economic 
clauses of collective bargaining agreements, across-the-board freezes 
of wages and salaries, prohibiting extraordinary labor bonuses); 
established strict limits on government payroll (as of May 2015, there 
were 116,000 Central Government employees, compared to 158,000 in May 
2008, a 27 percent reduction in central government employment); 
eliminated subsidies to public corporations such as the Puerto Rico 
Water and Sewer Authority; implemented comprehensive pension reform 
that sought to shift all government employees from defined benefit to 
defined contribution pension plans, and increased employee 
contributions to the retirement systems; enacted a law known as the 
Puerto Rico Public Corporation Debt Enforcement and Recovery Act (the 
``Recovery Act'') to create an orderly process to restructure the debt 
of Puerto Rico's public corporations; approved and overseen ongoing 
debt restructuring negotiations at the Puerto Rico Electric Power 
Authority (``PREPA''); prohibited GDB from providing deficit-financing 
loans; completed and is actively exploring public-private partnerships 
for state-owned assets and operations; and reformed rates at certain 
public corporations.

    These measures build on the work of successive administrations that 
have tried to address Puerto Rico's stagnant economy through a mix of 
policies that have increased taxes, reduced the size of the public 
sector, reduced pensions to current employees, and increased water 
rates and highway tolls. In each case, however, economic growth has 
failed to materialize, and budget deficits have persisted as Puerto 
Rico's tax base has shrunk, creating an even greater dependence on 
deficit financing. As a result of persistent economic stagnation, more 
than half a million Puerto Ricans have left the island in the last 10 
years seeking better opportunities on the mainland. This is a trend 
that does not augur well for our future.

    Notwithstanding 10 years of tax and rate increases and the 
reduction of the government's workforce and reform of government wages 
and benefits, Puerto Rico faces an immediate liquidity crisis resulting 
from its inability to access the credit markets on sustainable terms to 
refinance upcoming debt-service obligations. In recent months, Puerto 
Rico has been forced to implement emergency ``one time'' measures to 
keep the government functioning, including borrowing from the State 
insurance companies, terminating monthly set-aside payments for debt 
service on the central government debt, delaying payment of tax refunds 
to residents and further stretching payment of accounts payables to 
vendors and third parties. While these emergency measures have 
temporarily avoided a shutdown of the Government of Puerto Rico, 
without access to the capital markets to refinance maturing debt, 
Puerto Rico may run out of emergency measures by the end of this year 
(and before a large general obligations payment due in January 2016), 
threatening the ability of the Government to continue to provide 
essential services to its residents and to pay its debts when due. In 
order to protect the 3.5 million citizens of the United States living 
in Puerto Rico, immediate action is required.
                           the krueger report

    After it became apparent that the difficult fiscal adjustment 
measures taken by Puerto Rico in 2013 and 2014 were not having the 
desired result of restarting economic growth and stabilizing public 
finances, the Governor commissioned a team of economists led by Dr. 
Anne Krueger, the former Chief Economist at the World Bank and First 
Deputy Managing Director of the International Monetary Fund (IMF), to 
undertake a comprehensive analysis of Puerto Rico's fiscal and economic 
challenges with the goal of identifying a course of action that could 
return the island to fiscal health and economic growth.

    In June 2015, Dr. Krueger published her findings in a report 
entitled Puerto Rico--A Way Forward, which is commonly referred to as 
the Krueger Report. I have attached a copy of the Krueger Report, for 
inclusion in the hearing record, as Exhibit A,\1\ which I hereby 
incorporate into my testimony. The Krueger Report identified a number 
of economic shocks--including the phase-out of section 936 noted above, 
a sharp decline in home prices during the recent financial crisis, and 
the Great Recession, among others--that have contributed to Puerto 
Rico's economic stagnation. The Krueger Report further identified a 
number of supply side factors contributing to the weak state of the 
economy, including relatively high labor costs, complex labor 
regulation and structural disincentives to work, outmigration of 1 
percent annually (roughly 10 times the rate of West Virginia, the only 
State currently experiencing subzero growth), and the high costs of 
energy and transportation, among others. In addition to economic 
factors, the Krueger Report also identified a number of fiscal problems 
that have contributed to Puerto Rico's unsustainable debt-load. 
Specifically, the Krueger Report indicates that Puerto Rico's revenue 
projections have historically contained extremely optimistic 
assumptions, leading to an annual revenue shortfall of roughly $1.5 
billion.
---------------------------------------------------------------------------
    \1\ The Krueger Report, ``Puerto Rico--A Way Forward'' can be found 
on the Senate Committee on Finance website, or at http://www.gdbpr.com/
documents/PuertoRicoAWayForward.pdf.

    Beyond identifying the cause of Puerto Rico's crisis, the Krueger 
Report identified prescriptive measures to reverse these trends and 
created a model to project future financing gaps after implementing the 
recommended measures. The Krueger Report's recommendations included 
items that must be implemented by Puerto Rico itself, as well as items 
that require assistance and policy change at the Federal Government. 
Critically, the Krueger Report found that even after implementing many 
of the recommended economic and fiscal measures, large residual 
financing gaps would persist well into the next decade, implying a 
critical need for debt relief from a significant proportion of the 
principal and interest falling due in Puerto Rico over the next 6 
years.
                  the fiscal and economic growth plan
    Promptly after the Krueger Report's release, Governor Garcia-
Padilla ordered the creation of the Working Group for the Fiscal and 
Economic Recovery of Puerto Rico (the ``Working Group'') and charged it 
with developing a plan for economic growth and fiscal and institutional 
reform. The Working Group, in conjunction with its advisors, conducted 
extensive due diligence on various Commonwealth funds, agencies and 
public corporations that are supported by taxes and appropriations and 
that have contributed to the fiscal deficits identified in the Krueger 
Report, in order to create a holistic projection of Puerto Rico's 
finances and to examine various measures that could be implemented to 
address ongoing financing gaps. I serve on the Working Group in my 
capacity as President of GDB, and I have intimate familiarity with its 
diligence and findings.

    On September 9, 2015, the Working Group released its conclusions 
and recommendations in a document titled the Puerto Rico Fiscal and 
Economic Growth Plan. I have attached a copy of the Fiscal and Economic 
Growth Plan, for inclusion in the hearing record, as Exhibit B,\2\ 
which I hereby incorporate into my testimony. The Fiscal and Economic 
Growth Plan reviews the historical measures taken to increase taxes and 
reduce expenses; analyzes the current liquidity and fiscal position of 
Puerto Rico; recommends certain fiscal and economic reform and growth 
measures, including measures that require action by the U.S. 
Government; proposes a new law known as the Fiscal Responsibility and 
Economic Revitalization Act that authorizes the Governor to establish 
and appoint members, from a list provided by third parties, to a 
financial control board in Puerto Rico; and identifies significant 
projected financing gaps, even assuming the implementation of the 
recommended fiscal reform and economic growth measures.
---------------------------------------------------------------------------
    \2\ The Working Group for the Fiscal and Economic Recovery of 
Puerto Rico report, Puerto Rico Fiscal and Economic Growth Plan, can be 
found on the Senate Committee on Finance website, or at http://
bgfpr.com/documents/PuertoRicoFiscalandEconomicGrowthPlan9.9.15.pdf.

    Although I have already touched on the historical measures and 
current liquidity and fiscal position of Puerto Rico, I would like to 
highlight briefly certain key portions of the Fiscal and Economic 
---------------------------------------------------------------------------
Growth Plan for the benefit of the Committee.

    First, the Fiscal and Economic Growth Plan calls for significant--
and in many cases, painful--local reforms across nearly all aspects of 
the economy and government. The Fiscal and Economic Growth Plan 
includes reforms to labor and welfare laws, tax and permitting 
simplification and reform, consolidation of schools and the elimination 
of municipal and higher education subsidies. It also proposes the 
adoption of a new accounting systems, a new budgetary process, and 
reforms to the structure of Puerto Rico's Treasury Department in 
particular and fiscal decision-making processes more generally. These 
``structural reforms'' are aimed at spurring economic growth while new 
revenue and expense measures are aimed at restoring Puerto Rico's long-
term fiscal health.

    Second, the Fiscal and Economic Growth Plan proposes legislation to 
be adopted by Puerto Rico's Legislative Assembly that would create an 
independent control board with jurisdiction over most government 
entities in Puerto Rico so as to assure budgetary discipline. Like 
control boards in other jurisdictions, Puerto Rico's control board will 
consist of qualified individuals who have knowledge and expertise in 
finance, management, and the operation of government. The control board 
will have the ability to monitor and ensure compliance with budgetary 
targets.

    Third, the Fiscal and Economic Growth Plan calls on the U.S. 
Government to support Puerto Rico's effort to ensure long-term fiscal 
sustainability and growth. Specifically, the Fiscal and Economic Growth 
Plan calls on Congress to allow Puerto Rico access to a legal framework 
to restructure its liabilities in an orderly process; to provide 
equitable Medicare and Medicaid treatment and funding to address the 
humanitarian concerns tied to the healthcare crisis in Puerto Rico; to 
exempt Puerto Rico from the Jones Act to reduce costs and improve the 
ease of doing business; to modify Federal minimum wages rules, welfare 
programs, and labor laws applicable to Puerto Rico to incentivize 
people to work and increase the labor participation rate; and to 
provide Puerto Rico with a tax treatment that encourages U.S. 
investment and job growth on the island. With respect to this last 
item, the chairman and other members of the committee, as well as our 
Resident Commissioner, the Hon. Pedro Pierluisi, have moved forward 
legislation that would have helped Puerto Rico compete against foreign 
countries and attract manufacturing investment. These pro-growth 
measures could include amending the U.S. Internal Revenue Code to add a 
new Section 933A to permit U.S.-owned businesses in Puerto Rico to 
elect to be treated as U.S. domestic corporations; enacting an economic 
activity tax credit for U.S. investment in Puerto Rico designed as a 
targeted, cost-efficient version of former Section 936 of the Internal 
Revenue Code; and exempting Puerto Rico from base erosion and/or 
minimum tax measures in the event the U.S. moves towards a territorial 
taxation system.

    Finally, like the Krueger Report, the Fiscal and Economic Growth 
Plan recognizes that, notwithstanding implementation of key measures to 
restore growth in Puerto Rico, significant financing gaps will remain 
over the next decade necessitating debt relief across the 
Commonwealth's many different credits. The Working Group's advisors 
have already begun discussions with creditors that own significant 
amounts of Puerto Rico's debt. The goal of these discussions is to 
achieve, through consensual negotiations, an agreement with creditors 
to amend the payment terms of the Commonwealth's debt so as to avoid 
widespread defaults and to give Puerto Rico the breathing room 
necessary to implement the Fiscal and Economic Growth Plan.
debt relief and the necessity of a restructuring regime for puerto rico
    Notwithstanding Puerto Rico's best efforts to adjust its debts in a 
consensual manner as contemplated and discussed above in the context of 
the Fiscal and Economic Growth Plan, the likelihood of success would be 
materially improved if Puerto Rico had a legal framework within which 
to do so. The unavailability of any feasible legislative option to 
adjust debts has created an overall environment of uncertainty that 
makes it more difficult to address Puerto Rico's fiscal challenges and 
further threatens Puerto Rico's economic future. I would like to 
explain why this is so important for Puerto Rico, and how the lack of 
such a framework has already had significant adverse consequences in 
our ongoing restructuring efforts at PREPA.

    As many of you may know, I testified in February before the 
Subcommittee on Regulatory Reform, Commercial, and Antitrust Law of the 
Committee on the Judiciary of the U.S. House of Representatives about 
the harmful effects associated with having no legal regime for debt 
restructuring in the context of a hearing on a bill to extend the 
protections of Chapter 9 to Puerto Rico. I described Puerto Rico's 
attempt to fill a statutory gap left by Congress in the Bankruptcy Code 
through the passage of the Recovery Act. The Recovery Act permits 
Puerto Rico's public corporations to adjust their debt in an orderly 
process--with creditor input and court supervision--much like the U.S. 
Bankruptcy Code while ensuring the continued provision of essential 
public services to residents in the event of a fiscal emergency at one 
of the public corporations.

    Unfortunately, the Recovery Act has been held unconstitutional by 
the U.S. Court of Appeals for the First Circuit on the theory that the 
Recovery Act is preempted by section 903 of the Bankruptcy Code, which 
it held prohibits Puerto Rico from passing a law allowing for the 
adjustment of debt through a method of composition (Puerto Rico has 
filed a petition for certiorari with the Supreme Court of the United 
States). The practical and unfortunate result of this decision is that 
no legal regime is currently available for Puerto Rico to adjust debts 
through a court-supervised process.
    the lack of a restructuring framework already has consequences, 
                        as demonstrated by prepa
    The consequence of this predicament has already shown its impact in 
recent and ongoing debt restructuring discussions between PREPA and its 
creditors. I believe it is helpful to give the committee context as to 
why this is so important. Specifically, PREPA has been able to reach a 
consensual agreement with a substantial group of its bondholders (both 
original and secondary market purchasers) and all of its fuel line 
lenders, which collectively hold nearly $4 billion of PREPA's 
outstanding obligations. However, a consensual restructuring has been 
held up by a few institutions that, in the absence of an effective 
debt-restructuring regime, can try to hold up or opt out of a 
comprehensive restructuring. The Recovery Act was specifically designed 
to avert this free rider situation.

    What is more, even if all of the major institutional creditors with 
whom PREPA is currently negotiating were to agree to a consensual debt 
restructuring plan, the unavailability of a court to oversee the 
restructuring process and, ultimately, approve and validate the plan, 
adds complexity, cost, and delay to the process, none of which is in 
the interests of creditors, consumers, or PREPA's other stakeholders. 
Indeed, parties will be hesitant to lend new money, or buy new 
securities, without the finality offered by the approval of an 
adjustment plan by a court of competent jurisdiction as contemplated in 
Chapter 9 or the Recovery Act. In addition, without such a framework, 
even if PREPA reaches a consensual agreement with all of its key 
creditor groups, in the absence of an ability to bind ``holdouts'' such 
as could be achieved through a process like Chapter 9 or the Recovery 
Act, there is a built-in incentive for ``free riders'' to sit on the 
sidelines while other creditors bear the burden of the debt adjustment. 
The cost of dealing with such ``free riders'' is ultimately borne by 
the creditors that participate in the restructuring. In a worst-case 
scenario, free-riders can drive up the costs of a restructuring to the 
point where no deal can be consummated, even with creditors who would 
otherwise be willing to participate, because the cooperative creditors 
are unwilling to subsidize the recoveries of the holdouts. This problem 
would not exist under Chapter 9 or a Recovery Act framework where a 
supermajority of creditors willing to compromise can bind a dissenting 
minority looking for a free ride.

    Finally, it is worth emphasizing two of the primary benefits of a 
bankruptcy regime. The first is the availability of interim or 
``Debtor-in-Possession'' financing while negotiations with creditors 
ensue, which has the critical benefit of avoiding a liquidity crisis. 
Such financing is not available under current law. With no court 
empowered to approve and supervise such financing, the Commonwealth and 
its instrumentalities will continue to deplete much-needed resources 
until a consensual restructuring is consummated. Access to such interim 
financing would help ensure that the Commonwealth and its 
instrumentalities can continue to provide basic government services to 
its residents while debt adjustments are implemented and a resolution 
to the debt restructuring discussions is achieved. Second, in the event 
that efforts to reach a consensual agreement fail, there would be a 
stay against creditor suits that would help protect the residents of 
Puerto Rico and the island's economy from the legal morass that would 
ensue.

    In the case of PREPA, if negotiations continue for any lengthy 
period of time (as they have so far), or an event beyond PREPA's 
control occurs (such as a hurricane that generates unanticipated 
costs), PREPA could be left unable to provide power to millions of 
Americans. I need not explain the health and humanitarian consequences 
in such a scenario.

    To be clear, I discuss PREPA only as one example of the difficulty 
of restructuring debts in the absence of a clear legal regime. And 
while PREPA is making progress towards a consensual restructuring, 
PREPA has been in negotiations for well over a year and a number of 
significant creditors continue to hold out, hoping to free ride on 
those creditors who have already agreed to the deal. But for Puerto 
Rico, PREPA is only one of the nearly 17 Puerto Rico issuers that may 
need to adjust their debt as contemplated by the Fiscal and Economic 
Growth Plan. The absence of a legal regime to restructure the 
Commonwealth's liabilities in an orderly process may potentially doom 
the ability of the Commonwealth and its creditors to achieve a 
comprehensive debt restructuring that will allow Puerto Rico to jump 
start its stagnant economy.
                               conclusion
    In conclusion, I would like to reiterate that the situation in 
Puerto Rico has passed the tipping point, and that Puerto Rico, in the 
face of an immediate liquidity crisis, has no access to the capital 
markets on sustainable terms and faces significant financing gaps over 
the next decade. Puerto Rico has taken the important step of developing 
a clear roadmap to address these challenges, which roadmap requires the 
implementation of difficult and painful measures, including the 
creation of a control board to monitor spending and compliance with the 
fiscal and economic growth plan.

    I stress that while reasonable minds may differ as to the propriety 
of the specific measures that need to be taken--both at the local and 
Federal levels--the fact remains that Puerto Rico faces significant 
liquidity and financing shortfalls that require the U.S. Government to 
act. Congress must act now because the failure to act is not an option 
for the 3.5 million Americans living in Puerto Rico. Indeed, Federal 
action is essential, as outlined in the Krueger Report and the Fiscal 
and Economic Growth Plan and discussed in detail above, including 
parity for Medicaid and Medicare funding. Puerto Rico also speaks in 
unison in seeking access to a legal regime to adjust its debts as one 
necessary and critical step to achieving the objectives of the Fiscal 
and Economic Growth Plan.

    The current crisis in Puerto Rico has been long in the making; it 
is the byproduct of a now decade-long stagnation in economic activity 
on the island, stagnation that threatens the ability of Puerto Rico to 
meet the essential needs of its residents and to avoid a disorderly 
default on its $73 billion of indebtedness. But, as part of the United 
States and subject to its laws and regulations, Puerto Rico can only do 
so much for itself to mitigate the crisis and avoid these devastating 
results. It needs the assistance of the U.S. Government to get out of 
this crisis, to achieve equitable funding in important Federal programs 
such as Medicaid and Medicare, to eliminate discrimination against it 
(versus the Virgin Islands, for example) in the application of the 
Jones Act and to give it access to an insolvency regime to facilitate 
an orderly restructuring of its debts. These areas in which we need 
immediate changes in Federal law and policy can help to facilitate an 
orderly resolution of Puerto Rico's current crisis. We have been unable 
to forestall a more chaotic situation by executing ``one time'' 
emergency measures; however, without an insolvency regime there will be 
greater loses to our creditors, our economy and our people.

    I thank the Committee for recognizing the urgency of these matters 
by holding this hearing, and for giving the Puerto Rico and the GDB the 
opportunity to participate here today. I look forward to working with 
all of the members of the Committee to ensure that the health, safety 
and well-being of 3.5 million United States citizens is safeguarded and 
to making common cause with you in creating a better future for all the 
residents of Puerto Rico.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement at a hearing to examine 
Puerto Rico's current economic conditions and long-term fiscal health:

    Good morning and welcome to today's hearing to consider the various 
financial and economic challenges in Puerto Rico.

    We've all watched with great interest as the debt situation in 
Puerto Rico has unfolded. Whenever we talk about this issue, there are 
a number of interested parties, including policymakers here in 
Washington, bond holders, and, of course, the people of Puerto Rico.

    According to statements from the Puerto Rican Government, the 
territory's debt of more than $72 billion is ``not payable.'' Some of 
that debt includes General Obligation bonds which have a constitutional 
first priority, and some includes debt of public corporations. In all, 
we're talking about roughly 17 different debt-issuing entities in 
Puerto Rico.

    Puerto Rico's debt has more than doubled since 2000, despite the 
billions of dollars infused into its coffers from the Federal stimulus 
enacted in 2009 and from health care funding increases included in the 
Affordable Care Act. Even with those boosts in Federal funding and the 
related increases in Commonwealth spending, all we see is added 
Commonwealth debt. Moreover, there is a lack of reliable data 
indicating what Puerto Rico has to show in return in terms of 
infrastructure, efficiencies, and improved economic performance.

    One reason we're having this hearing today is to give us a chance 
to gather additional information. As Senator Grassley--a former 
Chairman of the Finance Committee--can attest, this panel has done a 
great deal over the years to clarify the interplay between issues like 
Federal tax and health care policy and the impact they have on Puerto 
Rico and other territories.

    I know that Ranking Member Wyden is committed to working with me to 
update and improve our understanding of this situation so that Congress 
can make decisions using the best available information. I think it 
would be extremely difficult to ask Congress to make important 
decisions and appropriately allocate resources without first 
understanding what the facts are and what problems need to be fixed.

    Accompanying today's hearing, we have made available an updated 
overview of Federal tax policy and its interplay with Puerto Rico. This 
document was produced by our friends at the Joint Committee on 
Taxation. We also have several reports addressing Federal health care 
policies and Puerto Rico provided by the Congressional Research 
Service. And I've made public the responses that I received from 
inquiries I made to the Department of Health and Human Services on this 
issue.

    In the days leading up to this hearing, I have heard from many 
interested parties, virtually all of whom have their own ideas about 
what needs to be done here. Some of these proposals have been helpful; 
others, not so much.

    For example, I have heard that we can expect to see increased 
strains on Puerto Rico's health care system, especially given the 
demographic and economic realities on the island. One source of this 
stress seems to stem from the Affordable Care Act, which contains 
future cliffs where funding will be pared down and, according to some, 
these cliffs will hit Puerto Rico particularly hard.

    Of course, for me it is not surprising to learn that there are 
inequities and financial harms resulting from the health care law. Even 
so, these problems and any proposed solutions are multidimensional and 
extremely complicated. Questions of funding and resource allocation are 
always difficult, and they implicate a number of issues. It isn't as 
simple as just deciding to give more health funds to Puerto Rico, 
because doing so would necessarily mean reduced funding for other 
priorities, increased taxes, or even more Federal debt.

    That is the unpleasant budget arithmetic that we face. There are no 
easy answers.

    For a long time, the people of Puerto Rico have suffered under a 
weak economy, including double-digit unemployment rates, very low labor 
force participation rates, and a bloated public sector. With many 
residents of the island facing a lack of opportunity or any 
expectations of a brighter future, Puerto Rico has increasingly seen 
out-migration.

    All of this contributes to the fiscal challenges the territory now 
faces.

    According to independent analysts, there are significant barriers 
to job creation and labor force participation in Puerto Rico. Some of 
these barriers stem from Federal entitlement programs. Others can be 
attributed to the application of other Federal laws and regulations.

    For example, analysts across the political spectrum agree that 
Federal laws have increased the cost of energy in Puerto Rico and that 
the island's regulatory processes and bureaucratic red tape stifle 
business activity. And sadly, for the children in Puerto Rico, its 
education system, to quote Secretary of Education Duncan, ``has been 
plagued by a revolving door of leaders and political patronage.''

    In short, and to put it mildly, Puerto Rico faces enormous fiscal 
and economic challenges. While the government of Puerto Rico has taken 
some steps in recent years to address these matters, many more 
changes--significant and fundamental changes--needed to be made.

    Fortunately, Puerto Rico has a number of advantages to its credit, 
and we have seen successful turnarounds from over-indebtedness 
elsewhere, such as here in the District of Columbia and in New York 
City. I hope to see Puerto Rico join the list of successful turnaround 
experiences and I know that everyone here wants the people of Puerto 
Rico to experience a future with increased economic opportunity and 
growth.

    Before I conclude, I just want to make sure we acknowledge the 
negative long-term impact Puerto Rico's unsustainable debt has had and 
will continue to have on the island's residents and what lessons we 
should take from their experience.

    As the Congressional Budget Office has repeatedly warned over the 
past several years, despite some recent declines, our Federal deficits 
under current law will soon rise again and Federal debt will grow, as 
it has in Puerto Rico, to beyond 100 percent of the size of our 
economy. According to CBO, if we don't change course, we will 
increasingly have less fiscal flexibility and we run the risk of a 
fiscal crisis at the Federal level. Absent some kind of fundamental 
correction, it is not hard to imagine the devastating effects from 
unsustainable debt that are now being felt by Americans living and 
trying to work in Puerto Rico also being felt throughout the entire 
country.

    Now, I will close by noting that this is the Finance Committee, 
with broad areas of jurisdiction, including Federal tax policy and 
health care policy. There are, of course, many other aspects of Federal 
policy that are also relevant to Puerto Rico's situation but fall into 
other committees' areas of jurisdiction, including Federal labor 
policies, Federal laws governing shipping vessels, bankruptcy law, and 
others. However, I ask that our witnesses keep their focus on areas of 
Finance Committee jurisdiction.

    This is not, for example, a hearing on chapter 9 of the bankruptcy 
code or a hearing on Puerto Rico's status as a territory.

    With that, I wish to welcome all of our witnesses, and I will now 
recognize Ranking Member Wyden for his opening statement.

                                 ______
                                 
         Prepared Statement of Douglas Holtz-Eakin, President, 
                        American Action Forum *
---------------------------------------------------------------------------
    * The opinions expressed herein are mine alone and do not represent 
the position of the American Action Forum. I thank Gordon Gray, Sarah 
Hale, and Curtis Arndt for their assistance.
---------------------------------------------------------------------------
                              introduction
    Chairman Hatch, Ranking Member Wyden, and members of the Committee, 
I am pleased to have the opportunity to appear today. In this 
testimony, I wish to make three basic points:

    Puerto Rico's economic outlook is poor, reflecting a continuation 
        of past, steady declines in output and employment. This 
        trajectory could be stabilized or substantially improved with 
        policy reforms.

    Puerto Rico's budget outlook is dire, but is not beyond being put 
        on a sustainable trajectory with sound policies that do not 
        defer difficult choices.

    The policy choices arrayed before Puerto Rican and Federal 
        policymakers should be evaluated based on the degree to which 
        they address root causes of the Commonwealth's budget 
        challenges. The most widely discussed change, Chapter 9 
        bankruptcy protection for Puerto Rican governmental entities, 
        would not improve economic growth, would not change the budget 
        trajectory, and is not something that should be pursued at this 
        time.

    I will discuss each in additional detail.
                            economic outlook
    The Puerto Rican economy has been in steady decline for over a 
decade, which has and will continue to exacerbate the Commonwealth's 
fiscal challenges. The strict mathematical and practical reality is 
that any sustainable solution to Puerto Rico's must involve an economic 
growth component that boosts output, employment rolls, and income.
Economic Output
    Puerto Rico has seen real output plummet since 2005, while Moody's 
predicts essentially stagnant territorial income for the next decade. 
This growth assumption incorporates an expectation of the inability of 
the Commonwealth to strike the proper balance between fiscal 
consolidation and economic growth. Pure austerity--poorly targeted tax 
increases and indiscriminate cessation of services--would have anti-
growth effects and could contribute to tepid growth in the future, 
while more innovative fiscal consolidation approaches could be 
buttressed by enhanced revenues from stronger growth.

    Unemployment peaked in 2010, with an increase of nearly 50 percent 
from 2005. While this high rate of joblessness has attenuated, it is 
projected to remain at persistently high levels--averaging nearly 13 
percent over the next 10 years.

    A key contributor to Puerto Rico's economic challenge has been net 
emigration. Over 300,000 Puerto Ricans have left since 2005, with net 
emigration and population decline expected to persist for the next 
decade, albeit at a slower pace. This has significantly curtailed the 
Commonwealth's labor force as a whole. Despite a declining population, 
the labor force participation rate has declined apace, highlighting 
structural weakness in labor markets beyond net emigration.

    Echoing other indicators of the labor markets, payrolls have 
declined precipitously in the past 10 years, while a policy-agnostic 
outlook assumes flat employment levels over time. Stable payrolls 
however, compared to recent experience, are a positive sign and could 
provide policymakers with a predictable wage and tax base in the 
contemplation of future fiscal policies.

Figure 1: Historical and Projected Output

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 2: Unemployment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Figure 3: Labor Force Trends

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Figure 4: Employment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 5: Total Personal Income

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Personal Income growth has remained under 3 percent since 2008 and 
is projected to average about 2 percent over the next 10 years. While 
far from ideal, stable income growth paired with steady payrolls could 
again provide a predictable wage and tax base around which to design 
pro-growth, fiscal consolidation.
                      summary of economic outlook
    Every major economic indicator of Puerto Rico's economic well-being 
shows a Commonwealth in a protracted retrenchment. However, there are 
indications that major emigration flows and steep economic declines may 
have passed, leaving a trajectory of tepid though predictable growth. 
How Puerto Rico addresses its fiscal challenges, however, could 
radically alter this outlook for good or for ill.
                             budget outlook
    By any objective measure, the budget outlook for Puerto Rico is 
troubling. The Commonwealth, through policy choices compounded by 
economic difficulty, has seen its debt obligations grow inexorably over 
the past decade and is projected to continue. Addressing these dual 
challenges is essential to an improved budgetary trajectory. This 
necessity must also reconcile immediate concerns over liquidity with 
the need for longer-term structural reforms.
Historical and Recent Developments
    Puerto Rico has maintained structural deficits for some time, 
driven by economic conditions, policy choices, and unrealistic revenue 
and expenditure estimates.\1\ Accounting for timing shifts and non-
recurring budget events, structural deficits have been and will remain 
considerable.
---------------------------------------------------------------------------
    \1\ http://www.bgfpr.com/documents/puertoricoawayforward.pdf.
---------------------------------------------------------------------------

Figure 6: Structural Deficits

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The analysis by the Center for a New Economy of Puerto Rico's 
finances is instructive here.\2\
---------------------------------------------------------------------------
    \2\ http://grupocne.org/2015/06/16/fiscal-situation-update-
analysis-of-the-governors-budget-request-for-fiscal-year-2016/.

    With persistent borrowing, debt service has grown as a share of 
general fund expenditures. More indicative of a borrower's ability to 
repay debt however, is debt service as a share of revenues. This simple 
metric incorporates many elements that signal a borrower's wherewithal 
to manage debt: interest reflects not only past borrowing, but the 
terms and credit worthiness of the borrower demonstrated by the 
interest rate underlying debt service costs; revenue reflects the 
strength of the economy and the ability of a government to harness 
national resources through tax policy. A common bright-line for 
identifying distressed sovereign borrowers is when interest exceeds 10 
percent of revenues. The Commonwealth reached this level as of March 
2015.

Figure 7: General Fund Debt Service Burden

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Figure 8: Public Debt

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    General fund debt has risen rapidly, but is only part of the 
problem. Puerto Rico's debt portfolio is largely driven by entities 
other than the central government. The Commonwealth's public sector 
debt has more than tripled over the last 15 years, rising to over $72 
billion today.\3\ The composition of this debt however, is instructive, 
and reveals the complicated nature of financing the Commonwealth's 
expenditures.
---------------------------------------------------------------------------
    \3\ http://www.bgfpr.com/documents/CommonwealthQR-5-7-15.pdf.
    \4\ This reflects most of what comprises the Commonwealth's debt. 
For specific exclusions, see footnotes 1 and 2 on page 63 of: http://
www.bgfpr.com/documents/CommonwealthQR-5-7-15.pdf.


                                     Table 1: Composition of Public Debt \4\
----------------------------------------------------------------------------------------------------------------
                                                                                     Public
                    Year                        Commonwealth    Municipalities    Corporations        Total
----------------------------------------------------------------------------------------------------------------
2009........................................           9,939            2,997           40,044           52,980
2010........................................          10,303            3,231           43,289           56,823
2011........................................          10,363            3,537           45,284           59,184
2012........................................          11,844            3,872           49,045           64,760
2013........................................          12,329            3,882           48,746           64,957
2014........................................          14,336            4,193           48,744           67,273
2015........................................          15,050            4,114           48,079           67,244
----------------------------------------------------------------------------------------------------------------
Source: Quarterly Report of the Commonwealth of Puerto Rico.


    As of June 2015, the public sector debt for Puerto Rico stood at 
$71.1 billion. Over $48 billion of this total is attributed to debt 
issued by Puerto Rico's public corporations.\5\
---------------------------------------------------------------------------
    \5\ http://www.bgfpr.com/documents/
PuertoRicoFiscalandEconomicGrowthPlan9.9.15.pdf.


                 Table 2: Debts of Public Corporations
------------------------------------------------------------------------
                                                             Total Bonds
                     Public Corporation                       and Notes
------------------------------------------------------------------------
Aqueduct and Sewer Authority...............................        4,779
Convention Center District Authority.......................          554
Electric Power Authority...................................        9,054
Highways and Transportation Authority......................        6,530
Housing Finance Authority..................................          263
Industrial Development Company.............................          262
Infrastructure Financing Authority.........................        2,184
Port of the Americas Authority.............................          235
Ports Authority............................................          275
Public Buildings Authority.................................        4,316
Public Finance Corporation.................................        1,091
Sales Taxes Financing Corp. (COFINA).......................       15,224
University of Puerto Rico..................................          556
Others.....................................................        2,757
                                                            ------------
    Total..................................................       48,079
------------------------------------------------------------------------
Source: Quarterly Report of the Commonwealth of Puerto Rico

    These entities provide public and business-like services to 
Commonwealth residents, with the bulk of the indebtedness comprised of 
debt of the Sales Tax Financing Corp (COFINA), which in itself was 
originally created to finances existing debts; the Island's power 
utility (PREPA), which has recently agreed to a restructuring of some 
of its mature obligations; the Highway and Transportation Authority 
(PRHTA); the Aqueduct and Sewer Authority (PRASA); and the Public 
Buildings Authority (PBA). The major ratings agencies have continuously 
downgraded the general obligations of the Commonwealth as well as 
issuances of Puerto Rico's principal public corporations, which are 
rated below investment grade by Fitch, Moody's and S&P.\6\
---------------------------------------------------------------------------
    \6\ http://www.bgfpr.com/documents/SupplementtoQuarterlyReport6-30-
15.pdf.
---------------------------------------------------------------------------
Near Term Challenges and Outlook
    Prospectively, the Commonwealth faces significant challenges in 
both the near and long term. Of most immediate concern is the claim 
that Puerto Rico is facing a liquidity crisis, and will be unable to 
meet its payment obligations beginning in November of this year.\7\ The 
financial advisor to the Government Development Bank for Puerto Rico 
estimates that this cash constraint will persist through December 
before improving until June. At that point Puerto Rico is again 
expected to face a liquidity challenge. It is important to note that 
this advisor also expects that the Commonwealth will be able to manage 
the immediate challenge. Moreover, the June challenge does not appear 
insurmountable, as the cash flow analysis that underpins the June 
shortfall assumes certain payments that should not take priority over 
existing obligations such as deferred tax refunds and ``economic 
development fund'' expenditures.
---------------------------------------------------------------------------
    \7\ http://www.bgfpr.com/documents/
150825ConwayMacKenzieLiquidityUpdateReport.pdf.
---------------------------------------------------------------------------
Longer Term Challenges
    As noted above, the GDP outlook is poor, with growth remaining 
depressed over the foreseeable future. The Commonwealth's future 
financing gap is also a source of serious concern.

Figure 9: Projected Borrowing Needs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    According to a recent estimate by former first deputy managing 
director of the International Monetary Fund, Anne Krueger and others, 
under current policy and accounting for other factors, the Commonwealth 
faces a financing gap of over $64 billion over the next 10 years.\8\ 
Under current conditions, capital markets are highly unlikely to supply 
this financing to the Commonwealth. Accordingly, long-lasting and 
meaningful policies must be pursued to confront the duel challenge of 
tepid growth and an unsustainable fiscal outlook.
---------------------------------------------------------------------------
    \8\ http://www.bgfpr.com/documents/puertoricoawayforward.pdf.

    Any approach to altering Puerto Rico's budget trajectory must 
improve the employment outlook. These should include lowering the 
Federal minimum wage to levels appropriate for the island's wage scale. 
The Federal minimum wage is quite high relative to wages in the 
Commonwealth--the ratio of the minimum wage to the median wage is 77 
percent, the highest of any State or territory. The next highest (South 
Dakota and Guam) is 59 percent, which would require a minimum wage of 
$5.55 in Puerto Rico. Lowering the minimum wage to put Puerto Rico in 
the middle of the rankings of States and territories would require a 
minimum wage of $4.50. The minimum wage is simply too high for Puerto 
---------------------------------------------------------------------------
Rico.

    At the same time, the Commonwealth should undertake reforms of its 
labor market to bring employment practices into closer alignment with 
the rest of the United States. Some degree of these approaches was 
recognized in the ``Fiscal and Economic Growth Plan,'' but reforms 
should go farther than the plan pursues.\9\ For example, the Governor's 
plan would seek to exempt Puerto Rico from future minimum wage 
increases rather than reduce the current wage and would maintain, 
albeit with eased exemption, mandatory December bonuses.
---------------------------------------------------------------------------
    \9\ http://www.bgfpr.com/documents/
PuertoRicoFiscalandEconomicGrowthPlan9.9.15.pdf.

    Additional reforms should be pursued to reduce regulatory 
impediments and other burdens on business. These efforts should include 
addressing concerns for shipping costs by reforming the application of 
the Jones Act to Puerto Rico. While the Government Accountability 
Office did not make a conclusive determination of what overall effect 
this might have, limited exemptions, such as for natural gas, could be 
beneficial.\10\
---------------------------------------------------------------------------
    \10\ http://www.ny.frb.org/outreach-and-education/puerto-rico/2014/
Puerto-Rico-Report-2014.pdf.

    Beyond these measures, Puerto Rican policy makers should address 
reforms at root causes, rather than defer these challenges. This 
includes measures to enhance economic growth, as well as the key 
drivers of the Commonwealth's budget challenges. This should include 
structural reforms aimed at Puerto Rico's major public sector 
corporations, as well as pensions. Some of the reforms to the public-
sector corporations pursued in the ``Fiscal and Economic Growth Plan,'' 
such as depoliticizing PREPA, are worthwhile but insufficient. In the 
cases of some of these large public-sector corporations, PREPA in 
particular, a privatization should be considered, both from the 
standpoint of the Commonwealth's balance sheet, as well as efficient 
delivery of services. Addressing unneeded municipal expense should form 
part of a budget plan. In some municipalities, 98 percent of budgets 
are payrolls, which suggests that these entities could be consolidated 
without diminishing services.\11\ Puerto Rico has undertaken important 
pension reforms in the past several years, but with public pension 
liabilities of $43.5 billion, this area of Commonwealth finance must 
also be further reformed.\12\ While additional tax collection should be 
part of the Commonwealth's budget reforms, it should not reflect the 
bulk of the solution, which must be found among the key drivers of 
Puerto Rico's debt.
---------------------------------------------------------------------------
    \11\ http://www.caribbeanbusinesspr.com/prnt_ed/municipalities-can-
save-money-and-be-more-efficient-with-county-system-11093.html.
    \12\ http://grupocne.org/2015/06/16/fiscal-situation-update-
analysis-of-the-governors-budget-request-for-fiscal-year-2016/.

    I am less optimistic regarding the appointment of a control board 
with the authority to institute meaningful budget reforms. Control 
boards were involved in addressing budget challenges in New York and 
Washington DC. Unfortunately, it is hard to imagine a board that 
simultaneously respects the sovereignty of the Commonwealth and has 
sufficient political independence to be successful. For example, the 
board proposed in the ``Fiscal and Economic Growth Plan,'' would be 
---------------------------------------------------------------------------
relatively limited in its scope and authority.

    What the Commonwealth should not be pursuing, and what Congress 
should not entertain, is extension of Chapter 9 bankruptcy law to the 
government corporations. Chapter 9 would not increase economic growth. 
Chapter 9 would not alter the fundamental fiscal trajectory. For these 
reasons, it should not be pursued, at least at this time.

    Moreover, it could hinder future well-being in the Commonwealth. 
First, while Puerto Rico will face challenges seeking financing in 
capital markets, Chapter 9 would enshrine these challenges with 
perpetually higher borrowing costs at such time that Puerto Rico is 
even able to access external financing. Chapter 9 would not address the 
root causes of Puerto Rico's ills, but rather defer them to future 
generations.
                               conclusion
    The economic and budgetary outlook for Puerto Rico is dimmed by 
past experience. If meaningful policy reforms are not put in place to 
address the persistently low growth, outmigration and high 
unemployment, then the budgetary outlook will remain distressed. As a 
complement, if the major institutions and elements of Puerto Rico's 
debt growth are left unreformed, then the economic outlook will be 
further damaged by a debt crisis and resulting diminished investment. 
Both facets of Puerto Rico's challenge must be addressed 
simultaneously, an effort that would dramatically improve the 
Commonwealth's future.

                                 ______
                                 
       Questions Submitted for the Record to Douglas Holtz-Eakin
               Questions Submitted by Hon. Orrin G. Hatch
    Question. Would you recommend any changes in federal tax policy 
that would affect Puerto Rico and, if so, what specific changes would 
you recommend and why?

    Answer. Puerto Rico is in part dependent on federal reimbursements 
of rum excise taxes. These reimbursements are currently based on an 
enhanced, ``temporary'' basis that is routinely renewed in Congress's 
annual tax ``extenders'' package. If this package is not renewed, 
Puerto Rico (and the U.S. Virgin Islands) would receive lower 
reimbursements--a combined $168 million in subsidies.\1\ As part of 
broader tax reform measures, Congress should regularize its tax 
policies to improve predictability and stability of provisions like the 
extenders.
---------------------------------------------------------------------------
    \1\ https://www.jct.gov/publications.html?func=startdown&id=4677.

    Question. We've all heard the argument that the so-called 
Affordable Care Act provided streams of elevated health care funding 
for Puerto Rico that came with cliffs, where the ramped up spending 
will, under the law, be lowered down the road. Now, some people--
including more than a few outspoken proponents of the Affordable Care 
Act--are telling us that those cliffs will cause undue harm to the 
people of Puerto Rico and must be either eliminated or delayed. As I 
said in my opening statement, it is no surprise to me that the 
---------------------------------------------------------------------------
Affordable Care Act imposes harm on Americans.

    My question is whether you agree with me that, if the funding 
cliffs written into that law are simply removed by effectively 
increasing federal health care funding to Puerto Rico, we will 
necessarily see reduced healthcare funds for states, fewer available 
funds for other federal programs, higher taxes, expanded debt, or some 
combination of all of these outcomes. Do you share that view? Why or 
why not.

    Answer. I agree. Increasing federal outlays for Puerto Rico 
involves either higher taxes or borrowing by the Treasury. 
Alternatively, it would be possible to avoid this by cutting spending 
elsewhere--either state-based health programs or other priorities.

    As an aside, there is no compelling case to remove the sunset. As 
was made clear by Melba Acosta in her responses to your questions, when 
the ACA funding was provided Puerto Rico cut its spending on health and 
directed it elsewhere. Obviously a higher level of health spending was 
not desired or Puerto Rico would have kept its funding in place. When 
the ACA cliff occurs, the same sequence can simply be run in reverse.

                                 ______
                                 
      Prepared Statement of Sergio M. Marxuach, Policy Director, 
                 Center for a New Economy, San Juan, PR
        ``The paths of progress in history have proved to be more 
        devious and unpredictable than the putative managers of history 
        could understand.''

        --Reinhold Niebuhr, ``The Irony of American History'' (1952)

    Good morning, Chairman Hatch, Ranking Member Wyden, and members of 
the United States Senate Committee on Finance. For the record, my name 
is Sergio Marxuach, and I am the Policy Director at the Center for a 
New Economy, Puerto Rico's only, not-for-profit, independent, and non-
partisan think tank. I thank you for the opportunity to appear today 
before this Committee to discuss Puerto Rico's financial and economic 
challenges.

    Puerto Rico, usually invisible to the U.S. media, has been in the 
news recently, especially since the governor announced that the 
island's public debt of $72 billion, equivalent to 103 percent of its 
GNP, was ``unpayable'' and needs to be restructured.\1\
---------------------------------------------------------------------------
    \1\ In Puerto Rico, GNP, which measures income earned by residents 
or by locally owned production factors, is a more accurate measure of 
economic activity than GDP, due to distortions induced by the transfer 
pricing practices of multinational companies operating in the island. 
For a technical analysis of the GNP/GDP gap in Puerto Rico, see 
``Economic Growth'' by Barry P. Bosworth and Susan M. Collins in The 
Economy of Puerto Rico: Restoring Growth (Brookings Institution Press: 
Washington, DC, 2006), p. 17-81.

    The island, a U.S. territory since 1898, has experienced severe 
economic problems for several years now. Its economy has been 
contracting or stagnant at least since 2006, and unemployment, poverty, 
and inequality levels are extremely high, especially in comparison with 
the 50 States in the mainland.\2\
---------------------------------------------------------------------------
    \2\ To put the situation in perspective, consider that Puerto 
Rico's per capita income is one third of the United States' and close 
to one half of the poorest State, Mississippi; its poverty rate is 46 
percent in comparison with 15 percent in the United States as a whole; 
and 38 percent of its population receives nutritional assistance, while 
only 13 percent of the population in the 50 States receives such 
assistance.

    Furthermore, decades of fiscal and economic mismanagement have 
engendered an economy characterized by: (1) chronic primary deficits; 
(2) high debt-to-GNP ratios; (3) low employment levels in the formal 
economy; (4) a large informal economy, encompassing both legal and 
illegal activities; (5) significant government corruption and predatory 
rent-seeking behavior in both the public and private sectors; \3\ (6) 
substantial tax evasion; (7) a hollow productive base; and (8) high 
levels of private consumption and indebtedness enabled by having access 
to a stronger currency than its economic fundamentals would warrant. In 
our opinion, the parallels with Greece are quite evident for all to see 
and none to misunderstand.
---------------------------------------------------------------------------
    \3\ ``Rent-seeking'' can be defined as the pursuit of uncompensated 
value from other economic agents, in contrast with profit-seeking, 
where economic agents seek to create value through mutually beneficial 
economic activity.

    Notwithstanding this dismal economic situation, the island managed 
to triple its public debt from $24 billion in 2000 to $72 billion in 
2015. Indeed, during this period Puerto Rico's public indebtedness grew 
at a compound annual rate of 7.6 percent, while its income (GNP) grew 
---------------------------------------------------------------------------
at a nominal rate of only 3.6 percent.

    Given that Puerto Rico's indebtedness grew at an average annual 
rate two times faster than the growth rate of its GNP during the past 
15 years, it should not be surprising that Puerto Rico's public debt 
currently exceeds its GNP. To be fair, however, for decades the 
borrowed money was put to good use to finance the construction of 
public schools, hospitals, highways, and other essential 
infrastructure. The problem is that during the last 20 years or so, a 
large portion of the money borrowed by issuing long-term debt was used 
to finance budget deficits, operating expenses, and classic pork-barrel 
spending.

    We at CNE had warned for years that Puerto Rico's levels and rates 
of indebtedness were not sustainable.\4\ In February 2014, the three 
principal rating agencies ratified our analysis by downgrading the 
Commonwealth's debt, as well as debt issued by several of its agencies 
and instrumentalities, to speculative or non-
investment grade. Since then, the Commonwealth and its agencies and 
instrumentalities have been downgraded further by the three main rating 
agencies.
---------------------------------------------------------------------------
    \4\ See, for example, CNE's Policy Brief--Municipal Fiscal Crises 
in the United States: Lessons and Policy Recommendations for Puerto 
Rico, published in April 2006.

    The rating downgrades had a material adverse effect on the 
Commonwealth's finances because they essentially shutdown its access to 
the capital markets, at least at reasonable rates. This, at a time when 
the central government is still running a sizeable budget deficit, 
several of the Commonwealth's agencies and instrumentalities face 
significant maturities in the near term, the economy is contracting at 
an estimated annual rate of 1.2 percent, liquidity is running extremely 
tight, and net outmigration has increased to levels not seen since the 
---------------------------------------------------------------------------
1960s.

    Given the magnitude and multiplicity of challenges faced by Puerto 
Rico, it should be obvious that there are no quick fixes to solve the 
island's fiscal and economic problems.

    In our opinion, what is needed in the short-term is a two-prong 
action program, both at the Federal level and in Puerto Rico. In 
Washington, Congress needs to implement a comprehensive program, remove 
some of the disadvantages imposed on Puerto Rico under the current 
political arrangement, and eliminate some long-standing discriminatory 
policies. The current situation simply does not allow for piecemeal 
action by Washington, a wide-ranging plan is needed.

    Specifically, this Committee could introduce legislation on two 
issues that could have a positive and significant short-term impact on 
both the fiscal and economic growth parts of the problem.

    On the fiscal side, the cost of the Government Health Plan is one 
of the principal drivers of Puerto Rico's budget deficit.\5\ Providing 
Puerto Rico equal treatment under Federal health programs, such as 
Medicare, Medicaid, and the Affordable Care Act would provide the 
Commonwealth with some much-needed fiscal space and address a long-
standing injustice inflicted on Puerto Ricans. For the truth of the 
matter is that Puerto Rican workers and employers pay the same payroll 
taxes as workers and employers in the mainland, yet benefits to Puerto 
Rico are unfairly rationed by Federal legislation.\6\
---------------------------------------------------------------------------
    \5\ Commonwealth of Puerto Rico Quarterly Report, dated May 7, 
2015, p. 20-21 and 37-40.
    \6\ See United States Government Accountability Office, U.S. 
Insular Areas: Multiple Factors Affect Federal Health Care Funding, 
GAO-06-75 (October 2005), and Puerto Rico: Information on How Statehood 
Would Potentially Affect Selected Federal Programs and Revenue Sources, 
GAO-14-31 (March 2014).

    On the economic growth side of the equation, we recommend extending 
the Federal Earned Income Tax Credit (EITC) program to Puerto Rico. The 
Federal EITC is the most effective anti-poverty program in the United 
States. Recent research also shows that it encourages work, promotes 
savings, helps poor families smooth out the effect of unexpected 
financial shocks, and builds a strong sense of future orientation among 
recipients.\7\ Extending this program to Puerto Rico, which would 
provide a significant wage supplement to Puerto Rican working families, 
could be expected to stimulate aggregate demand in the short-run.
---------------------------------------------------------------------------
    \7\ See Bruce D. Meyer, ``The Effects of the Earned Income Tax 
Credit and Recent Reforms'' in Tax Policy and the Economy, Volume 24, 
Jeffrey R. Brown, ed. (University of Chicago Press, 2010); Sara 
Sternberg Greene, The Broken Safety Net: A Study of Earned Income Tax 
Credit Recipients and a Proposal for Repair, New York University Law 
Review, Vol. 88, No. 2, May 2013; V. Joseph Hotz, Charles H. Mullin, 
and John Karl Scholz, Examining the Effect of the Earned Income Tax 
Credit on the Labor Market Participation of Families on Welfare, NBER 
Working Paper 11968 (National Bureau of Economic Research: Cambridge, 
MA, 2006); and Chuck Marr, Chye-Ching Huang, and Arloc Sherman, Earned 
Income Tax Credit Promotes Work, Encourages Children at School, 
Research Finds (Center on Budget and Policy Priorities: Washington, DC, 
2014), among others.

    Outside the scope of this Committee's jurisdiction, a Federal 
comprehensive policy package could include approving legislation to 
authorize the Puerto Rican Government to allow its distressed agencies 
and municipalities to file for bankruptcy under Chapter 9 of the U.S. 
Bankruptcy Code; exempting Puerto Rico from coast-wise shipping laws 
(Jones Act), which require the use of relatively expensive U.S. vessels 
for trade between Puerto Rico and the U.S., and approving legislation 
to relax the overly binding income and asset limits that apply to 
---------------------------------------------------------------------------
recipients of certain social assistance programs.

    This Federal assistance would be conditioned on Puerto Rico 
agreeing to (1) increase tax revenues by improving enforcement efforts, 
closing down ineffective tax loopholes, and modernizing its property 
tax system; (2) crack down on government corruption; (3) significantly 
improve its Byzantine and unduly opaque financial reporting; (4) reform 
an unnecessarily complicated permitting and licensing system that 
stifles innovation; (5) undertake affirmative actions to materially 
lower energy and other costs of doing business in the island; and (6) 
substantially improve educational standards.

    In addition to all of the above, Puerto Rico also needs to obtain 
some debt relief. After years of relying on accounting gimmicks, 
forward refundings; back-loaded ``scoop and toss'' refinancings, 
capitalized interest payments, and other short-term, expensive 
liquidity fixes, the Commonwealth has finally admitted that its debt is 
unsustainable.

    While it is true that Puerto Rico's capacity to repay its debt 
ultimately depends on restoring economic growth in the island, there 
can be no economic recovery without debt sustainability and that, in 
turn, is not possible without significantly restructuring at least some 
of the debt.

    According to a recent paper by Carmen Reinhart and Christoph 
Trebesch, `` `kicking the can down the road' via cash flow relief and 
debt rescheduling does not facilitate economic recovery in debtor 
countries. In protracted crises, growth only picks up after deeper debt 
relief, such as after the Brady plan.'' \8\
---------------------------------------------------------------------------
    \8\ Carmen M. Reinhart and Christoph Trebesch, Sovereign Debt 
Relief and Its Aftermath, Faculty Research Working Paper Series, John 
F. Kennedy School of Government, RWP 15-028 (June 2015), p. 33.

    Analyzing 35 debt relief episodes in 30 middle and high-income 
countries during period between 1978 and 2010, these researchers found 
(1) that ``sovereign debt relief averaged . . . 16 percent of GDP and 
36 percent of external debt in the middle-high-income emerging markets 
[crises]'' during that period and (2) emerging market countries that 
received significant debt relief reported, on average, an 11 percent 
increase in per capita income during the 5 years following ``decisive 
---------------------------------------------------------------------------
debt relief.''

    They conclude that ``softer forms of crisis resolution, such as 
debt rescheduling, temporary payment standstills, and bridge lending 
operations were not generally followed by higher growth and better 
ratings;'' and, ``These crisis resolution tools were ineffective in 
solving debt crises that had been dragging on for several years.'' \9\ 
Therefore, obtaining significant debt relief for Puerto Rico appears to 
be a necessary condition to restore economic growth in the island.
---------------------------------------------------------------------------
    \9\ Id. at p. 34.

    On the other hand, it should be obvious that obtaining debt relief 
is not sufficient, in and of itself, to jumpstart economic growth. The 
important point in the case of Puerto Rico, is that any savings derived 
from a reduction in debt service be used exclusively to advance and 
implement a renewed industrial policy, broadly defined, based on 
horizontal policies such as the ones described above, discovering new 
sectorial opportunities through a process of dialogue and consultations 
with key stakeholders in the private and civic spheres, and 
``identifying spillovers, externalities, and other areas where society 
could learn more.'' \10\
---------------------------------------------------------------------------
    \10\ Joseph E. Stiglitz and Bruce C. Greenwald, Creating a Learning 
Society: A New Approach to Growth, Development, and Social Progress 
(Columbia University Press: New York, 2014), 
p. 489.

    This new learning, in turn, would lead to: new investment in R&D, 
increased productivity, identifying new areas of comparative advantage 
for Puerto Rican firms, higher economic growth and the creation of 
high-quality jobs, which at the end of the day is what will 
categorically end Puerto Rico's economic stagnation. We at the Center 
for a New Economy are currently working with experts from Columbia, 
Brown, MIT, and Brookings, among other institutions, to develop this 
---------------------------------------------------------------------------
medium to long-term industrial policy for Puerto Rico.

    Finally, I would be negligent if I did not raise the question of 
whether Puerto Rico has reached the limits of what it can do to improve 
the quality of life of its people within the constraints imposed by its 
subordinate political status. Neither a sovereign country nor a State 
of the union, Puerto Rico has no authority to negotiate international 
treaties, no access to emergency financing from multilateral 
institutions, no monetary policy instruments, limited fiscal policy 
tools, nominal representation in Congress, and the U.S. Supreme Court 
has determined it is constitutionally permissible for Congress to 
discriminate against Puerto Rico in the application of Federal programs 
as long as there exists a ``rational basis'' for doing so.

    Thus, Puerto Rico lives in a state of permanent limbo, a status 
that is both humiliating to Puerto Ricans and unworthy of the United 
States. Simply stating that it is up to Puerto Ricans to decide their 
political status, while true, is insufficient because the United 
States' Congress has long-standing legal and moral obligations with 
respect to Puerto Rico that it has failed to honor. Congressional 
failure to act not only highlights a shameful lack of political will, 
it also weakens the United States' moral standing and its ability to 
effectively utilize its ``soft power'' in the international arena, when 
it argues for better treatment for Hong Kong by China, for the 
Palestinians by Israel, or for Greece by members of the Eurozone.\11\
---------------------------------------------------------------------------
    \11\ See Joseph S. Nye, Jr., Soft Power: The Means to Success in 
World Politics (Public Affairs: New York, 2005)

    In this context I would like to quote from the remarks made just a 
few days ago by an extraordinary man who came to this magnificent 
building to address a rare joint session of Congress. Drawing from a 
deep well of wisdom that has accumulated for over twenty centuries, he 
---------------------------------------------------------------------------
stated:

    ``Your own responsibility as members of Congress is to enable this 
country, by your legislative activity, to grow as a nation. You are the 
face of its people, their representatives. You are called to defend and 
preserve the dignity of your fellow citizens in the tireless and 
demanding pursuit of the common good, for this is the chief aim of all 
politics. A political society endures when it seeks, as a vocation, to 
satisfy common needs by stimulating the growth of all its members, 
especially those in situations of greater vulnerability or risk. 
Legislative activity is always based on care for the people. To this 
you have been invited, called and convened by those who elected you.'' 
\12\
---------------------------------------------------------------------------
    \12\  Pope Francis, remarks before the Congress of the United 
States of America, September 24, 2015.

    In conclusion, Mr. Chairman, I thank you and the Committee once 
again for the opportunity to participate in this important public 
policy debate and look forward to answering any questions that you or 
---------------------------------------------------------------------------
Committee Members may deem appropriate.

    See also, ``Puerto Rico Fiscal Balance, 1998-2013,'' Sergio M. 
Marxuach, Center for a New Economy, September 29, 2015 and ``Analysis 
of the Governor's Budget Request for Fiscal Year 2016,'' Sergio M. 
Marxuach, Center for a New Economy, June 2015, http://
www.finance.senate.gov/imo/media/doc/Senate%20Finance%20Testi
mony%20-%20Sergio%20Marxuach.pdf.

                                 ______
                                 
        Questions Submitted for the Record to Sergio M. Marxuach
               Question Submitted by Hon. Orrin G. Hatch
    Question. Would you recommend any changes in federal tax policy 
that would affect Puerto Rico and, if so, what specific changes would 
you recommend and why?

    Answer. We recommend extending the federal Earned Income Tax Credit 
(``EITC'') program to Puerto Rico. The federal EITC is the most 
effective anti-poverty program in the United States. Recent research 
also shows that it encourages work, promotes savings, helps poor 
families smooth out the effect of unexpected financial shocks, and 
builds a strong sense of future orientation among recipients.\1\ 
Extending this program to Puerto Rico, which would provide a 
significant wage supplement to low-income Puerto Rican working 
families, could be expected to stimulate aggregate demand in the short-
run.
---------------------------------------------------------------------------
    \1\ See Bruce D. Meyer, ``The Effects of the Earned Income Tax 
Credit and Recent Reforms'' in Tax Policy and the Economy, Volume 24, 
Jeffrey R. Brown, ed. (University of Chicago Press, 2010); Sara 
Sternberg Greene, The Broken Safety Net: A Study of Earned Income Tax 
Credit Recipients and a Proposal for Repair, New York University Law 
Review, Vol. 88, No. 2, May 2013; V. Joseph Hotz, Charles H. Mullin, 
and John Karl Scholz, Examining the Effect of the Earned Income Tax 
Credit on the Labor Market Participation of Families on Welfare, NBER 
Working Paper 11968 (National Bureau of Economic Research: Cambridge, 
MA, 2006); and Chuck Marr, Chye-Ching Huang, and Arloc Sherman, Earned 
Income Tax Credit Promotes Work, Encourages Children at School, 
Research Finds (Center on Budget and Policy Priorities: Washington, DC, 
2014), among others.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
    Question. Paired federal-local action: You say that what is needed 
for Puerto Rico in the short term is ``a two-prong action program, both 
at the federal level and in Puerto Rico.'' On the Federal side you 
recommend: equal treatment under federal health programs; extending the 
EITC; allowing municipalities access to Chapter 9 of the Bankruptcy 
Code; an exemption from the Jones Act; and relaxing income and asset 
limits on certain social assistance programs. This federal assistance, 
you say, should be conditioned on Puerto Rico agreeing to: increasing 
tax revenues by improving enforcement, closing loopholes and reforming 
property taxes; cracking down on corruption; improving financial 
reporting; reforming permitting and licensing; lowering energy costs; 
and improving educational standards.

    Assuming Congress is prepared to enact some of the Federal actions 
you recommend provided Puerto Rico agrees to some of the conditions you 
recommended, what do you recommend as a mechanism to monitor and 
enforce Puerto Rico's implementation of the conditions you have 
recommended?

    Answer. See our answer to the question on partnership below.

    Question. Would you describe in a bit more detail the six 
conditions you have recommended that Puerto Rico agree to, and describe 
for each whether the Puerto Rico government has developed a plan and 
taken meaningful steps to implement each recommendation?

    Answer. In general, tax revenues are a function of (1) compliance 
and enforcement; (2) legislation; and (3) economic growth.

    Tax evasion in Puerto Rico is widespread, and tax enforcement 
traditionally has been lax and fairly slipshod. To put it 
diplomatically, there is certainly room for improvement in this area.

    In terms of legislation, the Puerto Rico tax code is chock-full of 
credits, deductions, exclusions, exemptions, and special rates that 
have been enacted in a scattershot manner to promote ``economic 
growth.'' Part of the problem is that the Puerto Rico Department of the 
Treasury has no instruments to measure the effectiveness of these tax 
expenditures in generating either growth or employment and they 
significantly erode the tax base, resulting in a tax system with 
relatively high statutory rates applied to a relatively small base. 
That is precisely the opposite of the mainstream consensus among tax 
economists who favor low rates applied to a relatively large tax base 
to in order to minimize economic distortions.

    Furthermore, the property tax system in Puerto Rico has not been 
thoroughly overhauled since the 1950s. This has resulted in a situation 
that can be charitably characterized as dysfunctional.

    Finally, economic growth has been stagnant at least since 2006, so 
there has been little revenue growth generated from economic activity.

    To be fair, the Government of Puerto Rico hired KPMG in 2013 to 
carry out an extensive analysis of the Treasury Department's 
operations, to propose changes to the tax code and other improvements 
to the tax collection system. Unfortunately many of these 
recommendations have not been implemented.

    Second, the corruption of government institutions is particularly 
harmful to economic growth as it engenders social mistrust, has a 
chilling effect on investment, and leads to the inefficient allocation 
of scarce resources. From an economic perspective, good institutions 
ensure at least two desirable outcomes: first, they guarantee that 
there is relatively equal access to economic opportunity, what is 
commonly referred to as a ``level playing field;'' and second, they 
ensure that those who provide labor and capital are appropriately 
rewarded and their property rights are protected.

    Puerto Rico may be reaching the outer limits of its government 
institutional framework, as the economic playing field is increasingly 
tilted in favor of those with political connections and the providers 
of both labor and capital are concerned about the protection of their 
respective rights. Simply put, reforming our institutions and 
eradicating corruption from the system is a necessary condition, but 
not sufficient, to reignite economic growth in the island.

    Third, the Commonwealth has had longstanding problems with its 
accounting, financial and fiscal controls, and thus, with its financial 
reporting in general. According to the most recent Commonwealth Report:

        The Commonwealth's accounting, payroll and fiscal oversight 
        information systems have deficiencies due to obsolescence and 
        lack of compatibility that have adversely affected the 
        Commonwealth's ability to supervise and control expenditures. 
        Agencies often incur expense overruns that are not detected in 
        time to permit the implementation of corrective measures during 
        the same fiscal year. At the present time, three of the 
        Commonwealth's agencies which are responsible for over 50% of 
        the General Fund expenses have separate accounting systems that 
        are unable to interact on a timely basis with the 
        Commonwealth's central accounting system. In addition, the 
        Commonwealth's central accounting system still relies on 
        various manual processes for recordkeeping that are only 
        reviewed and updated at the end of the fiscal year in 
        connection with the issuance of the audited financial 
        statements. These deficiencies also affect the Commonwealth's 
        ability to timely and accurately report financial information 
        to the market, and to complete its audited financial statements 
        in a timely manner. (emphasis is ours)

        A committee named by the Secretary of Treasury to evaluate and 
        submit recommendations with respect to the Commonwealth's 
        accounting systems has concluded its work and presented its 
        findings and recommendations to the Secretary of Treasury. Such 
        findings and recommendations are being evaluated to determine 
        next steps. Some of the proposed changes are expected to 
        improve the Commonwealth's ability to monitor, control and 
        forecast expenses.\2\
---------------------------------------------------------------------------
    \2\ Commonwealth of Puerto Rico, Financial Information and 
Operating Data Report, November 6, 2015, p. 42.

    Fourth, for decades the government of the Commonwealth has 
unsuccessfully tried to reform an unnecessarily complicated permitting 
and licensing system that stifles innovation. The permitting process--
whereby the government oversees construction and real estate 
development projects, the commercial use of equipment and facilities, 
and the periodic renewal of various business licenses--suffers from 
several serious problems. These problems raise the costs of doing 
business, undercut the drive for employment growth, and retard economic 
---------------------------------------------------------------------------
development.

    Puerto Rico's regulatory environment deters business entry, hampers 
job creation, and erodes competitive pressures in many ways. 
Occupational licensing requirements create artificial entry barriers, 
restricting the supply of services and raising prices to consumers. 
Government oversight of business entry and location decisions raises 
entry costs and affords commercial rivals the opportunity to block 
entry. ``Buy local'' laws insulate business interests from foreign 
competition and raise prices for consumers. Like many provisions of the 
tax code, these aspects of the regulatory environment serve special 
business interests at the expense of the general welfare. They reflect 
and promote a business culture focused on rent seeking.

    Fifth, the Puerto Rico Electric Power Authority (``PREPA'') 
supplies substantially all of the electricity consumed in the 
Commonwealth. PREPA owns all transmission and distribution facilities 
and most of the generating facilities that constitute Puerto Rico's 
electric power system.

    Notwithstanding its state-sanctioned monopoly status, PREPA managed 
to sustain net losses of $267 million during fiscal year 2014, compared 
with net losses of $283 million during fiscal year 2013 and net losses 
of $346 million during fiscal year 2012.

    PREPA's operating results have been adversely affected in recent 
years by a decrease in electric energy demand caused in part by a 
declining population and a prolonged recession, high fuel costs which 
result from reliance on oil for energy generation, high capital 
expenditure requirements associated with ageing generating facilities, 
and a high level of debt. As of September 30, 2015, PREPA's debt 
included $8.229 billion of outstanding revenue bonds and $696 million 
under bank working capital lines of credit. PREPA also owed GDB 
approximately $35 million under a line of credit.

    During the past year or so, the Government of Puerto Rico has taken 
several steps to restructure PREPA. For example:

        On May 27, 2014, the Governor signed into law Act No. 57 of 
2014 (``Act 57-2014''), known as ``The Energy Transformation and Relief 
of Puerto Rico Act.'' Act 57-2014 provides that two entities will 
oversee the new law's implementation. The Puerto Rico State Office of 
Energy Policy (``SOEP'') (formerly the Energy Affairs Administration), 
will be responsible for developing and promoting the Commonwealth's 
energy policy, and the Puerto Rico Energy Commission (``PREC''), will 
be responsible for overseeing and regulating the implementation of the 
Commonwealth's energy policy. Among its duties, PREC will be 
responsible for approving the electricity rates proposed by PREPA.

        In August 2014, PREPA initiated negotiations with its 
principal creditors, including bondholders, bank lenders, monoline 
insurers, and the GDB to restructure its debt.

        In September 2015, PREPA announced it had reached agreements 
``in principle'' to restructure its debt with an Ad Hoc Group of 
Bondholders that own approximately 35% of PREPA's outstanding bonds and 
with a group of bank lenders.

        The effectiveness of those agreements, however, is contingent 
on the Puerto Rico legislature approving the so-called PREPA 
Revitalization Act. According to the most recent Commonwealth Report: 
``The PREPA Revitalization Act sets forth a framework for PREPA to 
execute on the agreements with creditors reached to date. Among other 
things, the PREPA Revitalization Act would (1) enhance PREPA's 
governance processes; (2) adjust PREPA's practices for hiring and 
managing management personnel; (3) change PREPA's processes for 
collecting outstanding bills from public and private entities; (4) 
improve the transparency of PREPA's billing practices; (5) implement a 
competitive bidding process for soliciting third party investment in 
PREPA's infrastructure; (6) allow for the refinancing of existing PREPA 
bonds through a securitization that would reduce PREPA's indebtedness 
and cost of borrowing; and (7) set forth an expedited process for the 
Energy Commission to approve or reject PREPA's proposal for a new rate 
structure that is consistent with its recovery plan.'' \3\
---------------------------------------------------------------------------
    \3\ Commonwealth of Puerto Rico, Financial Information and 
Operating Data Report, November 6, 2015, p. 197-198.

    As of the date of this document, however, it is not clear whether 
(1) Garcia-Padilla has the votes to enact the PREPA Revitalization Act 
or (2) a final agreement will be reached with PREPA's creditors. Nor 
has the Administration put forth an estimated date of when all these 
reforms will have a positive net effect on rates paid by PREPA's 
---------------------------------------------------------------------------
customers.

    Sixth, a dramatic gain in educational attainment stands out as a 
major contributor to Puerto Rico's past economic growth. However, there 
is evidence that this area of former strength is now encountering 
significant problems. Families that can afford to do so are abandoning 
the public school system in response to problems of violence, 
perceptions of declining quality, and a lack of accountability at all 
levels. These problems are similar to those faced by many large urban 
systems on the mainland, but the rate of deterioration seems more rapid 
in Puerto Rico.

    The Puerto Rico Senate recently passed a bill for major education 
reform in Puerto Rico. As of this writing, however, the Puerto Rico 
House of Representatives has not acted on this bill. If enacted and 
signed into law by the governor, it is probable that different interest 
groups within the Puerto Rico Department of Education Bureaucracy will 
oppose the implementation of this reform.

    Question. Case studies: On page 6, you write about an analysis of 
35 debt relief episodes in 30 countries.

    Did this analysis include an examination of monitoring and control 
mechanisms that were used to ensure implementation of financial and 
policy reforms?

    Answer. No. Most, though not all, of the debt relief episodes 
analyzed in that paper occurred in the context of negotiating a 
structural reform package as a predicate for obtaining short-term 
liquidity from the International Monetary Fund. The IMF usually 
monitors the progress of the implementation of financial and policy 
reforms in countries that have agreed to undertake the implementation 
of structural adjustment policies.

    Question. What advice would you give the Committee regarding 
mechanisms to ensure implementation of reforms?

    Answer. See our answer to the question on partnership below.

    Question. Partnership: Currently, the U.S. Treasury has a Puerto 
Rico Working Group that is providing technical assistance to the Puerto 
Rico Government. In addition, the Governor is recommending the 
establishment of a local Control Board to implement elements of his 5-
year plan.

    Do you have any suggestions on ways that the local Control Board 
and the Treasury Working Group could be brought more closely together 
in partnership to better assure positive outcomes?

    Answer. This is really a political economy problem. On the one 
hand, if the Treasury Working Group takes over the fiscal oversight 
function completely it may suffer from a lack of legitimacy and 
representation. On the other hand, the proposed Commonwealth's Control 
Board, as structured right now, may suffer from a lack of credibility 
with the capital markets and, it may fail, due to political pressures, 
to impose adequate accountability standards on other agencies of the 
Puerto Rican government. The problem therefore is to identify the 
proper tradeoff between these two options.

    In this case we recommend the Committee analyze the option of 
establishing a fiscal council with representatives from both the 
Federal and the Commonwealth governments and from the private sector. 
According to the International Monetary Fund:

        Fiscal councils are independent public institutions aimed at 
        promoting sustainable public finances through various 
        functions, including public assessments of fiscal plans and 
        performance, and the evaluation or provision of macroeconomic 
        and budgetary forecasts. By fostering transparency and 
        promoting a culture of stability, they can raise reputational 
        and electoral costs of undesirable policies and broken 
        commitments.\4\
---------------------------------------------------------------------------
    \4\ International Monetary Fund, The Functions and Impact of Fiscal 
Councils, IMF Policy Paper, July 16, 2013, p. 1.

    These councils have been used, with mixed success to be honest, in 
several countries to stabilize government finances and oversee the 
---------------------------------------------------------------------------
implementation of fiscal and economic reforms.

    Question. Industrial Policy: On page 7, you mention the CNE's work 
with experts at Columbia, Brown, MIT, Brookings and others to develop a 
medium to long-term industrial policy for Puerto Rico.

    Can you outline the general approach that this research is taking 
and when you expect that a formal paper on this work will be available?

    Answer. What Puerto Rico needs the most is to grow its economy. 
Short-term fixes will not work and short sightedness by the government 
on matters pertaining to economic development is partly to blame for 
our current situation. It is important to understand that the 
comparable situation here is not that of a two-year business cycle. A 
more realistic time horizon for registering significant economic gains 
in a country could be up to 10 years.

    Crafting development and growth strategies is an endeavor best 
suited to academics and economic development experts. It should also 
stem from a country dialogue process to insure legitimacy and sustained 
acceptance by civil society. A project like this is already underway 
and led by CNE. The project is identified as the Roundtable for a New 
Economy, and in it, CNE and its partners--Professor Joseph Stiglitz and 
the Initiative for Policy Dialogue at Columbia University (IPD), the 
Brookings Institution (BI), and the Watson Institute for International 
Studies and Public Affairs at Brown University--aim to create a 
transformation agenda based on well-thought policy solutions that 
command the support of a broad group of key stakeholders. This novel 
project combines top-notch research and civic engagement to transcend 
the current juncture and restructure the island's outdated economic 
model.

    Unique in resources, structure and processes, this bold initiative 
will inspire first-class actionable research and policy making as the 
foundation for a series of dialogues that will engage a wide swath of 
Puerto Rican stakeholders in considering, discussing, crafting and 
implementing the optimal policy solutions to current challenges. We are 
working within a three-year time horizon to produce and divulge 
specific research products and policy proposals, but are currently 
accelerating the project's timeline due to the urgency of Puerto Rico's 
situation.

                                 ______
                                 
Prepared Statement of Hon. Pedro R. Pierluisi, Resident Commissioner of 
               Puerto Rico, U.S. House of Representatives
    Chairman Hatch, Ranking Member Wyden, and members of the committee:

    Thank you for holding this hearing and inviting me to testify.

    Puerto Rico, a U.S. territory home to 3.5 million American 
citizens, is experiencing the most severe crisis in its history. At the 
outset, it is important to emphasize that the crisis in Puerto Rico is 
not new; it has been simmering for years without attracting much 
attention. Now that it has reached a particularly acute stage, the 
press and the public have taken notice. My testimony will outline the 
nature of the crisis and then recommend concrete steps that can be 
taken at the local and Federal level to resolve it.

    My constituents are understandably weary of studies, reports, plans 
and working groups. They are tired of empty promises and ill-informed 
proposals. They want, and they deserve, action on the part of political 
leaders in San Juan and Washington, DC. They seek smart policies, 
swiftly implemented, that will have a tangible impact on their lives.

    Accordingly, my testimony will focus less on explaining how bad 
things are and more on how we as policymakers can make them better. I 
will look backward only to the extent it helps delineate a path 
forward.
                        the nature of the crisis
    The current crisis has three main components.

    First, the crisis is economic. Puerto Rico is a U.S. jurisdiction, 
so the 50 States--not foreign nations--serve as the proper point of 
comparison. By any economic metric, the performance gap between the 
States and the territory is large. Puerto Rico's economy has lagged 
behind that of the States for at least four decades. Except for one 
year of slight growth in fiscal year 2012, Puerto Rico's economy--as 
measured by the territory's gross national product--has contracted 
every year since fiscal year 2007.\1\ The Puerto Rico Government 
Development Bank's Economic Activity Index (GDB-EAI), which is highly 
correlated with GNP, has fallen by 20 percent since 2005.\2\ Since the 
Federal Government began collecting state-by-state statistics in the 
1970s, Puerto Rico's unemployment rate has always been far higher and 
its labor participation rate--the share of adults in a jurisdiction 
working or seeking work--has always been far lower than those of any 
State. Puerto Rico's current unemployment rate is 11.6 percent, 
compared to a U.S. national average of 5.1 percent. Approximately 
995,000 individuals are employed in Puerto Rico, about 220,000 (22 
percent) of whom are employed by the central government, its public 
corporations, or one of the island's 78 municipal governments. The 
number of people currently working in Puerto Rico--995,000--is nearly 
250,000 (or 20 percent) less than the number of people who were working 
on the island a decade ago in August 2005. Meanwhile, over 130,000 
individuals are presently seeking, but cannot obtain, employment.\3\ 
Many other individuals have stopped searching for work altogether. The 
territory's labor participation rate is under 40 percent, compared to a 
U.S. national average of over 62 percent.\4\ The number of island 
residents living at or below the Federal poverty level exceeds 46 
percent, compared to a national average of about 16 percent.\5\
---------------------------------------------------------------------------
    \1\ See ``An Update on the Competitiveness of Puerto Rico's 
Economy,'' Federal Reserve Bank of New York (July 31, 2014), at page 3, 
available at www.newyorkfed.org/outreach-and-education/puerto-rico/
2014/Puerto-Rico-Report-2014.pdf. Gross national product is generally 
considered a more accurate measure of Puerto Rico's economy than gross 
domestic product.
    \2\ See Puerto Rico Fiscal and Economic Growth Plan, Working Group 
for the Fiscal and Economic Recovery of Puerto Rico, at page 8 
(September 9, 2015), available at www.bgfpr.com/; see also GDB-EAI 
(June 2015), at page 7, available at www.bgfpr.com/documents/2015-Jun-
GDB-EAI.pdf.
    \3\ See Bureau of Labor Statistics, U.S. Department of Labor, 
available at www.bls.gov/eag/eag.pr.htm and data.bls.gov/timeseries/
LASST720000000000003.
    \4\ See Puerto Rico Institute of Statistics (July 2015), at page 3, 
available at www.estadisticas.gobierno.pr/iepr/Estadisticas/
InventariodeEstadisticas/tabid/186/ctl/view_
detail/mid/775/report_id/2b640ee2-d186-45b9-84a1-765e7345c188/
Default.aspx?f=1.3,1.4,2 (citing a labor participation rate of 39.5 
percent).
    \5\ See U.S. Census Bureau, 2014 American Community Survey, 
available at www.factfinder.census.gov/faces/tableservices/jsf/pages/
productview.xhtml?fpt=table.

    Second, Puerto Rico's crisis is fiscal. Although it is difficult to 
paint a completely accurate historical picture of Puerto Rico's public 
finances, because statistics published by the government of Puerto Rico 
are often unavailable, incomplete or inconsistent with other official 
sources of information, there is no dispute that the central 
government's annual expenditures have exceeded its annual revenues for 
many years. Moreover, Puerto Rico has numerous bond-issuing public 
corporations that provide a variety of essential services, and several 
of these corporations are in severe financial distress and have 
accumulated significant debt over the last 15 years. Puerto Rico's 
total public sector debt has steadily grown since the mid-1980s, with 
the sharpest increase taking place in the period since 2001, when the 
government of Puerto Rico began to shift from borrowing for capital 
investment to borrowing to fund government operations, to compensate 
for declining revenue resulting from economic weakness, and to cover 
increased spending. The debt was less than $20 billion in 1985, 
approximately $22.5 billion in 1995, over $42 billion in 2005, 
approximately $56.5 billion in 2008, and $71 billion in 2015--which is 
roughly equal to Puerto Rico's GNP.\6\
---------------------------------------------------------------------------
    \6\ See D. Andrew Austin, ``Puerto Rico's Current Fiscal 
Challenges: In Brief,'' Congressional Research Service, at page 1, 
available at www.fas.org/sgp/crs/row/R44095.pdf.

    Puerto Rico's debt structure is complex. Approximately 18 
government entities have bonds outstanding. For example, there are 
$18.6 billion in bonds issued ($13.1 billion) or guaranteed ($5.5 
billion) by the central government; $15.2 billion in bonds issued by 
the Puerto Rico Sales Tax Financing Corporation--COFINA--that are 
backed by sales tax revenue; and bonds issued by public corporations 
like the electric power authority (PREPA; $8.1 billion), the highways 
and transportation authority (PRHTA; $6 billion), and the water and 
sewer authority (PRASA; $3.7 billion). The terms, source of repayment 
and level of legal protection for each class of bonds are different. 
For instance, Puerto Rico's constitution, which was authorized and 
approved by Congress in the 1950s, provides that debt service payments 
to owners of bonds issued or guaranteed by the central government are 
to be prioritized over all other expenditures. There has typically been 
high demand for bonds issued by U.S. territories, because the yields 
are high relative to bonds issued by States and because Congress 
enacted legislation decreeing that the interest income generated on 
territory (and District of Columbia) bonds is not taxable at the 
Federal, State or local level--regardless of where the investor 
resides. Currently, nearly all bonds issued by government entities in 
Puerto Rico are classified as non-investment (junk) grade by the credit 
rating agencies. Puerto Rico's ability to issue new bonds at a 
reasonable interest rate is highly uncertain and, as a result, the 
territory government faces severe liquidity challenges.\7\ The fiscal 
challenges confronting Puerto Rico are compounded by the massive 
underfunding of its government pension systems.\8\
---------------------------------------------------------------------------
    \7\ See Conway MacKenzie, Commonwealth of Puerto Liquidity Update 
(August 25, 2015), available at www.bgfpr.com/documents/
150825ConwayMacKenzieLiquidityUpdateReport.pdf.
    \8\ See Michelle Kaske, ``Puerto Rico's Bonds Overshadow Pension 
Fund Poised to Go Broke,'' Bloomberg Business (September 25, 2015), 
available at www.bloomberg.com/news/articles/2015-09-25/puerto-rico-s-
bonds-overshadow-pension-fund-poised-to-go-broke; see also Mary 
Williams Walsh, ``Fierce Debt Puts Pensions at Risk in Puerto Rico,'' 
N.Y. Times (November 26, 2012), available at www.nytimes.com/2012/11/
27/business/puerto-rico-races-to-rescue-its-pension-
fund.html?hpw&_r=1&pagewanted=print.

    Finally, the crisis is demographic. My constituents are relocating 
to the States in extraordinary numbers, which--as U.S. citizens--they 
can do for the price of a one-way plane ticket. According to the U.S. 
Census Bureau, in 2000, Puerto Rico's population was a little over 3.8 
million. By 2014, it had fallen by almost 7 percent to 3.5 million. In 
2014, an estimated 84,000 individuals moved from Puerto Rico to the 
States, while 20,000 residents of the States moved to Puerto Rico, for 
a net population loss of 64,000.\9\ In both degree and duration, this 
level of migration from a single jurisdiction appears to be 
unprecedented in modern American history. There are now over 5.2 
million individuals of Puerto Rican birth or descent living in the 50 
States, compared to 3.5 million individuals residing on the island (3.4 
million if individuals born outside of Puerto Rico are not included in 
the calculation).\10\
---------------------------------------------------------------------------
    \9\ See www.census.gov/hhes/migration/data/acs/state-to-state.html. 
Of the 84,000, 28,000 (33 percent) moved to Florida, where over one 
million individuals of Puerto Rican birth or descent now reside; 7,400 
moved to Pennsylvania; 6,300 moved to Texas; 4,000 to 5,000 moved to 
New York, Massachusetts, California, Connecticut, and New Jersey; and 
1,000 to 2,000 moved to Virginia, Ohio, Mississippi, South Carolina, 
Georgia, North Carolina, Illinois, and Maryland. Up to 1,000 moved to 
26 other States.
    \10\ See U.S. Hispanic Origin Groups, by Population, 2013, 
available at www.pewhispanic.org/2015/09/15/the-impact-of-slowing-
immigration-foreign-born-share-falls-among-14-largest-us-hispanic-
origin-groups/ph_2015-09-15_hispanic-origins-02-2/; see also ``It's 
Official: One Million Puerto Ricans in Florida! And the South Keeps 
Growing,'' Center for Puerto Rican Studies, Hunter College, CUNY 
(September 2015), available here.

    Clearly, the three components of the crisis are interconnected. As 
Puerto Rico's economy deteriorates, migration to the U.S. mainland 
increases. As migration increases, consumer spending and government tax 
collections decrease. The government may respond by raising taxes or 
reducing spending on public services, which tend to spur further 
migration. Assuming it has access to the markets, the government also 
borrows to finance the deficit at high interest rates, a short-term 
measure that compounds Puerto Rico's long-term problems, adding to its 
overall debt burden and crowding out government investments in health, 
safety, education, infrastructure and other priorities that are (by 
necessity) subordinated to the repayment of principal and interest.
                        solutions to the crisis
    To break this cycle, both the Puerto Rico Government and the 
Federal Government must make fundamental changes. If the crisis has 
taught us a single lesson, it is that a ``business as usual'' approach 
in San Juan and Washington, DC will fail.
Solutions at the Puerto Rico government level
    The core economic problem in Puerto Rico is the lack of growth, and 
so the Puerto Rico government must--first and foremost--craft and 
implement a comprehensive pro-growth strategy. (Historically, Puerto 
Rico's problem is not the inability to devise economic plans, but the 
inability to execute those plans.) If a government policy or program 
inhibits growth, it should be discarded, unless there is a compelling 
reason to retain it. To generate growth, the government must work 
relentlessly to attract job-creating capital investment in Puerto Rico 
from local and external sources in all sectors of the economy, 
including manufacturing, retail, agriculture, tourism, professional 
services, aviation, health and construction. This diversified approach 
is the only way to meaningfully address the severe unemployment problem 
in Puerto Rico, which is structural in nature. Individuals who are 
working in the formal economy are less likely to leave Puerto Rico. 
They will spend more money on goods and services, pay more in 
consumption and income taxes, and require less support from the Federal 
and territory governments. These men and women must earn a living wage 
to support themselves and their families, however, and so I strenuously 
oppose any effort to exempt Puerto Rico workers (of any age) from the 
Federal minimum wage of $7.25 per hour. This ill-conceived proposal 
would dramatically increase migration, create a disincentive to work, 
and widen--rather than close--the gap between Puerto Rico and the 
states.

    In theory, Puerto Rico should be an attractive location for capital 
investors, particularly relative to foreign jurisdictions in the 
region. The island is blessed with natural beauty, a rich history, and 
a vibrant culture. As a U.S. territory, Puerto Rico provides would-be 
investors with all of the benefits associated with the world's most 
stable and trusted banking, currency, and legal systems. Although 
Puerto Rico's public education system requires major reforms, there is 
no shortage of skilled, industrious and bilingual individuals who are 
ready to work. Puerto Rico's status as a U.S. jurisdiction furnishes 
numerous other comparative advantages in this respect. For instance, 
the territory receives over $60 million annually from the U.S. 
Department of Labor (DOL) under the Workforce Innovation and 
Opportunity Act to provide training for youth, adults and dislocated 
workers that have lost their jobs and need to rapidly acquire new 
skills. The DOL also provides about $17 million in annual funding to 
support three Job Corps centers in Puerto Rico that provide vocational 
training to island youth so they are prepared to enter the workforce. 
The U.S. Small Business Administration administers various programs in 
Puerto Rico that help small businesses obtain bank loans and venture 
capital, develop sound business plans, and compete for Federal 
contracts. The U.S. Department of Commerce, through its Economic 
Development Administration, provides grants and loans to support 
economic development projects throughout Puerto Rico. The Rural 
Development arm of the U.S. Department of Agriculture provides grants, 
loans and loan guarantees to help improve infrastructure and enhance 
public services in the territory's rural communities. Puerto Rico must 
take full advantage of these and other Federal programs that are not 
available to its foreign competitors and that can serve as catalysts 
for economic growth.

    In practice, however, the amount of job-creating, growth-generating 
capital investment in Puerto Rico's private sector is far lower than it 
should be. The main reason is that Puerto Rico has an excessively 
bureaucratic and inefficient central government whose competence and 
credibility--when it comes to fiscal policy, budgeting, financial 
recordkeeping, tax collection, business permitting, professional 
contracting, use of modern technology and overall performance--are 
questioned by companies and individuals deciding whether and where to 
open a store, build a factory, construct or acquire a hotel, buy a 
stock or bond, and otherwise invest their money. Anyone who has dealt 
with the Puerto Rico Government knows how opaque and difficult to 
navigate it can be. In short, rather than facilitating Puerto Rico's 
economic growth, the territory government has constrained it. Instead 
of unleashing the private sector's potential, the government has 
stifled it. While this is a serious, self-inflicted wound, it is also 
one that can be healed with the proper course of treatment. But without 
the right medicine, the patient will not recover.

    Beyond improving government, Puerto Rico needs to reform its fiscal 
policies in order to compete--and win--in the global economy. Puerto 
Rico must learn to live within its means, especially given its 
uncertain access to the capital markets. To reduce unnecessary 
spending, the territory should adopt ``zero-based'' budgeting, in which 
each agency of the central government is required to freshly justify 
its proposed expenses every fiscal year, rather than automatically 
enshrining those expenses (with or without adjustments) in each 
successive budget request. On the revenue side, the current corporate 
tax system is complicated and inequitable. Many companies pay the top 
marginal rate of 39 percent, while other companies doing business on 
the island pay less than 5 percent in income taxes pursuant to multi-
year agreements signed with the government. While there is an 
appropriate place for targeted tax incentives, the government should 
not pick winners and losers. Instead, it should establish a simple and 
fair tax system that creates an environment in which companies compete 
based on their relative merits, not on who can extract the most 
generous tax deal from the government. I have a straightforward 
proposal to address this problem that I am happy to brief the Committee 
on.

    Moreover, in recent years, the Puerto Rico Government has 
prioritized raising revenue to support its profligate spending habits, 
when it should be focused, laser-like, on promoting growth. 
Accordingly, the government has enacted a welter of new business taxes 
that have exerted a stranglehold on the economy and discouraged job 
creation. These new taxes are poorly conceived, poorly implemented, and 
must be repealed or refashioned. Once Puerto Rico has a sensible and 
stable tax policy in place, the government must collect the taxes it 
imposes. According to recent studies by respected Puerto Rico 
economists, an estimated 44 percent of sales taxes and 28 percent of 
all taxes are not presently collected by the government. This sort of 
dysfunction is a disservice to the public and a warning sign for 
potential investors who value predictability and competence.

    In addition, the Puerto Rico government must take all reasonable 
steps to ensure that businesses and households on the island have 
access to affordable and reliable electricity generated from natural 
gas or renewable sources; a modern transportation system of roads, 
highways and bridges; and other basicinfrastructure like water and 
wastewater services. As noted, these respective services are provided 
in Puerto Rico by public corporations--PREPA, PRHTA, PRASA--that, to 
varying degrees, are experiencing severe financial distress and 
struggling with significant debt loads. To the extent these public 
corporations have become obstacles to economic growth, they must be 
fundamentally reformed. In certain instances, Puerto Rico's public 
corporations should enter into public-private partnerships, 
transferring the operation of assets (and the revenues from those 
assets) to the private sector. In Puerto Rico, public-private 
partnerships have already proven to be a valuable tool to improve a 
public corporation's fiscal standing, to maintain and improve existing 
assets and to undertake new infrastructure projects that might 
otherwise be financially infeasible.

    Finally, on the issue of Puerto Rico's ability and willingness to 
pay its debt, five points are in order. First, the Governor and his 
advisors have claimed that, if Puerto Rico continues on its current 
path, the debt is ``unsustainable'' and ``unpayable.'' However, the 
current path can and must change. If the government of Puerto Rico 
takes serious and realistic steps to cut unnecessary spending, 
implement a fair tax system and collect the taxes it is owed, and 
execute a growth-oriented strategy, the debt situation can be made far 
more manageable. Second, Puerto Rico--a U.S. jurisdiction--values the 
rule of law and reveres the territory constitution authorized and 
approved by Congress. Therefore, debt service on the $18.6 billion in 
bonds issued or guaranteed by the central government must be 
sacrosanct. Most of these bonds carry reasonable interest rates. The 
exception is a $3.5 billion bond emission from March 2014, which 
carried a coupon rate of 8.0 percent. The Federal Government should 
explore whether it can help the Government of Puerto Rico refinance 
this bond issue on more affordable terms, as well as whether it can 
help the Government of Puerto Rico obtain short-term bridge financing 
to meet immediate liquidity needs. Third, as noted above, there are 
approximately 18 government entities in Puerto Rico with bonds 
outstanding. The financial condition of each entity is different, as 
are the legal terms governing the bonds they issue. This Governor's 
strategy to essentially treat the territory's debt as monolithic is 
unwise and unlikely to produce the desired outcome. Instead, each 
entity should be considered on a case-by-case basis. Fourth, the Puerto 
Rico Government must comprehend that Puerto Rico will need to access 
the bond market in the future in order to make critical investments for 
the benefit of the public. The government's recent actions have badly 
tarnished Puerto Rico's credibility and standing among investors, and 
it must take great care not to pursue a strategy going forward that 
will make permanent adversaries of those whose capital it will one day 
require. And fifth, the Puerto Rico Government must bear in mind that 
countless numbers of its own residents own Puerto Rico bonds either 
directly or indirectly through pension funds, credit unions, mutual 
funds, and retirement accounts. Many of these individuals depend on 
their monthly interest payments to make ends meet. Hundreds of 
thousands of Puerto Rico residents are member-owners of credit unions. 
The Governor and his advisors have sought to create the narrative that 
the debate over whether Puerto Rico will pay its debts is a story of 
``us'' versus ``them.'' That is far from the case.
Solutions at the Federal Government level
    As the foregoing demonstrates, I am the first to insist that the 
government of Puerto Rico must take steps to address the island's toxic 
brew of economic, fiscal and demographic problems. That said, any 
notion that the territory alone got itself into this situation and the 
territory alone must extricate itself from this situation is totally 
false. The truth is that the Federal Government bears tremendous 
responsibility for the crisis in Puerto Rico, and so Congress and the 
president must be part of any solution.

    The root cause of Puerto Rico's crisis is our political status, a 
subject that is within the jurisdiction of the Senate Energy and 
Natural Resources Committee, but a topic that I hope every U.S. Senator 
comprehends and considers with care, because the Constitution vests 
Congress with nearly unlimited power over its territories.

    Because Puerto Rico is a territory, my constituents fight for this 
country in the armed forces but cannot vote for their President and 
Commander-in-Chief, are not represented in the Senate, and have a 
single non-voting delegate in the House. In this position, I can 
introduce bills and vote on my committees, but I cannot vote on the 
House floor. Accordingly, Puerto Rico has limited capacity to use the 
political process to protect and promote its interests, which is the 
essence of our democratic system of government. Simply stated, Puerto 
Rico's status cannot be reconciled with the principles the United 
States strives to uphold at home and promotes abroad.

    Moreover, because Puerto Rico is a territory, Congress has a 
license to treat Puerto Rico worse than the States under Federal 
spending and tax credit programs, and Congress often uses that 
license.\11\ This is not a partisan critique; both Republicans and 
Democrats, acting over the course of many years, are to blame.
---------------------------------------------------------------------------
    \11\ See ``Puerto Rico: Information on How Statehood Would 
Potentially Affect Selected Federal Programs and Revenue Sources,'' 
U.S. General Accountability Office (GAO-14-31; March 31, 2014), 
available at www.gao.gov/products/GAO-14-31; see also Pedro R. 
Pierluisi, ``Statehood Is the Only Antidote for What Ails Puerto 
Rico,'' N.Y. Times (July 10, 2015), available at www.nytimes.com/2015/
07/11/opinion/statehood-is-the-only-antidote-for-what-ails-puerto-
rico.html?_r=0.

    Some of the worst disparities that Puerto Rico confronts are under 
Federal programs within the jurisdiction of the Finance Committee. For 
---------------------------------------------------------------------------
example:

    Medicaid is the Federal-State health insurance program for the 
        poor. Federal funding for a State Medicaid program is open-
        ended, but capped for Puerto Rico. The Federal Government 
        currently provides about $1 billion a year in Medicaid funding 
        for Puerto Rico. In comparison, the Federal Government provides 
        annual Medicaid funding of $3.6 billion for Mississippi (which 
        has the lowest per capita income of any State) and $5 billion 
        for Oregon (which has a similar population size to Puerto 
        Rico). Federal law also requires Puerto Rico to pay a much 
        larger share of the cost of operating its Medicaid program (45 
        percent) than a similarly-situated State would pay (17 
        percent). Finally, due to a defect in Federal law, at some 
        point within the next several years, Federal funding for Puerto 
        Rico's Medicaid program will fall from about $1 billion a year 
        to about $400 million a year unless Congress takes action.

    Medicare is the Federal health insurance program for the elderly. 
        Employers and employees in Puerto Rico pay the same Federal 
        payroll taxes and Medicare beneficiaries in Puerto Rico pay the 
        same monthly premiums as their counterparts in the States, and 
        these payroll taxes and premiums fund a significant portion of 
        the Medicare program. Nevertheless, Puerto Rico patients, 
        doctors, hospitals and health insurance providers are treated 
        unequally in key respects under Medicare Part A (inpatient 
        hospital care), Part B (physician care and outpatient hospital 
        care), Part C (Medicare Advantage) and Part D (prescription 
        drug coverage).\12\
---------------------------------------------------------------------------
    \12\ For an in-depth-discussion of the disparities that Puerto Rico 
faces under Medicaid and Medicare, see the section-by-section summary 
of H.R. 2635, Improving the Treatment of the U.S. Territories Under 
Federal Health Programs Act of 2015, available at
    http://pierluisi.house.gov/.

    Health Insurance Exchanges: Under the central provision of the 
        2010 Affordable Care Act, many individuals and families can 
        purchase health insurance through an exchange or 
        ``marketplace'' operated either by the Federal Government or a 
        State government, with the Federal Government providing 
        subsidies to those households with annual incomes below a 
        certain level. The Congressional Budget Office projects that, 
        within a few years, 25 million Americans will receive health 
        insurance coverage through the exchanges and the Federal 
        Government, over the next decade, will spend over $1 trillion 
        on exchange subsidies and related expenditures. Puerto Rico and 
        the other territories were unable to establish State exchanges 
        and territory residents are not eligible to participate in a 
---------------------------------------------------------------------------
        Federal exchange.

    Supplemental Security Income, administered by the Social Security 
        Administration, provides monthly cash assistance to blind, 
        disabled or elderly individuals who have limited or no income. 
        SSI applies in all 50 States, the District of Columbia, and one 
        U.S. territory. However, since its inception in 1974, SSI has 
        not been extended to Puerto Rico. A far less generous block 
        grant program known as Aid to the Aged, Blind, and Disabled 
        (AABD) applies in Puerto Rico in lieu of SSI. While the average 
        monthly SSI payment in the States is $540--and close to $650 
        for beneficiaries under the age of 18--the average monthly AABD 
        payment in Puerto Rico is less than $80. Moreover, while the 
        SSI program requires no financial contribution from State 
        governments, the Government of Puerto Rico must pay a 25 
        percent ``match'' in order to access its annual AABD block 
        grant from the U.S. Department of Health and Human Services.

    Temporary Assistance for Needy Families (TANF) is a Federal block 
        grant program that enables States and territories to help low-
        income families with children meet their basic needs. Puerto 
        Rico currently receives a basic TANF grant of $71.6 million a 
        year. But, unlike the States, Puerto Rico is not eligible for 
        three other TANF funding streams--namely, supplemental grants, 
        contingency funds and mandatory child care funds. Also, unlike 
        in the States, Federal law imposes an annual cap on the overall 
        funding that Puerto Rico can receive under a variety of Federal 
        public assistance programs, including TANF, title IV-E foster 
        care and adoption assistance programs, and AABD. Puerto Rico's 
        overall annual cap--which is set by section 1108(a) of the 
        Social Security Act--is only $107.2 million, and has not been 
        increased since 1996.

    The Child Tax Credit, which was established in 1997, seeks to ease 
        the financial burden that families incur when they have 
        children. The CTC is refundable, meaning that it can exceed a 
        taxpayer's tax liability and result in a cash payment from the 
        Federal Government to low-income households that owe little or 
        no income tax. The refundable portion of the CTC currently 
        applies in Puerto Rico, but in limited and unequal fashion. 
        Island families with one or two children are not eligible for 
        the refundable portion of the CTC at all. And while island 
        families with three or more children are eligible for a CTC 
        refund, an alternative formula--which is less generous than the 
        formula available in the 50 States and the District of 
        Columbia--is used to calculate the amount of the refund 
        payment.

    The Earned Income Tax Credit, which was established in 1975, has 
        become the Nation's largest anti-poverty cash assistance 
        program. Because it is refundable, an EITC recipient need not 
        owe Federal income taxes to receive the benefit. The EITC 
        creates a financial incentive for individuals to seek and 
        retain employment because it increases the ability of workers 
        in low-paying jobs to support themselves and their families. 
        The EITC has never been extended to Puerto Rico.

    The disparities that Puerto Rico faces under the aforementioned 
Federal programs, especially when their impact is considered 
cumulatively, have been devastating for the territory. The disparities 
are harmful to Puerto Rico's real economy, because they mean billions 
of dollars less are circulating throughout the island on an annual 
basis, available to be spent and invested. The disparities are 
detrimental to Puerto Rico's fiscal condition, since the territory 
government spends or borrows to compensate for the shortfall in Federal 
support, exacerbating deficits and debt. And the disparities contribute 
to Puerto Rico's demographic disaster by compromising the quality of 
life of my constituents and impelling them to move to the States, 
where--unlike in Puerto Rico--they are entitled to equal treatment 
under all Federal laws.\13\
---------------------------------------------------------------------------
    \13\ For further discussion of the causal relationship between 
Puerto Rico's disparate treatment under Federal programs and the 
economic, fiscal and demographic crisis in the territory, see Rep. 
Pedro R. Pierluisi, testimony, hearing on ``Examining Procedures 
Regarding Puerto Rico's Political Status and Economic Outlook,'' House 
Subcommittee on Indian, Insular and Alaska Native Affairs (June 24, 
2015), available at http://naturalresources.house.gov/calendar/
eventsingle.aspx?EventID=398833.

    As set forth in the accompanying footnote, I have introduced 
legislation to eliminate or mitigate the program disparities within the 
Finance Committee's jurisdiction, and in certain cases a U.S. Senator 
has introduced companion legislation.\14\ I urge the Committee--
respectfully, but in the strongest possible terms--to take action on 
these bills. Congress cannot in good conscience criticize Puerto Rico 
without acknowledging the fact that Congress shares culpability for the 
territory's problems.
---------------------------------------------------------------------------
    \14\ See (1) H.R. 1125 (Pierluisi) and S. 1602 (Menendez, Nelson, 
Rubio), Puerto Rico Hospital HITECH Amendments Act of 2015; (2) H.R. 
1417 (Pierluisi, Curbelo), Puerto Rico Hospital Medicare Reimbursement 
Equity Act of 2015; (3) H.R. 1418 (Pierluisi) and S. 1453 (Schumer), 
Puerto Rico Medicare Part B Equity Act of 2015; (4) H.R. 1822 
(Pierluisi), Supplemental Security Income Equality Act; (5) H.R. 2635 
(Pierluisi) and S. 1961 (Schumer, Blumenthal, Gillibrand, Menendez, 
Nelson), Improving the Treatment of the U.S. Territories Under Federal 
Health Programs Act of 2015; (6) H.R. 3552 (Pierluisi), Child Tax 
Credit Equity for Puerto Rico Act of 2015; (7) H.R. 3553 (Pierluisi), 
Earned Income Tax Credit Equity for Puerto Rico Act of 2015; (8) H.R. 
365 (Pierluisi; 113th Congress), Territorial TANF Equity Act of 2013; 
(9) H.R. 3966 (Pierluisi; 113th Congress), Territories Medicare 
Prescription Drug Assistance Equity Act of 2014.

    On a separate note, the Finance Committee is considering 
legislation to reform the taxation of corporate income attributed to 
operations outside of the 50 States and the District of Columbia--that 
is, corporate income attributed to Puerto Rico, the four other U.S. 
territories, and foreign jurisdictions. An important purpose of 
reforming the current ``international'' business tax system is to 
promote U.S. growth and job creation, to reduce incentives for U.S. 
companies to move jobs or the entire company overseas, and to make the 
U.S. more attractive and competitive for multinationals to invest and 
create jobs. While Puerto Rico and the other territories are treated as 
``international'' for some (though by no means all) purposes under the 
Internal Revenue Code, they are U.S. jurisdictions, home to millions of 
U.S. citizens. Jobs in Puerto Rico are American jobs. The laudable goal 
of tax reform--to encourage investment and employment in the United 
States--will not be fully achieved if the legislation has the effect of 
discouraging job-creating investment in Puerto Rico. Tax reform should 
seek to foster economic opportunities in Puerto Rico to the same degree 
and extent as in the States.\15\
---------------------------------------------------------------------------
    \15\ See Letter from Rep. Pedro R. Pierluisi to Senate Finance 
Committee Regarding International Business Tax Reform and Puerto Rico 
(January 8, 2014), available at http://pierluisi.house.gov/sites/
pierluisi.house.gov/files/1.8.14%20Rep.%20Pierluisi%20%28Puerto%20
Rico%29%20Comment%20on%20Chairman%20Baucus%20Staff%20Discussion%20Draft%
20on%
20International%20Business%20Tax%20Reform.pdf.

    In addition, although I recognize that this subject is within the 
jurisdiction of the Senate Judiciary Committee, I would be remiss if I 
did not briefly mention the pending legislation--H.R. 870 (Pierluisi) 
and S. 1774 (Blumenthal, Schumer, Booker, Durbin, Gillibrand, Heinrich, 
Hirono, Leahy, Menendez, Murphy, Nelson, Reid, Sanders, Warner, 
Warren)--to provide Puerto Rico with state-like treatment under Chapter 
9 of the Federal bankruptcy code. Congress has empowered each State 
government to authorize an insolvent ``municipality''--defined as a 
political subdivision, public agency, or instrumentality of the State--
to restructure its debts in an orderly fashion under the supervision of 
a Federal bankruptcy judge, in accordance with Federal law. A State 
government may authorize, or decline to authorize, its insolvent 
municipalities to file for Chapter 9 protection. The power to decide 
rests with the State government. Unfortunately, while Puerto Rico is 
treated like a State under the chapters of the Bankruptcy Code 
involving individuals and corporations, it is not treated like a State 
under the chapter pertaining to municipalities. Congress did grant 
Puerto Rico the power to authorize its municipalities to adjust their 
debts between 1938 and 1984, but in 1984--for reasons unknown--Congress 
excluded Puerto Rico from Chapter 9. H.R. 870 and S. 1774 would rectify 
this unprincipled disparity. Under the bills, Puerto Rico could seek to 
restructure the debts of its severely distressed public corporations, 
not the central government. Chapter 9 provides a forum for the Federal 
courts to consider the best interests of all stakeholders and to reach 
a fair, equitable and binding resolution. Chapter 9 can be a useful 
tool even if it is not used, since the prospect of a Chapter 9 filing 
by a municipality can foster consensual negotiations between a 
municipality and its creditors. If Chapter 9 is appropriate for the 
States, it is appropriate for the U.S. territory of Puerto Rico. I ask 
you: if Chapter 9 is good enough for your constituents, why isn't it 
good enough for mine? \16\
---------------------------------------------------------------------------
    \16\ For a list of individuals and organizations that have endorsed 
H.R. 870 and S. 1774, see http://pierluisi.house.gov/media-center/
press-releases/running-list-of-editorials-letters-and-statements-in-
support-of-hr-870.

    In closing, I want to return to the subject of Puerto Rico's 
political status, the fundamental problem from which nearly all of 
---------------------------------------------------------------------------
Puerto Rico's other problems emanate.

    I look forward to the day when the U.S. citizens that reside in 
Puerto Rico can vote for their national leaders and fully partake in 
debates over national policy that affect every aspect of their lives.

    I look forward to the day when Puerto Rico will be treated equally 
as a matter of right, and does not have to beseech and beg this 
Congress to treat the territory fairly or even just a little better 
than it does now.

    I look forward to the day when Federal policy towards Puerto Rico 
is consistent and coherent--when Puerto Rico is not classified as 
domestic under one section of the Federal tax code and international 
under another section of the code, or included in nearly all chapters 
of the Federal bankruptcy code but excluded from one critically-
important chapter for no evident reason.

    I look forward to the day when Puerto Rico is not treated in 
shockingly immoral fashion under Federal health programs for lower-
income and elderly individuals, as if we are lesser human beings than 
residents of Utah, Oregon, Florida or New York.

    I look forward to the day when Puerto Rico is not excluded from the 
SSI program, which helps the most vulnerable members of our society--
elderly, blind and disabled individuals who live in extreme poverty--
afford food, clothing and shelter.

    I look forward to the day when my constituents have the exact same 
rights and responsibilities as their fellow American citizens in the 
States--not better treatment, not worse treatment and not ``special'' 
treatment.

    That new day is just over the horizon. Puerto Rico voted against 
territory status and for statehood in 2012, and it is likely that 
voters in the territory will confirm their desire for statehood in a 
federally-sponsored referendum in 2017. Puerto Rico will then use every 
appropriate means to petition Congress to enact legislation making the 
territory a State. In the history of this country, no valid statehood 
petition by a territory has been rejected by the Federal Government. In 
the immediate term, there is much that the Puerto Rico Government and 
the Federal Government can do to help the territory manage its 
economic, fiscal and demographic crisis. However, for Puerto Rico to 
truly prosper, it must be treated equally. And to be treated equally, 
it must become a State.

    Tinkering around the edges of this problem will not suffice. Bold 
action that goes straight to the heart of the problem is required.

                                 ______
                                 
     Questions Submitted for the Record to Hon. Pedro R. Pierluisi
               Questions Submitted by Hon. Orrin G. Hatch
    Question. Would you recommend any changes in federal tax policy 
that would affect Puerto Rico and, if so, what specific changes would 
you recommend and why?

    Answer. As stated in my written testimony, I recommend that 
Congress enact legislation to extend the federal Earned Income Tax 
Credit to Puerto Rico and to fully extend the federal Child Tax Credit 
to Puerto Rico. Both of these are refundable tax credits--meaning they 
are claimed by millions of households in the 50 states who owe no 
federal income taxes--and the latter already partially applies to 
Puerto Rico.

    The Earned Income Tax Credit, which was established in 1975, is 
widely recognized as the nation's most effective anti-poverty 
assistance program. I recommend the EITC's extension to Puerto Rico 
because it rewards work, and the territory has a very low labor 
participation rate. The EITC creates a financial incentive for 
individuals to seek and retain employment, increasing the ability of 
workers in low-
paying jobs to support themselves and their families. The EITC has 
never been extended to Puerto Rico. Its extension to the territory 
would provide a direct stimulus to the economy, increasing purchasing 
power and consumer demand.

    These positive outcomes would also be generated if Congress were to 
fully extend the Child Tax Credit to Puerto Rico. The CTC was 
established in 1997 and seeks to ease the financial burden that 
families incur when they have children. The refundable portion of the 
CTC currently applies in Puerto Rico, but in limited and unequal 
fashion. Island families with one or two children are not eligible for 
the refundable portion of the CTC at all. And while island families 
with three or more children are eligible for a CTC refund, an 
alternative formula--which is less generous than the formula available 
in the 50 states and the District of Columbia--is used to calculate the 
amount of the refund payment. Congress should amend the law so that the 
CTC has its full, intended effect in Puerto Rico.

    On the business tax side, I wrote a detailed letter to the 
Committee on January 8, 2014, laying out my views on how potential 
legislation should treat Puerto Rico. The letter is attached.

    Question. In a response to various questions that I recently posed 
to Health and Human Services Secretary Burwell, I have been told that 
the Department of Health and Human Services (HHS) has been working 
closely with the government of Puerto Rico, and with you, to gain a 
better understanding of the health care challenges Puerto Rico faces. I 
was also told that efforts to help confront those challenges would 
likely require both administrative and legislative action. Of course, 
it would be helpful to everyone in Congress if we could be informed 
about the specifics of what the administration is doing along these 
lines, particularly--at least for our purpose in this committee--in 
those areas related to health policy, tax policy, and other areas under 
our jurisdiction. Since HHS--and perhaps other agencies of the federal 
government as well--have reportedly been working closely with you on 
these matters, could you describe the work that has been done to date 
and the results of that work, including any administrative policy 
changes that have occurred or are being planned?

    Answer. I have repeatedly urged HHS and CMS to exercise their 
discretion to make immediate improvements in various rules and formulas 
used to calculate payments to Puerto Rico under the Medicare and 
Medicaid programs. I can provide a full briefing to the Committee on 
each of the specific requests I have made. Most recently, I sent CMS a 
detailed paper--which I have attached--outlining three administrative 
requests related to Medicare. These proposals are as follows: (a) CMS 
should use an alternative means for calculating Puerto Rico's Practice 
Expense GPCI (Geographic Practice Cost Index) payment formula to 
adequately compensate doctors who treat Medicare patients in the 
territory; (b) CMS should exercise its discretion to ensure Puerto Rico 
hospitals are not shortchanged by administratively providing a proxy 
for the Supplemental Security Income (SSI) factor in the Medicare 
Disproportionate Share Hospital (DSH) payment formula as it applies to 
Puerto Rico hospitals (existing statute already states that Medicare 
DSH payments made to Puerto Rico hospitals should be computed in the 
same manner and to the extent as payments made to hospitals in the 
states); and (c) CMS should remove the local matching requirement from 
the annual Enhanced Allotment Program (EAP) funding that CMS provides 
Puerto Rico and the other territories in lieu of the Medicare Part D 
low-income subsidy.

    I have also introduced a bill that would provide a statutory fix to 
these three issues. See Sections 203, 212, and 231 of H.R. 2635/S. 
1961, Improving the Treatment of the U.S. Territories Under Federal 
Health Programs Act of 2015. Whether through administrative action by 
CMS or legislative action by Congress, these disparities should be 
eliminated.

    Question. What, in your view, are Puerto Rico's comparative 
advantages, which should be built upon to help promote economic growth 
on the island? What pro-growth policies would you recommend?

    I discussed this subject at length in my written testimony, and to 
complement that testimony I offer some additional observations and 
ideas here. Puerto Rico has talented professionals working across 
multiple sectors. In particular, there are several sectors of Puerto 
Rico's economy that have the potential to be strengthened. 
Manufacturers, particularly small and medium size enterprises, are 
poised to serve as a backbone for growing the economy. The 
pharmaceutical, life sciences, and medical device sector, as well as 
the aeronautical and space industries, are potential growth areas 
within the manufacturing sector. The engineering school at the 
University of Puerto Rico-Mayaguez is one of the most reputable 
engineering schools in the United States, with its graduates heavily 
recruited for federal positions with NASA, NSF, the United States 
Patent and Trademark Office, and other federal agencies. This speaks to 
the human capital in Puerto Rico and the capacity of its system of 
higher education to help grow the economy in the engineering and 
technical fields.

    Unfortunately, the U.S. Department of Commerce missed an ideal 
opportunity this summer to support the manufacturing sector in Puerto 
Rico when it bypassed for selection the application of the Puerto Rico 
Industrial Development Company (PRIDCO) to designate the entire island 
for participation in the ``Investing in Manufacturing Communities 
Partnership'' (IMCP) program--an initiative of the current 
Administration designed to focus federal economic development funds on 
distressed manufacturing communities with potential for growth. Through 
IMCP, communities are given federal support in developing comprehensive 
economic development strategies that strengthen their competitive edge 
for attracting global manufacturer and supply chain investments. At a 
minimum, I recommend that the Commerce Department formally designate 
Puerto Rico as a supplemental selectee for the IMCP program based on 
the earlier-submitted PRIDCO application.

    Puerto Rico, because of its geographic location and rich natural 
resources, also has potential for growth in the tourism industry. The 
hotels, restaurants, and tourism-oriented retailers stand to benefit 
from boosts in visitor arrivals. This week, a Spain-based airline 
announced plans to return to the Puerto Rico market after an absence of 
almost three years. Once its service connecting San Juan and Madrid 
commences in May, Puerto Rico's non-stop connections with cities in 
Europe will uptick to 11 flights a week. Expansion of air service 
should also be coupled with strategies to grow cruise ship arrivals and 
the nautical tourism industry. Just last week, the third largest cruise 
ship in the world arrived for the first time in Puerto Rico, indicative 
of the attractiveness of San Juan for cruise ship port calls. Yet, 
certain federal rules and regulations unnecessarily restrain growth in 
the nautical tourism sector. For example, in 2011, I offered an 
amendment on the House floor to the Coast Guard Reauthorization Act 
that would have made a narrow modification to the Passenger Vessel 
Services Act of 1886 (PVSA) as it applies to Puerto Rico. This 
amendment, which was adopted on the House floor with significant 
bipartisan support, would have authorized foreign-flagged vessels to 
transport tourists and other paying passengers between ports within 
Puerto Rico. Current federal law allows foreign-flagged vessels to 
transport customers from a port in Puerto Rico to any port in the 
Caribbean region outside of Puerto Rico, including to ports in the 
neighboring U.S. Virgin Islands, where the PVSA does not apply. Yet, 
these same vessels cannot be used to transport tourists and other 
paying passengers between Puerto Rico's ports. So, for example, 
individuals and businesses in Puerto Rico cannot charter 
foreign-flagged megayachts or specialty cruise passenger ships to 
operate excursions for tourists who wish to travel between Puerto 
Rico's various marinas. Regrettably, the Senate stripped this sensible 
House provision from the bill before it become law--thereby depriving 
the U.S. of an opportunity to compete fairly with foreign jurisdictions 
in the Caribbean when it comes to attracting investment in nautical 
tourism. While the increased nautical tourism that my amendment would 
have opened the door for would not alone solve the economic challenges 
in Puerto Rico, it is but one example of a cost-free change in federal 
policy that could make a meaningful difference. More ships mean more 
shore-side investment. Ships require repair work, spare parts, and 
fuel. Their owners pay insurance and docking fees. And when the 
tourists on these vessels disembark at different ports around Puerto 
Rico, they eat at restaurants, go shopping, rent cars and otherwise 
inject money into the local economy. Yet, these net positives fell on 
deaf ears to the Senate. I urge the Senate to reverse its position on 
this matter.

    The Administration can also intensify its focus and become more 
creative in working to boost visitor arrivals in Puerto Rico. I 
propose, for example, that Voice of America begin to run targeted ads 
in South American or European markets, particularly in countries 
participating in the U.S. Visa Waiver Program, that would promote 
travel to Puerto Rico. The U.S. Postal Service could also issue an 
international postage stamp that would feature Puerto Rico and 
encourage travel to the island. And finally, the Corporation for Travel 
Promotion that Congress established in 2009, and that it reauthorized 
in 2014, should work with the International Trade Administration at the 
Commerce Department, on specific strategies and marketing focus to 
generate greater visitor arrivals in Puerto Rico.

    Apart from enacting the EITC and health care fixes like the HITECH 
Act for participation of Puerto Rico hospitals to convert to electronic 
health records under the Medicare program, Congress and the federal 
government should actively seek out ways to bolster Puerto Rico's 
manufacturing, agriculture and visitor industries.

    Question. In July 2011, Puerto Rico expanded Medicaid eligibility 
to cover adults without children with incomes up to 100 percent of the 
poverty level. Then, in January 2014, Puerto Rico again expanded its 
Medicaid eligibility to include residents with income up to 133 percent 
of the local poverty level. What can you tell me about the impact of 
these Medicaid expansions? Have enrollments expanded? What has been the 
cost to Puerto Rico and the federal government?

    Answer. The premise of the question is incorrect. Because of capped 
federal funding, Puerto Rico's Medicaid program--both before and after 
the ACA--cannot come close to covering individuals earning up to 100 
percent of the FPL, much less 133 percent. A chart showing current 
eligibility levels under the Puerto Rico Medicaid program is pasted 
below. I have introduced legislation that would provide state-like 
treatment to Puerto Rico under Medicaid, up to 100 percent of the FPL. 
See Sections 101 to 104 of H.R. 2635/S. 1961, Improving the Treatment 
of the U.S. Territories Under Federal Health Programs Act of 2015.

                                             Puerto Rico Medicaid Standard Monthly Income Eligibility Levels
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                PRPL Coverage as Percent
                 Household Size                             PRPL                       FPL                      Delta                    of FPL
--------------------------------------------------------------------------------------------------------------------------------------------------------
1                                                                 $550.00                   $980.83                   $430.83                      0.56
2                                                                 $650.00                 $1,327.50                   $677.50                      0.49
3                                                                 $750.00                 $1,674.17                   $924.17                      0.45
4                                                                 $850.00                 $2,020.83                 $1,170.83                      0.42
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                             Puerto Rico Medicaid Standard Annual Income Eligibility Levels
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                PRPL Coverage as Percent
                 Household Size                             PRPL                       FPL                      Delta                    of FPL
--------------------------------------------------------------------------------------------------------------------------------------------------------
1                                                               $6,600.00                $11,770.00                 $5,170.00                      0.56
2                                                               $7,800.00                $15,930.00                 $8,130.00                      0.49
3                                                               $9,000.00                $20,090.00                $11,090.00                      0.45
4                                                              $10,200.00                $24,250.00                $14,050.00                      0.42
--------------------------------------------------------------------------------------------------------------------------------------------------------
PRPL: Puerto Rico Poverty Level
FPL: 2015 Federal Poverty Guidelines for the 48 Contiguous States and DC


    Question. It is my understanding that Puerto Rico does not cover 
nursing home services in its Medicaid program. How much does Puerto 
Rico spend on Long-Term Services and Supports in Puerto Rico? Could you 
explain how Long-Term Services and Supports are provided and paid for 
in Puerto Rico if Medicaid is not being used?

    Answer. It is my understanding that the Puerto Rico Medicaid 
program does not cover institutional long-term care because it cannot 
afford to do so as a result of the annual spending cap for the program 
that Congress has established under Section 1108 of the Social Security 
Act. Partly as a result of the Medicaid program not covering this 
service, there are very few institutional long-term care facilities in 
Puerto Rico. This situation makes it difficult to care for the aging in 
Puerto Rico, and it aggravates a situation already made worse for 
persons with disabilities who need long-term care because of the 
exclusion of Puerto Rico from the Supplemental Security Income (SSI) 
program. I represent the highest number of Social Security 
beneficiaries in the U.S. House of Representatives--845,860 as of 
December 2014, according to the Social Security Administration. The 
2010 Decennial Census indicates that 14.5 percent of Puerto Rican's 
population is 65 years of age or older. This percentage has increased 
according to the most recent ACS population estimates available from 
the U.S. Census Bureau, rising to 17.3 percent in the 2014 estimates. 
By comparison, the figure is 14.5 percent for the United States as a 
whole. These realities demonstrate the importance of Congress adjusting 
upward or eliminating the Medicaid cap on Puerto Rico's Medicaid 
program, while also providing for fairer treatment under the FMAP.

    For more information, see ``U.S. Insular Areas: Multiple Factors 
Affect Federal Health Care Funding,'' U.S. Government Accountability 
Office (GAO), GAO-06-75, October 17, 2005.

    Question. Hospitals in Puerto Rico have been eligible to receive 
Medicaid HITECH payments, which are incentive payments under the 
Medicaid program that are meant to encourage hospitals to develop 
electronic medical records capability. I'm hoping you can tell me how, 
if at all, Puerto Rico has benefitted from these payments. How much 
money--in aggregate--has Puerto Rico received through these payments? 
And, what is the current status of implementation of electronic medical 
records in Puerto Rico?

    Answer. For the two payment years under which HITECH incentive 
payments have been available for hospitals under the Medicaid program, 
CMS reports that it has paid out a total of $49,360,201 to 49 hospitals 
in Puerto Rico--with 46 hospitals receiving these incentive payments in 
the aggregate amount of $46.7 million in the first payment year and 
three hospitals receiving a combined amount of $2.7 million in the 
second year.

    Expansion of the HITECH Act by Congress to embrace Puerto Rico 
hospitals under the Medicare side of the program is essential if Puerto 
Rico providers are to receive the same tools, support, and incentives 
that are available in the rest of the United States and that are needed 
in Puerto Rico in order to develop and build out a health information 
network that would be interoperable with, and ultimately keep pace 
with, the state of health information technology infrastructure being 
established in the rest of the United States. Numerous scholars have 
published research validating the economic growth generated around 
health information technology and the savings in overall health care 
costs achieved with applying this technology to the sector. The 
government of Puerto Rico and CMS are actively collaborating on ways to 
maximize participation on the island of the Medicaid HITECH program and 
to strengthen program controls.

    Additionally, the Puerto Rico Hospital Association reports that 
while hospitals in Puerto Rico are working with the government of 
Puerto Rico and CMS to improve upon the cumbersome parts of the HITECH 
application and implementation processes, the number of hospitals in 
Puerto Rico eligible for and actually participating in the Medicaid 
side of the program represents a higher percentage of participation as 
compared with hospitals in many states. Congress should spare no time 
in enacting legislation to correct its oversight in law which prevents 
hospitals in Puerto Rico from becoming meaningful users of certified 
electronic health record technology under the Medicare side of the 
program. This is especially important given the high number of Medicare 
beneficiaries residing in Puerto Rico as compared with the states. I 
have introduced bipartisan legislation to achieve this purpose; this 
legislation is H.R. 1225/S. 1602, the Puerto Rico Hospital HITECH 
Amendments Act of 2015, and Section 202 of H.R. 2635/S. 1961, the 
Improving the Treatment of the U.S. Territories Under Federal Health 
Programs Act of 2015.

                     Congress of the United States

                        House of Representatives

                       Washington, DC 20515-5401

January 8, 2014

The Hon. Max Baucus                 The Hon. Orrin G. Hatch
Chairman                            Ranking Member
Senate Committee on Finance         Senate Committee on Finance
219 Dirksen Senate Office Building  219 Dirksen Senate Office Building
Washington, DC 20510                Washington, DC 20510

Dear Chairman Baucus and Ranking Member Hatch:

On November 19, 2013, Chairman Baucus released a staff discussion draft 
of legislation to reform the taxation of corporate income attributed to 
operations outside of the 50 states and the District of Columbia. This 
includes corporate income attributed to the U.S. territory I represent, 
Puerto Rico; to the four other U.S. territories; and to foreign 
jurisdictions. A summary of the staff discussion draft, under the 
heading ``Unaddressed Issues and Requests for Comments,'' states: ``The 
staff discussion draft does not separately address the taxation of 
foreign subsidiaries doing business in the U.S. territories. Comments 
are requested regarding the appropriate scope of U.S. taxation of such 
territory operations in light of the changes proposed in the staff 
discussion draft.''

Given that, in the absence of legislative provisions regarding the 
taxation of controlled foreign corporations (CFCs) in the territories, 
they would be taxed in the same manner as CFCs in foreign 
jurisdictions, I write to provide a comment on this issue. I have held 
numerous conversations about this matter with your counterparts on the 
House Committee on Ways and Means, Chairman Dave Camp and Ranking 
Member Sander Levin, as well as with senior officials in the Obama 
Administration. I look forward to discussing this important subject in 
more detail with you and your staffs as the effort to enact 
comprehensive tax reform moves forward.

My first point is the most fundamental. As the staff discussion draft 
explains, an important purpose of reforming the current international 
business tax system is to ``promote U.S. growth and job creation,'' to 
``reduce incentives for U.S. companies to move jobs or the entire 
company overseas,'' and to ``make the U.S. more attractive and 
competitive for multinationals to invest and create jobs.'' As you 
know, while Puerto Rico and the other territories are treated as 
``international'' for some (though by no means all) purposes under the 
Internal Revenue Code, the territories are U.S. jurisdictions, home to 
millions of U.S. citizens. Jobs in the U.S. territories are American 
jobs. The laudable goal of tax reform--to encourage investment and 
employment in the United States--will not be fully achieved if 
provisions are included in the legislation that have the effect of 
discouraging job-creating investment in Puerto Rico and the other 
territories. Tax reform should seek to foster economic opportunities in 
the American territories to the same degree and extent that it seeks to 
promote those opportunities in the states.

Puerto Rico and the other territories face severe economic and fiscal 
challenges. For at least four decades, Puerto Rico's economic 
performance has been far worse than any state according to every 
indicator, and the gap between Puerto Rico and the states is widening, 
not narrowing. The November 2013 unemployment rate in Puerto Rico was 
14.7 percent, which is 7.7 percent above the U.S. national average. In 
December, Moody's Investors Service placed Puerto Rico's general 
obligation and other bonds--which the three main credit rating agencies 
have rated one notch above junk status--on review for downgrade. The 
Puerto Rico Government Development Bank's Economic Activity Index (GDB-
EAI)--a useful tool for evaluating the overall health of the 
territory's economy--was 5.7 percent lower in November 2013 than in 
November 2012, and the cumulative Fiscal Year 2014 GDB-EAI (July-
November) was about 5.3 percent below the corresponding period in 2012. 
In November, in a clear sign of the gravity of the situation, the White 
House assigned an inter-agency team to work with the government of 
Puerto Rico to ``strengthen Puerto Rico's fiscal situation and economic 
outlook.'' Primarily because of the lack of economic opportunities in 
Puerto Rico, island residents are leaving in staggering numbers for the 
states. Between 2004 and 2013, the territory's population fell from 
3,826,878 to 3,615,086--a loss of 211,792 individuals or 5.5 percent. 
As the Committee considers provisions related to Puerto Rico for 
inclusion in tax reform legislation, I respectfully ask that you bear 
in mind that, in economic and demographic terms, Puerto Rico is in an 
extraordinarily delicate and deteriorating condition.

Forty years of empirical evidence establishes, beyond any doubt, that 
Puerto Rico's economic problems are inextricably linked to its 
political status. As a territory, Puerto Rico is treated unequally 
under, or excluded entirely from, key federal spending and tax credit 
programs, most of which are within the jurisdiction of your Committee. 
This disparate treatment is the principal reason why Puerto Rico's 
economy has consistently struggled, regardless of who holds power in 
Washington or San Juan. I support statehood for Puerto Rico, and do so 
in meaningful part because history shows that every territory that 
joins the Union experiences a substantial increase in its economic 
activity and standard of living. Statehood is the only status that will 
enable Puerto Rico, on an enduring basis, to reduce unemployment, 
attract investment, retain talent, promote growth, and manage our 
deficits and debt. A November 2012 referendum on the island 
demonstrated that a majority of my constituents oppose the current 
territory status and that there are now more people in Puerto Rico who 
support statehood than who support any other status option, including 
the current status. To honor this democratic vote, and to most 
effectively assist the economic development of Puerto Rico, I 
respectfully urge the Committee, as part of comprehensive tax reform, 
to provide for the equal treatment of Puerto Rico under the refundable 
Child Tax Credit program and to extend to Puerto Rico the refundable 
Earned Income Tax Credit program. I also request that the Committee 
take separate legislative action to treat Puerto Rico equally in 
Medicare, the Temporary Assistance for Needy Families (TANF) program, 
Supplemental Security Income (SSI), and Medicaid.

My hope and expectation is that Puerto Rico will soon become a full and 
equal member of the American family, that island residents and 
corporations will be treated in the same manner as their counterparts 
in the states under all federal spending and tax programs, and that 
local leaders will no longer need to seek special treatment under 
federal law in order to encourage companies to invest and create jobs 
in Puerto Rico. Until that day arrives, however, I believe that it is 
appropriate for Congress to enact tax provisions that are tailored for 
Puerto Rico and the other U.S. territories, given that the territories 
are treated in unequal fashion under many federal programs; that 
territory residents will continue to relocate to the states if there 
are not sufficient economic opportunities available to them at home; 
and that these are American--not foreign--jurisdictions. But a caveat 
is in order. In the past, federal legislation to exempt territory 
income from corporate taxation has arguably done more to benefit 
companies than to benefit Puerto Rico, so it is important that any 
provision included in corporate tax reform legislation be designed to 
promote job creation or other measurable contributions to the island's 
economic development. I trust that you, your counterparts on Ways and 
Means, and the Obama Administration fully share this objective.

If the Committee, notwithstanding the arguments I have made, is 
inclined to treat foreign subsidiaries doing business in Puerto Rico 
and the other U.S. territories in more or less the same fashion as 
foreign subsidiaries doing business in foreign jurisdictions, I ask the 
Committee--at a minimum--to adopt the following proposal, which I 
believe would be fair and beneficial.

As background, although there are meaningful differences between the 
various business tax proposals in Chairman Baucus' staff discussion 
draft and the proposals contained in the discussion draft released by 
Chairman Camp in October 2011, both drafts seek to ensure that reform 
does not result in base erosion--that is, does not encourage U.S. 
companies to shift an even greater share of their production to low tax 
``foreign'' jurisdictions. Therefore, both chairmen have made proposals 
under which the United States would impose a tax on certain profits of 
CFCs operating in jurisdictions where the local tax is below a certain 
minimum rate. In the event that a foreign jurisdiction raises its rate 
to the minimum level, the U.S. would not impose this levy. In effect, 
this could create a global minimum level of taxation.

Although the overarching purpose of the various base erosion proposals 
that have been put forward for discussion is to equalize the tax 
treatment provided in all jurisdictions, such a provision could create 
an unintended problem in the case of Puerto Rico absent modification. 
Puerto Rico's highest corporate income tax rate is 39 percent, which is 
well above the minimum rate that would be established under any of the 
proposals to prevent base erosion. However, to attract investment, the 
Puerto Rico government has entered into multi-year agreements with many 
CFCs affiliated with companies based in the states. These agreements 
provide for the CFC in question to pay a reduced income tax rate that 
is substantially below the minimum rate called for under the base 
erosion proposals. The Puerto Rico government may not be able to 
unilaterally modify or set aside the income tax agreements in the event 
that base erosion provisions are enacted. In that event, Puerto Rico's 
corporate tax rates would be below the minimum rate proposed in the 
staff drafts and, as a result, Puerto Rico would not be able to derive 
any fiscal benefit from the additional revenue raised as a result of 
the application of tax reform to CFCs doing business on the island.

Consistent with the principle that tax reform should help and not hurt 
Puerto Rico, I therefore propose the following modification to the base 
erosion provisions:

      Until the expiration of the multi-year tax reduction agreements 
that are in place at the time of the enactment of federal tax reform 
legislation, any revenue raised as a result of the application of base 
erosion provisions to business activities in Puerto Rico would be 
granted by the U.S. government to the territory government.

      Congress should place reasonable conditions on the granted 
revenue, requiring that such revenue be used by the Puerto Rico 
government for specified public purposes, such as initiatives to reduce 
the cost of electricity and water, improving the public education 
system, enhancing public safety, and reducing public debt.

Thank you in advance for your attention to this matter, and I look 
forward to working with you and your colleagues on the Committee to 
ensure that whatever tax reform legislation is enacted by Congress 
promotes job-creating investment in Puerto Rico and the other U.S. 
territories. Sincerely,

Pedro R. Pierluisi
Member of Congress

cc:   The Honorable Dave Camp, Chairman, House Committee on Ways and 
Means 
The Honorable Sander M. Levin, Ranking Member, House Committee on Ways 
and Means
    The Honorable Ron Wyden, U.S. Senator
                                 ______
                                 

          HHS Administrative Relief Proposals for Puerto Rico

                  Requested by Rep. Pedro R. Pierluisi

                             June 15, 2015

     Modify Practice Expense Geographic Practice Cost Index (GPCI) 
                            Payment Formula

[Proposed Legislative Solution: Section 212 of H.R. 2635]

Description of Problem

Puerto Rico doctors who serve traditional, fee-for-service Medicare 
patients are unfairly treated under the current Practice Expense 
Geographic Practice Cost Index (GPCI) payment formula determined by CMS 
on an annual basis. Lack of fair treatment under the GPCI system is an 
important factor behind the well-documented exodus of Puerto Rico 
physicians to the U.S. mainland. The Medicare program compensates 
doctors pursuant to the Physician Fee Schedule (PFS). Three separate 
Relative Value Units (RVUs) are associated with the calculation of a 
physician payment under the PFS. The Physician Work RVU reflects the 
relative time and intensity associated with providing a Medicare 
service. The Practice Expense RVU reflects the costs of maintaining a 
practice (such as renting office space, buying supplies and equipment, 
and paying staff). The Malpractice RVU reflects the cost of malpractice 
insurance. GPCIs are adjustments that are applied to each of the three 
RVUs in order to account for geographic variations in the costs of 
practicing medicine in different areas within the United States. 
UsingU.S. Census Bureau data, the Centers for Medicare and Medicaid 
Services (CMS) has calculated for Puerto Rico the lowest Work GPCI, 
Practice Expense GPCI, and Malpractice GPCIs of any payment locality in 
the United States, including the other territories. The Practice 
Expense GPCI calculated for Puerto Rico is particularly problematic, 
and there is strong evidence to suggest that the current formula--
particularly its reliance on residential rent data as a proxy for 
commercial rent data--unduly disadvantages Puerto Rico, and results in 
payments to physicians that do not adequately capture the actual cost 
of practicing medicine in the territory. Additionally, the Practice 
Expense GPCI assumes a national market for the cost of medical supplies 
and equipment. CMS assigns every payment locality the same value for 
this part of the GPCI, which works to Puerto Rico's disadvantage. 
Doctors in Puerto Rico face higher shipping rates and logistical 
challenges in acquiring medical supplies and equipment than their 
counterparts in the 48 contiguous states. For Calendar Year 2015, 
Puerto Rico's Practice Expense GPCI is 0.705, whereas the state with 
the lowest Practice Expense GPCI is West Virginia at 0.836--a huge gap.

Proposed Administrative Solution

In proposing and finalizing Calendar Year 2016 and future year GPCIs, 
CMS should utilize an alternative means for calculating Puerto Rico's 
Practice Expense GPCI. Relying on residential rent data from the 
American Community Survey (ACS) is inadequate in the case of Puerto 
Rico due to the lack of a developed rental market there. CMS should 
explore substituting U.S. Postal Service rental information, employing 
a private sector-developed model, using an inflation or adjustment 
factor for the residential data reported for Puerto Rico, or analyzing 
and validating data that would capture actual costs from doctors and be 
complied by the Puerto Rico Institute of Statistics. Rep. Pierluisi 
made specific suggestions for improving the GPCI calculations for 
Puerto Rico in official comment letters during the rulemaking process 
for Calendar Years 2013 and 2014.\1\ CMS should re-examine those 
suggestions. Additionally, CMS should develop a shipping differential 
to apply to the cost of medical supplies and equipment value for Puerto 
Rico and also possibly for the other non-contiguous jurisdictions 
(Alaska, Hawaii, and the other territories). See for example, 
Reimbursement Transportation Cost Payment Program (RTCP) by Department 
of Agriculture.
---------------------------------------------------------------------------
    \1\ See Rep. Pierluisi's letter of September 6, 2013.
---------------------------------------------------------------------------

       Provide SSI Proxy to Calculate Medicare DSH Payments for 
                         Puerto Rico Hospitals 

[Proposed Legislative Solution: Section 203 of H.R. 2635]

Description of Problem

CMS should ensure Puerto Rico hospitals receive fair Medicare 
disproportionate share hospital (DSH) payments. Since the 1980s, CMS--
through the Medicare DSH program--has provided additional financial 
support directly to hospitals that treat a high percentage of the most 
vulnerable population groups--Medicaid beneficiaries, low-income 
Medicare beneficiaries, and the uninsured. The formula that CMS uses to 
calculate Medicare DSH payments to hospitals consists of several 
factors, including a factor called ``Medicare SSI days.'' This factor 
measures the number of times a hospital treats a patient who has 
Medicare Part A and who receives benefits under the federal 
Supplemental Security Income (SSI) program. The formula operates to 
Puerto Rico's disadvantage because Congress has not extended the SSI 
program to the territory. While the ACA modified the formula used to 
distribute Medicare DSH payments nationally--a modification which 
substantially improved the amount Puerto Rico hospitals receive--the 
modified formula still uses the ``Medicare SSI days'' factor in two 
places.

Proposed Administrative Solution

CMS should exercise its discretion to administratively provide a proxy 
for the SSI factor in the Medicare DSH payment formula as it applies to 
Puerto Rico hospitals given that residents of Puerto Rico are 
statutorily ineligible for SSI payments regardless of whether or not 
they meet the income thresholds required for SSI eligibility. Rep. 
Pierluisi proposes in Section 203 of H.R. 2635 that HHS credit a Puerto 
Rico hospital for a Medicare SSI day when a patient the hospital treats 
has Medicare Part A and either (1) receives benefits under SSI, (2) 
receives benefits under the Aid to the Aged, Blind and Disabled (AABD) 
program that applies in Puerto Rico in lieu of SSI, or (3) is a ``dual 
eligible'' enrolled in both Medicare and Medicaid.

But CMS can take administrative action to address this problem without 
the need for Congress to enact legislation. Under 42 U.S.C. Section 
1395ww(d)(9)(D), Congress appears to state that Medicare DSH payments 
made to Puerto Rico hospitals should be computed ``in the same manner 
and to the extent'' as payments made to hospitals in the states. The 
statute, which is complicated and confusing, provides CMS with ample 
authority to utilize a proxy for SSI in the case of Puerto Rico. If 
Congress wanted to ensure that Puerto Rico hospitals would be 
shortchanged, it stands to reason that it would not have written the 
statute as it did.

     Remove Matching Requirement from EAP Funds Used for Medicare 
                           Part D Assistance

[Proposed Legislative Solution: Section 231 of H.R. 2635]

Description of Problem

Puerto Rico and the other territories cannot fully use--and currently 
forfeit to the federal government--annual Enhanced Allotment Program 
(EAP) funding that CMS provides in lieu of the Medicare Part D low-
income subsidy (LIS). Part D covers prescription drugs. It is 
voluntary, requiring a monthly premium. If a beneficiary is enrolled in 
traditional Medicare, the beneficiary can purchase standalone Part D 
coverage through a private drug plan. If the beneficiary is enrolled in 
a Medicare Advantage (MA) plan, the beneficiary pays a monthly Part D 
premium to that plan. In the 50 states and the District of Columbia, 
Medicare beneficiaries with annual income below 150 percent of the 
federal poverty level are eligible to receive a low-income subsidy from 
the federal government, which reduces or eliminates their monthly 
premium and other out-of-pocket costs associated with Part D. The 
subsidy is paid directly by the federal government to the beneficiary's 
plan, whether it is a standalone drug plan or an MA plan. However, 
beneficiaries in Puerto Rico and the other territories are not eligible 
for the low-income subsidy. Instead, CMS provides each territory 
government with an ``enhanced allotment''--known as an EAP--to 
supplement the territory's annual Medicaid cap under Section 1108 of 
the Social Security Act. Under the EAP formula, the Puerto Rico 
government is eligible to receive about $44 million a year, a paltry 
amount compared to the $400-$600 million that low-income seniors in the 
territory would receive directly if they had access to LIS. (Under EAP, 
the USVI receives about $1.1 million annually; Guam about $817,000; the 
CNMI about $114,000; and American Samoa about $270,000.) Moreover, CMS 
requires each territory government to pay a 45 percent local match in 
order to draw down EAP funds, just as the territory governments must do 
to access all other federal Medicaid funding because they have a 55 
percent FMAP. The Puerto Rico government annually returns about half of 
its $44 million in annual EAP funding to the federal government because 
it struggles to meet the local match, even though the funding is badly 
needed. Specifically, in FY 2011, Puerto Rico forfeited $28 million; 
$26 million in FY 2012; $22 million in FY 2013; and $25 million in FY 
2014.

Proposed Administrative Solution

CMS should remove the local matching requirement from EAP funding, 
which was arguably not intended to apply in the first place. An 
independent analysis of the statute provided by the American Law 
Division of the Congressional Research Service indicates CMS has ``gap 
filling authority'' due to the ambiguous nature of the relevant section 
of law that provides EAP funding and rules. Because of the ambiguity 
and case law, CMS has the ability both to reasonably apply the FMAP to 
the EAP and to reasonably refrain from doing so. Use of the EAP 
requires submission and approval of a plan separate and distinguishable 
from the ``State plan'' required for regular Medicaid assistance and to 
which the FMAP is tethered. Therefore, CMS would be on sound legal 
footing if it were to take a fresh look at the applicable law and to 
revise/refine its practice of subjecting EAP to the FMAP. Allowing 
Puerto Rico to access 100 percent of its annual EAP funding without a 
local match would relieve local resources and increase the amount of 
federal funding already appropriated and otherwise available to help 
poor seniors in Puerto Rico pay for prescription drugs. [SEE ATTACHED 
CRS MEMORANDUM]

                                 ______
                                 

                     Congressional Research Service

              Informing the legislative debate since 1914

MEMORANDUM                                                  June 9, 
2015

To:  Hon. Pedro Pierluisi; Attention: Jed Bullock

From: Edward C. Liu, Legislative Attorney, x7-9166

Subject: Amounts for Territories Under Sec. 1935(e) of the Social 
Security Act
_______________________________________________________________________

This memorandum responds to your request for an analysis of 
Sec. 1935(e) of the Social Security Act (SSA),\1\ which authorizes 
federal financial assistance for territories that provide medical 
assistance for prescription drugs to low-income individuals who are 
also eligible for prescription drug benefits under Medicare Part D.\2\
---------------------------------------------------------------------------
    \1\  42 U.S.C. Sec. 1396u-5(e).
    \2\  42 U.S.C. Sec. Sec. 1395w-101 et seq.
---------------------------------------------------------------------------

Background

Medicare is a federal program that pays for health care for individuals 
who are disabled, or who are 65 and older.\3\ Medicaid is a joint 
federal-state program which provides health coverage for certain low-
income individuals.\4\ Under Medicaid, health care expenses of eligible 
individuals are covered pursuant to a federally approved state plan, 
and the state is subsequently reimbursed by the federal government for 
a portion of those expenses known as the state's federal medical 
assistance percentage (FMAP), which varies from state to state 
according to each state's per capita income. Specifically, Sec. 1903(a) 
of the SSA provides that the federal government ``shall pay to each 
State which has a plan approved under this title . . . an amount equal 
to the Federal medical assistance percentage . . . of the total amount 
expended during such quarter as medical assistance under the State 
plan.'' \5\ Territories are also allowed to establish Medicaid plans 
and are reimbursed pursuant to their applicable FMAP, which is set at 
55%. However, Sec. 1108 of the Social Security Act imposes a ceiling on 
the amount of federal Medicaid assistance that can be paid to a 
territory in any given fiscal year, while federal Medicaid funding to 
the states and the District of Columbia is open-ended.\6\
---------------------------------------------------------------------------
    \3\ See CRS Report R40425, Medicare Primer, coordinated by Patricia 
A. Davis and Scott R. Talaga.
    \4\ See CRS Report R43357, Medicaid: An Overview, coordinated by 
Alison Mitchell.
    \5\ 42 U.S.C. Sec. 1396b(a).
    \6\ 42 U.S.C. Sec. 1308(f), (g).

The Medicare Prescription Drug, Improvement, and Modernization Act of 
2003 (MMA), created a voluntary, outpatient prescription drug benefit 
for Medicare beneficiaries, known as Medicare Part D.\7\ Some Medicare 
beneficiaries, referred to as ``dual-eligible individuals'' are also 
eligible for coverage under a state's Medicaid plan, which provides 
health coverage for low income individuals. Under the MMA, Part D is 
the primary source of drug coverage for dual-eligible individuals, and 
the Act created premium and cost-sharing subsidies for these 
individuals to facilitate their purchase of coverage under Part D.\8\ 
Prior to Medicare Part D, the prescription drug costs of these 
individuals would have been shared by the state and federal government 
under the state's Medicaid plan. In order to offset the federal 
government's costs in subsidizing dual-eligible individuals under 
Medicare Part D, the MMA included a ``clawback'' provision which 
requires states to pay a percentage of the costs that they would have 
incurred for this population if Medicaid were still the primary 
payer.\9\
---------------------------------------------------------------------------
    \7\ For more information about Medicare Part D, see CRS Report 
R40611, Medicare Part D Prescription Drug Benefit, by Suzanne M. 
Kirchhoff and Patricia A. Davis.
    \8\ 42 U.S.C. Sec. 1395w-141.
    \9\ 42 U.S.C. Sec. 1396u-5(c).

Residents of the territories are not eligible for the low-income 
subsidies under Medicare Part D. However, under Sec. 1935(e) of the 
SSA, if the territory ``establishes and submits to the Secretary a plan 
. . . (for providing medical assistance with respect to the provision 
of prescription drugs to part D eligible individuals), the amount 
otherwise determined under section 1108(f) (as increased under section 
1108(g)) for the [territory] shall be increased.'' \10\ This additional 
federal Medicaid assistance is available only if the plan ``provides 
medical assistance with respect to the provision of covered part D 
drugs,'' and if the territory ``provides assurances that additional 
amounts received by the [territory] that are attributable to the 
operation of this subsection shall be used only for such assistance and 
related administrative expenses.'' \11\
---------------------------------------------------------------------------
    \10\ 42 U.S.C. Sec. 1396u-5(e)(1)(B).
    \11\ 42 U.S.C. Sec. 1396u-5(e)(2)(A), (B). The Secretary may also 
establish other criteria that the plan must meet. 42 U.S.C. Sec. 1396u-
5(e)(2)(C).

          Application of the FMAP to the Sec. 1935(e) Increase

You have asked whether there is statutory authority for limiting the 
amount of federal financial assistance under Sec. 1935(e) by applying 
the FMAP to the amount of prescription drug expenses attributable to 
the plan established by a territory under that section.

Statutory Text

In order to obtain the increase in the annual federal Medicaid 
assistance, Sec. 1935(e) requires a territory to establish and submit a 
``plan'' providing prescription drug coverage for Part D eligible 
individuals. Section 1935(e) further requires that any amounts 
attributable to this increase in the annual limit must be used only for 
prescription drug coverage. However, Sec. 1935(e) does not make any 
explicit mention of the FMAP, either to state that it is applicable to 
the increase in federal assistance, or to disavow such applicability. 
The requirements that Sec. 1935(e) does impose would not appear to be 
incompatible with the application of the FMAP. The FMAP would not 
appear to frustrate either the submittal of a plan providing 
prescription drug coverage or the use of increased federal funds under 
this subsection for such expenses.

On the other hand, neither does the language of Sec. 1935(e) appear 
incompatible with the use of the increased federal assistance without 
applying an FMAP.

Looking more broadly at the rest of the SSA, and particularly within 
Title XIX of the SSA which establishes the Medicaid program, the phrase 
``the State plan'' is frequently used to refer to the medical 
assistance plan established under Sec. 1902 to provide coverage for 
low-income individuals generally.\12\ The plan under Sec. 1902 is 
clearly subject to the FMAP as it makes reference specifically to the 
``non-Federal share of the expenditures under the plan.'' \13\ 
Arguably, the use of the word ``plan'' in Sec. 1935(e) could be read as 
incorporating the same meaning of ``plan'' under Sec. 1902, or at least 
the accompanying FMAP.\14\ On the other hand, Sec. 1935(e) does not 
identify the required plan using either a definite article or the 
adjective ``State,'' raising the possibility that the use of the word 
``plan'' in Sec. 1935(e) is meant to refer to a distinct type of plan 
that is narrowly focused on dual-eligible individuals solely for 
purposes of that section.\15\
---------------------------------------------------------------------------
    \12\ 42 U.S.C. Sec. 1396a.
    \13\ 42 U.S.C. Sec. 1396a(a)(2).
    \14\ Ratzlaf v. United States, 510 U.S. 135, 143 (1994) (``A term 
appearing in several places in a statutory text is generally read 
thesame way each time it appears.'').
    \15\ Atlantic Cleaners and Dyers, Inc. v. United States, 286 U.S. 
427, 433 (1933) (The general presumption that repeated phraseshave the 
same meaning ``readily yields when there is such variation in the 
connection in which the words are used as reasonablyto warrant the 
conclusion that they were employed in different parts of the act with 
different intent.'').

Section 1903 of the SSA may also be relevant in that it provides that 
the federal government ``shall pay to each State which has a plan 
approved under this title [Title XIX] . . . an amount equal to the 
Federal medical assistance percentage . . . of the total amount 
expended during such quarter as medical assistance under the State 
plan.'' \16\ The dual-eligible plan under Sec. 1935(e) is a plan under 
Title XIX, and it is required to provide medical assistance with 
respect to prescription drug coverage. Therefore, Sec. 1935(e) and 
Sec. 1903 might be read in conjunction to support the argument that 
federal assistance under a Sec. 1935(e) plan should be limited to the 
FMAP. However, one could also argue that Sec. 1903 was enacted well 
before Sec. 1935(e), when the only type of state plan under Title XIX 
was the generic state plan under Sec. 1902, and that Sec. 1903 should 
not be read to encompass a Sec. 1935(e) plan.
---------------------------------------------------------------------------
    \16\ 42 U.S.C. Sec. 1396b(a).

Legislative History

With respect to the Sec. 1935(e) increase in federal Medicaid 
assistance, the conference report accompanying the MMA provides little 
additional information regarding the applicability of the FMAP to that 
increase. The conference report simply states:

        Residents of territories would not be eligible for regular low-
        income subsidies. However, territories would be able to apply 
        for additional Medicaid funds. The total amount available is 
        $28.125 million beginning in the last 3 quarters of 2006, $37.5 
        million in 2007 and increasing in subsequent years by the 
        annual percentage increase in prescription drug costs for 
        Medicare beneficiaries. In order to obtain these funds, 
        territories would be required to provide assurances that 
        additional funds would be used for covered drugs and 
        administrative costs (with no more than 10 percent of the total 
        used for administrative expenses.) \17\
---------------------------------------------------------------------------
    \17\ H. Rept. 108-391, at 510.

As with the statutory text of Sec. 1935(e), no mention of the 
applicability vel non of the FMAP to the increased federal assistance 
is made in the conference report. Still, there are two points about the 
---------------------------------------------------------------------------
conference report that may be relevant to the instant discussion.

First, the report acknowledges that the low-income subsidies available 
to the 50 states and the District of Columbia are not available in the 
territories, and further suggests that the enhanced federal assistance 
under Sec. 1935(e) is a substitute for those low-income subsidies. 
Second, the conference report's discussion of the House bill indicates 
that this earlier version of the bill would have eventually provided 
for the full federal assumption of the costs of the low-income 
subsidies for dual-eligible individuals. In contrast, the final version 
that was enacted into law includes a ``phased-down state contribution'' 
under which the states retain some financial responsibility 
indefinitely for the costs of individuals that have transitioned from 
Medicaid to Part D. Together, these two points may support the 
inference that Congress considered and rejected a proposal in which the 
cost of prescription drug coverage for dual-eligible individuals in the 
50 states would be borne entirely by the federal government under 
Medicare. To the extent that Sec. 1935(e) is intended to approximate 
the position of the states vis-a-vis the low-income subsidies under 
Medicare Part D, the report may support a further inference that the 
cost of covering prescription drugs under Sec. 1935(e) for dual-
eligible individuals was intended to be shared by both territorial and 
federal coffers.

Chevron Deference

The preceding review of the statutory text and legislative history 
reveals that neither source explicitly acknowledges an intent to apply 
the FMAP to the increased federal assistance under Sec. 1935(e), nor 
appears to bar the application of the FMAP. Instead, it may be most 
accurate to describe both the text and legislative history as being 
entirely silent on this point. In the seminal Chevron v. Natural 
Resources Defense Council, the Supreme Court held that if a court were 
to conclude that the text and legislative history taken as a whole 
still did not clearly indicate Congress' intent, and the statute 
explicitly or implicitly indicates that Congress delegated authority to 
the agency to make rules filling in the gaps of the legislation, an 
agency's interpretation of a statute should be accorded such deference 
that it will only be overturned if it is an unreasonable 
interpretation.\18\ Here, the SSA appears to grant the Secretary such 
``gap filling'' authority, both with respect to the SSA generally and 
specifically in the context of Sec. 1935(e).\19\ Further, the statutory 
text and legislative history of Sec. 1935(e) appears to be ambiguous 
with respect to application of the FMAP. Therefore, if the Secretary 
interprets Sec. 1935(e) as requiring application of the FMAP to the 
increased federal assistance under that section, such an interpretation 
would be accorded deference to the extent that it is reasonable. In 
this case, application of the FMAP to federal assistance under Medicaid 
is a common feature of the program, and the 50 states and the District 
of Columbia are required to contribute, at least partially, to the low-
income subsidies for dual-eligible individuals under Medicare Part D. 
Both of these facts would appear to support a court's conclusion that 
the Secretary's interpretation was reasonable, and therefore 
permissible under the Supreme Court's holding in Chevron.
---------------------------------------------------------------------------
    \18\ Chevron v. NRDC, 467 U.S. 837, 844 (1984).
    \19\  42 U.S.C. Sec. Sec. 1302, 1396u-5(e)(2)(C).

                                 ______
                                 
              Prepared Statement of Hon. Mark R. Warner, 
                      a U.S. Senator From Virginia
    While I find these theoretical discussions interesting, the people 
of Puerto Rico need practical solutions. The average debt service cost 
for U.S. States hovers between 5-10 percent of revenue, while Puerto 
Rico is facing an average of 36 percent over the next 5 years 
(excluding Federal transfers). Clearly, this is unsustainable.

    Soon after I was elected Governor of Virginia, I found out the 
Commonwealth was facing a $6 billion budget deficit. We cut spending 
and reorganized government to close the gap. I have to emphasize, 
however, that this was in a place with a population of 7-8 million 
people, more than twice the size of Puerto Rico, and therefore 
substantially better-suited to use fiscal policies to put the 
Commonwealth back on solid footing.

    Puerto Rico has a smaller population and a much larger debt burden. 
The island's government has already taken drastic measures to address 
its fiscal challenges, including public pension cuts, tax increases, 
tax administration reforms, reductions in public sector employment, 
school closings, and transitioning retirement benefits from a defined 
benefit to a defined contribution system.

    I remain unconvinced as to how Puerto Rico can service its debt 
burden without destroying basic public services and ruining its 
economy.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    There are more than 3 million United States citizens living in the 
Commonwealth of Puerto Rico, where longstanding economic challenges 
have developed into a very real and very immediate crisis.

    No single policy or harsh austerity platform is going to save the 
day. The solutions in Puerto Rico must be focused, first and foremost, 
on helping its millions of American citizens get ahead and putting its 
economy on solid ground by any available means.

    In order to accomplish that task, policymakers in Washington and in 
San Juan need to take a hard look at the origins of the crisis. Puerto 
Rico won't be able to move forward until there's an understanding of 
what's holding it back.

    The core of Puerto Rico's problems is simply that the commonwealth, 
its public corporations, and other entities issued more debt than 
they're able to pay back. Without a process for restructuring that 
debt, the problem won't go away on its own. But just solving the 
immediate crisis is not a long-term solution. Puerto Rico also needs to 
find ways to modernize and grow its economy, or it will find itself 
right back here again.

    For example, the Commonwealth's electric utility, which is 
responsible for the largest share of Puerto Rico's debt, still burns 
diesel fuel to generate power. By converting its archaic generators to 
use lower cost, cleaner-burning natural gas, the utility could make 
more money on the power it sells. But that type of conversion requires 
upfront investment, and Puerto Rico can't attract that investment 
without addressing its immediate financial crisis.

    A lot of people engaged in this debate blame Puerto Rico's economic 
struggles on the ending of an old tax policy that gave corporations 
tax-free income in the commonwealth. But in my view, the history is a 
lot more complicated than that, especially when it comes to taxes.

    Companies based in Puerto Rico are foreign in the eyes of the IRS--
the same as if their headquarters were in Mexico, China, or the UK. But 
there's a major benefit that no other foreign companies get, which is 
access to American incentives for investments in R&D and manufacturing. 
There are a lot of people who view Puerto Rico as a tax haven tucked 
within the U.S., and this is a big reason why.

    There are also other special breaks that are unavailable in the 
mainland. For example, there is a longstanding policy known in the tax 
world as the rum cover-over, which for decades provided a big economic 
boost to Puerto Rico. But in recent years, instead of being invested in 
roads or schools or health care, the proceeds from the rum cover-over 
have mostly gone straight to large distillers.

    And the Commonwealth's own tax policy has been less than helpful as 
well. By some estimates, Puerto Rico collects less than half of its 
sales tax. It recently put in place a program to attract certain 
Americans and their firms by zeroing out local taxes on capital gains, 
with no requirement that they contribute to the economy. Under a local 
tax break known as Act 20, service providers who move to the 
commonwealth have their corporate tax rate drop from 30 percent to 4 
percent.

    These strategies may appeal to some companies and attract some 
wealth, but there's not much evidence to suggest they're steering 
Puerto Rico's economy toward prosperity. Scaling back or eliminating 
overly generous or ineffective tax breaks should be on the table as 
part of any long-term financial recovery plan.

    In this debate, some people have made the argument that Puerto 
Rico's safety net programs are too generous and need to be rolled back. 
For example, there's a belief among some that Puerto Rico needs a lower 
minimum wage. But changing the law to cut people's pay makes hardly any 
sense when American citizens in Puerto Rico already make less than half 
as much on average as those in the mainland U.S. In addition, lower 
wages and a tattered safety net will drive more young workers to the 
mainland, costing the island a vital engine of growth.

    The Medicaid program in Puerto Rico is less generous than in the 
mainland U.S. And its capped funding system means that it continues to 
face harsh spending limits that undermine its ability to meet the 
health care needs of the lowest-income U.S. citizens.

    In addition, Puerto Rico is locked out of one of the most 
successful pieces of the Medicare prescription drug benefit, which is 
the Part D Low-Income Subsidy. The people this hurts already live with 
extremely limited means.

    A better funding system for Medicaid and improvements to Medicare 
should be on the table. Puerto Rico could adopt an Earned Income Tax 
Credit to help raise incomes and encourage employment. The Child Tax 
Credit could be a bigger help to more families. And the commonwealth 
could change its own tax policies to make sure it's able to invest in 
education and infrastructure in the years ahead.

    It's important to move ahead with policies that amount to more than 
a momentary sugar high. The bottom line is that the solutions have to 
help Puerto Rico and its millions of American citizens build a stronger 
economic future, or else the debt cycle will continue.

                                 ______
                                 

                             Communications

                              ----------                              


         Letter Submitted for the Record by Rafael Cox Alomar,
   Assistant Professor of Law, University of the District of Columbia
                     David A. Clarke School of Law

                        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f5d4e494e4a43014c40574e4340424e5d6f5a4b4c014a4b5a">[email&#160;protected]</a>

                             (202) 274-5303

September 28, 2015

The Honorable Orrin G. Hatch
Chairman
Committee on Finance
U.S. Senate
219 Dirksen Senate Office Building
Washington, DC 20510

The Honorable Ron Wyden
Ranking Member
Committee on Finance
U.S. Senate
219 Dirksen Senate Office Building
Washington, DC 20510

Re: Committee Hearing on Financial and Economic Challenges in Puerto 
Rico

Dear Chairman Hatch and Ranking Member Wyden,

    In anticipation of the Finance Committee Hearing on the Financial 
and Economic Challenges besieging Puerto Rico, to be held on Tuesday, 
September 29, 2015, I am hereby submitting this written statement for 
the Finance Committee's consideration and incorporation into the record 
of the proceedings.
I.  Introduction
    The colossal collapse of Puerto Rico's fiscal edifice--and, more 
importantly, the crisis's ever-increasing ripple effect on the pricing 
and financial viability of the United States' $4.3 trillion municipal 
bond market \1\--has brought to bear not only the systemic infirmities 
of the island's archaic economic and governmental models but even more 
poignantly the inadequacy of its current neocolonial relationship with 
Washington. The commonwealth status, as it stands, does not serve the 
people of Puerto Rico well, and it certainly does not promote 
Washington's geopolitical interests in the Western Hemisphere, either.
---------------------------------------------------------------------------
    \1\ Puerto Rico's default could potentially cost states and cities 
across the United States billions of dollars in additional interest 
rate charges. For a provocative argument, see Larry McDonald, ``Could 
Puerto Rico Default Hammer the $3.7 Trillion U.S. Muni Bond Market in 
2014?'' Forbes, Jan. 3, 2014, http://www.forbes.com/sites/
larrymcdonald/2014/01/03/puerto-rico-default-to-re-price-the-3-7-
trillion-municipal-bond-market-in-2014.

    It is no secret that Puerto Rico today is on the verge of virtual 
bankruptcy. And, yet, the writing has been on the wall for some time 
now. In the words of President Obama's Task Force on Puerto Rico's 
Status, ``After several years of negligible growth, high unemployment, 
and deficit increases, the Puerto Rican economy started to slow as 
early as 2006 . . . leading to the sharpest economic contraction on the 
island since the late 1980s.'' \2\
---------------------------------------------------------------------------
    \2\ President's Task Force on Puerto Rico's Status, Report by the 
President's Task Force on Puerto Rico's Status (Washington, DC: White 
House, 2011), 38.

    The picture is bleak indeed. And all available economic indicators 
confirm it. As the Government Development Bank of Puerto Rico (GDB) 
makes clear in its most recent Quarterly Report (dated May 7, 2015), 
Puerto Rico's GNP for fiscal years 2013 and 2014 ``decreased by 0.2% 
and 0.9%, respectively.'' \3\ In its Quarterly Report GDB also confirms 
that ``although the forecast for fiscal years 2015 and 2016 has not 
been made public, the cumulative values for the monthly economic 
indicators for fiscal year 2015 indicate that the real gross national 
product for fiscal year 2015 could also show a decrease during the 
first 9 months of fiscal year 2015.'' \4\
---------------------------------------------------------------------------
    \3\ Government Development Bank for Puerto Rico, Commonwealth of 
Puerto Rico Quarterly Report Dated May 7, 2015 (San Juan: Government 
Development Bank for Puerto Rico, 2015), 50.
    \4\ Ibid.

    As regards employment figures during this same period, the GDB also 
concludes in its Quarterly Report that ``total employment in the island 
fell by 0.8% as compared to the same period for the prior fiscal year, 
and the unemployment rate averaged 13.1% compared to 14.7% for the same 
period of the prior fiscal year.'' \5\ Unemployment in the island is 
persistently higher than in any of the 50 states or the District of 
Columbia,\6\ while the labor participation index has recently 
fluctuated between 38% and 41%, among the lowest in the world.\7\ 
Puerto Rico's chronic incapacity to generate jobs at home or to 
successfully compete in the global labor market is the most eloquent 
demonstration of the island's broken institutional repertoire.
---------------------------------------------------------------------------
    \5\ Ibid.
    \6\ President's Task Force, 2011 Report by the President's Task 
Force on Puerto Rico's Status, 38.
    \7\ Report on the Competitiveness of Puerto Rico's Economy, The 
Federal Reserve Bank of New York, June 29, 2012, iii.

    A decade of negative growth has led to widespread poverty, 
pervasive migration, and insurmountable levels of public debt. Close to 
45% of Puerto Ricans live in poverty \8\ (twice as many as in 
Mississippi, the poorest state in the United States), and 38% receive 
food stamps (three times as many as in the mainland).\9\ Not 
surprisingly, these conditions have led to a massive exodus not seen 
since the days of Operation Bootstrap in the 1950s.\10\ Puerto Rico's 
population has decreased from 3.81 million in 2000 to 3.667 million in 
2012. Between 2000 and 2012, 141,000 people left the island; in the 
last 2 years alone, Puerto Rico has lost 59,000 residents, or 1.5% of 
its population.\11\
---------------------------------------------------------------------------
    \8\ D'vera Cohn, Eileen Patten, and Mark Hugo Lopez, ``Puerto Rican 
Population Declines on Island, Grows on U.S. Mainland,'' Pew Research, 
Aug. 11, 2014,
    http://www.pewhispanic.org/2014/08/11/puerto-rican-population-
declines-on-island-grows-on-u-s-mainland/.
    \9\ Ibid.
    \10\ During this period, approximately 500,000 people left the 
island for jobs on the mainland. See Michael A. Fletcher, ``Puerto 
Rico, with at Least $70 Billion in Debt, Confronts a Rising Economic 
Misery,'' Washington Post, Nov. 30, 2013,
    http://www.washingtonpost.com/business/economy/puerto-rico-with-at-
least-70-billion-in-debt
-confronts-a-rising-economic-misery/2013/11/30/f40a22c6-5376-11e3-9fe0-
fd2ca728e67c_story
.html.
    \11\ Maye Primera, ``Puerto Rico se vacia lentamente,'' El Pais, 
Aug. 19, 2014, http://internacional.elpais.com/internacional/2014/08/
18/actualidad/1408390645_767393.html.

    And, to make matters worse, those who are leaving are precisely the 
ones Puerto Rico needs the most at this juncture: young, well-educated, 
productive professionals in their prime who cannot survive at home. 
This brain drain is, undoubtedly, one of the crisis's most tragic 
---------------------------------------------------------------------------
phenomena.

    Puerto Rico, the third-largest municipal bond issuer in the United 
States after New York and California,\12\ has long enjoyed unencumbered 
access to the markets, due in no small measure to its bonds' high 
yields and triple exemption from federal, state, and local taxes.\13\ 
Yet negative growth, together with uncontrolled deficit financing, has 
led to unmanageable levels of public debt. According to figures from 
the Commonwealth's Government Development Bank, as of May 31, 2015, the 
total outstanding debt of the island's government (including its 
instrumentalities and municipalities) was of $72.204 billion, 
``equivalent to approximately 104% of the Commonwealth's gross national 
product for fiscal year 2014.'' \14\
---------------------------------------------------------------------------
    \12\ Close to 75% of U.S. municipal bond funds own Puerto Rican 
bonds.
    \13\ Fletcher, ``Puerto Rico, with at Least $70 Billion in Debt.''
    \14\ Government Development Bank for Puerto Rico, Commonwealth of 
Puerto Rico Quarterly Report Dated May 7, 2015 (San Juan: Government 
Development Bank for Puerto Rico, 2015), 18.

    So far, the pro-cyclical measures enacted by the local 
authorities,\15\ far from containing the crisis, have further arrested 
the island's economic growth, while ``adversely affecting governmental 
revenues.'' \16\ More specifically, the 4.5% increase in the island's 
sales tax (from 7% to 11.5%),\17\ which went into effect on July 1, 
2015, has had a chilling effect on consumption, while leading to 
further tax evasion and even lesser revenues.
---------------------------------------------------------------------------
    \15\ See Ley Num. 3-2013 [Law No. 3 of 2013], 2013 L.P.R.A. 3 
(2013) (P.R.) (reform to the Employees' Retirement System); Ley Num. 
160-2013 [Law No. 160 of 2013], 2013 L.P.R.A. 160 (2013) (P.R.) (reform 
to Teachers' Retirement System); Ley Num. 162-2013 [Law No. 160 of 
2013], 2013 L.P.R.A. 162 (2013) (P.R.) (reform to Judiciary Retirement 
System); Ley Num. 66-2014 [Law No. 66 of 2014], 2014 L.P.R.A. 66 (P.R.) 
(legislation approving sale of U.S. $3.5 billion of general-obligation 
bonds); Ley Num 71-2014 [Law No. 71 of 2014], 2014 L.P.R.A. 71 (2014) 
(P.R.) (Puerto Rico Public Corporation Debt Enforcement and Recovery 
Act).
    \16\  Government Development Bank, Commonwealth of Puerto Rico 
Quarterly Report, July 17, 2014, 5.
    \17\  See P.R. Law No. 72-2015 of May 29, 2015.

    The deficits have become so pervasive, short-term financing and 
liquidity sources so scarce,\18\ and the avalanche of credit downgrades 
so monumental \19\ that on June 28, 2015 the Government of Puerto Rico 
announced to the world that the island's debt ``is not payable.'' \20\ 
Shortly thereafter, on August 3, 2015, the Public Finance Corporation 
(PFC), a GDB subsidiary, was unable to service its debt. The GDB's lack 
of liquidity precluded the legislature from appropriating the necessary 
funds for servicing the $58 million payment due to the creditors of the 
Public Finance Corporation.
---------------------------------------------------------------------------
    \18\ Ted Hampton, ``Puerto Rico's Liquidity Remains at Risk Despite 
Recent Borrowings, Restructuring Law,'' Moody's Investors Service, Aug. 
1, 2014, https://www.moodys.com/research/Moodys-Puerto Rico's-
liquidity-remains-at-risk-despite-recent-borrowings PR_305269?WT.mc_id= 
NLTITLE_YYYMMDD_PR_305269.
    \19\ In February 2014, the credit ratings of Puerto Rico's general-
obligation bonds and commonwealth-guaranteed bonds were lowered to 
noninvestment grade (commonly known as ``junk status'') by Moody's 
Investors Service, Standard and Poor's Ratings Services, and Fitch 
Ratings. Soon thereafter, in July 2014, each of the credit agencies 
lowered the commonwealth's ratings by two notches into junk status. And 
from then on, the list of further downgrades has gone in crescendo. As 
recent as September 10, 2015, Standard and Poor's lowered its ratings 
on Puerto Rico's true-backed debt (COFINA) to `CC' from `CCC-'.
    http://www.reuters.com/article/2015/09/10/usa-puertorico-debt-
idUSL1N11G37S20150910.
    \20\ Michael Corkery and Mary Williams Walsh, ``Puerto Rico's 
Governor Says Island's Debts Are `Not Payable,' '' The New York Times, 
June 28, 2015.

    The default on the PFC's debt not only marks the beginning of a 
long and protracted legal battle, on multiple fronts, between Puerto 
Rico and its creditors, but equally importantly brings to the fore the 
apparent incapacity of the island's current fiscal team to articulate 
and execute, on its own, a successful exit strategy from this 
labyrinth. To the extent Puerto Rico was unable to reach a compromise 
with PFC debt holders, who different from GO bondholders enjoy no full, 
faith and credit guarantee under the Commonwealth Constitution,\21\ it 
is highly unlikely it will be able to craft a consensual deal with 
those creditors against whom it holds less bargaining power. In short, 
with no precise strategy at hand, no access to an emergency source of 
liquidity, no Chapter 9 bankruptcy protection for its municipalities 
and public corporations, and none of the tools available to sovereign 
nations, Puerto Rico stands today at a perilous crossroads.
---------------------------------------------------------------------------
    \21\ P.R. Const. Art. VI, Sec. 8 (``In case the available revenues 
including surplus for any fiscal year are insufficient to meet the 
appropriations made for that year, interest on the public debt and 
amortization thereof shall first be paid, and other disbursements shall 
thereafter be made in accordance with the order of priorities 
established by law.'')

    For Puerto Rico, the only way forward appears to be brokering a 
deal with the Obama Administration and Congress whereby, on the one 
hand, the Federal Government and Puerto Rico sit on the same side of 
the negotiating table with the island's creditors; while dismantling 
the current colonial arrangement that has bred most of the fiscal and 
---------------------------------------------------------------------------
economic evils afflicting the island today.

    The perpetuation of a territorial relationship with Washington, 
fostering values of dependency while severely limiting the island's 
policy options, has no doubt exacerbated the catalysts behind the 
meltdown, making it even harder for Puerto Rico to overcome an 
endogenous economic depression in a weakened global economy.

    Thus, the opportunity has arisen for turning around the economic 
collapse by way of concurrently addressing the island's status 
quagmire.

    The time is ripe for Congress to articulate a coherent policy for 
addressing the Puerto Rican labyrinth.\22\
---------------------------------------------------------------------------
    \22\ Beyond uttering vague and sporadic statements in favor of 
providing technical assistance to local authorities, the political 
branches of Washington have yet to shoulder their part of the blame. 
See, e.g., Dereck Wallbank, ``Congress Open to Puerto Rico Technical 
Aid, Hoyer Says,'' Bloomberg, July 8, 2014, http://www.bloomberg.com/
news/2014-07-08/congress-open-to-puerto-rico-technical-aid-hoyer-
says.html.

II.  The Financial Control Board Proposal and the ``Structural'' 
        Problem
    Following the release of its Fiscal and Economic Growth Plan, on 
September 9, 2015, the Government of Puerto Rico announced its 
intention to engage in far-
reaching debt restructuring negotiations with its creditors.\23\
---------------------------------------------------------------------------
    \23\ See, for instance, Michelle Kaske, ``Puerto Rico Sends 
Reassurance as Debts Talks Poised to Begin,'' Bloomberg Business, 
September 25, 2015.

    It seems as if the Commonwealth's fiscal team intends to begin 
negotiations with the island's creditors by mid-October. However, the 
island's systemic institutional infirmities, its acute illiquidity, its 
lack of access to Chapter 9's restructuring mechanism and the absence 
of consensus among the wide panoply of creditors besieging it will in 
all probability drive any unilateral attempt at restructuring to 
---------------------------------------------------------------------------
failure. And this is precisely what must be averted at all costs.

    As both Chairman Hatch and Treasury Secretary Lew have suggested 
``Puerto Rico needs an orderly process to restructure its unsustainable 
liabilities;'' \24\ ``orderly resolution of debt defaults are preferred 
to chaotic ones'' \25\ that ``could cause long-term damage to the 
health, safety and financial well-being of the families living and 
working in Puerto Rico.'' \26\
---------------------------------------------------------------------------
    \24\ Letter from Secretary Lew to Chairman Hatch, July 28, 2015.
    \25\ Letter from Chairman Hatch to Secretary Lew, July 17, 2015.
    \26\ Letter from Secretary Lew to Chairman Hatch. July 28, 2015.

    However, the island's liquidity deficiency is of such magnitude 
that ``neither the Commonwealth nor GDB may be able to honor all of 
their obligations as they come due nor may the Commonwealth be able to 
fund all necessary governmental programs and services if it does not 
have sufficient access to the capital markets or alternative sources of 
financing to satisfy its liquidity needs.'' \27\ According to Conway 
MacKenzie, Inc., a U.S. based consulting firm retained by the GDB, 
avoiding ``full cash depletion at the Treasury's Concentration Account 
by September 2015'' will be highly improbable ``in the absence of new 
TRANs or other cash flow financing for fiscal year 2016.'' \28\
---------------------------------------------------------------------------
    \27\ Qualifying Report, May 7, 2015, 15.
    \28\ Ibid., 49.

    A humanitarian crisis of grave proportions will soon unfold in this 
U.S. territory of 3.6 million U.S. citizens if the political branches 
in Washington, in conjunction with the island's elected officials, fail 
to craft an innovative strategy for cleaning up this mess.\29\
---------------------------------------------------------------------------
    \29\ As regards the health aspects of this impending humanitarian 
crisis see, for instance, Lizette Alvarez and Abby Goodnough, ``Puerto 
Ricans brace for Crisis in Health Care,'' The New York Times, August 2, 
2015.

    It is against this background, that the idea that Congress (in the 
exercise of its authority under the Constitution's territory clause) 
should pass legislation establishing a federal financial control board 
over Puerto Rico has begun to gain momentum in Washington (and bond 
holders) circles.\30\ This proposition should not be taken lightly. It 
merits grave and careful consideration.
---------------------------------------------------------------------------
    \30\ See, for instance, Dear Colleague letter authored by 
Congressman Jeff Duncan (R-SC), June 19, 2015. Also, Jack Casey, 
``Puerto Rico Control Board Discussion Simmers in Congress,'' The Bond 
Buyer, September 4, 2015.

    As a threshold matter, it is essential to discard the possibility 
of blindly extrapolating the 1995 District of Columbia Revitalization 
Act to the Puerto Rican scenario. The District's $722 million budget 
deficit and $5 billion unfunded pension liability (as measured by 1995 
standards) \31\ pale in comparison to Puerto Rico's chronic $2.5 
billion per year budget deficits (3.5% of GNP) and over $33 billion 
unfunded pension liability.\32\ While certain provisions of the 
District's Revitalization Act would certainly prove useful in the 
Puerto Rican context, such as for instance those addressing 
governmental cash-flow problems,\33\ these measures alone will prove 
insufficient to assure the island's long-term sustainability.
---------------------------------------------------------------------------
    \31\ Michael Janofsky, ``Congress Creates Board to Oversee 
Washington, DC,'' The New York Times, April 8, 1995.
    \32\ Qualifying Report, 43-46. Krueger Report, 15.
    \33\ Pursuant to the District's Revitalization Act, the U.S. 
Treasury, inter alia, provided the District short-term capital to 
refinance close to $500 million in debt; assumed the District's $5 
billion unfunded pension liability; increased the federal Medicaid 
payment to 70%; and took over the financing of the courts and the 
prison facilities.

    As the 2015 Krueger and the 2014 Federal Reserve Bank of New York 
Reports have both suggested, solving Puerto Rico's woes will require 
much more than a powerful dose of austerity. It will also require doing 
away with the applicability to Puerto Rico of a host of federal 
statutes and regulations, such as the Jones Act (1920 Merchant Marine 
Act as amended), which have severely diminished the island's 
competitiveness in the global economy.\34\
---------------------------------------------------------------------------
    \34\ Krueger Report, 1; Update on the Competitiveness of Puerto 
Rico's Economy, Federal Reserve Bank of New York, July 31, 2014, 9.

    While it is true that local politicians have recklessly mismanaged 
the island's finances, it is pretty clear that the fundamentals of 
Puerto Rico's political relationship with the U.S. are highly 
unsatisfactory. The political status meltdown has clearly spilled over 
to the island's fiscal and economic health. Therein lies what some 
voices in Congress have now come to describe as the island's 
---------------------------------------------------------------------------
``structural'' problem.

    In light of the above-referenced observations, the Senate's Finance 
Committee would be well advised to pay heed to the following 
recommendations as it explores the possibility of introducing a 
financial control board bill for Puerto Rico:

1.  The proposition that the federal government ``cannot'' and ``should 
    not'' extend to Puerto Rico bridge financing facilities is 
    unrealistic. Addressing the island's long-term structural 
    asymmetries, will require in the short-term access to external 
    sources of liquidity. If seen in light of the impending debt 
    service deadlines facing the island's central government and public 
    corporations (totaling close to $3.5 billion over the next 10 
    months),\35\ and these entities' incapacity to access the markets, 
    it becomes patently clear that there will be no successful debt 
    restructuring without short-term liquidity. Nothing, as a matter of 
    law or policy,\36\ stands in the way of the Treasury's or the 
    Federal Reserve's assistance by way of facilitating Puerto Rico 
    appropriate short-term financing facilities within a wider 
    revitalization strategy that brings to the fore the federal 
    financial control board mechanism. One thing must go with the 
    other.
---------------------------------------------------------------------------
    \35\ GOs: $357 million of interest due in January 2016 and $805 of 
principal and interest in July same; COFINA: $1.2 million of interest 
due in November 2015, February and May 2016; PREPA: $196 million of 
interest in January 2016 and $420 million of principal and interest in 
July 1 same; GOB: $354 million in December 2015 and $422 million in May 
2016; PR Highway and Transportation Authority: $106 million of interest 
in January 2016 and $220.7 million of principal and interest in July 
same; PR Public Buildings Authority: $102.4 million of interest in 
January 2016 and $207.6 million of principal and interest in July same; 
PRASA: $86.5 million of interest in January 2016 and $135.1 million of 
principal and interest in July same; PR Financing Authority: $37.2 
million of interest in January 2016 and $77.8 million of principal and 
interest in July same.
    \36\ See, for instance, Arturo Estrella (Professor of Economics at 
Renseelaer Polytechnic Institute), Puerto Rico Debt and the U.S. 
Federal Government: Potential Assistance Tools and Policy Practice 
(Discussion Paper Prepared at the Auspices of the Fundacion Carvajal), 
October 2014.

2.  The sheer magnitude and complexity of Puerto Rico's debt 
    restructuring negotiations (an exercise without precedent in Puerto 
    Rico's history) will no doubt require that any federal financial 
    control board legislation bestow on the control board broad 
    authority to engage the island's creditors in the restructuring 
    negotiations--bearing in mind, of course, the fiduciary duties that 
    would necessarily make the board accountable to the people of 
---------------------------------------------------------------------------
    Puerto Rico and to Congress.

3.  Federal legislation establishing a financial control board for 
    Puerto Rico (legislation that would amend the Federal Relations Act 
    (48 U.S.C. Sec. 731 et. seq.)) must also contain explicit 
    provisions detailing a fixed and specific timetable for Puerto 
    Rico's decolonization. As soon as Puerto Rico hits the applicable 
    fiscal and economic growth benchmarks the federal financial control 
    board legislation would put in place, the people of Puerto Rico 
    should then face a stark choice between sovereignty and annexation. 
    For this approach to work, the political branches in Washington 
    must pay attention to the following elements. First, the status quo 
    must be discarded from the outset because it is both the source of 
    the structural crisis besieging the island and a colonial 
    anachronism at odds with the U.S.'s geopolitical interests in the 
    Americas.\37\ Second, the sovereignty formula presents, in of 
    itself, a dual choice between separate sovereignty and associated 
    sovereignty (as both terms are defined under Public International 
    Law). Third, the annexation alternative would amount to Puerto Rico 
    becoming a ``part'' of the United States as an ``incorporated'' 
    territory--bearing in mind that it befalls on Congress to spell out 
    the conditions the island would then have to meet in order to, on 
    the one hand, bear the fiscal and economic burdens of statehood 
    and, on the other, enter the Union as a state on an equal footing 
    with the 50 states.
---------------------------------------------------------------------------
    \37\ It was Ranking Member Wyden who summed it up best when, in 
adjourning the Senate's Resources Committee Hearing on Puerto Rico, he 
said: ``Two out of 3 of you seem to believe that the current status and 
enhanced Commonwealth are no longer options. . . . So looking forward 
it seems to me that it's especially important to see if the 3 of you 
can come to an agreement on the language of a ballot that, in effect, 
has 2 remaining options: statehood, or sovereignty as an independent or 
freely associated State. Absent an agreement of the 3 of you it seems 
that this will just go round and round some more.'' See Puerto Rico: 
Hearing before the Committee on Energy and Natural Resources, United 
States Senate, One Hundred Thirteenth Congress, First Session, to 
Receive Testimony on the Nov. 6, 2012, Referendum on the Political 
Status of Puerto Rico and the Administration's Response, 113th Cong. 
35-36 (2013).
---------------------------------------------------------------------------
III.  Conclusion: A Path to Decolonization
    The Puerto Rican fiscal crisis presents a unique opportunity for 
articulating a sound policy for disentangling an ancient jigsaw 
puzzle--the solution of which has so far eluded Washington. The current 
territorial condition of Puerto Rico has become an albatross around the 
neck of any possible path for undoing the epic fiscal crisis besieging 
the island and, no doubt, a source of acute embarrassment to the people 
of Puerto Rico and to the United States.

    I call on the members of the Senate's Finance Committee to analyze 
the issues raised in this written statement and do what is right by 
Puerto Rico.

            Cordially,

            Rafael Cox Alomar

c. Chris Campbell, Majority Staff Director of the Senate Finance 
Committee

                                 ______
                                 
                     Statement of Dennis O. Freytes

    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7a3a2a9a9aeb4a1b5a2beb3a2b487afa8b3aaa6aeabe9a4a8aa">[email&#160;protected]</a>/FL: (407) 298-1151/PR: (787) 946-5859

_______________________________________________________________________

         U.S. SENATE FINANCE COMMITTEE HEARING ON PUERTO RICO--
                           SEPTEMBER 29, 2015

                 SUPPORT U.S. TERRITORY OF PUERTO RICO 
                  MASTER RECOVERY AND PROSPERITY PLAN

HONORABLE U.S. SENATORS: THANKS for receiving and reading my testimony!

It is the sacred DUTY of the Federal Government (U.S. President, U.S. 
Congress, U.S. Federal Courts/Supreme Court) to exercise its oversight 
and fairly support the U.S. Territory of Puerto Rico (under Article 4--
U.S. Constitution's Territorial Clause), in its hour of need to include 
to end the Fiscal and Economic crisis! Plus, ensure a fair/equal U.S. 
Citizenship; end the federally undemocratic Territorial Status! Treat 
all U.S. Citizens--(including Puerto Ricans) equally under just laws!

For the Purpose of these hearings, I recommend passage of H.R. 870, the 
Puerto Rico Chapter 9 Uniformity Act of 1915 (Debt Restructure--that is 
fairly applied to other States, and did apply to Puerto Rico until 1984 
when the U.S. Congress removed Puerto Rico).

The U.S. Territory of Puerto Rico--with Federal Government fair support 
and constructive oversight--needs to develop a comprehensive (not 
piecemeal) Economic/Fiscal Recovery and Prosperity Plan; take action to 
do various structural reforms to get Puerto Rico out of economic 
recession; create good jobs that will also help improve the U.S. 
Economy; ensure fairness/equality and progress for the good of all U.S. 
Citizens; help stem the Puerto Rican exodus to the States!

BACKGROUND

U.S. Citizens with Puerto Rican Heritage/Roots are about 9 million 
strong; are the 2nd largest Hispanic Group in the U.S. (most live in 
the States--can Vote in Federal Elections; are mostly concentrated and 
are the majority of Hispanics) in Central Florida (swing State), and 
New York. The U.S. Territory of Puerto Rico has about 3.6 million U.S. 
Citizens, more than about 22 States. (It used to be more than 24 
States, but, the Exodus has taken its toll; taxing the resources of the 
States they move to.)

For over 117 years, Puerto Rico has faced discrimination where 
Residents suffer a 2nd Class U.S. Citizenship, including American 
Veterans who have shed blood, sweat, and tears for our beloved USA! 
These American Citizens don't have any rights to Vote for their U.S. 
President/Head of State nor have just representation in the U.S. 
Congress that determines their destiny nor statutory permanent U.S. 
Citizenship nor full benefits (they paid for) . . . nor treated justly 
under fair laws!

This is WRONG--un-American--strikes at the essence of the U.S. 
Republic's Representative Democracy ``consent of the governed;'' the 
building block of our democracy--the U.S. Citizens--with protected 
individual civil rights--so there is no tyranny of a majority!

It takes two to tango! The Federal Government has been mostly 
benevolent with Puerto Rico; but, it has treated U.S. Citizens residing 
there un-justly. Thus, the Federal Government must lead--move to Stop 
Institutional discrimination; take action to redress a wrong. In Fiscal 
matters, the Puerto Rican Government has behaved irresponsibly--like 
drunken Sailors (no offense to the Sailors). . . . Thus, both must take 
action (for the good of all U.S. Citizens):

RECOMMENDATIONS

Federal Government:

  Equal/Fair application of our ``We the People'' U.S. Constitution--
        for all under our noble U.S. Flag! Overturn the racist Insular 
        Cases (1901-1925+)--where a racist Supreme/Federal Courts UN-
        FAIRLY held--Puerto Rico to be an un-incorporated U.S. 
        Territory; more foreign and domestic; belongs to but, is not 
        part of the U.S. . . . (Terms not found in the U.S. 
        Constitution); the U.S. Congress can discriminate 
        (differentiate) in applying the U.S. Constitution to U.S. 
        Citizens residing in Puerto Rico. . . .
  Terminate statutory/un-permanent 2nd Class U.S. Citizenship!
  Break Puerto Rico's trite federally un-democratic Territorial 
        Shackles!
  Support Puerto Rico on finding solutions to the fiscal, economic/
        job, and security problems . . . This includes treating Puerto 
        Rico (with about 3.7 million U.S. Citizens) fairly like it 
        treats other U.S. Jurisdictions (New York, Detroit, Chicago . . 
        . when in financial problems; debt restructure . . .)!

** Example: New York (with 9 million U.S. Citizens), from 1975-1986, 
went through a dire fiscal/economic crisis. In this case, the Federal 
Government--backed up or guaranteed New York's loans/bonds (with fees 
attached) until New York resolved its fiscal problems; was solvent 
(paid fees), and prosperous again; continued to make mayor 
contributions to the MACRO U.S. Economy. . . .

Pass (on a non-partisan basis):

    H.R. 870, the Puerto Rico Chapter 9 Uniformity Act of 1915 (Debt 
        Restructure--that is fairly applied to other States).
    H.R. 727--Puerto Rico Statehood Admission Process Act--STATEHOOD: 
        YES or NO.
  ** Yes vote means: Equal U.S. Citizenship; own State Identity and 
    State Sovereignty--like other States of our ``Union of States'' 
    have (e.g., The Lone Star State-Republic of Texas). . . .
(This bill has over 110 Congressional Co-Sponsors; but, U.S. Senate 
Sponsors are needed to support Equal U.S. Citizenship!)
* NOTE: 2nd Alternative--the Federal Government conducts a sanctioned 
Referendum between constitutionally defined Non-Territorial Options: 
STATEHOOD vs INDEPENDENCE. (and its forms)

Besides, the Federal Government should:

  Create Federal Enterprise Zone--provide economic development 
        incentives--tied to Job creation, and other Metrics.
  Exempt Puerto Rico from the 1920 Jones Shipping Act--Legislate to 
        exclude Puerto Rico from this trite un-competitive Act--that 
        raises prices that consumers pay and has other negative impacts 
        on the MACRO U.S. Free Market Economy (especially to Puerto 
        Rico, Hawaii, Alaska, and others).
  Provide Federal Oversight: As last resort, if the PR Government does 
        not show internal/local results soon--The Federal Government 
        must positively act to resolve the situation directly. . . .
  Take any other actions for fairness; the good of ALL U.S. Citizens, 
        no matter where they reside.

U.S. Territory of Puerto Rico Government:

Internal Actions:

1. Government:

    Reform/cut the size of Government (Territorial/Local/Public 
        Corporations . . .): consolidate the 139 Government Agencies 
        into about 75; cut municipalities from 78 to about 45; 
        regionalize some government functions--into about 8 Government 
        Service Regions--decentralize Territorial control, as 
        appropriate and with safeguards;
    prioritize needs; use modified 0-Base Budgeting (make Agencies 
        justify their Budgets);
    establish a Government Professional Merit System based on metrics 
        and evaluations (non-partisan); Workfare not Welfare (all abled 
        un-employed work at least 25 hrs. a Week--Community Services . 
        . .) as the Government coordinates with the Private sector for 
        jobs;
    Streamline/make Government more responsive, effective, efficient, 
        compassionate, and accountable.
2. Fiscal Policies:
    end dependency on spiraling high interest rate Loans to pay 
        operating deficits; a growing $72+ Billion Debt (which is 
        actually closer to about $163 billion);
    reform the Tax structure (make it simpler--with incentives for 
        those that work and invest;
    prioritize needs (essential necessities first: water, electricity, 
        security, health, education, transportation, care of the 
        indigent . . .) than other nice to have things if the budget 
        allows, cut government spending, balance the budget;
    eliminate the operational and structural debt in the long run; 
        bring liquidity to the ``Banco de Fomento;''
    Don't over-tax because it can kill the economy . . . but, provide 
        incentives for capital and business enterprises . . . etc. that 
        will grow the economy; bring in more Revenues.
3. Educate/Re-train the Work Force for today's Job Market.
    Establish a seamless and coordinated education system (under a 
        State or Territory Board of Education--5 Division Chiefs): (1) 
        Pre-K; (2) K-12, (3) Vocational Schools, (4) Community/
        Colleges, and (5) Universities. (Public, Private or Chartered)/
        with an Education Jobs Advisory Council made up of Community 
        Leaders--include accomplished Businesspersons;
    Start education at Pre-K level;
    Establish good education Standards based on the foundation/
        priorities of: Reading, Writing, STEM (science, technology, 
        engineering and mathematics), Social Sciences, Personal Affairs 
        (Conduct, Management, Responsibilities, Discipline, and 
        Tolerance); Critical Thinking;
    Establish a seamless and coordinated education system (under a 
        State or Territory Board of Education--5 Division Chiefs): (1) 
        Pre-K; (2) K-12, (3) Vocational Schools, (4) Community/
        Colleges, and (5) Universities. (Public, Private or Chartered) 
        (With a Core and Elective Curriculum);
    Teach to Individual Learning Style (e.g. 4-MAT Learning System); 
        use technology.
    Performance Scholarships (Government/Public/Private)
4.  End Territorial Status through Statehood: provide stability for 
investors/
capital investment; stem the vast historic exodus of Puerto Ricans 
(many professionals) to the States (as they vote with their moving feet 
for equality and better opportunities).
5. Unleash the Entrepreneurial Spirit
    Transform PR's Economy/Jobs from Centralized Government Based to 
        Private Sector/Business Based;
    minimize regulations, permit process; income inequalities;
    create an incentive based (Investors, Managers; Worker profit 
        sharing)--tempered Free Market economy that is competitive on 
        the Global Stage.

Recommendations: (For both the U.S. and Puerto Rico)
We need to demand our government come up with proper solutions, now. 
Some are:
 l. Prioritize needs;
 2. Implement correctly modified Zero-Base Budgeting;
 3. Cut spending;
 4. Stimulate (with incentives) the economy to create more jobs and 
growth;
 5. Gradually stop borrowing or keep it at 20% of GDP;
 6. Cut the size of the government;
 7. End unneeded regulation;
 8. Reform the Tax System;
 9. Balance the budget;
10.  Establish work fare--end dependence (except/compassion for the 
truly disadvantaged);
11.  Reform entitlement programs that we can afford;
12.  Provide incentives/profit sharing formula (Investors, Management, 
and Workers);
13.  Induce fair opportunity; a level playing field;
14.  Deal with income inequality--Fairness in a tempered FREE Market/
Enterprise System;
15.  Facilitate Business (includes Small Business); liberate the 
entrepreneurial spirit!

OTHER FACTS:
Facts are: the Federal Government desperately treats American 
Hispanics-loyal Puerto Rican U.S. Citizens by denying full Civil 
Rights; in many programs, like--MEDICARE, MEDICAID, Social Security, 
SSI funding for the poor . . . where Puerto Ricans pay fully and 
receive less than the States.

Also, it excludes Puerto Rico from Federal Code 9-Debt Restructure 
(which all States have); doesn't exempt Puerto Rico from the 1920 Jones 
Act (monopolized Shipping Law) that hurts Puerto Rico's economy and the 
MACRO U.S. Economy. . . . Even Bill Gates stated that the Federal 
Government treats Puerto Rico wrong! The Feds must be fair; help, not 
sink, Puerto Rico.

The Federal Government has been benevolent in many ways, but, it 
doesn't treat Puerto Rico equally or fairly. U.S. Citizens/American 
Veterans, from Puerto Rico, don't have full civil rights; don't receive 
all benefits; are under the will of Congress with no just 
representation or federal voting rights for their Head of State-U.S. 
President.

Congress has passed many good Laws like the: Foraker Act (1900) 
creating a Civilian Government; Jones Act (1917) provides a 2nd Class 
U.S. Citizenship; U.S. Law 600--Federal Relations Act (1950) allows 
Puerto Rico its local Constitution (approved in 1952--with a local form 
of Republican government but, still under the will of Congress). There 
are a number of Laws and Federal Programs that treat Puerto Rico almost 
like an incorporated State of the Union with only local powers, but, 
still under the will of Congress.

Plus, the designation of a Federal Court District (under Article III of 
the U.S. Constitution); the presence of the principle Federal Agencies 
on the Island; the integration of Puerto Rico's culture to the Macro 
USA National Western Culture, and its treatment by Federal Agencies (as 
can be done) as a State--has transformed the 1898 Puerto Rico to 
today's Puerto Rico that has become a fully integrated U.S. Territory; 
aspiring to become a full Partner of the U.S.--ready to enter the 
``Federal Union of Sovereign States'' that come together equally under 
our U.S. Constitution. Puerto Rico sacrifices, serves, defends, 
contributes, and spills blood for our U.S.--deserves to be treated 
equally!

A representative Government should serve the People, not be their 
Master; unfairly subjugate them with no right to just representation in 
Congress. There is no true democracy without equal representation; 
protected individual civil rights. Even if one U.S. Citizen can't Vote 
. . . it is one too many!
    * Note: About 5 million U.S. Puerto Ricans have ``voted with their 
feet''--moved to the States (with more on the way)--wanting equal 
rights, benefits, and better opportunities. To stem the flow, resolve 
PR Status. . . .

But, the Federal Government still has oppressive powers to discriminate 
(differentiate) in applying the U.S. Constitution to Puerto Rico. This 
is incongruent with what the U.S. stands for--equal/protected civil 
rights!

Puerto Ricans/Hispanics are part of the kaleidoscopic or intertwined 
strong threads that make up the resilient (red, white, and blue) Fabric 
of the USA--the land of Free Immigrants (united under our ``We the 
People'' U.S. Constitution/Flag--with own identities, respect, and 
tolerance for others; have made valuable contributions (created 
hundreds of thousand Mainland jobs).

Besides, Puerto Ricans have help develop and defend our USA since 
1513--(Puerto Rican Ancestors fought in the U.S. War of Independence, 
Civil War). Since, Puerto Rico became a U.S. Territory in 1898--it has 
bravely sacrificed, shed blood and tears--under the American Flag--till 
today!

In the interim Status resolution--the Federal Courts/U.S. President/
Congress must give more weight to the Bill of Rights/Constitutional 
Amendments--Incorporate Puerto Rico; overturn the biased and racist 
rooted Insular Cases (Bidwell; Balsac)--that, along with the old 
Territorial Clause--are still, today--the veiled basis for Federal 
discrimination in applying the U.S. Constitution, and un-democratic 
governance of Puerto Rico.

In sum, Puerto Rico's economy is subservient, but, contributes to the 
U.S. economy/jobs (which also has its problems). To move forward the 
U.S. Federal Government must cut Puerto Rico's territorial shackles as 
Puerto Rico conducts structural internal reforms . . . that will bring 
prosperity as we work for the good of all: Family, Community, Puerto 
Rico, USA, and Humanity.

The Federal Government controls Puerto Rico, under the undemocratic 
U.S. Territorial Clause, to include: the economy/business market, 
currency, security, borders, shipping, taxes, benefits; oversees all 
local laws; can cede PR to another Nation. Plus, PR has a 2nd Class 
statutory U.S. Citizenship (can't vote in Federal elections/for their 
U.S. President; has no just representation in the Congress that 
determines its destiny); has no power in Congress--only one Resident 
Commissioner--(without a vote) that represents millions of U.S. 
Citizens (does the job of about 6 Representatives and 2 Senators)!

Besides, Puerto Rico is an island colonial possession of the U.S.--
which contributes in many ways to the U.S. defense, macro economy, 
creation of American jobs, and in other areas. But, its economic growth 
is: forcefully linked to the U.S. economy; hamstrung by many imposed 
senseless stranglehold U.S. regulations and the must use of un-
competitive and very costly * American Ships--which adversely impacts 
on PR's and the U.S. economy/creations of jobs!
    * Note: Puerto Rico, Alaska, Hawaii, and others agree (and want to 
change) this unfair and uncompetitive shipping--that cost their 
economies and consumers much more than other continental States . . . 
but, Puerto Rico has no just representation; no power in Congress to 
fight for its U.S. Citizens!

These regulatory shackles are a hindrance to ``Free Market'' that kills 
competition; monopolizes shipping; reduces incentives for capital 
investment; raises immensely the cost of products and services-
including electricity. . . . Besides, along with the territorial status 
(which fuels investor uncertainty) and other factors, it adversely 
affects PR's economy; denies, to an extent, a ``Free Market'' with 
competition, and incentives for capital investment; stifles economic 
growth, creation of good jobs. . . .

Bill Gates (Microsoft has operations in PR--with an educated workforce) 
is quoted as saying that the way the U.S. treats Puerto Rico is ``just 
wrong. . . .'' Plus, on Shipping--the Federal Government must take 
action to redress this wrong; ensure we have an competitive open Market 
(with incentives) that will boost the economy/create more jobs; reform 
the trite 1920 Jones Act, as we also protect our U.S. Merchant Marine. 
. . .

CLOSE
``No Taxation without just representation!'' Many in PR are forced to 
pay Federal taxes (without just representation), such as: Social 
Security, Medicare, Payroll, and other indirect/invisible taxes, but, 
U.S. Citizens there don't get full rights or benefits. . . .

The Federal Courts/Supreme Court needs to, also, take action by 
overturning the Insular Cases (Bidwell and Balzac) that, during racist 
and biased times, have allowed the U.S. Congress to discriminate when 
applying the U.S. Constitution to Puerto Rico--to this day!

Loyal U.S. Puerto Ricans/Hispanics (which cherish their U.S. 
Citizenship), and Ancestors--have contributed greatly to the advanced 
civilized development of the now U.S. (since 1513)--107 years before 
the Pilgrims; bravely fought in the U.S. War of Independence and other 
Wars; have courageously defended our noble U.S. Flag with utmost 
sacrifice and blood . . . (Includes, from 1899--the valiant 
Borinqueneers--U.S. 65th Infantry Regiment--Winners of the 
Congressional Gold Medal--highest honor U.S. Congress can bestow)!

The USA MANTEL of LIBERTY (includes Hispanics/Puerto Ricans)--is made 
from a strong resilient Fabric of intertwined golden Multi-Threads of 
loyal and constructive contributing Individuals and Groups; Natives and 
Immigrants--with own Individual and State Identities, Customs, and 
Traditions (based on the MACRO Western Culture)!
    WE ARE UNITED (with respect, tolerance, responsibility, duty . . . 
        loyalty)--under our U.S. Flag (that represents ``WE the 
        People'')/Constitution; Humanitarian Values (Right to Life, 
        Creed, Equality, Fair Opportunity, Justice, pursuit of 
        happiness); and Good Principles--that liberates the 
        Entrepreneurial Spirit in a tempered Free Market; with a Safety 
        Net for the disabled and disadvantaged; reasonable Freedom to 
        be--for all!
    OUR USA, is a Kaleidoscope of Beauty; has the best Quality of Life 
        in the World--as we work together to sustain what we have; but, 
        also strive (with reason) for PROGRESS--make positive 
        improvements (Security, Food, Medical, Housing, Education, Grow 
        our Economy, Creation of Jobs, Fair Income . . . Social 
        Justice); work together for the good of ALL: Family, Community, 
        State, USA, and Humanity!

Let's advocate (illuminate the truth)--stand up for a just cause, don't 
fall trapped to political excuses, distortion, generalizations, 
speculation, or stonewalling by close-minded closet Chauvinists, or 
support actions that lead to impasse that result in Voter segregation 
of loyal U.S. Citizens! Let's work together for the good of all: 
Family, Community, USA, and Humanity!

THANKS for the many good things you do for our beloved noble USA! 
HOOAH!

     John Oliver Video: https://www.youtube.com/watch?v=CesHr99ezWE
     Equality for Puerto Rico:
    https://www.youtube.com/watch?v=5EWzqvRZJOY
     Harvard (Feb. 2014)--Chief Judge Torruella:
    https://www.youtube.com/watch?v=aixtvS4Jack#t=20

* QUESTION--for PRESIDENTIAL-CONGRESSIONAL CANDIDATES *

What will you do to--end a Statutory 2nd Class U.S. Citizenship--where 
U.S. Citizens (including American Veterans) that have sacrificed; shed 
Blood, Sweat and Tears for our noble USA, but,
  can't VOTE for their U.S. President/Head of State;
  don't have JUST REPRESENTATION in the U.S. Congress that determines 
        their Destiny or full permanent U.S. Citizenship nor full 
        benefits (like MEDICARE, MEDICAID, Social Security, etc., they 
        pay for);
  BREAK the U.S. Territory of Puerto Rico's 118 years' undemocratic 
        federal shackles?
Also, what action will you take to get the Federal Government to DO ITS 
PART--in dealing with the economic, fiscal, security, and other 
problems facing U.S. Puerto Rico; stop institutional discrimination; 
includes EQUAL TREATMENT under just Laws--like U.S. Bankruptcy Laws; 
protected Individual Civil rights? (Remember, PR is at times powerless 
to act because of U.S. Colonial Status!) THANKS!
  This strike's at the essence/equal application of our U.S. 
        Republic's ``We the People'' Constitution (with a 
        Representative Democracy--``consent of the Governed'')--where 
        the BUILDING BLOCK is the U.S. CITIZEN--with protected 
        Individual Civil Rights--so, there is no Tyranny of a majority!

Best Wishes! Respectfully,

Dennis O. Freytes, U.S. Army Retired; Community Servant Leader
Master Public Administration (MPA); Master Human Resources (MHR); 
Bachelor Business Administration (BBA)--Management; other Courses; 
Former Professor (PMS)/Department Director University of Puerto Rico; 
Trustee, Valencia College (confirmed by the Florida Senate twice); 
Work: Senior Leader; Executive, Manager, Advisor/Consultant--in 
Business, Non-Profit, Government, U.S. Army. Served: Florida Governor 
Jeb Bush--Member Policy Transition Team; U.S. President Policy 
Transition Advisory Committee; Non-Partisan Congressional Advisor, etc. 
(Please, see Master Professional Resume--that includes work with the 
Small Business Administration; many other Organizations.)

ENCLOSURE--EQUALITY FOR PUERTO RICO

         We leave no American Veteran or 1st Responder behind!

                   There is one RACE--the Human RACE!

    Judge on MERIT based on fair opportunity--a Level playing field!

                            THE TIME IS NOW!

                  Canto Claro como un Gallo de Manati!

      * The Feds Discriminates Against 2nd Class U.S. Citizens! *

Our Federal Government preaches equality in our U.S. Republic with a 
``We the People'' Constitutional Representative Democracy--``Consent of 
the Governed'' . . . under our noble American Flag!

In our times--how can the U.S. be a just Representative Democracy, when 
millions of its loyal born Citizens (including American Veterans) in 
the U.S. Territory (Colony) of Puerto Rico--can't Vote for their 
President/Head of State; don't have fair representation in the U.S. 
Congress that controls their destiny or same full benefits or 
entitlements (they paid for) or a permanent U.S. Citizenship--as other 
U.S. Citizens?

Other facts are: the Federal Government desperately treats loyal Puerto 
Rican U.S. Citizens by--denying full civil rights; as it discriminate 
in many Federal programs, like--MEDICARE, MEDICAID, Social Security, 
SSI funding for the poor . . . (Where Puerto Ricans pay fully, but, 
receive less than other U.S. Citizens)!

Also, the Federal Government--excludes Puerto Rico from Federal Code 9-
Debt Restructure (which all States have); doesn't exempt Puerto Rico 
from the 1920 Jones Act (monopolized Shipping Law) that hurts Puerto 
Rico's economy and the MACRO U.S. Economy; controls Puerto Rico's 
borders, currency, economy, shipping, defense, foreign affairs, 
business market--under the federally undemocratic, and outdated 
Territorial Clause!

The U.S. Citizen (with protected individual civil rights) is the 
fundamental building block of our representative democracy!

This un-American wrong (discrimination against U.S. Citizens-Hispanics-
Puerto Ricans-Veterans); strike's at the soul or essence of our U.S. 
Republic with an evolved Constitutional Representative Democracy (which 
we now own)--``Consent of the Governed'' with protected Individual 
Civil Rights for ALL!

There is no fair/equal treatment under just laws--when millions of 
loyal 2nd Class U.S. Citizens (including U.S. Veterans) are unfairly 
subjugated by Congress/the Federal Government! Even if one U.S. Citizen 
can't vote . . . its one too many! You are either for Equality and 
fairness or you discriminate!

Where is the MEDIA and American Patriots' out-cry; action to get the 
Federal Government to do right?

The Federal Government should serve all U.S. Citizens equally--must do 
right (without giving old biased excuses); take action--stand to 
protect full Individual Civil Rights as it fairly applies the U.S. 
Constitution; equal protection under just laws!

Let's stand up for a just cause; educate based on facts . . . (don't be 
trapped by political old excuses, distortion, generalizations, 
speculation, or stonewalling by close-minded closet Chauvinists, or 
support actions that lead to impasse that result in Voter segregation 
of loyal U.S. Citizens!

TAKE ACTION CONCURRENTLY:

1. PASS H.R. 870, the Puerto Rico Chapter 9 Uniformity Act of 1915 
(Debt Restructure--that is fairly applied to other States)
2. Support Puerto Rico on finding solutions to the fiscal, economic/
job, and security problems. . . . This includes treating Puerto Rico 
(with about 3.7 million U.S. Citizens) fairly (like it treats other 
U.S. Citizens)!
    ** New York (with 9 million U.S. Citizens) from 1975-1986 went 
        through a dire fiscal/economic crisis. In this case, the 
        Federal Government--backed up or guaranteed New York's loans/
        bonds (with fees attached) until New York resolved its fiscal 
        problems; was solvent and prosperous again; continued to make 
        mayor contributions to the MACRO U.S. Economy. . . .
3. Federal Enterprise Zone (FEZ)--Declare Puerto Rico a FEZ--that 
provides economic development incentives--tied to Job creation, and 
other Metrics.
4. 1920 Jones Shipping Act--Legislate to exclude Puerto Rico from this 
trite Act (which needs to be updated because it's detrimental to the 
U.S. MACRO Economy; especially to Puerto Rico).
5. Federal Oversight: As last resort, if the PR Government does not 
show internal/local results soon--The Federal Government must 
positively act to resolve the situation directly. . . . (This is about 
the suffering People first; not its Government!)

The Federal Government must respect PR's local plebiscite (Nov. 2012) 
results:
* End Territorial Status: 54% (958,915); * Statehood: 61+% (824,195); * 
Independence 5% (74,812)--(has never received more than 5% in the past) 
. . . (Total Voted: 78+%) The plebiscite results were clear: a Non-
Territorial Status through Statehood won as duly ratified by the PR's 
Elections Commission. . . .

Pass (on a non-partisan basis): H.R. 727--Puerto Rico Statehood 
Admission Process Act--STATEHOOD: YES or NO (This bill has over 108 
Congressional Co-Sponsors; but, U.S. Senate Sponsors are needed to 
support Equal U.S. Citizenship!)

** 2nd Alternative--Congress conducts a prompt sanctioned Referendum 
with defined non-territorial Constitutional Options: STATEHOOD vs 
INDEPENDENCE (or forms of Independence like: ELA Soberano; Free 
Associate Republic).

Puerto Rico--will keep its own Boricua Identity and have Sovereignty 
(like other States--the Lone Star Republic of Texas) upon becoming a 
Full and Equal Member of the U.S. (``Union of States'')!

Moreover, President Obama--the U.S. Justice Department must act to 
overturn unjust racist laws (Insular Cases); file a Class Action Equal 
U.S. Citizenship Law Suit. . . .

The Federal Government must give more weight to the Bill of Rights/
Constitutional Amendments--Incorporate Puerto Rico; overturn the racist 
rooted Insular Cases (Balsac-1922) where a biased Supreme Court made up 
the term ``not incorporated'' to keep a Territory out of the path of 
Statehood forever. This was not used against other Territories that 
became States before nor is this term in the U.S. Constitution.

The Insular Cases (some of the same Judges served on Plessy vs 
Ferguson--1896-Blacks are equal but, separate), along with the old 
Territorial Clause--, are still today--the veiled basis for Federal 
discrimination in desperately applying the U.S. Constitution, and un-
democratic governance of Puerto Rico.

CONTRIBUTIONS: Loyal U.S. Puerto Ricans/Hispanics (who cherish their 
U.S. Citizenship), and Ancestors--have contributed greatly to the 
advanced civilized development of the now U.S. (since 1513)--107 years 
before the Pilgrims; bravely fought in the U.S. War of Independence and 
other Wars; have courageously defended our noble U.S. Flag with utmost 
sacrifice and blood since 1899--WW-I, WW-II, Korea, Vietnam until 
today. . . . (Includes nine Medal of Honor Winners; the valiant 
Borinqueneers--U.S. 65th Infantry Regiment--Winners of the 
Congressional Gold Medal--highest honor U.S. Congress can bestow)!

Puerto Ricans/Hispanics are part of the multi-ethnic kaleidoscope or 
intertwined strong threads of sub-groups that make up the resilient 
fabric of the U.S. Mantel--the land of Free Immigrants with own 
identities and tolerance! But, united under our U.S. Constitution; and 
with State Sovereignty (like other States of our Union)--for the good 
of all!

The U.S. belongs to Puerto Ricans too! Out of about 9 million Puerto 
Ricans, some 5 million have ``voted with their feet''--moved to the 
States (with more on the way). . . . They want to have equal rights, 
responsibilities, full benefits, better opportunities . . . to stem the 
exodus resolve the issues/PR Status.

Now is the time: Patriots of true Grit must stop discrimination; 
advance our evolved U.S. Democracy--ensure equal protected civil rights 
for all; end a statutory 2nd Class U.S. Citizenship; cut Puerto Rico's 
federally undemocratic Territorial Shackles! With truth and right--WE 
SHALL OVERCOME!

* NOTE: Three main sources of this U.S. Federal Government's repressive 
power are:
  The original outdated Territorial Clause--states: ``Congress shall 
        have the power to dispose of and make all rules and regulations 
        pertaining to the Territory . . . or Property belonging to the 
        U.S. . . .'' which conflicts with the Constitutional 
        Amendments--U.S. Citizen Bill of Rights. . . .
  The discriminatory/racists vestiges of the ``Insular Cases'' (1901-
        1925+/still enforced under a veil today) that allows the U.S. 
        Congress to discriminate when applying the U.S. Constitution to 
        born U.S. Citizens residing in Puerto Rico . . . which 
        conflicts with the Constitutional Amendments--U.S. Citizen Bill 
        of Rights. . . .
  Federal Government's (President, Congress and Federal Courts) 
        incongruence; inaction to make right--after 117 years of 
        federal oppression; wrong interpretation of the trite original 
        undemocratic Territorial Clause (which wasn't meant to be 
        forever), and its conflict (when statutory U.S. Citizens are 
        involved)--with our U.S. Constitution's Individual Civil Rights 
        Amendment/Bill of Rights--the bed rock of our representative 
        democracy.

Also, we need a Constitutional Amendment to ensure--the U.S. Citizen 
(with equal protected individual Civil Rights) is the building block of 
our U.S. Republic with a Representative Democracy (consent of the 
governed)--where the Federal Government serves all the People--U.S. 
Citizens equally . . . under the jurisdiction of the United States. . . 
 

The complex U.S. Territory of Puerto Rico's equal rights quandary--that 
affects millions of discriminated U.S. Citizens, is not only about a 
``Group Vote'' on the status question, but, more essentially crucial, 
it's about equal application of the U.S. Constitution to all U.S. 
Citizens (with full protected Individual Civil Rights); ending 
institutional discrimination/2nd Class U.S. Citizenship; advancing 
equality/consent of the governed--where the U.S. Citizen is the 
epicenter of our Republic, not the U.S. Government's trite un-
democratic territorial control of the Land and People (without just 
representation)!

                                 ______
                                 
                      Fundacion Francisco Carvajal

APARTADO 1298, GUAYNABO, PUERTO RICO 00970-1298  CALLE D-9, ESQ. CALLE 
                               ESMERALDA

 BARRIO LOS FRAILES, GUAYNABO, PR 00969  TEL. 1-787-731-0404  FAX 1-
                              787-789-4615

            Financial and Economic Challenges in Puerto Rico

                    Hearing date, September 29, 2015

        Fundacion Francisco Carvajal and Arturo Estrella, Ph.D.

                   P.O. Box 1298, Guaynabo, PR 00970

                           Executive Summary

      Puerto Rico Government Debt and the U.S. Federal Government:

             Potential Assistance Tools and Policy Practice

 By Dr. Arturo Estrella, Professor of Economics, Rensselaer Polytechnic

                               Institute

The Francisco Carvajal Foundation commissioned this work in its desire 
                                   to

  make a contribution to the public discussion about a very relevant 
                                issue in

                        these challenging times.

The objective of the study is to analyze the tools and historical 
policy practice of the Government of the United States to provide 
assistance in financial crisis situations such as the one that Puerto 
Rico faces today.

The discussion paper has three principal goals: to review the framework 
under which federal assistance could be extended to Puerto Rico, to 
examine the actual policy practice of the federal government in 
addressing financial crises in the past, and to suggest possible 
alternatives to deal with the pressing issues regarding the fiscal and 
financial crisis in Puerto Rico. These suggestions are informed by the 
analysis described above and include options that are in line with both 
the principles and practices of the U.S. federal government in dealing 
with prior crisis situations.

There is no simple existing law or regulation that was designed 
specifically to address the problems Puerto Rico faces today. However, 
a multitude of existing measures were designed to deal with similar 
situations, and it is important to identify possible ways to make use 
of such means and in the process to accept enthusiastically the offer 
of help extended by the president of the Federal Reserve Bank of New 
York to decision makers in Puerto Rico.

Based on thorough analysis and many years of experience at the Federal 
Reserve Bank of New York applying laws and regulations and 
participating in the creation of new regulations, the study concludes 
that there are no legal or regulatory impediments that prevent the 
Federal Reserve System and the U.S. Department of the Treasury from 
providing financial assistance to Puerto Rico, that there are 
precedents of assistance offered to other entities in previous 
situations, and that the Federal Government has the tools to provide 
such assistance. An important finding of the study is that treatment of 
the Commonwealth of Puerto Rico under the laws and regulations of the 
Federal Reserve System has been and continues to be internally 
inconsistent.

The study identifies a number of stylized principles that the federal 
government has followed in the past to deal with financial crises. The 
principles include the following.

    Exercise flexibility in interpreting statutes and regulation.

    Take actions that are not prohibited as well as actions expressly 
        allowed by law.

    Work with Congress to pass legislation that allows the federal 
        government to act.

    Use discretion to reduce delays and preserve confidentiality.

    When there's a will, there's a way.

Based on the analysis, the study suggests a non-exhaustive menu of 
specific actions that the federal government could take to assist 
Puerto Rico in resolving its liquidity problems while in no way 
resorting to a bailout. These options include the following.

    The Federal Reserve could purchase Puerto Rico debt as a U.S. 
        municipality under Section 14(2) of the Federal Reserve Act.

    The Federal Reserve could purchase Puerto Rico debt as a foreign 
        country under Section 14(2) of the Federal Reserve Act.

    The Federal Reserve could extend credit to Puerto Rico government 
        corporations under section 13(3) of the Federal Reserve Act.

    Historical experience also suggests other types of loans or debt 
        guarantees that the federal government could provide.

    The Federal Reserve and the Treasury Department could provide 
        financial planning assistance to the government of Puerto Rico.

These steps and others like them may be taken singly or jointly.

The federal government and its agencies can apply the same will to find 
solutions that has been applied in the past to so many cases, domestic 
and foreign, a sample of which is considered in the study. History 
shows that when the will is there and the situation is deemed 
sufficiently important, effective solutions have been found either 
within the existing legal structure or by advancing that structure 
further to tackle new problems.

                                 ______
                                 
                          Hispanic Federation

55 Exchange Place, 5th Floor        1522 K Street N.W., Suite 1130
New York, New York 10005            Washington, DC 20005-1225
T. 212-233-8955 F. 212-233-8996     T. 202-842-0235 F. 202-887-0812

                       www.hispanicfederation.org

             Jose Calderon, President, Hispanic Federation

                            Written Testimony

               United States Senate Committee on Finance

          ``Financial and Economic Challenges in Puerto Rico''

                           September 29, 2015

Chairman Hatch, Ranking Member Wyden, and distinguished members of the 
Committee on Finance thank you for the opportunity to provide testimony 
on the crisis facing Puerto Rico.

My name is Jose Calderon. I am the President of the Hispanic 
Federation. Hispanic Federation is the nation's premier Latino 
membership organization with a mission to advance and empower the 
Hispanic community locally and nationally. For over 25 years, Hispanic 
Federation has provided critical nonprofit capacity-building grants, 
launched innovative community programs and led public advocacy efforts 
in the areas of education, health, immigration, economic empowerment, 
civic engagement, civil rights and the environment. Through its network 
of nearly 100 affiliated community-based organizations, HF reaches 
thousands of Hispanics each year including a large number of Puerto 
Ricans living on the mainland.

Recently, Hispanic Federation has been helping to lead efforts to 
support Puerto Rico and its 3.5 million U.S. citizens, along with an 
extensive coalition of Latino, labor, environmental, health and 
economic justice advocates from across the nation. With our partners, 
we have organized press conferences in several cities from Hartford to 
Orlando and we are currently working to get 100,000 signatures on a 
White House petition calling for the President to respond to the crisis 
and organizing a congressional briefing to inform our nation's leaders 
about the situation on the island. We strongly believe the federal 
government bears a social, moral and economic responsibility to 
directly address the Puerto Rican debt crisis.

The ramifications of the island's economic crisis have been far 
reaching: 150 public schools have already been shuttered in the last 5 
years. Puerto Rico has increased the retirement age and required 
heftier pension fund contributions from public sector workers. And more 
pain is coming. Puerto Rico passed a budget for the fiscal year 
beginning July 1, 2015 that increased the sales and use tax from 7 
percent to 11.5 percent and reduced pubic investment by $674 million.

Severe current and future government budget cuts threaten to undermine 
the already tenuous economic situation of hundreds of thousands of 
Puerto Ricans on the island. And there is good chance that the crisis 
will be increasingly felt in many U.S. states, through potential 
pension asset losses and a growing reliance on local social services by 
those who migrate to the U.S. In short, Puerto Rico's near calamitous 
economic crisis, if left to fester, will almost certainly reverberate 
far beyond the geographic limits of the island.

The reasons behind the island's current economic woes are complex, with 
plenty of blame to go around: poor budget practices by the island, 
federal funding shortfalls and tax policies that hamper economic 
growth, predatory lending by hedge funds, and the complicated and oft 
unjust relationship between the U.S. and Puerto Rico, to name just a 
few. There are also wider forces to blame, such as the Great Recession, 
outmigration from the island, and escalating energy and health care 
costs.

Setting the stage for the crisis were stagnant economic conditions in 
Puerto Rico over the past 10-15 years, brought about by the elimination 
of Section 936 of the Internal Revenue Code. Section 936 encouraged 
mainland companies to locate on the island. Unfortunately, when the tax 
breaks were eliminated by Congress, these companies moved out. The 
Great Recession of 2008 compounded this stagnation, leaving almost half 
the island's residents in poverty and unemployed. Forced to seek 
economic opportunity, hundreds of thousands of Puerto Ricans moved 
stateside to places like Florida, draining the island's tax base which 
funds basic public services.

However, structural economic inequalities--in part driven by federal 
policies--date back long before the recent decline. A prime example is 
the burdensome costs of transporting goods created by the U.S. Jones 
Act, which has increased shipping costs by billions over many decades. 
In effect, the law requires every car, food item or other product that 
enters or leaves Puerto Rico to be carried on a more expensive U.S.-
flagged vessel. If a foreign-flagged ship enters the island, high taxes 
and customs fees essentially double the price of transported goods.

Puerto Rico also faces growing costs to its public services. The 
electricity system led by the Puerto Rico Electric Power Authority 
(PREPA) is more than $8 billion in debt. A recent deal to restructure 
the debt still leaves the systemic challenge of reducing sky-high 
energy costs to homeowners and businesses from the outdated and 
unhealthy use of fossil fuels, as opposed to cleaner, renewable energy 
systems.

Federal health care funding inequities have also contributed to the 
ongoing crisis. Approximately 60% of the island's population is 
enrolled in Medicaid or Medicare, both which face an uncertain future 
due in part to an archaic capping of federal contributions which was 
imposed upon Puerto Rico. As a result, healthcare costs represent an 
estimated $25 billion of its $72 billion debt.

Declining tax revenue forced risky borrowing to keep public utilities 
and local government running, which in turn generated massive debt 
because of predatory interest rates aimed at creating a big fiscal 
windfall for hedge funds looking to make a fast buck at the island's 
expense. In fact, these same hedge fund interests were backers of 
changes in the island's constitution that mandated the local government 
to first pay debt relief before continuing to fund schools, energy and 
other vital public services.

Unfortunately, these measures will only help to exacerbate the current 
vicious cycle of outmigration, with the only certainty being that more 
pain for Puerto Rico is in store in the near future. Below are more 
details regarding the main causes of the island's financial troubles, 
focusing on labor force decline, the health care crisis, and debt and 
debt service costs.

The depth and scope of Puerto Rico's economic crisis has forced leaders 
on the island to make difficult and painful choices. The Commonwealth 
has already laid off over 30,000 employees, raised utility and college 
tuition prices, raised taxes, cut public health and pension benefits, 
closed schools, and raised the retirement age. On September 8th, the 
Governor announced a new round of austerity measures that calls for 
additional cuts to social services, layoffs and reductions in job 
protections. Meanwhile, Puerto Rico is also bracing for a health care 
crisis with federal funds rapidly diminishing and no clear plan on how 
to keep island residents covered in the coming years.

Puerto Rico is considering reforms to all aspects of its economy and 
governance, including taxes, labor laws and administrative practices. 
Negotiations are underway to explore debt restructuring and other 
options, but financial interests are resisting payment reductions. 
Meanwhile, there are estimates that this year's $5 billion principal 
and interest payments alone would require $1,400 in increased tax 
levies for every resident of the island, roughly 9% of per-capita 
income. Unfortunately, Puerto Rico does not have the cash flow or tax 
base to make anything close to the required payments.

Despite these cuts and the pain they're causing millions of American 
citizens on the island, the same hedge fund interests who urged the 
Commonwealth to continue to unwisely borrow well beyond its means are 
now calling for further severe austerity and privatization measures to 
protect their financial windfall. The IMF's ``Krueger Plan'' perfectly 
encapsulates this thinking with its severe budget cuts and related 
proposals calling for even more massive school closures and wage 
reductions.

While there will undoubtedly be further fiscal pain for the families of 
Puerto Rico, we do not believe the island can or should cut its way 
through this crisis. Further reductions to government services and 
pensions threaten to undermine the Puerto Rican economy so deeply that 
it may take generations to recover. Any realistic solution must instead 
include reasonable debt restructuring and relief, immediate federal 
investment and reforms, and a long-term economic growth and 
diversification strategy that will create living-wage jobs, grow small 
businesses, improve infrastructure and provide opportunities for local 
residents.

President Obama and Congress cannot stand on the sidelines when it 
comes to Puerto Rico. Elected officials and civil servants in both the 
executive and legislative branches have a legal and moral obligation to 
support Puerto Rico in its time of dire need. Over 3.5 million U.S. 
citizens are counting on them to act immediately to help the island get 
through this fiscal crisis and on a path to economic recovery. Below 
are select key actions the federal government can undertake to offer 
resources and enact reforms to assist Puerto Rico through this fiscal 
and economic crisis.

  Bankruptcy Protection: Congress should pass legislation granting 
Puerto Rico the right to declare Chapter 9 bankruptcy or another 
orderly and fair alternative in order to renegotiate the debt and 
establish a fair repayment plan. See Puerto Rico Chapter 9 Uniformity 
Act--H.R. 870, introduced by Representative Pedro Pierluisi (D-PR) and 
Senators Richard Blumenthal (D-CT) and Charles Schumer (D-NY).

  Debt Renegotiation and Relief: President Obama should convene a 
Working Group on Financial Markets to bring all parties to the table in 
order to negotiate a fair debt repayment and relief deal. In doing so, 
the President could sit down with all relevant stakeholders and explore 
a Federal Reserve loan or any other bridge or gap financing options for 
the Commonwealth of Puerto Rico. In addition, the President should 
exercise his authority to convene both the Government of Puerto Rico 
and its creditors, and urge the parties to find an orderly negotiated 
resolution of this crisis in order to avoid further costs to the 
vulnerable residents and populations in Puerto Rico.

  Health Care: Congress should bolster Puerto Rico's health care 
safety net by passing legislation that will eliminate the annual 
Medicaid/Mi Salud funding cap on Puerto Rico in favor of funding based 
on FMAP per-capita income. Congress should include all U.S. territories 
in this legislation. Congress should also improve the formula for the 
Medicare Disproportionate Share Hospital Program, reduce by 50% the fee 
on insurers in the territories, and establish a floor for Medicare 
payments. In the interim, the President should establish a multi-
billion dollar health care program as has been done in some states to 
ensure vital health care services continue past 2017, when existing 
funds will run out. See Improving the Treatment of the U.S. Territories 
Under Federal Health Programs Act of 2015--H.R. 2635 introduced by 
Representative Pedro Pierluisi (D-PR).

  Energy and the Environment: President Obama should direct the 
Department of Energy (DOE) and Environmental Protection Agency (EPA) to 
engage in a full review and collaborative analysis of all federal 
policies and programs that apply to Puerto Rico in the areas of clean 
energy generation and environmental cleanup. This will ensure the 
development of a comprehensive policy plan that addresses the energy, 
clean environment, safety and health needs of Puerto Rico, including 
the cleanup of toxic sites within the island municipalities of Vieques 
and Culebra.

  Jones Act: The President should grant a temporary waiver and 
Congress should pass legislation that amends the costly shipping 
mandates dictated by the Jones Act, which unfairly increases the prices 
of imports and exports to and from Puerto Rico. Any funds from foreign-
vessel fees should also be directed to the Puerto Rico Treasury.

  Tax Policy: Following the loss of Section 936 tax incentives, the 
federal government should institute tax policies that foster 
economically-diverse and living-wage job creation. President Obama 
should also support local government implementation of an Earned Income 
Tax Credit (EITC) that rewards work and supplements earnings to low-
income workers in Puerto Rico.

  Federal Policy and Funding Formula Assessment: There should be a 
full Administration and Congressional review of all federal policies 
that apply (or not) to the Commonwealth of Puerto Rico. This review 
should seek to eliminate or reduce the impact of federal policies that 
put the island at an economic disadvantage, as well as look for ways to 
expand access to federal investments and programs.

Puerto Rico and its citizens are inextricably intertwined with the 
United States by history, emigration and economics. Puerto Ricans, both 
on the island and stateside, have fought valiantly in every war since 
World War I, and its citizens have contributed to this nation in 
innumerable ways. Its diaspora--5 million strong, still intimately 
connected to the island--are a visible presence in communities 
throughout the 50 States of the Union. Just as significantly, three out 
of every four municipal funds in the country hold Puerto Rico's bonds.

Because of these intimate interconnections, what affects Puerto Rico 
affects the U.S. The fact that Puerto Rico faces the worst economic 
crisis in more than a century should be of the highest concern to all 
Americans. If Puerto Rico is forced to enact even more draconian cuts 
to its budget, the island will almost certainly spiral into an even 
deeper crisis. Given the interpenetration of the Puerto Rican 
population and economy with the U.S., this will have incalculable 
repercussions on communities, towns and cities stateside.

The time to debate or assign blame is past, as is any hope that the 
U.S. could avoid economic fallout from this crisis. The real question 
is, do we have the will to act in order to ameliorate its very worst 
effects?

To do so, we urge the Administration and Congress to resist calls by 
hedge funds to force more cuts to social services. We urge Congress to 
give Puerto Rico the ability to file for bankruptcy protection and to 
pass legislation rectifying economic inequities including the Jones Act 
and Mi Salud. We urge the President to call for a full federal agency 
review of policies that are economically harmful to Puerto Rico, 
including health care reimbursement, and convene his Working Group on 
Financial Markets to develop an in-depth debt relief, repayment, and 
investment plan to stabilize the island's economy.

We urge the Congress to take strong, substantive and constructive 
action that stabilizes Puerto Rico and protects the livelihoods of 3.5 
million American citizens living on the island.

Thank you for your time and consideration.

Jose Calderon
President
Hispanic Federation

                                 ______
                                 
                  Letter Submitted for the Record by 
                          Jose A. Ortiz-Daliot

  P.O. Box 366218, San Juan, PR 00936, (787) 764-9969, Fax (787) 765-
                    8955, E-Mail <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7e8e3f4e6e7e8e9e2ebeee9ecf7f589e9e2f3">[email&#160;protected]</a>

October 5, 2015

Hon. Orrin G. Hatch
Chairman
Senate Committee on Finance
219 Dirksen Senate Office Building
Washington, DC 20510-6200

Dear Senator Hatch:

I would like to submit this statement for the record to the hearing 
held by the Finance Committee on September 28, 2015 on the fiscal 
situation of Puerto Rico.

It is indisputable that the fiscal and economic situation of Puerto 
Rico looks bleak. I agree that it is difficult to precisely ascertain 
without audited financial statements. But it is also indisputable that 
much of the blame for the island's present situation lies with the U.S. 
government. Probably, the most powerful economic development instrument 
the island had was section 936. It was not only a significant incentive 
for U.S. manufacturing companies, it provided great amounts of capital 
for Puerto Rican banks to invest in other economic sectors within our 
economy and also served as an economic tool for an effective U.S. 
foreign policy in Central American and the Caribbean in the late 1980s. 
But for whatever reasons, Congress decided to repeal the biggest 
economic incentive the island had to create good paying jobs--section 
936 of the Internal Revenue Code, without providing a substitute 
mechanism for economic growth. The present chaos we live in Puerto Rico 
now started with the date of the repeal of section 936.

The other elephant in the room is the colonial situation in which we 
live in Puerto Rico since 1898, due to the fact that the 1952 
experiment failed to provide the island and its government the 
necessary political powers a nation needs to have the ability to fight 
hard economic times, such as treaty making powers (tax treaty with 
Japan voided by the U.S.) and choosing transportation carriers for its 
imports, particularly from the U.S. (cabotage law) as well as other 
legal restraints.

The political status situation cannot go without mentioning. The U.S., 
particularly U.S. Congress, has failed on its face as a metropolitan 
power to its territories. Not once since the U.S. invaded in 1898, the 
Puerto Rican people have been provided the opportunity to decide their 
political future. It is hard to believe coming from the U.S., the great 
promoter of freedom and democracy around the world.

The 1952 exercise did not provide political options to our people. The 
only option was to remain a colonial possession of the U.S., with a 
Constitution of our own doing as long as it met with the standards set 
by Congress which did not accept the initial draft from our 
constitutional assembly. Since then, Puerto Ricans have been knocking 
at congressional doors without receiving an adequate response. Every 
year, the United Nations calls on the U.S. to comply with its 
international responsibility to let us exercise our right to self-
determination. Never has there been a response. Puerto Ricans have held 
political status plebiscites and the U.S. provides no response to its 
results. The last plebiscite was held as recently as November of 2012. 
Fifty four percent (54%) of the voters rejected the present colonial 
political status. Puerto Rico was hoping the U.S. would take notice. 
But again, the U.S. has not responded as of to date. From my 
perspective, to ignore the latest expression is highly irresponsible.

Mr. Hatch, the fiscal problems we presently have are closely related to 
our colonial situation, which you and your colleagues refuse to deal 
with. Puerto Rico has done relatively well in spite the lack of 
political powers and the constant irrational mandates imposed by the 
U.S. to our government.

You, as well as the members of your committee, could very well bring 
positive change, by providing Puerto Rico its right for self-
determination. That would help, significantly. We took in 2012. 
Congress, as usual, has yet to response.

Sincerely,

Jose A. Ortiz-Daliot
Senator (2001-2005)

                                 ______
                                 
             Puerto Rico College of Physicians and Surgeons

              Colegio de Medicos-Cirujanos de Puerto Rico

 P.O. Box 70169  San Juan, PR 00936 / e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="50393e363f10333f3c3537393f3d353439333f20227e3f2237">[email&#160;protected]</a>

 Tels. (787) 751-5979 / 751-6699 / 751-6670 / 751-7120 / Fax (787) 751-
                          6592--(787) 281-7669

September 28, 2015

Senator Orrin G. Hatch, Chairman
Senator Ron Wyden, Ranking Minority Member
Senate Finance Committee
219 Dirksen Senate Office Building
Washington, DC 20510-6200

Re:  Public Hearing of the Senate Finance Committee, ``Financial and 
Economic Challenges in Puerto Rico''

Dear Messrs. Chairman and Ranking Member:

On behalf of the Puerto Rico College of Physicians and Surgeons, we 
submit the following written statement for the Senate Finance Committee 
hearing, ``Financial and Economic Challenges in Puerto Rico,'' 
scheduled for Tuesday, September 29, 2015.

Our association remains committed to working with you and the committee 
to legislate the necessary changes to ensure that Medicare and Medicaid 
beneficiaries and U.S. veterans receive the same medical services in 
Puerto Rico as they can in all 50 states. Doctors in Puerto Rico 
rightfully deserve to be appropriately reimbursed for the services they 
provide in Puerto Rico just as they would if providing such care in any 
U.S. state.

We believe the Finance Committee and the entire U.S. Senate agrees that 
Medicare must treat every American equally, including those living in 
Puerto Rico today and in the future.

Our comments today focus on one component of the physician fee schedule 
formula that has a dramatically negative impact on the entire health 
care system of Puerto Rico. The Geographic Practice Cost Index (GPCI) 
formula as currently implemented by the Centers for Medicare and 
Medicaid Services (CMS) produces Medicare reimbursements far below the 
actual cost of providing care to Medicare beneficiaries in Puerto Rico. 
The GPCI is designed to reflect the variation in practice costs in each 
geographic locality across the United States and the territories and 
has been established for each of the three components of a procedure's 
relative value unit (i.e., costs for physician work, practice expense, 
and malpractice insurance). This formula fails health care providers in 
Puerto Rico for two primary reasons.

First, Puerto Rico is in the unenviable position of having the highest 
energy prices in the nation, roughly three times the cost of energy in 
California. Unfortunately, energy costs are not taken into account in 
determining medical practice costs.

Second, CMS applies a formula to determine medical office rents based 
on a residential housing rental rate. This is no way reflects the 
actual cost of running a medical practice in Puerto Rico. Puerto Rico 
has the highest percentage of HUD Section 8 rental units (i.e., 
subsidized public housing), which lowers the average housing rental 
rate disproportionately to the rest of the United States. In fact, 
Puerto Rico has almost 9 times the national average of 2-bedroom 
renter-occupied public housing units. CMS has granted a waiver of the 
Section 8 rental units in the U.S. Virgin Islands due to a similar 
situation, but continues to ignore the U.S. citizens of Puerto Rico.

To illustrate, the Practice Expense (PE) GPCI for Puerto Rico in 2015 
is 0.705. In the Virgin Islands, the PE GPCI is 0.960, 36% higher than 
Puerto Rico. In Hawaii, the PE GPCI is 1.162, almost 51% higher than 
Puerto Rico.

Data collection with respect to Puerto Rico is inadequate and the U.S. 
Census does not provide meaningful data. CMS relies on deficient data 
that results in inaccurate GPCI calculations for Puerto Rico. This 
causes an underestimation of the actual practice costs and results in 
Medicare reimbursement rates that do not reflect the cost of providing 
care to Medicare beneficiaries in Puerto Rico.

We have attached a report prepared by the Puerto Rico Institute of 
Statistics that examines the public housing bias in the CMS estimates 
of the office rent component of the GPCI. The report estimates that the 
public housing rent bias has a potential total negative economic impact 
on Puerto Rico of $120 million annually.\1\ As it relates to Medicare 
Part B expenditures, this bias represents between $7 and $15 million 
annually--a small drop in the ocean of tens of billions of dollars 
spent on Medicare Part B physician payments each year.
---------------------------------------------------------------------------
    \1\ The $120-million figure breaks down as: $7-15 million in 
additional Medicare Part B fee-for-service payments to providers; $50-
60 million in additional reimbursements under Medicare Advantage; and 
up to $45 million in indirect and induced multiplier effects.

This bias was first introduced by CMS, without statutory mandate, in 
calendar year 2012. CMS thus has the authority to correct its mistake 
and should do so immediately. As the Puerto Rico Institute of 
Statistics concludes, ``CMS's use of uncontrolled residential rent 
estimates in different regions of the United States and Puerto Rico 
introduces a bias in the calculation of the Office Rent component of 
the GPCls. The bias causes an underestimation in the uncontrolled 
median gross residential rent estimates in those regions with 
---------------------------------------------------------------------------
relatively large segments of the population living in public housing.''

The Senate Finance Committee and the U.S. Congress have the opportunity 
to provide meaningful and immediate relief to health care providers who 
serve Medicare beneficiaries in Puerto Rico. With the island facing an 
unprecedented financial crisis and a near collapse of the health care 
system, Puerto Rico's Medicare population (American citizens who pay 
full Medicare taxes) cannot afford arbitrary CMS policies that ignore 
the harsh reality facing Puerto Rico.

Thank you again for your consideration of our comments. The Puerto Rico 
College of Physicians and Surgeons looks forward to working with the 
committee to ensure that the American citizens in Puerto Rico are 
fairly treated under the law.

Sincerely,

Victor Ramos, MD MBA
President

Attachment:
http://www.estadisticas.gobierno.pr/iepr/
LinkClick.aspx?fileticket=ZdH5lxNObgs%
3d&tabid=165
                                 ______
                                 
 Puerto Rico Institute of Statistics Report to the Board of Government 
            of the Puerto Rico Physicians and Surgeons Guild

Regarding the possible existence of a Public Housing Prevalence Bias in 
the Estimation of the Office Rent component of the Geographic Practice 
Cost Index (GPCI) used by the Centers for Medicare and Medicaid 
Services (CMS) to provide differential compensation to physicians in 
different parts of the United States and Puerto Rico for providing 
services under Medicare Part B.

                             July 17, 2015

                                 Author

                       Dr. Mario Marazzi-Santiago

To obtain a copy of this report: (1) visit http://
www.estadisticas.gobierno.pr, (2) send your request by email to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cabab8afadbfa4beabb98aafb9beabaea3b9bea3a9abb9e4ada5a8a3afb8a4a5e4bab8">[email&#160;protected]</a>, (3) call (787) 993-3336, (4) send 
your request by fax to (787) 993-3346, (5) send your request by mail to 
P.O. Box 195484, San Juan, PR 00919-5484, or (6) visit the offices of 
the Puerto Rico Institute of Statistics in 57 Quisqueya St., Suite 
2000, San Juan, PR 00917, between the hours of 8:00 a.m. and 4:30 p.m. 
The report is available in paper and in pdf. The report is free.

Suggested citation: Marazzi, M. (2015). Report to the Board of 
Government of the Puerto Rico Physicians and Surgeons Guild. Instituto 
de Estadisticas de Puerto Rico. Obtained from 
www.estadisticas.gobierno.pr.

DISCLAIMER: This report was prepared by the Puerto Rico Institute of 
Statistics (Institute) through a service agreement with the Puerto Rico 
Physicians and Surgeons Guild (Colegio de Medicos Cirujanos de Puerto 
Rico), using publically available data. Therefore, its use, and the 
Institute's role, is limited to the clauses contained in said Agreement 
and Puerto Rico Act No. 209-2003. The information that served as the 
base for this report has not been verified by the Institute or any 
auditors (independent or otherwise) nor have such auditors been 
consulted. The Institute has made no independent verification as to the 
accuracy or completeness of said information; therefore the Institute 
assumes no responsibility for the information contained herein. 
Accordingly, the Report is subject to modification or reconsideration 
at any time.

                              Colaborators

                          JEL Consulting, Inc.

                            Dimarilys Bruno

                          Dr. Jose E. Laborde

                             Zaira Rosario

                       Medical Card Systems, Inc.

                             Roberto Pando

                  Puerto Rico Institute of Statistics

                           Mihaly Cienfuegos

                       Dr. Orville Disdier Flores

                       Yarlier Yalid Lopez Correa

                      Jacobo M. Orenstein-Cardona

                     Dr. Idania R. Rodriguez-Ayuso

                      Alberto L. Velazquez Estrada

                         Yoel Velazquez Oliver

Executive Summary

The Puerto Rico Physicians and Surgeons Guild (Colegio de Medicos 
Cirujanos de Puerto Rico) requested the technical assistance of the 
Puerto Rico Institute of Statistics (PRIS) to understand a potential 
bias in the calculation of the Office Rent component of the Geographic 
Practice Cost Indexes (GPCIs) prepared by the Centers for Medicare and 
Medicaid Services (CMS). The GPCIs are used to adjust the compensation 
that physicians receive for providing services under Medicare Part B 
(see Physician Fee Schedule (PFS)) that may arise as a result of 
potential differences in the costs of providing Medicare services 
across different regions of the United States and Puerto Rico.

The purpose of this report is to present PRIS findings regarding CMS's 
use of data from the American Community Survey (ACS) and the Puerto 
Rico Community Survey (PRCS) of the U.S. Census Bureau to estimate the 
median gross rent of a 
2-bedroom housing unit in different regions of the United States and 
Puerto Rico, which serves as a proxy for the calculation of the Office 
Rent component of the GPCIs. In specific, we control for the prevalence 
of non-market housing (i.e., public housing) in each PFS payment 
locality to test for the existence of a bias. We find that:

  (1)  After controlling for non-market housing, the median gross rent 
        of a 2-
        bedroom housing unit changes in a statistically significant way 
        in all PFS payment localities. This provides evidence to 
        support the existence of a bias related to the differential 
        prevalence of non-market housing in different parts of the 
        United States and Puerto Rico.
  (2)  Amongst all PFS payment localities, Puerto Rico obtains the 
        lowest estimate for the median gross rent of a 2-bedroom 
        housing unit ($360). Once HUD public housing rent thresholds 
        are applied, Puerto Rico continues to receive the lowest 
        estimate for the median gross-rent of a 2-bedroom housing unit 
        ($510). But, in the case of Puerto Rico, this represents a 
        statistically significant increase of 42 percent, by far the 
        largest percentage increase amongst all PFS payment localities.
  (3)  The use of uncontrolled residential rent estimates to proxy for 
        commercial rents introduces a bias associated with factors 
        unrelated to commercial rent markets, such as the prevalence of 
        public housing, amongst others. Doctors in Puerto Rico have 
        been affected more by this statistical bias than doctors in any 
        part of the United States. We estimate that this statistical 
        bias artificially reduces Puerto Rico's GPCI by about 4 
        percent. According to a panel of experts, the total economic 
        impact of this bias could reach $120 million annually. We term 
        this bias the ``Public Housing Prevalence Bias.''
  (4)  The Department of Housing and Urban Development (HUD) has been 
        using for many years the ACS/PRCS to estimate adequately 
        controlled residential rent estimates, known as Fair Market 
        Rents (FMR). In fact, prior to calendar year 2012, CMS used FMR 
        estimates as the proxy for the Office rent component of the 
        GPCI. But, when CMS switched to using its own uncontrolled 
        residential rent estimates prepared from the ACS/PRCS, Puerto 
        Rico's Practice Expense GPCI fell by 20 percent, the largest 
        drop of any of the 89 PFS payment localities.
  (5)  There is evidence that suggests that the costs of renting a 
        high-quality residential housing unit in the San Juan, Puerto 
        Rico Metropolitan Statistical Area, including energy costs, is 
        much higher than properly controlled ACS/PRCS gross rent 
        estimates would suggest. In specific, the Cost of Living Index 
        of the Council for Community and Economic Research based in 
        Arlington, Virginia suggests that the rent plus energy costs in 
        Puerto Rico could be as high as in Beaumont, TX MSA and 
        Chicago, IL MSA.

We recommend several ways that CMS could proceed to correct for the 
Public Housing Prevalence Bias in the Office Rent component of the 
Puerto Rico Geographic Practice Cost Index. The remediation of this 
situation should not have to wait any more time.

I. Introduction

Title XVIII of the Social Security Act establishes regulations for 
Medicare, a health insurance program of the United States Government 
for people age 65 or older,\1\ administered by the Centers for Medicare 
and Medicaid Services (CMS). Participants automatically pay into the 
system via payroll taxes on a regular basis throughout most of their 
working lives. The program currently covers people in the United 
States, Puerto Rico, the U.S. Virgin Islands, and Guam. In almost all 
cases, participants pay the same percent no matter where they live or 
where they obtain their medical services.
---------------------------------------------------------------------------
    \1\ It also offers coverage to other people with certain 
disabilities or medical conditions.

The Social Security Act also requires that CMS develop and update at 
least every 3 years the Physician Fee Schedule (PFS), which is used to 
determine physician compensation for providing services under Medicare 
Part B. The PFS is composed of three components (Work, Practice 
Expense, and Malpractice Premium) for 89 payment localities.\2\
---------------------------------------------------------------------------
    \2\ The current Physician Fee Schedule (PFS) locality structure was 
developed and implemented 18 years ago in 1997. It has 89 total PFS 
localities; 34 localities are statewide areas (that is, only one 
locality for the entire state). There are 52 localities in the other 16 
states, with 10 states having 2 localities, 2 states having 3 
localities, 1 state having 4 localities, and 3 states having 5 or more 
localities. The District of Columbia, Maryland, and Virginia suburbs, 
Puerto Rico, and the Virgin Islands are additional localities that make 
up the remainder of the total of 89 localities.

The Practice Expense component is sub-divided into several components, 
including the topic of this study, the Office Rent component. This 
component attempts to capture the cost associated with the commercial 
rent necessary for a space of sufficient size and quality to adequately 
---------------------------------------------------------------------------
operate a basic doctor's office.

Section 1848(e)(1)(A) of the Social Security Act requires CMS to 
develop measures of the relative cost differences among the payment 
localities compared to the national average for each of the components 
of the PFS. To do so, CMS prepares Geographic Practice Cost Indexes 
(GPCIs) to adjust for cost differences associated with each of the 
components of the costs, amongst the 89 different Medicare payment 
localities.

However, currently, there is no publically available data on commercial 
office rental rates with sufficient geographic detail and reliability 
that can serve to adjust for cost differences associated with the 
Office Rent component.\3\ Due to this lack of suitable commercial 
office rent data, CMS has relied on residential rental rates as a proxy 
for many years.
---------------------------------------------------------------------------
    \3\ Over the years, CMS has tested several alternatives without 
success.

In particular, for several years, CMS used residential rent statistics 
prepared by Housing and Urban Development (HUD) using multiple sources 
of information including the American and Puerto Rico Community Surveys 
(ACS/PRCS) from the U.S. Census Bureau.\4\ However, starting in the 
calendar year 2012, CMS tested and approved the use of its own rent 
statistics it had prepared using ACS/PRCS data directly.
---------------------------------------------------------------------------
    \4\ See Fair Market Rent (FMR) program of HUD: http://
www.huduser.org/portal/datasets/fmr.html.

CMS has the responsibility of making sure that the GPCIs it proposes 
adequately reflect actual cost differences in the provision of Medicare 
services, not other unrelated factors. To do so requires controlling 
for any potential unrelated factors that may generate biases in the 
calculation of the GPCIs that have economically meaningful 
---------------------------------------------------------------------------
implications.

In this brief research note, we examine whether the prevalence of non-
market housing (i.e. public housing) has influenced CMS estimates for 
the Office Rent component of the GPCIs, assigned to each of the 89 PFS 
payment localities. In specific, we answer the following questions:

    b  Have differences in the prevalence of non-market housing 
generated a bias in the residential rent statistics prepared by CMS to 
estimate the Office Rent component of the GPCIs?

    b  If so, what has been its impact?

    b  Are there alternative methods that CMS could employ to correct 
for this bias?

II. Background

Demographic developments and outlook
Over the past 10 years, Puerto Rico has experienced a loss of about 7.3 
percent of its population, which is equivalent to about 278 thousand 
people.\5\ This is the first population reduction in the recorded 
history of Puerto Rico.\6\ The reduction owes largely to a secular 
downward trend in the number of births, as well as to a relatively high 
level of net outward migration. According to official population 
projections, this trend is expected to continue for the rest of this 
century. See Figure 1.
---------------------------------------------------------------------------
    \5\ Source: U.S. Census Bureau, Annual Population Estimates 2004-
2014 (2014 vintage and 2000-10 intercensal estimates).
    \6\ In the 16th Century, it is believed that the Taino inhabitants 
of Puerto Rico became extinct as a culture following settlement by 
Spanish colonists, primarily due to infectious diseases to which they 
had no immunity. It is unclear whether the population of Puerto Rico as 
a whole declined during this period.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Recent outward migrants have been relatively young, a factor which has 
accelerated the aging of Puerto Rico's overall population. In 2011, the 
median age in Puerto Rico surpassed the median age of the United States 
---------------------------------------------------------------------------
for the first time in recorded history. See Figure 2.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Puerto Rico's housing markets
According to the 3-year estimates of the 2013 Puerto Rico Community 
Survey of the U.S. Census Bureau, there are 1.6 million housing units 
in Puerto Rico, of which 1.3 million are occupied. Of these, 
approximately 385 thousand are occupied by a renter. In turn, of these, 
115 thousand have 2 bedrooms.

Unfortunately, neither the American Community Survey nor the Puerto 
Rico Community Survey ask whether the housing unit is located in a 
public housing development project. Therefore, we cannot use the 
results of the Puerto Rico Community Survey alone to gauge the extent 
to which public housing exists in Puerto Rico.

Nevertheless, the Department of Housing and Urban Development (HUD) 
publishes detailed statistics on the characteristics of residents of 
public housing development projects across the United States and Puerto 
Rico. In specific, according to HUD's Residential Characteristics 
Report,\7\ there were at least 18 thousand 2-bedroom renter-occupied 
public housing units in Puerto Rico as of May 2015. This represents 
about 16 percent of all 2-bedroom renter-occupied housing units, almost 
9 times the national average. See Figure 3.
---------------------------------------------------------------------------
    \7\ See http://portal.hud.gov/hudportal/HUD?src=/program_offices/
public_indian_housing/systems/pic/50058/rcr.

On the other hand, Figure 4 presents the median gross rent by state and 
Puerto Rico according to the 3-year estimates of the 2013 American and 
Puerto Rico Community Surveys of the U.S. Census Bureau. Nationwide, 
the median gross rent paid is estimated to be about $900 per month. 
This is about twice the median gross rent paid in Puerto Rico of $452 
---------------------------------------------------------------------------
per month.

In this research note, we examine whether these two observations are 
related. In specific, we examine whether the greater provision of 
public housing in Puerto Rico is in part responsible for the very low 
median gross rent estimates that can be obtained for Puerto Rico from 
the uncontrolled residential rent estimates that can be gleaned from 
the standard tables of the Puerto Rico Community Survey of the U.S. 
Census Bureau.

Why might these two variables be related? Public housing rents are 
relatively very low, and are therefore typically located in the lower 
part of the rent distribution. Therefore, all else equal, an increase 
in the number of public housing units in the distribution will 
typically tend to lower measures of central tendency, such as the 
median.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

III. Methodology

We use data from the American and Puerto Rico Community Surveys 2008-10 
Public Use Microdata Sample (PUMS) to estimate the Median Gross Rent 
\8\ of a 2-
Bedroom Renter-Occupied Housing Unit in each of the 89 PFS payment 
localities.\9\<SUP>,</SUP> \10\ Currently, CMS uses the results of this 
survey during the 3-year period, comprising calendar year 2008 through 
calendar year 2010, to estimate the GPCIs.
---------------------------------------------------------------------------
    \8\ Gross rent is the contract rent plus the estimated average 
monthly cost of utilities (electricity, gas, and water and sewer) and 
fuels (oil, coal, kerosene, wood, etc.) if these are paid by the renter 
(or paid for the renter by someone else). Gross rent is intended to 
eliminate differentials that result from varying practices with respect 
to the inclusion of utilities and fuels as part of the rental payment. 
The estimated costs of water and sewer, and fuels are reported on a 12-
month basis but are converted to monthly figures for the tabulations.
    \9\ The U.S. Virgin Islands is excluded from the analysis for lack 
of a Community Survey.
    \10\ We must estimate these rents, since CMS does not publish the 
actual estimates used in preparing the GPCIs.

The medians are calculated using the appropriate replicate weights 
provided by the U.S. Census Bureau. Public Use Microdata Areas (PUMAs) 
from the 2000 Census were classified according to the PFS payment 
localities used by CMS. See Table 2 in the Appendix for a table showing 
the relation between the 2000 PUMAs and the PFS payment localities.
---------------------------------------------------------------------------
    \11\ To generate this ``cut-off'' rent, HUD uses administrative 
data on public housing rents from the Multifamily Tenant 
Characteristics System (MTCS). There are several advantages of using 
MTCS data to generate the cut-off rent. Regular availability of MTCS 
data allows HUD to update the cut-off rent annually. Second, there is 
enough MTCS data to generate cut-off rents at the geographic level of 
the 89 PFS payment localities.

In order to control for differences in the prevalence of public 
housing, we estimate the Median Gross Rents for a 2-Bedroom housing 
unit, after excluding units which are likely to be non-market housing 
units. To determine which housing units to exclude we employ a simple 
criteria developed by the Department of Housing and Urban Development 
(HUD).
---------------------------------------------------------------------------
    \12\ In fact, these housing units are excluded from HUD's Fair 
Market Rent (FMR) statistics.

In specific, using internal administrative data,\11\ HUD prepares 
estimates for the rent paid by public housing tenants in each of its 
regions, which it uses as thresholds or cut-offs. Housing units that 
pay a rent that is equal to or lower than this rent threshold or cut-
off are considered to be either assisted housing or otherwise at a 
below-market rent.\12\ See the Table 3 in the Appendix for a list of 
the rent thresholds used in each of the PFS payment localities.
---------------------------------------------------------------------------
    \13\ In those cases in which HUD uses a rent cut-off for part, but 
not all of, a PFS payment locality, we applied the rent cut-off to the 
entire PFS payment locality.
    \14\ In those cases in which HUD used more than one rent cut-off 
for different parts of a PFS payment locality, we used the weighted 
median of the rent cut-offs. The weights used were the population 
estimates from the 2010 Census for each county.

We obtained the most recent rent cut-offs for over 4 thousand counties 
in the United States. The counties were classified and recoded 
following the 89 PFS payment localities.\13\<SUP>,</SUP> \14\ Standard 
---------------------------------------------------------------------------
errors were computed using the replicate weights provided in the PUMS.

We test the following null hypothesis:

    Ho:   Controlling for differences in the prevalence of non-market 
housing does not significantly change the median gross rent of a 2-
bedroom housing unit.

against the alternative hypothesis:

    Ha:   Controlling for differences in the prevalence of public 
housing does significantly change the median gross rent of a 2-bedroom 
housing unit.

In order to compare the medians of the gross rent, we must employ a 
non-parametric test for two independent variables, known as the Mann-
Whitney U test. All statistical significance tests were performed at a 
95% confidence level.

IV. Results

After controlling for non-market rental housing, the median gross rent 
of a 2-bedroom housing unit changes in a statistically significant way 
in all PFS payment localities. See Table 1. This provides evidence to 
support the existence of a bias related to the differential prevalence 
of non-market housing in different parts of the United States and 
Puerto Rico.

Amongst all PFS payment localities, Puerto Rico obtains the lowest 
estimate for the median gross rent of a 2-bedroom housing unit ($360). 
Once HUD public housing rent thresholds are applied, Puerto Rico 
continues to receive the lowest estimate for the median gross-rent of a 
2-bedroom housing unit ($510). But, in the case of Puerto Rico, this 
represents a statistically significant increase of 42%, markedly, the 
largest amongst all PFS payment localities. The second largest percent 
increase is experienced by New York, Manhattan (22%). See Figure 5.


Table 1. Median Gross Rent for Two Bedrooms Housing Units by PFS payment
                          locality: P2008-2010
------------------------------------------------------------------------
 Physicia       All renter-occupied housing units that pay cash rent
    Fee    -------------------------------------------------------------
 Schedule       All units      All units with
   (PFS)   ------------------  rent above HUD              Statistically
  Payment                       rent  cut-off    Percent    significant
 Locality    Estimate   S.E. ------------------  Increase     change?
   Area                        Estimate   S.E.
------------------------------------------------------------------------
1.               $630     4       $681    10         8%          YES
 Alabama,
 Statewide
2. Alaska,       $976    37       $992    26         2%          YES
 Statewide
3.               $840     4       $864     8         3%          YES
 Arizona,
 Statewide
4.               $610     5       $645    10         6%          YES
 Arkansas,
 Statewide
5.             $1,484    10     $1,490    13         0%          YES
 Californi
 a,
 Anaheim-
 Santa Ana
6.             $1,286     9     $1,301     6         1%          YES
 Californi
 a, Los
 Angeles
7.             $1,260    19     $1,281    26         2%          YES
 Californi
 a, Marin-
 Napa-
 Solano
8.             $1,296    13     $1,324    14         2%          YES
 Californi
 a,
 Oakland-
 Berkeley
9.             $1,690    48     $1,740    29         3%          YES
 Californi
 a, San
 Francisco
10.            $1,606    43     $1,620    43         1%          YES
 Californi
 a, San
 Mateo
11.            $1,504    34     $1,525    13         1%          YES
 Californi
 a, Santa
 Clara
12.            $1,403    25     $1,421    23         1%          YES
 Californi
 a,
 Ventura
13.            $1,001     6     $1,030     6         3%          YES
 Californi
 a, Rest
 of state
14.              $860    10       $871     7         1%          YES
 Colorado,
 Statewide
15.            $1,047    11     $1,077    16         3%          YES
 Connectic
 ut,
 Statewide
16.              $952    24       $996    22         5%          YES
 Delaware,
 Statewide
17.            $1,363    18     $1,392    38         2%          YES
 District
 of
 Columbia,
 MD-VA
 Suburbs
18.            $1,067    10     $1,072     9         0%          YES
 Florida,
 Fort
 Lauderdal
 e
19.            $1,084    11     $1,097     7         1%          YES
 Florida,
 Miami
20.              $890     5       $901     4         1%          YES
 Florida,
 Rest of
 state
21.              $885     7       $897     8         1%          YES
 Georgia,
 Atlanta
22.              $642    10       $688    10         7%          YES
 Georgia,
 Rest of
 state
23. Hawaii-    $1,316    28     $1,352    44         3%          YES
 Guam,
 Statewide
  *
24. Idaho,       $650    11       $671    11         3%          YES
 Statewide
25.              $940     6       $950     7         1%          YES
 Illinois,
 Chicago
26.              $681    16       $719     9         6%          YES
 Illinois,
 East St.
 Louis
27.            $1,013    16     $1,023    15         1%          YES
 Illinois,
 Suburban
 Chicago
28.              $678    14       $699     6         3%          YES
 Illinois,
 Rest of
 state
29.              $700     2       $712     7         2%          YES
 Indiana,
 Statewide
30. Iowa,        $661     8       $681    10         3%          YES
 Statewide
31.              $690    12       $710     9         3%          YES
 Kansas,
 Statwide
32.              $608    10       $638     7         5%          YES
 Kentucky,
 Statewide
33.              $930    15       $942    18         1%          YES
 Louisiana
 , New
 Orleans
34.              $680     7       $724     7         6%          YES
 Louisiana
 , Rest of
 state
35. Maine,       $925    24       $950    28         3%          YES
 Southern
 Maine
36. Maine,       $671    17       $729    15         9%          YES
 Rest of
 state
37.            $1,084    11     $1,102    10         2%          YES
 Maryland,
 Baltimore
 , Surr.
 Counties
38.              $915    24       $942    24         3%          YES
 Maryland,
 Rest of
 state
39.            $1,281    19     $1,343    16         5%          YES
 Massachus
 etts,
 Metropoli
 tan
 Boston
40.              $915    15       $982    15         7%          YES
 Massachus
 etts,
 Rest of
 state
41.              $830     8       $844    13         2%          YES
 Michigan,
 Detroit
42.              $680     4       $691     9         2%          YES
 Michigan,
 Rest of
 state
43.              $820    10       $840    12         2%          YES
 Minnesota
 ,
 Statewide
44.              $632    14       $703    12        11%          YES
 Mississip
 pi,
 Statewide
45.              $742    11       $760    15         2%          YES
 Missouri,
 Metropoli
 tan
 Kansas
 City
46.              $800    13       $812    12         1%          YES
 Missouri,
 Metropoli
 tan St.
 Louis
47.              $586    12       $620     5         6%          YES
 Missouri,
 Rest of
 state
48.              $651    14       $689    19         6%          YES
 Montana,
 Statewide
49.              $680    11       $700    14         3%          YES
 Nebraska,
 Statewide
50.              $945    10       $960    10         2%          YES
 Nevada,
 Statewide
51. New        $1,006    12     $1,017    14         1%          YES
 Hampshire
 ,
 Statewide
52. New        $1,210    17     $1,250    17         3%          YES
 Jersey,
 Northern
 NJ
53. New        $1,108    16     $1,146    15         3%          YES
 Jersey,
 Rest of
 state
54. New          $690     9       $709     9         3%          YES
 Mexico,
 Statewide
55. New        $1,147    61     $1,400    43        22%          YES
 York,
 Manhattan
56. New        $1,118     8     $1,200    12         7%          YES
 York, NYC
 suburbs-
 Long
 Island
57. New        $1,027    27     $1,080    20         5%          YES
 York,
 Poughkpsi
 e-N. NYC
 Suburbs
58. New        $1,270    24     $1,300    12         2%          YES
 York,
 Queens
59. New          $732     8       $813    15        11%          YES
 York,
 Rest of
 state
60. North        $700     2       $729     5         4%          YES
 Carolina,
 Statewide
61. North        $599    14       $620    12         3%          YES
 Dakota,
 Statewide
62. Ohio,        $700     2       $719     7         3%          YES
 Statewide
63.              $640     6       $671     6         5%          YES
 Oklahoma,
 Statewide
64.              $871     6       $880     9         1%          YES
 Oregon,
 Portland
65.              $730     4       $740     6         1%          YES
 Oregon,
 Rest of
 state
66.              $967    15     $1,017    11         5%          YES
 Pennsylva
 nia,
 Metropoli
 tan
 Philadelp
 hia
67.              $709    10       $742     6         5%          YES
 Pennsylva
 nia, Rest
 of state
68. Puerto       $360    12       $510     8        42%          YES
 Rico,
 Puerto
 Rico
69. Rhode        $920    16       $954    12         4%          YES
 Island,
 Statewide
70. South        $680     4       $712     7         5%          YES
 Carolina,
 Statewide
71. South        $610    14       $654    19         7%          YES
 Dakota,
 Statewide
72.              $676     8       $701     7         4%          YES
 Tennessee
 ,
 Statewide
73. Texas,       $955    13       $960    11         1%          YES
 Austin
74. Texas,       $731    38       $761    29         4%          YES
 Beaumont
75. Texas,       $825    55       $837    29         1%          YES
 Brazoria
76. Texas,       $876     8       $884    10         1%          YES
 Dallas
77. Texas,       $865    14       $874    11         1%          YES
 Fort
 Worth
78. Texas,       $874    51       $903    39         3%          YES
 Galveston
79. Texas,       $861     7       $869    11         1%          YES
 Houston
80. Texas,       $742     4       $770     6         4%          YES
 Rest of
 state
81. Utah,        $750     5       $760     8         1%          YES
 Statewide
82.              $900    15       $925    41         3%          YES
 Vermont,
 Statewide
83. Virgin        n/a    n/a        n/a    n/a        n/a          n/a
 Islands,
 Virgin
 Islands
84.              $851     7       $893     9         5%          YES
 Virginia,
 Statewide
85.            $1,114    15     $1,129    13         1%          YES
 Washingto
 n,
 Seattle-
 King
 County
86.              $815    11       $835    10         2%          YES
 Washingto
 n, Rest
 of state
87. West         $559     9       $623    14        11%          YES
 Virginia,
 Statewide
88.              $740     2       $749    10         1%          YES
 Wisconsin
 ,
 Statewide
89.              $658    14       $689    30         5%          YES
 Wyoming,
 Statewide
------------------------------------------------------------------------
* The 23rd PFS payment locality includes Hawaii and Guam. However,
  because Guam does not participate in the Community Surveys, it is
  excluded in this analysis.
Source: Public Use Microdata Sample (PUMS), American Community Survey
  (ACS) and Puerto Rico Community Survey (PRCS), 3-year estimate 2008-
  2010, U.S. Census Bureau. Standard errors are calculated using
  replicating weights.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  

V. Discussion

How do we know there is a bias?
This research note presents evidence that the ACS/PRCS-based estimates 
of the median gross rent of 2-bedroom housing units are statistically 
different when we apply HUD rent thresholds to exclude housing units 
whose rent is so low that they are considered to be either assisted 
housing or otherwise at a below-market rent.

The relative prevalence of this type of non-market housing across 
different parts of the United States and Puerto Rico has little (if 
anything) to do with commercial rent markets for medical offices and 
facilities in different parts of the United States and Puerto Rico.

Therefore, the use of uncontrolled residential rent estimates to proxy 
for commercial rents introduces a bias related to the relative 
prevalence of non-market housing across different parts of the United 
States and Puerto Rico. Current CMS practice includes the use of these 
biased uncontrolled residential rent estimates. Figure 6 highlights the 
situation for Puerto Rico.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Does it have a meaningful impact on the GPCIs of any payment locality?
Our results indicate that physicians and surgeons in Puerto Rico have 
been affected more by this statistical bias than physicians and 
surgeons in any part of the United States.

In the latest review, the Practice Expense GPCI had a cost share weight 
of 44.839 percent, of which 10.223 percentage points owed to the Office 
Rent component.\15\ Therefore, a 42% increase in the Median Gross Rent 
used as a proxy for the Office Rent component implies an increase of 
Puerto Rico's GPCI by about 4%, or equivalently an increase of the 
Practice Expense GPCI of Puerto Rico by about 10%.
---------------------------------------------------------------------------
    \15\ See https://www.cms.gov/Medicare/Medicare-Fee-for-Service-
Payment/PhysicianFeeSched
/Downloads/CY2015-PFS-FR-GPCI.pdf.
---------------------------------------------------------------------------
What about any impacts on the broader economy and health care sector?
In order to gauge the impact of the Public Housing Prevalence Bias on 
the overall Health Care sector in Puerto Rico, the Puerto Rico 
Institute of Statistics formed a panel of health care experts to 
independently assess the potential economic impact of this bias. In 
specific, we invited a group of health care experts \16\ to prepare 
estimates on the total impact of a 10% increase in Puerto Rico's 
Practice Expense GPCI on Medicare receipts by entities in Puerto Rico.
---------------------------------------------------------------------------
    \16\ The panel was composed of Dr. Jose E. Laborde, President, JEL 
Consulting Inc., a private health care analytics company that advises 
the Puerto Rico Health Insurance Administration, and Mr. Roberto Pando, 
Senior VP Strategy, Medical Card System, Inc., one of the main health 
insurance providers in Puerto Rico.

The calculation of such estimates relies on numerous assumptions that 
need to be made about the way in which such an increase would be 
implemented. However, to simplify matters, we provided panel members 
with ample flexibility to make the assumptions necessary to provide a 
very rough estimate of the total impact of the bias. Here is a summary 
---------------------------------------------------------------------------
of the results:

    b Between $7 and $15 million in additional annual expenses through 
Medicare Part B's Fee For Service would be paid to Puerto Rico 
physicians directly.

    b Between $50 and $60 million in additional expenses would be paid 
through Medicare Advantage, on account of the resulting increase in the 
benchmark.

Therefore, total direct economic impact is between $57 and $75 million 
annually. Moreover, taking into account indirect and induced multiplier 
effects, the total impact on the health care sector could rise to as 
high as $120 million annually.
Are there any additional sources of potential bias?
Yes. Figure 7 presents the distribution of the gross rent of a 2-
bedroom housing unit in the United States and Puerto Rico. In this 
chart, we also include the housing units that pay no cash rent. In 
Puerto Rico almost 35 percent of 2-bedroom renter-occupied housing 
units pay no cash rent. In the United States, this only occurs in less 
than 5 percent of units. A sizable gap also exists in housing units 
that pay cash rents for less than $200 a month.

This gap can be attributed to several types of factors, including 
socio-cultural differences, as well as socio-economic differences of 
the residents of Puerto Rico. These factors have no bearing or any 
relation to the cost of providing medical services.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Is there any source of data that controls for differences in the 
        prevalence of public housing?
Yes, the Fair Market Rent (FMR) estimated by the Department of Housing 
and Urban Development (HUD). This statistical product is produced by 
HUD using ACS/PRCS median gross rent data, amongst other sources of 
historical information. The FMR is the rent used by HUD in the 
implementation of its section 8 housing subsidies. In addition to the 
non-market housing thresholds, the housing experts at HUD take into 
account differences in the quality of the housing stock in different 
parts of the United States and Puerto Rico, amongst other factors that 
can bias rent statistics. For more details on the FMR methodology, see:
http://www.huduser.org/portal/datasets/fmr.html.
For how long has this been going on?
Prior to Calendar Year 2012, CMS used FMR estimates as the proxy for 
the Office rent component of the GPCI. In fact, when CMS used HUD's FMR 
as the proxy before Calendar Year 2012, the Practice Expense GPCI for 
Puerto Rico was higher than it is today.

Moreover, Puerto Rico' s Practice Expense GPCI fell by 20 percent the 
first year that CMS replaced HUD's FMR data with its own ACS/PPRCS 
median gross rent estimates. See Figure 8. This was the largest drop of 
any of the 89 PFS payment localities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


The identification of the Public Housing Prevalence Bias, which has 
been undertaken in this study, should prompt policymakers to 
immediately correct this situation which has gone on long enough.
Are there any additional data sources that control for these aspects as 
        well?
The Council for Community and Economic Research's (C2ER) Cost-of-Living 
Index (COLI) provides reference prices in more than 300 urban and other 
areas in the United States. It employs a simple methodology that 
attempts to measure the cost-of-living for a specific standard of 
living.

COLI is designed to answer the following question: How do urban areas 
compare in the cost of maintaining a standard of living appropriate for 
moderately affluent professional and managerial households?

We would argue that the relative gross rent costs of such a household 
in different parts of the country is a better proxy for the cost 
necessary to rent a space for a doctor's office that is adequate in 
terms of space and quality for the provision of medical services. After 
all, a physician's office contains sensitive equipment and supplies 
that need to be stored securely in a temperature-controlled 
environment. State and local health regulations do not allow a doctor 
to setup an office in an inadequate facility. Said in another way, 
physicians are very likely to use high-quality commercial office 
spaces. In this same vein, the housing units considered in the 
estimation of the median gross rent should include only the relatively 
more high-quality housing units that tend to attract moderately 
affluent professional and managerial households.

The COLI methodology includes a basket with 57 categories, including 
the following relevant categories:

    (I) Apartment Rent

     Apartment complexes sampled must be suitable for a childless 
        professional and managerial couple with household income in the 
        top 20% for their area. They are required to be suitable for a 
        professional or managerial couple in terms of commuting, 
        shopping, entertainment needs, and neighborhood quality. 
        Apartment complexes should be no more than 10 years old. 
        Sampled apartments should be 950 sq.ft. or pro-rated to an 
        equivalent of 950 sq.ft. Sample apartments should be 
        unfurnished, with 2 bedrooms and 1\1/2\ or 2 baths, amongst 
        other criteria.
    (II) Total Energy Costs

       COLI takes great care in incorporating different types of energy 
        costs for the household, as these vary across the United States 
        and Puerto Rico. C2ER has developed a computer model that 
        incorporates local weather data from the National Oceanographic 
        and Atmospheric Administration. This model allows COLI to 
        measure the total energy costs from an equivalent level of 
        consumption expected of a moderately affluent professional and 
        managerial household.

According to the COLI results for the first quarter of 2015, apartment 
rents (as specified above) and total energy costs in the San Juan, 
Puerto Rico Metropolitan Statistical Area (MSA) are estimated to be 
about $848 and $438 per month, respectively. Summing these components 
provides a partial estimate of gross rents, which we believe is very 
illustrative: $1,286 per month. See Table 2.

This places Puerto Rico's gross rent in between major metropolitan 
areas of the United States, such as the Chicago, Illinois Metropolitan 
Statistical Area (MSA) with an estimate of $1,326 per month, and 
Beaumont, TX MSA with an estimate of $1,218 per month. Despite this 
observation, the median gross rent estimate from the ACS/PRCS that are 
used by CMS for Puerto Rico ($360) are less than half of the estimate 
used for Beaumont, TX ($731).


    Table 2. Comparison of gross rent estimates: COLI versus ACS/PRCS
------------------------------------------------------------------------
                   COLI--1st quarter of 2015        Median
             ------------------------------------ Gross Rent
                                                    for  2-     CY 2015
                                                    bedroom    Practice
               Apartment    Energy        Sum       housing     Expense
                 rent                              unit from     GPCI
                                                   ACS/PRCS
------------------------------------------------------------------------
Chicago, IL      $1,158        $168      $1,326        $940       1.037
 MSA
San Juan, PR       $848        $438      $1,286        $360       0.705
 MSA
Beaumont, TX     $1,045        $173      $1,218        $731       0.902
 MSA
------------------------------------------------------------------------

VI. Recommendations

    1.  Correct for the Public Housing Prevalence Bias in the Office 
Rent component of Puerto Rico Geographic Practice Cost Index.

    There are a number of ways to do this:

    (a)  Exclude housing units with rents below the non-market housing 
        rent thresholds developed by the U.S. Department of Housing and 
        Urban Development (HUD), when estimating the median gross 
        rents.

    (b)  Return to using the Fair Market Rents (FMR) of HUD. The FMR is 
        calculated with great care to control for differences in the 
        quality of the housing stock, as well as for the prevalence of 
        non-market housing. It is also based on the median gross rents 
        obtained from ACS/PRCS. It is available in relatively smaller 
        geographies (not just statewide), and can be easily converted 
        to the PFS payment localities.

    (c)  Tie Puerto Rico's office rent to a specific geography in the 
        United States, for instance to Beaumont, TX or to Chicago, 
        IL.\17\
---------------------------------------------------------------------------
    \17\ A similar strategy has been followed for the U.S. Virgin 
Islands in the past due to data quality issues.

---------------------------------------------------------------------------
    2.  Implement one of the above corrections immediately.

    We estimate that the health care sector of Puerto Rico is losing 
        almost $120 million annually as a result of this statistical 
        bias. The bias was first introduced in Calendar Year 2012. 
        Therefore, over the course of the 3-year period between 2012 
        and 2015, the total income lost to Puerto Rico's health care 
        sector rises to $360 million. It only took one year to 
        implement this bias and in the process reduce Puerto Rico's 
        GPCI. It should not take any longer than one year to implement 
        the correction to this bias.

VII. Conclusion

CMS's use of uncontrolled residential rent estimates in different 
regions of the United States and Puerto Rico introduces a bias in the 
calculation of the Office Rent component of the GPCIs. In specific, the 
Public Housing Prevalence Bias, identified in this report, causes an 
underestimation in the uncontrolled median gross residential rent 
estimates in those regions with relatively large segments of the 
population living in public housing. This federal statistical bias 
costs the Puerto Rico economy an estimated $120 million annually. 
Policymakers need to immediately correct this bias. We have presented 
several potential methods that could be used to correct for this bias.

References

Junta de Planificacion (2010). Multiplicadores Interindustriales de 
Puerto Rico: Insumo-Producto 2002. Obtained from:
http://www.jp.pr.gov/Portal_JP/
LinkClick.aspx?link=http%3a%2f%2fgis.jp.pr.gov
%2fExterno_Econ%2fMultiplicadores%2fMultiplicadores+Interindustriales+20
02.pdf
&tabid=299&mid=969.

Appendix

     Table 3: Relation between the PFS localities and the 2000 PUMAs
------------------------------------------------------------------------
   PFS Locality         Counties          2000 PUMA        Rent cut-off
------------------------------------------------------------------------
(1) Alabama        (statewide)        0100100 thru                 $269
                                       0102600
(2) Alaska         (statewide)        0200101 thru                 $347
                                       0200400
(3) Arizona        (statewide)        0400101 thru                 $414
                                       0400900
(4) Arkansas       (statewide)        0500100 thru                 $262
                                       0501900
(5) Anaheim/Santa  Orange             0606801 thru                 $414
 Ana, CA                               0607607
(6) Los Angeles,   Los Angeles        0604500 thru                 $414
 CA                                    0606120, and
                                       0606122 thru
                                       0606126
(7) Marin/Napa/    Marin, Napa, and   0601000 thru                 $414
 Solano, CA         Solano             0601303
(8) Oakland/       Alameda and        0602101 thru                 $414
 Berkeley, CA       Contra Costa       0602108, and
                                       0602401 thru
                                       0602410
(9) San            San Francisco      0602201 thru                 $414
 Francisco, CA                         0602207
(10) San Mateo,    San Mateo          0602301 thru                 $414
 CA                                    0602306
(11) Santa Clara,  Santa Clara        0602701 thru                 $414
 CA                                    0602714
(12) Ventura, CA   Ventura            0606200 thru                 $414
                                       0606602
(13) Rest of       all except         0600100 thru                 $414
 California                            0600900, 0601401
                                       thru 0602002,
                                       0602500 thru
                                       0602602, 0602801
                                       thru 0604407,
                                       0606121,
                                       0606701,
                                       0606702, and
                                       0607700 thru
                                       0608200
(14) Colorado      (statewide)        0800101 thru                 $325
                                       0801000
(15) Connecticut   (statewide)        0900100 thru                 $416
                                       0902500
(16) Delaware      (statewide)        1000101 thru                 $495
                                       1000300
(17) DC + MD/VA    District of        1100101 thru                 $313
 Suburbs            Columbia;          1100105, 2401001
                    Alexandria City,   thru 2401107,
                    Arlington,         and 5100100 thru
                    Fairfax, Fairfax   5100305
                    City, Falls
                    Church City in
                    Virginia;
                    Montgomery and
                    Prince George's
                    in Maryland
(18) Ft.           Broward, Collier,  1203200 thru                 $269
 Lauderdale, FL     Indian River,      1203903
                    Lee, Martin,
                    Palm Beach, and
                    St. Lucie
(19) Miami, FL     Dade and Monroe    1204001 thru                 $269
                                       1204020
(20) Rest of       all except         1200101 thru                 $269
 Florida                               1203100
(21) Atlanta, GA   Butts, Cherokee,   1300700 thru                 $269
                    Clayton, Cobb,     1302000
                    Dekalb, Douglas,
                    Fayette,
                    Forsyth, Fulton,
                    Gwinnett, Henry,
                    Newton,
                    Paulding,
                    Rockdale and
                    Walton
(22) Rest of       all except         1300100 thru                 $269
 Georgia                               1300600, and
                                       1302100 thru
                                       1304300
(23) Hawaii        (statewide)        1500100 thru                 $414
                                       1500307
(24) Idaho         (statewide)        1600100 thru                 $347
                                       1600900
(25) Chicago, IL   Cook               1703401 thru                 $257
                                       1703519
(26) East St.      Bond, Calhoun,     1700400, 1700500,            $257
 Louis, IL          Clinton, Jersey,   and 1701000 thru
                    Macoupin,          1701202
                    Madison, Monroe,
                    Montgomery,
                    Randolph, St.
                    Clair, and
                    Washington
(27) Suburban      Dupage, Kane,      1703003 thru                 $257
 Chicago, IL        Lake, and Will     1703305
(28) Rest of       all except         1700101 thru                 $257
 Illinois                              1700300, 1700600
                                       thru 1700900,
                                       and 1701300 thru
                                       1703002
(29) Indiana       (statewide)        1800100 thru                 $257
                                       1803800
(30) Iowa          (statewide)        1900100 thru                 $289
                                       1901900
(31) Kansas        (statewide)        2000100 thru                 $289
                                       2001600
(32) Kentucky      (statewide)        2100100 thru                 $269
                                       2102500
(33) New Orleans,  Jefferson,         2201801 thru                 $262
 LA                 Orleans,           2201905
                    Plaquemines, and
                    St. Bernard
(34) Rest of       all except         2200101 thru                 $262
 Louisiana                             2201700, and
                                       2202001 thru
                                       2202500
(35) Southern      Cumberland and     2300100 thru                 $416
 Maine              York               2300400
(36) Rest of       all except          2300500 thru                $416
 Maine                                 2301000
(37) Baltimore/    Anne Arundel,      2400400 thru                 $313
 Surr. counties,    Baltimore,         2400602, 2400801
 MD                 Baltimore City,    thru 2400902,
                    Carroll, Harford   and 2401201 thru
                    and Howard         2401204
(38) Rest of       all except         2400100 thru                 $313
 Maryland                              2400300,
                                       2400700, and
                                       2401300 thru
                                       2401600
(39) Metropolitan  Middlesex,         2500300 thru                 $416
 Boston             Norfolk, and       2500600,
                    Suffolk            2501300,
                                       2501400, 2502400
                                       thru 2504000
(40) Rest of       all except         2500100, 2500200,            $416
 Massachusetts                         2500700 thru
                                       2501200, 2501500
                                       thru 2502300,
                                       and 2504100 thru
                                       2504800
(41) Detroit, MI   Macomb, Oakland,   2602501 thru                 $257
                    Washtenaw and      2602508,
                    Wayne              2603200,
                                       2603300, 2603600
                                       thru 2604104
(42) Rest of       all except         2600100 thru                 $257
 Michigan                              2602400, 2602601
                                       thru 2603100,
                                       2603400, 2603500
(43) Minnesota     (statewide)        2700100 thru                 $257
                                       2702500
(44) Mississippi   (statewide)        2800100 thru                 $269
                                       2802300
(45) Metropolitan  Clay, Jackson,     2900800 thru                 $289
 Kansas City, MO    and Platte         2901100
(46)               Jefferson, St.     2901601 thru                 $257
 Metropolitan,      Charles, St.       2901900
 St. Louis, MO      Louis, and St.
                    Louis City
(47) Rest of       all except         2900100 thru                 $289
 Missouri                              2900700, 2901200
                                       thru 2901500,
                                       2902000 thru
                                       2902700
(48) Montana       (statewide)        3000100 thru                 $325
                                       3000700
(49) Nebraska      (statewide)        3100100 thru                 $289
                                       3100904
(50) Nevada        (statewide)        3200100 thru                 $414
                                       3200511
(51) New           (statewide)        3300100 thru                 $416
 Hampshire                             3301100
(52) Northern New  Bergen, Essex,     3400301 thru                 $495
 Jersey             Hudson,            3401002, and
                    Hunterdon,         3401301 thru
                    Middlesex,         3401903
                    Morris, Passaic,
                    Somerset,
                    Sussex, Union,
                    and Warren
(53) Rest of New   all except         3400101 thru                 $495
 Jersey                                3400200, 3401101
                                       thru 3401203,
                                       and 3402001 thru
                                       3402400
(54) New Mexico    (statewide)        3500100 thru                 $262
                                       3501100
(55) Manhattan,    New York           3603801 thru                 $495
 NY                                    3603810
(56) NYC Suburbs/  Bronx, Kings,      3603400 thru                 $495
 Long Island, NY    Nassau,            3603505, 3603601
                    Richmond,          thru 3603710,
                    Rockland,          3603901 thru
                    Suffolk, and       3604018, and
                    Westchester        3604114 thru
                                       3604312
(57) Poughkpsie/   Columbia,          3601900, 3602500,            $495
 NYC                Delaware,          3603101 thru
                    Dutchess,          3603303, 3603506
                    Greene, Orange,
                    Putnam,
                    Sullivan, and
                    Ulster
(58) Queens, NY    Queens             3604101 thru                 $495
                                       3604114
(59) Rest of New   all except         3600100 thru                 $495
 York                                  3601800, 3602000
                                       thru 3602402,
                                       and 3602601 thru
                                       3603000
(60) North         (statewide)        3700100 thru                 $269
 Carolina                              3704800
(61) North Dakota  (statewide)        3800100 thru                 $325
                                       3800500
(62) Ohio          (statewide)        3900100 thru                 $257
                                       3904800
(63) Oklahoma      (statewide)        4000100 thru                 $262
                                       4001700
(64) Portland, OR  Clackamas,         4101301 thru                 $347
                    Multnomah, and     4101313
                    Washington
(65) Rest of       all except         4100100 thru                 $347
 Oregon                                4101200
(66) Metropolitan  Bucks, Chester,    4203901 thru                 $495
 Philadelphia, PA   Delaware,          4204303
                    Montgomery, and
                    Philadelphia
(67) Rest of       all except         4200100 thru                 $313
 Pennsylvania                          4204303
(68) Puerto Rico   (statewide)        7202500 thru                 $269
                                       7200500
(69) Rhode Island  (statewide)        4400100 thru                 $416
                                       4400700
(70) South         (statewide)        4500100 thru                 $269
 Carolina                              4502300
(71) South Dakota  (statewide)        4600100 thru                 $325
                                       4600700
(72) Tennessee     (statewide)        4700100 thru                 $269
                                       4703202
(73) Austin, TX    Travis             4805301, 4805302,            $262
                                       and 4805304 thru
                                       4805402
(74) Beaumont, TX  Jefferson          4804300 and                  $262
                                       4804400
(75) Brazoria, TX  Brazoria           4804801 and                  $262
                                       4804802
(76) Dallas, TX    Dallas             4802301 thru                 $262
                                       4802315
(77) Ft. Worth,    Tarrant            4802501 thru                 $262
 TX                                    4802511
(78) Galveston,    Galveston          4804901 and                  $262
 TX                                    4804902
(79) Houston, TX   Harris             4804601 thru                 $262
                                       4804625
(80) Rest of       all except         4800100 thru                 $262
 Texas                                 4802202,
                                       4802400, 4802600
                                       thru 4804200,
                                       4804501 thru
                                       4804503,
                                       4804701,
                                       4804702, 4805000
                                       thru 4805202,
                                       4805303, 4805500
                                       thru 4806900
(81) Utah          (statewide)        4900100 thru                 $325
                                       4900700
(82) Vermont       (statewide)        5000100 thru                 $416
                                       5000400
(83) Virgin        (statewide)        n/a                           n/a
 Islands
(84) Virginia      All Counties,      5100400 thru                 $313
                    except             5103500
                    Alexandria City,
                    Arlington,
                    Fairfax, Fairfax
                    City, and Falls
                    Church City
(85) Seattle       King               5301801 thru                 $347
 (King County),                        5302009
 WA
(86) Rest of       all except         5300100 thru                 $347
 Washington                            5301702, and
                                       5302101 thru
                                       5302200
(87) West          (statewide)        5400100 thru                 $313
 Virginia                              5401200
(88) Wisconsin     (statewide)        5500100 thru                 $257
                                       5502500
(89) Wyoming       (statewide)        5600100 thru                 $325
                                       5600400
------------------------------------------------------------------------


                                 ______
                                 
                Puerto Rico Healthcare Community Leaders

                           P.O. Box 009023547

                         San Juan PR 00902-3547

      Written statement for the record in relation to the hearing:

          ``Financial and Economic Challenges in Puerto Rico''

               United States Senate Committee on Finance

                Tuesday, September 29, 2015, 10:00 a.m.

Dear Members of the U.S. Senate Finance Committee:

In present times, a discussion about financial and economic challenges 
in Puerto Rico would be gravely incomplete without a careful assessment 
of the social and economic implications of the growing disparities and 
underfunding in the healthcare segment of the island. The case of 
Puerto Rico represents today a unique, and concerning, scenario within 
the United States (U.S.) healthcare economy. At the very macro level, 
total healthcare expenses per capita are approximately $3,400 in Puerto 
Rico, compared to the national average projection of $10,000 or more 
for 2015.\1\ Not only is Puerto Rico very distant from U.S. average 
funding levels for healthcare, but it also has significantly less 
resources for healthcare than many countries with diverse healthcare 
systems like Canada, France, Germany, and the UK, which are also known 
to spend significantly less than the U.S. average.\2\ Many of these so 
well studied and recognized healthcare systems spend $4,000-$6,000 per 
capita, placing Puerto Rico's expenditure levels at a distinct 
disadvantage from many perspectives, especially considering that core 
inputs like prescription drugs, equipment, electric power and others 
are acquired within the U.S. market, and mostly at above average 
prices. Moreover, the partial and uneven implementation of the Medicare 
and Medicaid programs for 5 decades has been a core element impacting 
the resulting imbalances that we see today. The situation of relative 
underfunding and increasing disparities within the same U.S. healthcare 
economy, and the same Federal programs, has sustained itself only by 
inevitably depressing professional compensation, stalling capital and 
information technology investments, and by increasing barriers to 
appropriate access to care for the low income population.
---------------------------------------------------------------------------
    \1\ http://www.forbes.com/sites/danmunro/2015/01/04/u-s-healthcare-
spending-on-track-to-hit-10000-per-person-this-year/. Estimates for 
Puerto Rico are based on the financial statements of health plans in 
the island reported to the National Association of Insurance 
Commissioners (NAIC). CMS reports for Medicare FFS, and reports of the 
Government of Puerto Rico Office of Management and Budget.
    \2\ World Health Organization (WHO) http://apps.who.int/gho/data/
node.main.78?lang=en.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

While there may be different theories about why this is the current 
scenario, our call for urgent action is borne out of the following 
---------------------------------------------------------------------------
facts:

    1.   There is a problem with the economy of Federal healthcare 
programs in Puerto Rico, and over 740,000 Medicare beneficiaries and 
1,600,000 Medicaid beneficiaries are directly impacted with less 
benefits, much higher out of pocket costs, and less disposable income 
than any similarly situated individual elsewhere in the U.S.

    2.   The problem is inevitably tied to decades of partial and 
uneven implementation of Federal healthcare programs. Medicare and 
Medicaid for Puerto Rico are impacted by particularly disparate 
treatment in the statute, while the implementation of ``one-size-fits-
all'' regulation and calculations for the programs has not accounted 
for basic differences in statutory benefits, eligibility, and the 
socio-economic situation of Puerto Rico. The effect of unadjusted 
program implementation in the face of statutory differences for so many 
years has exacerbated disparities, produced harmful unintended 
consequences, and pushed Puerto Rico farther to the bottom with regards 
to healthcare funding.

    3.   There are immediate solutions available. With U.S. citizens in 
Puerto Rico paying the same Medicare Tax and the same Part B premium as 
any other citizen in the country, we unequivocally believe there are 
legitimate ``NO-Bailout'' solutions that directly impact the capacity 
of programs in Puerto Rico to provide appropriate access to quality 
care, and contribute to the strengthening of the economy in general, 
while also maintaining in Puerto Rico the most cost-efficient Medicare 
and Medicaid programs in the nation. Moreover, historic cuts and 
migration to the mainland could inevitably lead to higher costs for the 
Federal Government as beneficiaries would immediately participate in 
much higher-cost versions of the Medicare and Medicaid programs.

Growing Disparities With Federal Healthcare Programs

Due to historic deficiencies in the Medicare FFS reimbursement, 
Medicare managed care was not viable and non-existent for beneficiaries 
in Puerto Rico before 2001. Changes and protections to the lowest cost 
areas defined in the Benefits Improvement and Protections Act (BIPA, 
2000), and the Medicare Modernization Act (MMA, 2003) provided the 
first real opportunity for the availability of coordinated care and 
plan choice. Subsequently, in the first decade of the century, Medicare 
Advantage (MA) became the preferred choice of beneficiaries in Puerto 
Rico, especially for the dual eligible and the low income 
beneficiaries. Today, Puerto Rico has the largest integrated Medicare-
Medicaid program in the nation serving over 270,000 dual beneficiaries, 
and the MA program serves more than 570,000 beneficiaries in total. 
Most significantly, even before the Affordable Care Act (ACA) cuts 
began, the MA program in Puerto Rico had the lowest benchmark in the 
nation, 25% lower than the U.S. average and 21% lower than Hawaii. The 
MA program in Puerto Rico was doing a lot more, for a lot less.

Unfortunately, the ACA has provoked the highest Medicare funding cuts 
in history for citizens and providers residing in the island. Since 
2011, MA benchmarks have decreased 18%, and payment levels are 
estimated to be $1 billion less in 2015. Puerto Rico's MA base rates 
are now 38% lower than the U.S. average, and 34% lower than the lowest 
state (HI). The aggregate funding reduction so far has reached over $3 
billion less in MA. These reductions have already generated tangible 
cuts in benefits, provider compensation and provider networks. Most 
importantly, the reductions have put at risk the viability of the 
program for dual eligible, Medicare Platino, and have basically 
eliminated crucial help in benefits for non-dual, but low income, 
beneficiaries that are also excluded by statute from the Part D Low 
Income Subsidy Program (LIS). With regards to duals, the local 
Government has estimated that it would need at least $600-$800 million 
more from the local general fund to maintain a Medicaid program for the 
dual eligible without MA.
Chart 1--Illustration of the MA Benchmarks at 0% Bonus for Every County 
in the U.S.
(Only Northern Marianas, American Samoa, and Guam are not included)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Aggravating Disparities for the Low Income in MA and Part D

After the enactment of the MMA (2003), the MA program increasingly 
became the vital platform for the dual eligible population and the low 
income non-dual population to get appropriate access to care. MA 
penetration is 75% of all Medicare, serving basically 9 out of every 10 
beneficiaries with Parts A and B, while the national average 
penetration is 32%. Moreover, Stand Alone PDP enrollment is 
dramatically revealing, going down from 6% to 2% in Puerto Rico from 
2008 to 2015, while at the national level the amount of beneficiaries 
buying a stand-alone part D plan has increased from 39% to 44% (See 
Chart 2). The disadvantageous socio-economic status of Medicare 
beneficiaries in the island evidently impacts their decision to use MA 
as their most, and for most the only, secure access to Medicare 
benefits. Without a viable MA program that helps with the gaps in Part 
D, access to prescription drugs for beneficiaries in Puerto Rico would 
be unaffordable for the majority of the population. In regards to 
hospital coverage, another example of anomalies alleviated by MA is the 
fact that the regular Medicaid program in Puerto Rico does not pay for 
the Part A deductible to hospitals. We estimate that over tens of 
millions in uncompensated care are saved yearly by the first-dollar 
hospital coverage under the MA-based Medicare Platino program for the 
dual eligible in Puerto Rico.\3\
---------------------------------------------------------------------------
    \3\ There are 270,000 dual beneficiaries in Medicare Platino D-SNPs 
for which the Part A deductible for 2015 is $1,260. The regular 
Medicaid (Mi Salud) program does not cover this cost, while the MA-
based dual program does.
---------------------------------------------------------------------------
Chart 2--MA/MAPD and PDP Enrollment in PR Compared to National 
Perspective

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

The recent national-level discussions about the need for socio-economic 
status (SES) adjustments for risk scores and STAR (quality) rating 
methodologies have underscored two key barriers for Puerto Rico with 
regards to the appropriate implementation and funding for the MA and 
part D programs: (1) almost 50% of MA beneficiaries are dual eligible, 
and (2) the fact that Part D has much less benefits in Puerto Rico 
(without the Part D LIS) compared to Part D benefits for citizens 
residing in the states and Washington, DC. Important studies have 
examined and concluded that plans that serve higher proportion of low 
income beneficiaries are disadvantaged in the current STARs 
methodology, and have proposed policy amendments accordingly 
(Innovation 2013, National Quality Forum 2014, Holtz-Eakin 2015).\4\ 
However, while neither Congress nor CMS has acted to implement any 
conforming policies, the poorest beneficiaries have lost millions in 
benefits given continuing deficiencies in risk scores, and Lower-MA 
Rebate, NO-Bonus scores in the STARs program. For 2014 and 2015, over 
60% of MA beneficiaries were at 4.0 STARs or more (5% Bonus), while 
there were none (0%) in Puerto Rico.
---------------------------------------------------------------------------
    \4\ Inovalon (October 2013); National Quality Forum (August 2014); 
Holtz-Eakin, Ryan; July 2015, http://americanactionforum.org/research/
medicare-advantage-stars-are-the-grades-fair.

Furthermore, the alarming increasing disparity in Medicare Advantage 
has exacerbated the impact of the exclusion of the Part D LIS for 
beneficiaries in Puerto Rico since the MMA (2003). It is estimated that 
from 100,000-150,000 beneficiaries residing in Puerto Rico have income 
between 87% FPL and 150% FPL, and would be eligible to get help from 
Medicaid and/or from the Part D LIS if they resided elsewhere in the 
states. The partial Part D benefits for the low income beneficiaries 
aggravates the scenario with regards to quality measures. We have 
repeatedly presented this problem in Congress and to CMS, but responses 
have been null.\5\ Holtz-Eakin (2015) concluded that plans with high 
LIS enrollment lost over $470 million to pay for benefits due to 
missing the cut-off for bonus payment by less than half-star. With most 
plans in Puerto Rico at 3.0 or 3.5 STARs, we estimate that the lost 
funds for benefits (due to unattained MA rebate percentage and/or MA 
bonus) was at least $200-$250 million in 2015, and an amount close to 
$200 million in 2014.
---------------------------------------------------------------------------
    \5\ The Obama 2008 healthcare proposals for PR explicitly included 
the elimination of the Part D LIS exclusion, but no meaningful action 
has been taken so far. The President's Task Force on Puerto Rico 
recognized this problem in March 2011 and later the HHS Report to the 
Task Force from April 2013 confirmed the problem. H.R. 3966 was 
introduced in 2014 by Resident Commissioner Pierlusi to address the LIS 
exclusion. The Community of PR presented a response with more details 
to the CMS RFI on November 2014.

Effect on Low Income Citizens' Financial Circumstances, and on 
---------------------------------------------------------------------------
Consumption for the Economy

There is no question that the MA cuts, the exclusion of the Part D LIS, 
and the lost resources under the related to the uneven implementation 
of the STARS rating program, have severely impacted the disposable 
income of citizens, with an effect on Puerto Rico economy in general. 
It should be noted, for example, that--different from all other 
similarly situated citizens--dual beneficiaries in the island do not 
get help to pay the monthly Part B premium, which is deducted from 
their Social Security checks. Starting in 2006, the MA program for 
duals provided consistent plan alternatives that effectively increased 
the social security payments for the poorest citizens by providing a 
credit to the Part B premium. Pre-ACA plan offerings mostly offered $25 
or higher in monthly credits. By 2016, the average Part B credit has 
gone down probably around $25pmpm. Using this assumption, 270,000 
beneficiaries are each losing $300 from their pockets in 2016, and over 
$80 million as a group. Moreover, although a detailed analysis has not 
been not been finalized, it is fair to estimate that MA beneficiaries 
in Puerto Rico are losing $45-$60pmpm from their pockets due to the ACA 
reductions. This means $540-$720 per beneficiary and $300 to $400 
million in the aggregate, lost as disposable income most likely to be 
consumed in the local economy to cover other basic needs. With average 
Social Security payments that are \2/3\ of the national average, and 
the exclusion from Supplemental Security Income (SSI), we can make two 
very logical and relevant conclusions (see Table 1):

    1.   MA cuts have a relatively higher impact on the disposable 
income in Puerto Rico given the lower level of poverty, coupled with 
the exclusion of Part D benefits and SSI;

    2.   MA cuts will directly reduce consumption in the local economy 
given that circumstances almost assure the healthcare help frees income 
for basic needs. This is the lowest income population in the nation, 
that is also paying a higher than average cost of living (COLI, Jan-Mar 
2015).

From the national perspective, on the other hand, there is also 
increasing discussion and analysis about how expansions in healthcare 
coverage is generating increased consumption and supporting economic 
growth (WSJ Sept 2014).\6\
---------------------------------------------------------------------------
    \6\ http://blogs.wsj.com/economics/2014/09/11/health-care-revenue-
rebound-could-boost-u-s-economic-growth/.


 Table 1--Comparison of the Typical Low Income Beneficiary Situation in
                   PR vs Other Jurisdictions  \7\, \8\
------------------------------------------------------------------------
      Puerto Rico Perspective                National Perspective
------------------------------------------------------------------------
 99.1% Hispanic/Latino               7.3% Hispanic/Latino
------------------------------------------------------------------------
 $12,000 Average Social Security     $19,000 Average Social Security
 Income                               Income
------------------------------------------------------------------------
 30% with retirement income          48% with retirement income
------------------------------------------------------------------------
 53% have education less than a      20% have education less than a
 high school diploma                  high school diploma
------------------------------------------------------------------------
 $0 Supplemental Security Income     $8,841 Average Supplemental
 (SSI)                                Security Income (SSI)
------------------------------------------------------------------------
 115.4 Cost of Living Index          100.0 Cost of Living Index (COLI)
 (COLI); San Juan area Ranked #35     for Jan-Mar 2015
 in highest cost of living compared
 to 296 U.S. metropolitan
 statistical areas (Jan-Mar 2015)
------------------------------------------------------------------------


Traditional Medicare Does Not Work in Puerto Rico as in Other 
Jurisdictions
---------------------------------------------------------------------------
    \7\ Selected figures from: U.S. Census Bureau, American Fact 
Finder, 2011-2013 American Community Survey 3-Year Estimates;
    http://factfinder.census.gov/faces/nav/jsf/pages/index.xhtml.
    \8\ Cost of Living Index (COLI) of the Council For Community and 
Economic Research, http://www.estadisticas.gobierno.pr/iepr/
LinkClick.aspx?fileticket=SEqx6Sl8Ugo%3d&tabid=384.

The increasing crisis in the beneficiary-chosen MA program in Puerto 
Rico brings back historic disparities and underfunding in the Medicare 
FFS program since 1988. For decades, Part A payments have been 
distinctly lower for hospitals in the island because of a discounted 
formula defined by law, and due to regulatory implementation that 
further reduced payments. An example of the later is the significant 
reduction in DSH payments for PR given CMS has not used a proxy for the 
``Medicare SSI days'' in the formula, even when this program is also 
excluded for the Territories by law. This makes the SSI days an 
unrealistic indicator of the low income population in Puerto Rico, and 
has reduced hundreds of millions of dollars in payments to Medicare 
hospitals in the island, which is contrary to the intent of Congress in 
relation to the DSH program policy. Under Part B, other examples of 
issues include the potential underestimation of the geographic practice 
cost indexes (GPCIs). For example, a recent study validated that the 
survey used by CMS for estimating office rent costs is 
disproportionally biased due to the use of 2-bedroom apartment rent 
which is subsidized in a much greater proportion in Puerto Rico 
relative to other jurisdictions.\9\ In general, based on data reported 
by CMS as 2016 estimates, Medicare FFS payment estimates for PR are 47% 
lower than the U.S. average, also an outlier at the bottom among all 
jurisdictions (See Chart 3). Statutory, regulatory and context 
differences over 50 years have shaped a Medicare FFS program that is 
not reliable and not realistic as an accessible and appropriate 
coverage option for most beneficiaries in Puerto Rico. The program in 
the island is not what the ACA assumed as the good standard, like it 
may be elsewhere. In Puerto Rico, it is simply not a reliable source of 
what Medicare Parts A and B are supposed to be for eligible 
beneficiaries.
---------------------------------------------------------------------------
    \9\ Report about the Public Housing Prevalence Bias in the Office 
Rent Component of the GPCIs; PR Institute of Statistics, July 2015;
    http://www.estadisticas.pr.gov/iepr/
LinkClick.aspx?fileticket=ZdH5lxNObgs%3d&tabid=165.

Chart 3--Medicare FFS and Medicaid Expense in PR vs Other Jurisdictions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Medicaid Has Also Been Extremely Different

The Medicaid program in Puerto Rico has also developed under 
statutorily defined limitations since 1967. After being limited by a 
statutory cap on benefits under the 1967 Medicaid amendments that 
maintained the effective Federal matching percentage below 20%, the ACA 
approved a defined grant for the period of 2011-2019. The new grant 
totaled $6.3 billion in additional Medicaid funds, and increased the 
FMAP to 55%.\10\ Still, it should be noted that the applicable FMAP 
under the regular formula would be 83%. As a temporary measure, the new 
allocation has been crucial to maintain the healthcare of the poorest, 
while it has also helped to keep the government finances a float. 
Nonetheless, the Medicaid program premiums in Puerto Rico are still 65% 
lower than the U.S. average (See Chart 3, above). Moreover, there is 
certainly increasing concern about the upcoming scenario when the ACA 
funds run out. The program currently depends on the current annual 
level of Federal funds to support the coverage for over 1.6 million 
citizens. As we emphasize herein below, the ``Medicaid Cliff'' presents 
a situation for the local government finances that could put at risk 
the access to health for hundreds of thousands of beneficiaries and/or 
increase the local government's deficit by another $1 billion or more.
---------------------------------------------------------------------------
    \10\ This includes the $925 million initially allocated for an 
option to start a local health insurance marketplace. Government 
studies concluded that the marketplace was not viable with this fixed 
amount and decided to use the funds in Medicaid.
---------------------------------------------------------------------------

The Health Insurance Providers Fee--A New Incongruence With the ACA

Finally, the uneven applicability of Sec. 9010--health insurance 
provider's fee (``HIT'')--to the Territories is severely impacting the 
situation of healthcare under all segments: Medicare, Medicaid and 
Commercial. Our community has presented several legal analysis to HHS 
and to the U.S. Treasury in relation to our understanding that the 
inapplicability of many ACA provisions tied to new expenditures 
supported by the tax, is also basis for the inapplicability of Sec. 
9010. As recent as July 2014, HHS re-interpreted its initial policy on 
the implementation of several Title I provisions of the ACA to deem 
them inapplicable to Territories. Basically, plans, citizens and 
governments of the Territories are being required to pay the price for 
a product that they are not getting. Puerto Rico is excluded from key 
provisions like the individual and the employer mandates, the 
individual and small group subsidies, and the Federal funding for the 
Medicaid expansion. As reviewed by Federal Courts in recent ACA 
litigation, we understand the ACA is meant to be a coherent package of 
provisions, not a list of independent and unrelated rights and 
obligations. We contend that not re-assessing the applicability of the 
HIT is incongruent with the intent of the ACA, as validated by courts 
in different circumstances. The HIT is costing the PR health system 
about $150 million in 2015 and would increase to annual payments of 
approximately $250 million in the next few years.

General Economic Impact

As part of our efforts to present the urgent situation of Medicare and 
Medicaid in Puerto Rico, we prepared estimates of the current shortfall 
in Federal resources for these programs, assuming a defined parameter 
of would could be an appropriate level of funding. For our exercise, 
the appropriate levels are mostly based on the list of policy proposals 
approved by the Puerto Rico Healthcare Crisis Coalition, which we 
include as the last section of this document. We can submit more detail 
or discuss the estimates with the Committee as requested.

Based on our analysis, the estimated Federal healthcare (Medicare and 
Medicaid) shortfall is approximately $1.9 billion in 2015.\11\ If we 
consider the exclusion of Supplemental Security Income (SSI) as well, 
the shortfall is $3.6 billion. Unless urgent action is taken by 
Congress and by CMS, the projected worse case may occur in 2018-2019 
and would be a shortfall of $3.6 billion (not including SSI), with no 
ACA funds for Medicaid and after the potential additional incremental 
cuts to MA and FFS Medicare based on factors currently legislated or 
still unaddressed by regulation. At the current level, the shortfall 
for healthcare programs have an economic impact of approximately $3.8 
billion in a year, considering direct loss and a multiplier 
(<greek-e>2) for indirect impacts. Healthcare is mostly a local 
economic activity, generating immediate impact on jobs, disposable 
income of beneficiaries and providers, and local government tax 
revenue. In addition, the direct impact to citizens and the economy is 
supported by the new minimum Medical Loss Ratio (MLR) requirements 
(85%), and the fact that currently direct medical services expenses for 
the combined Medicare and Medicaid programs in PR is at around 90%. All 
these factors closely link any shortfall or enhancement in healthcare 
program funding to local economic performance, to benefits, and to 
provider compensation.
---------------------------------------------------------------------------
    \11\ Uses current MA and Mi Salud membership and premiums. The MA 
shortfall is based on the minimum MA rate proposed in the Schumer bill 
and the Medicaid shortfall is based on the use of 83% Federal matching 
percentage instead of the cap and the 55% limit that applies today. No 
projections of increased trends or increases to provider payment levels 
are added, therefore estimates of the shortfall would be higher if 
these factors are incorporated.

With respect to the combined impact of local expenses and lost tax 
revenues, the estimate of the healthcare shortfall impact on the PR 
Government's budget is currently $1.1 billion a year (using 2015). If 
we estimate the impact considering a $3.6 billion shortfall after the 
additional ACA grant for Medicaid runs out, it means $720 million less 
in tax revenue, and an expense to the Puerto Rico Government's budget 
of $1.9 billion.\12\ A $2.6 billion total. The net increase to 
government expenses compared to 2015 would be $1.4 billion in order to 
maintain the current Medicaid program and eligible population if there 
are no legislative and administrative fixes to Medicare Advantage and 
Medicaid urgently.\13\
---------------------------------------------------------------------------
    \12\ For the purposes of these estimates we are simply assuming 
that, given Puerto Rico's current income, corporate and consumption tax 
levels, any Medicare, Medicare Advantage or Medicaid funding change 
creates an impact to government tax revenue equivalent to 20% of the 
change in funding.
    \13\ Considers $800 million increase to cover regular Medicaid and 
a $600 million increase to cover for dual eligible beneficiaries if 
Medicare Platino is not viable under the MA platform.

The relation between economic performance, government finances and 
Medicaid expenditures is increasingly being studied across the nation. 
HHS recently published a summary of recent literature specifically 
describing impacts in the finances of low income citizens, impacts on 
uncompensated care, and impact on the states Gross Domestic Product 
(GDP).\14\ Most of the work has also been reviewed by the Kaiser Family 
Foundation, which concluded that state case studies show savings to the 
local government expenses and revenue gains in relation to increased 
Medicaid expenditures.\15\
---------------------------------------------------------------------------
    \14\ Economic Impact of the Medicaid Expansion. Office of the 
Assistant Secretary for Planning and Evaluation. Department of Health 
and Human Services. March 23, 2015;
    http://aspe.hhs.gov/pdf-document/economic-impact-medicaid-
expansion.
    \15\ Dorn, S., et al. (March 2015). Kaiser Family Foundation and 
Urban Institute (March 2015). The Effects of the Medicaid Expansion on 
State Budgets: An Early Look in Select States. Kaiser Family 
Foundation. Accessed at: http://kff.org/medicaid/issue-brief/the-
effects-of-the-medicaid-expansion-on-state-budgets-an-early-look-in-
select-states/.
---------------------------------------------------------------------------

Healthcare Economic Impact

The healthcare segment in Puerto Rico represents approximately 11% of 
the Gross Domestic Product (GDP) and supports directly from 60,000 to 
80,000 jobs. At the current underfunding levels, legitimate fixes to 
Medicare and Medicaid would not only stop the growing crisis in 
healthcare, but also immediately generate jobs, increases in disposable 
income of the poor, increases in tax revenues and reductions in local 
Government expenses on healthcare. Healthcare expenses are too low for 
Puerto Rico as a community that is part of the U.S. healthcare economy 
and part of the U.S. healthcare programs, as decided for many decades 
by Congress and the Federal Government. It should be noted that, the 
cost of living in Puerto Rico is on average significantly higher than 
in the mainland. This has recently been validated when Puerto Rico was 
included the Cost of Living Index (COLI) of the Council for Community 
and Economic Research \16\ (C2ER) which has shown consistently that PR 
is over 15% costlier than other jurisdictions for the composite index.
---------------------------------------------------------------------------
    \16\  See: http://www.c2er.org/.

Contrastingly, significantly lower compensation in healthcare is part 
of the context for historic levels of migration to the U.S. mainland. 
The Puerto Rico Institute of Statistics just reported that in 2014 
about 84,000 citizens moved to the mainland, resulting in a net 
migration of 64,000. This level of migration is the highest recorded in 
history, and is even higher compared to the exodus of Puerto Ricans to 
the mainland in the 1950s.\17\ More specifically, data from the 
American Community Survey and the PR Community Survey suggests a net 
migration of 12% of the physicians in Puerto Rico moving to the U.S. 
mainland between 2005-2013. The latest figures suggest that over 200 
physicians are migrating from the island annually.
---------------------------------------------------------------------------
    \17\ http://www.estadisticas.gobierno.pr/iepr/
LinkClick.aspx?fileticket=KmY2LP3VLPw%3d&
tabid=39&mid=590.

Moreover, with over 4.5 million Puerto Ricans residing in the mainland, 
the decision for many Medicare and Medicaid to move to Florida, New 
York or Texas, is much easier. At the macro level, the scoring of 
policy adjustments for Puerto Rico, has to include the increased 
Federal expenses related to migration. For example, if a beneficiary 
---------------------------------------------------------------------------
moves from Puerto Rico to Florida, the Federal Government:

      Will pay 65% more for Medicare Advantage beneficiaries, plus the 
LIS as applicable;
      Will pay 100% more for a beneficiary in FFS Medicare;
      Will pay 115% more for a beneficiary in Medicaid.

Saving healthcare programs in Puerto Rico saves money to the Federal 
Government.

Conclusion:

Congressional and Administrative Action for Healthcare Funding is Part 
of the Solution for PR

We ran out of time. Healthcare in Puerto Rico cannot wait. Benefit 
reductions to the poorest, increasing migration, and impacts on the 
economy and the government's financial crisis are already real. 
Moreover, Federal action would actually save money to the Federal 
Government.

We respectfully request the U.S. Senators and staff of the Senate 
Committee on Finance to carefully consider the following basic points:

    1.  There are legitimate legislative and administrative fixes to 
Federal healthcare programs funding that can be part of the immediate 
support to our economy and government finances, while NOT being a 
Federal bailout. Given the cuts in MA that continue to increase, the 
net result of the ACA for beneficiaries in the island is a net loss in 
funding even before 2019.

    2.  Continuing administrative and legislative inaction in relation 
to the imbalances of the Medicare and Medicaid programs in Puerto Rico 
will worsen the crisis in government finances and the Puerto Rico 
economy given significant incremental cuts anticipated in 2016, 2017 
and 2018.

    3.  Not acting on healthcare in Puerto Rico can cost the Federal 
Government more, given that the fixes proposed will still leave the 
island at the lowest level of healthcare expenditure in all the nation. 
Any beneficiary that moves from Puerto Rico to the mainland will 
automatically mean higher Federal expenses of 50% or more.

    4.  Fixing Medicare Advantage, Part D and Medicaid for Puerto Rico 
will have direct impact on beneficiaries' disposable income, on the 
economy through increased consumption, on local government expenditures 
and on tax revenues. Efforts to invest time and funding on other types 
of economic development projects are currently hindered by the 
continuing crisis in healthcare.

    5.  The incongruences and funding disparities in the island are a 
result of decades of partial and uneven implementation of the Medicare 
and Medicaid programs, which has influenced the structure and economics 
of the PR healthcare system in general. In particular, we stress the 
importance of corrections in the Medicare program, for which citizens 
in Puerto Rico pay the same Medicare Tax and the same part B premium as 
residents anywhere else.

    6.  The MA program in Puerto Rico has reported higher improvement 
measures in the part C and part D STAR rating system compared to the 
national average. CMS has noted significant improvement in quality even 
at the lowest levels of cost. This means that fixes for MA and part D 
will work on a highly monitored, measured, and performance improving 
platform. Actually, the most cost-effective healthcare platform in the 
entire U.S.

    7.  Common Ground: Amidst all the complexities and positions about 
the economic situation of Puerto Rico, policy proposals for Federal 
healthcare programs have revealed common ground across political 
parties and segments both in Puerto Rico and in the U.S. We strongly 
urge you to support the proposals listed by the Coalition (See last 
page).

List of Legislative and Administrative Policy Proposals Approved by the 
PR Healthcare Crisis Coalition
September 15, 2015

Legislative Proposals Needed for PR

1.  Urgent Minimum Protection for Beneficiaries in Medicare Advantage 
        With Part D (MAPD), Including Duals--(A) Establish a minimum MA 
        benchmark rate for Territories at 20% lower than the national 
        average Medicare FFS per-capita costs, or at an amount equal to 
        the lowest MA benchmark county among the States and the 
        District of Columbia, whichever is the lowest; and (B) 
        Eliminate the exclusion of the Part D Low Income Subsidy (LIS) 
        for beneficiaries residing in Territories. This would provide 
        part D funding to cover essential benefits for all dual 
        eligible and citizens with incomes below 150% FPL.

2.  Parity for Beneficiaries in the Medicaid Program--(A) Eliminate the 
        total dollar cap on Federal funding, and (B) the Federal 
        Medical Assistance Percentage (FMAP) limit of 55% for citizens 
        residing in Puerto Rico that eligible to Medicaid under the 
        program standards for the rest of the nation.

3.  Eliminate Disparities in Traditional Medicare--In the Part A 
        Inpatient Prospective Payment System (IPPS) Formula, use the 
        regular national costs formula for 100% of the standard 
        operating costs and capital cost components of the DRG base 
        rates for inpatient services. Establish a new wage index floor 
        to avoid increasing disparity.

4.  Medicaid DSH--Extend Medicaid Disproportionate Share Hospital (DSH) 
        payments for Hospitals in Puerto Rico.

5.  Medicare HITECH Funds for hospitals in PR.

6.  Medicare Part B auto-enrollment and waiver of late enrollment 
        penalty.

Administrative Adjustments Needed for PR

1.  Inapplicability of Health Insurance Tax (``HIT'')--The U.S. 
        Treasury and HHS have the authority to deem Sec. 9010 of the 
        ACA inapplicable to the Territories to avoid the current 
        incongruence in the implementation of inter-related provisions 
        of the law.

2.  Part A--Use of Alternative to SSI Days--Establish an alternate 
        indicator of ``Medicare SSI Days'' in the Part A formulas to 
        calculate payment using mainly the ``dual days.''

3.  Adjust MA and Part D Risk Scores and STAR Ratings Based on Socio-
        economic Status (SES) to account for increased challenges for 
        plans that serve a high proportion of dual eligible 
        beneficiaries (similar to national policy proposal) and the 
        additional distinction of the lack part D LIS benefits for 
        citizens residing in the territories.

4.  Appropriate Part B Physician Fees--Make corrections to the Practice 
        Expense GPCI (current is 0.705).

Respectfully,

James P. O'Drobinak                 Dr. Wanda Velez
President                           President
Medicaid and Medicare Advantage     Puerto Rico Medical Association
Association of Puerto Rico (MMAPA)

Dr. Joaquin Vargas                  Alicia Suarez
President,                          Primary Health Association of
PR IPA Association                  Puerto Rico

Lcdo. Jaime Pla-Cortes              Eliot Pacheco
President                           President
PR Hospital Association             Puerto Rico Community Pharmacies
                                    Association

Jose Vazquez-Barquet, Ph.D.         Dennis Rivera
President and Chairman of the Board Chairman
Puerto Rico Chamber of Commerce     PR Healthcare Crisis Coalition

                                 ______
                                 
                    Puerto Rico Hospital Association

               Mr. Jaime Pla-Cortes, Executive President

                         For the Hearing Record

                                 of the

                           Finance Committee

                              U.S. Senate

                               Hearing on

          ``Financial and Economic Challenges in Puerto Rico''

                           September 29, 2015

Contact:

Jaime Pla-Cortes
Executive President
Puerto Rico Hospital Association
Villa Nevarez Professional Center
Suite 101
San Juan, PR 00927
(787) 764-0290

Chairman Hatch, Ranking Member Wyden and distinguished members of the 
Senate Finance Committee, thank you for the opportunity to provide this 
Statement for the Record on behalf of the Puerto Rico Hospital 
Association. Our organization represents the 69 hospitals serving 
approximately 3.6 million U.S. Citizens residing in the U.S. Territory 
of Puerto Rico; a population larger than 20 States. Notably, we are 
particularly proud that not only was our organization founded in 1942 
but we are the home of the America's oldest continuously operated 
hospital: El Hospital La Concepcion of San German, founded in 1524.

We appreciate the interest of the Committee in the current state of 
Puerto Rico's economy as well as the fiscal crisis facing our local 
government and its institutions. Unfortunately, our island's weak 
economy, high level of poverty, record unemployment and troubled 
government finances are contributing to the challenges we face in 
managing a health care system designed to provide the best quality care 
for the U.S. Citizens we serve each and every day.

Frankly, we face a larger challenge as we work to deliver quality 
health care. Our Medicaid funding is capped and our treatment under 
Medicare is significantly less than that received by identical 
stateside hospitals. However, we are expected to deliver the same level 
of quality care for our Citizens and visitors as that provided by our 
sister stateside institutions.

The Government of Puerto Rico is behind in its Medicaid reimbursements 
to the tune of at least $200 million today. Since 43% of our local 
population is living in poverty every one of our member hospitals 
serves Medicaid patients. This combined with our lesser Medicare 
reimbursement levels has put an incredible strain on the operations of 
every hospital. We also note that 40% our hospital services are for 
Medicaid recipients.

We recently surveyed our member hospitals and found that over the past 
12 months almost every institution has been forced to scale back 
operations in some way due to the Government of Puerto Rico's delayed 
Medicaid payments due to the inability to obtain an additional line of 
credit through the Government Development Bank (GOB). This reduction in 
services has resulted in employee cutbacks and reduced hours impacting 
thousands of employees, with many hospitals reducing beds, closing 
floors and eliminating specialized services as well as an additional 
delay in payment of bills and payroll. One hospital is forced to close 
its doors after the local government owned electrical utility announced 
it would cut off its electricity service due to late payment of bills.

The facts show that Puerto Rico's hospital system is in a crisis due to 
the combination of the government's delay in reimbursing its medical 
providers and the secondary treatment our hospitals receive under 
Medicare. We are struggling to maintain our staff and see many of our 
experienced doctors and other health professionals recruited away with 
offers of better compensation by stateside hospitals.

You've noted in your opening statements as well as through comments by 
individual Members during this hearing that you wish to focus on 
solutions that can be enacted under the Finance Committee's 
jurisdiction. While there are many areas in health care where the 
disparity in treatment under Medicare can be identified, my intent with 
this statement is to ask your attention to the initiatives where 
Congress can make a difference in the short term. In fact, each of 
these initiatives addresses a fairness issue resulting from disparate 
treatment of Puerto Rico hospitals. These are our priorities:

     ISSUE #1: MEDICARE'S IPPS SINGLES OUT PUERTO RICO'S HOSPITALS

The federal government reimburses hospitals who admit Medicare patients 
for inpatient care under a system known as the Inpatient Prospective 
Payment System, or IPPS. The IPPS payment is intended to cover the 
costs that a reasonably efficient hospital would incur in furnishing 
high quality care.

The current IPPS results in the federal government reimbursing Puerto 
Rico hospitals that treat Medicare patients a lower amount than 
hospitals in the 50 states and other Territories. Puerto Rico's 
hospitals are not paid the same base rate as identical hospitals in the 
states, resulting in these hospitals receiving lower payments than 
identical hospitals elsewhere receive per discharged patient. This is 
because hospitals in Puerto Rico do not receive a base rate based on 
100% of the national average operating and capital costs associated 
with running a hospital. Instead, they receive a base rate based on 75 
percent. When combined with the disparity in the Medicare Wage Index 
administered by CMS, Puerto Rico hospitals only receive 52% of the 
reimbursement given to identical hospitals elsewhere.

Puerto Rico's hospitals are the only U.S. hospitals treated under the 
IPPS in this fashion. Even the other Territories are not treated this 
way. We ask your support for correcting this disparity when the Senate 
Finance Committee considers appropriate legislation. We believe 
identical hospitals should be treated equally as they work to serve 
Medicare patients, provide quality care and remain financially stable. 
It's a fundamental issue of fairness.

There is no principled basis to treat Puerto Rico hospitals under the 
Medicare IPPS as Puerto Rico residents pay the Medicare payroll tax 
just like their fellow citizens in the 50 states and District of 
Columbia. This disparate treatment significantly hampers Puerto Rico's 
hospitals' goal of providing the highest quality care for almost 3.6 
million U.S. citizens; a population larger than 20 States.

Legislation to address IPPS for Puerto Rico is offered by Senator 
Schumer and other Members of this Committee, as part of a broader 
package of reforms is included in S. 1961. This legislation would 
eliminate this disparity and treat Puerto Rico's hospitals under the 
IPPS the same as identical hospitals elsewhere. This solution has been 
endorsed by both the American Hospital Association and the Puerto Rico 
Hospital Association.

       ISSUE #2: INCLUDE PUERTO RICO HOSPITALS IN THE HITECH ACT

The Health Information Technology for Economic and Clinical Health 
(HITECH) Act was enacted in 2009. The goal of the HITECH Act is to 
advance the design, development and operation of a nationwide health 
information infrastructure that promotes the electronic use and 
exchange of information. Doctors and hospitals are encouraged to use 
electronic health records (EHR), so, patient care is improved, medical 
errors are curtailed and lower health care delivery costs.

To promote the adoption of EHRs, the HITECH Act authorizes bonus 
payments under both Medicare and Medicaid for eligible doctors and 
hospitals that become ``meaningful users'' of certified EHR systems. 
The Medicare incentive program consists of both ``carrots'' and 
``sticks'' in that physicians and hospitals will be penalized if they 
fail to adopt EHR technology by a certain date.

Unfortunately, apparently due to a drafting error, the final HITECH 
legislation omitted Puerto Rico hospitals from the Medicare component 
of the incentive program. The current law makes Puerto Rico physicians 
eligible for both the Medicaid and Medicare payments and Puerto Rico's 
hospitals are eligible for the Medicaid bonus payments, yet our 
hospitals were omitted from the Medicare provision, which is likely 
attributed to the definition of an eligible hospital as a ``subsection 
(d) hospital,'' an acute care hospital located in the 50 states or 
District of Columbia. The proposed amendment would simply add for 
purposes of this Act the inclusion of subsection (d) hospitals in 
Puerto Rico, thus putting Puerto Rico hospitals on parity with those in 
the States.

This inadvertent exclusion significantly hampers Puerto Rico's 
hospitals' efforts to adopt EHR systems putting at stake a vital 
modernization initiative. Unfortunately, only Puerto Rico was excluded 
from the program by a drafting error.

Bi-partisan legislation known as the Puerto Rico Hospital HITECH 
Amendments Act of 2015 to correct this oversight has been introduced in 
the Senate, S. 1602, by Senators Menendez, Nelson and Rubio. Both the 
Puerto Rico Hospital Association and the American Hospital Association 
(AHA) endorsed this fix.

             ISSUE #3: MEDICARE WAGE INDEX LACKS SSI PROXY

As you know the Wage Index takes into consideration a number of factors 
when determining Medicare reimbursements. Unfortunately, the Wage Index 
includes SSI as a factor in the formula even though U.S. Citizens 
living in Puerto Rico are ineligible for SSI. The failure of the CMS to 
substitute a proxy for SSI has penalized Puerto Rico far more than 
Congress intended. We have attempted to work with CMS over the past few 
years to identify and put into use a proxy for SSI in the Wage Index 
for Puerto Rico but so far they have not taken the necessary step. When 
combined with the disparate treatment under the Medicare PPS for Puerto 
Rico this omission results in our hospitals receiving approximately 52% 
of the reimbursement received by an identical Stateside hospital. CMS 
has the administrative authority to make this change and we ask your 
help in convincing them to act promptly.

                  ISSUE #4: THE MEDICAID CLIFF IN 2017

Another issue needing Congress' attention will cause a further shock to 
Puerto Rico's health care system in the coming 2 years is the impending 
``Medicaid Cliff'' involving an allocation of federal funds included in 
the Affordable Care Act to increase the amount of the Federal funds for 
matching against local funds to be used for Medicaid reimbursement. 
This allocation is expected to be exhausted in just 2 years; 2017. Once 
these funds are exhausted, Federal matching funds will drop 
significantly due to the permanent statutory cap on Federal Medicaid 
funding for Puerto Rico.

We also noted during the hearing the comments of one witness who 
justified disparate treatment of Puerto Rico under Medicare with a two 
pointed argument. First, it was said that health care funding levels 
should not be considered as part of an economic development strategy. 
Second, it was noted while workers in Puerto Rico pay taxes into the 
Medicare system, they do not all typically pay Federal income tax. We 
respond by noting that Congress has made it a policy priority to ensure 
access for quality health care for all Americans regardless of whether 
they are rich or poor. If U.S. Citizens do not believe they can obtain 
quality health care in Puerto Rico, they then as U.S. Citizens have the 
right to find that quality health care elsewhere within the United 
States.

We do not ask for a bailout and never have. However, we ask for fair 
treatment and note that equal treatment for all American Citizens is a 
guiding principle for our great Nation. Parity is a fair request.

Mr. Chairman, Ranking Member Wyden and members of the Finance 
Committee, our health care system is in a crisis. We have offered a set 
of priorities and ask to work with you to ensure fair treatment for all 
U.S. Citizens when it comes to health care. These priorities deserve 
prompt action and are solutions within your Committee's jurisdiction 
and we look forward to working with you.

Thank you for the opportunity to share our statement with you.

                                 ______
                                 
                 Puerto Rico Manufacturers Association

               Carlos Rivera Velez, Ph.D., PE, President

                         For the Hearing Record

                                 of the

                           Finance Committee

                              U.S. Senate

                               Hearing on

          ``Financial and Economic Challenges in Puerto Rico''

                           September 29, 2015

Contact:

Carlos Rivera Velez, Ph.D., PE
President
Puerto Rico Manufacturers Association
P.O. Box 195477
San Juan, PR 00919
E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6526372c33203724332029203f25151708044b060a08">[email&#160;protected]</a>
Tel: (787) 641-4455
Fax: (787) 641-2535

Mr. Chairman, Ranking Member Wyden, and distinguished Members of the 
Finance Committee, it is my pleasure to represent the Puerto Rico 
Manufacturers Association as its elected Chairman and share our 
statement with you. The PRMA is one of Puerto Rico's oldest business 
organizations organized in 1928 and representing 1,200 companies in 
America's largest and most important Territory. Our Members make up the 
primary private sector source of local jobs.

In particular, we are concerned about the negative impact proposals 
similar to last Congress' H.R. 1, or the Administration's 2016 Treasury 
Budget proposal would have on Puerto Rico's manufacturing sector. We 
believe these approaches would discourage investment in Puerto Rico and 
accelerate the current loss of manufacturing operations and jobs.

We appreciate the special attention you are giving to the Commonwealth 
of Puerto Rico in today's hearing on the current fiscal and economic 
crisis facing our island of 3.56 million U.S. Citizens. We also urge 
you to consider the importance of the private sector in discussions 
regarding the long term resolution of today's fiscal crisis. It's 
estimated that our manufacturing sector provides one-third of local tax 
revenues and our high wage employees contribute even more in individual 
income taxes.

Puerto Rico is unique because it is the most manufacturing dependent 
jurisdiction in the United States with one-half of its GDP generated by 
our sector. This is the result of the historical approach taken by the 
Congress to utilize Federal tax policy as a tool to address Puerto 
Rico's high poverty levels and create good paying job opportunities for 
our U.S. Citizens. This approach has resulted in the creation of a 
unique manufacturing ecosystem generating 320,000 direct and indirect 
jobs locally. We also note that Puerto Rico and stateside interests are 
directly aligned as partners in the U.S. supply and values chain and 
some economists suggest 80,000 mainland jobs are generated as a result 
of this relationship. The bottom line is that manufacturing jobs in 
Puerto Rico are U.S. jobs.

We've previously noted in the information we've shared with the Finance 
Committee that Puerto Rico was once heavily dependent on low wage 
agricultural employment. Congress then began in the 1920's to provide 
Federal tax policy designed to incentivize U.S. companies to set up 
operations in our U.S. Territory and provide higher wage employment. 
This effort continued with Operation Bootstrap in the 1950s and Section 
936 created in the 1970s. When Section 936 was phased out by Congress, 
most U.S. Corporate subsidiaries converted to Controlled Foreign 
Corporations and today Puerto Rico is the only location in the world 
where controlled foreign corporations (CFCs) employ U.S. Citizens and 
operate under U.S. laws.

Frankly, the Congress' experiment in targeted tax policy was successful 
and today our manufacturing sector has grown to include knowledge-based 
industries such as life sciences, medical device and electronics 
manufacturing. These sectors require a highly skilled workforce and 
manufacturing today provides a typical wage at twice our island's per 
capita income of $19,500.

We also note that Puerto Rico's manufacturing sector is an example of 
21st Century advances and we are working to develop new innovations 
through research in closed loop development areas as well. In fact, 
global statistics today identify Puerto Rico's life sciences sector as 
the fifth largest in the world.

We now face many challenges in the competitive global economy. We 
compete with the lower costs of doing business offered by our regional 
neighbors, such as Costa Rica and the Dominican Republic, for 
investment. We are subject to the Jones Act and all other U.S. business 
mandates and laws while our energy costs are three times the U.S. 
average. Federal tax policy has provided us with a counter to these 
challenges and we note that changes to the Federal tax code could 
result in significant consequences for the long term vitality of Puerto 
Rico's manufacturing sector.

We continue to be concerned as talented and well-educated young people 
and their families move away from Puerto Rico to pursue better economic 
opportunities. Almost 10 percent of our population has left the island 
in the past 10 years, and for the first time in our history we have 
seen a significant net reduction in population as a result of this 
``brain drain.''

As you consider how Congress can best address the current fiscal and 
economic crisis, we ask that you do no harm to our vital manufacturing 
ecosystem upon which Puerto Rico has become so economically dependent 
upon. We appreciate the leadership of the Chairman and Ranking Member 
to foster discussion of a bipartisan strategy and approach to reform of 
the Federal tax code, especially the international tax rules which 
impact our manufacturing sector in Puerto Rico.

We are also grateful for the attention of the Committee and an 
invitation by the Finance Committee's International Tax Working Group 
to make a presentation and discuss how best to position Puerto Rico in 
the future. We continue to urge that the Committee take a position of 
``doing no harm'' by not putting Puerto Rico at a disadvantage compared 
to foreign jurisdictions.

We continue to be concerned about the consequences which our 
manufacturing base could suffer if approaches similar to last Congress' 
H.R. 1, or the Administration's 2016 Treasury Budget proposal were to 
become reality. Frankly, we believe their approaches would discourage 
investment in Puerto Rico and cause a gradual loss of manufacturing 
operations and its job base over time. Should Congress decide that you 
wish to pursue a similar approach to these two proposals we ask for a 
significant, competitive differential in treatment of CFCs employing 
U.S. Citizens in Puerto Rico versus controlled foreign corporations 
operating in foreign jurisdictions.

No one doubts the recognition by the Finance Committee of the 
importance of the manufacturing sector and its role in resolving Puerto 
Rico's current fiscal crisis. We seek to work with you in developing an 
approach to tax reform that results in policy that is pro-growth and 
best positions Puerto Rico manufacturing in a competitive position in 
today's global economy.

We also recognize that tax policy is just one key tool that your 
Committee may consider to provide short as well as long term solutions 
to our current fiscal and economic challenges. We look forward to 
collaborating with you to find positive solutions for the challenges 
faced by Puerto Rico today.
Again, thank you for the opportunity to provide our statement towards 
today's hearing.

Carlos Rivera-Velez, Ph.D.

                                 ______
                                 
                  Statement of Miriam J. Ramirez, M.D.

                    Former Puerto Rico State Senator

      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7077787c732c5d7a707c7471337e7270">[email&#160;protected]</a>                            THE MJR REPORT
      C: 787-567-1333

TESTIMONY FOR THE RECORD
SENATE FINANCE COMMITTEE
HEARINGS ON PUERTO RICO--SEPTEMBER 29, 2015

Honorable Senator Hatch, Senator Wyden, and members of the committee: 
My name is Miriam Ramirez, I am a medical doctor, former Senator of the 
New Progressive Party in Puerto Rico, and founder of a non-partisan 
grassroots movement, called Puerto Ricans in Civic Action, which 
gathered more than 350,000 individually signed petitions for statehood 
and delivered them to Congress in the 1980s.

In my testimony at a House Hearing, on May 22, 1986, when Congressman 
Morris Udall was the Chairman, I identified our lack of full rights as 
U.S. citizens as the fundamental reason for the poor economic 
performance of Puerto Rico, compared to other states. Today I want to 
focus my testimony on the negative consequences of the federal tax 
regime that has kept Puerto Rico labeled as a ``foreign'' jurisdiction 
for almost a century.

In 1996 after Section 936 was eliminated, the former Section 936 firms 
used Puerto Rico's ``foreign'' tax status and converted to Controlled 
Foreign Corporations (CFCs). However, the CFCs in Puerto Rico are not 
obligated to create local jobs or to generate any real investments in 
order to benefit from the federal tax deferral. Using transfer pricing 
abuses, the CFCs in the Island are causing the U.S. Treasury to lose 
billions in federal tax revenue without creating jobs and investment in 
the Island. The Senate Permanent Subcommittee on Investigations 
identified one company in Puerto Rico that benefitted from a tax 
savings of $22 million per employee, but yet only generated 177 jobs.

Also, to exploit this special federal tax status, the supposed pro-
statehood administration of former Governor Fortuno adopted two laws in 
2012. Act 20 and Act 22 entice millionaires who reside in the 50 states 
to locate to Puerto Rico by taxing their corporate profits from 
exported services at a flat 4% rate and allowing those profits to be 
paid out to these owners free of Puerto Rico income tax. Thus, the CFC 
regime in Puerto Rico has become a significant drain of tax revenue and 
a formidable opponent of statehood for Puerto Rico. Keeping Puerto Rico 
as a ``foreign'' country inside the United States undermines the U.S. 
federal tax base and creates unfair competition against local 
communities in the 50 states. But the truth is that Puerto Rio is 
governed by the CFC REGIME and the economic power of super billionaires 
who since Law 22 of 2012 can relocate to Puerto Rico without paying 
state or federal taxes.

But that is not the only damage they do . . . they have the most 
powerful Public Relations army in the World, ready to lobby and fight 
against anything that endangers this outrageous tax evasion scam to the 
U.S. and the U.S. Taxpayer. Their worst concern is that Puerto Rico may 
become a state of the Union. They are ruthless in their attacks when 
they feel threatened with that possibility and will destroy or attempt 
to destroy anything or anyone that even remotely attempts to help the 
U.S. citizens of Puerto Rico gain full citizen rights. The CFCs are 
effectively in control of our major political parties and their 
governing agenda. Whenever the people put pressure for a process of 
self determination, millions of dollars appear out of nowhere to 
campaign against statehood, since it will be the death knoll for the 
CFC scam.

It is for this reason that it is impossible to fight against the CFCs 
if we want to achieve statehood in Puerto Rico. We have to make the 
CFCs part of the political status solution. Mr. Chairman, I propose 
that a statehood bill, with the defined terms of admission and a 20 
year transition period for maintaining the CFC's in Puerto Rico, come 
out of your Committee. There is a precedent for previous statehood 
bills to include temporary tax benefits, and a transition period was 
included in the Senate Bill 712 in 1990.

Thank you very much.

Miriam J. Ramirez

                                 ______
                                 
                      Statement of Jorge A. Rivera

             11016 Lakeside Vista Dr., Riverview, FL 33569

                   813-951-6117/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8e2e9fac1decddac99c9ac4e8d1c9c0c7c786cbc7c5">[email&#160;protected]</a>

   http://puertorico51ststate.us/  http://www.VetsIDcardservices.com

                                                 September 28, 2015
The Honorable Orrin G. Hatch
Chairman
Committee on Finance
United States Senate
219 Dirksen Senate Office Building
Washington, DC 20510

Dear Senator Hatch:

Tuesday, September 29, 2015 you will hear from Puerto Rico politicians 
and others, their reasoning as to why Puerto Rico is in the fiscal 
condition it is. These will be some excuses and even some lies just to 
justify their point of view.

You, as well as they, do know what the basic problem for the island's 
mismanagement is. Under the present Territorial status, the Government 
of Puerto Rico has its hands tied behind its back and depends totally 
on the U.S. Congress's whims to try to economically develop the island.

The Territorial status is the culprit. You, on October 1, 2013 and then 
on December of the same year did confirm your request for the parties, 
PPD, PNP and the PIP to DEFINE their status definition and to send it 
to the Department of Justice for verification that they were NON-
Territorial and Constitutional.

The Statehood and Independence definition, in reality are not an issue. 
Everyone knows what they are and the only thing to negotiate would be 
the transitional period to whichever status the people preferred. Now, 
the PPD (the party today in Government) definition is something else.

You see they want to have most of the Independence rights, things none 
of the 50 States of the Union can now have, keep the U.S. citizenship, 
and still stay within the umbrella of the U.S. Constitution. They call 
it the ``Enhanced Commonwealth.''

They know it is unconstitutional but, they also know that if they take 
out the U.S. Citizenship from their definition, the party will loose 
over 50% of its members to Statehood.

For this simple reason YOU WILL NEVER see a definition of the Non-
Territorial and Constitutional Commonwealth (ELA) coming from the 
Popular Democratic Party of Puerto Rico (PPD).

This is what is holding Puerto Rico back. I know that you will do 
whatever the people want, or so you have said, but, how do we break 
this standstill because the PPD will never admit to a Commonwealth 
without the U.S. Citizenship. You must remember they control 48% of the 
electorate.

Jorge A Rivera
Riverview, FL

PD: to see their nonofficial definitions of their Enhanced Commonwealth 
please visit my page, http://puertorico51ststate.us/docs-page.html.

Specifically read ``La Nueva Tesis,'' ``Pacto de Asociacion,'' ``Pacto 
de Futuro,'' and ``Definicion del ELA Soberano.'' And yes these are 
definitions of a Free Association only that they have added the U.S. 
Citizenship and the protection of the Constitution.

                                 [all]
                                 
                                 
                                 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
